<html>
<title> - MONITORING, MEASUREMENT, AND VERIFICATION OF GREENHOUSE GAS EMISSIONS, PARTS I AND II</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
               MONITORING, MEASUREMENT, AND VERIFICATION
                      OF GREENHOUSE GAS EMISSIONS,
                             PARTS I AND II

=======================================================================

                                HEARINGS

                               BEFORE THE

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 24, 2009
                                  and
                             APRIL 22, 2009

                               __________

                            Serial No. 111-3
                                  and
                           Serial No. 111-18

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
47-612                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                  HON. BRIAN BAIRD, Washington, Chair
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
EDDIE BERNICE JOHNSON, Texas         ROSCOE G. BARTLETT, Maryland
LYNN C. WOOLSEY, California          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
DONNA F. EDWARDS, Maryland           RANDY NEUGEBAUER, Texas
BEN R. LUJAN, New Mexico             MARIO DIAZ-BALART, Florida
PAUL D. TONKO, New York                  
JIM MATHESON, Utah                       
LINCOLN DAVIS, Tennessee                 
BEN CHANDLER, Kentucky                   
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            CHRIS KING Democratic Professional Staff Member
        MICHELLE DALLAFIOR Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
      ELAINE PAULIONIS PHELEN Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
          ELIZABETH STACK Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                    STACEY STEEP Research Assistant


                            C O N T E N T S

    How Do We Know What We Are Emitting? Monitoring, Reporting, and 
                   Verifying Greenhouse Gas Emissions

                           February 24, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chair, Subcommittee on 
  Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     6
    Written Statement............................................     7

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     7
    Written Statement............................................     9

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     9

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Energy and Environment, Committee on 
  Science and Technology, U.S. House of Representatives..........     9

                               Witnesses:

Mr. John B. Stephenson, Director, Natural Resources and 
  Environment, U.S. Government Accountability Office
    Oral Statement...............................................    10
    Written Statement............................................    12
    Biography....................................................    17

Ms. Jill E. Gravender, Vice President for Policy, The Climate 
  Registry
    Oral Statement...............................................    18
    Written Statement............................................    21
    Biography....................................................    35

Ms. Leslie C. Wong, Director, Greenhouse Gas Programs, Waste 
  Management, Inc.
    Oral Statement...............................................    35
    Written Statement............................................    37
    Biography....................................................    41

Mr. Rob Ellis, Greenhouse Gas Program Manager, Advanced Waste 
  Management Systems, Inc. (AWMS)
    Oral Statement...............................................    41
    Written Statement............................................    43
    Biography....................................................    46

Discussion.......................................................    47

  Upstream vs Downstream Analysis and Monitoring.................    47
  International Agreement on Monitoring..........................    48
  Carbon Taxes...................................................    49
  More on Monitoring Standards...................................    51
  Coordinating Agencies and States...............................    51
  Methane and Water Vapor........................................    52
  Carbon Monitoring and trade Registry...........................    55
  Lief Cycle Pricing.............................................    56
  Preventing Carbon Market Manipulation..........................    57
  Voluntary and Mandatory Standards and Reporting................    60
  Informing the Public...........................................    62
  International Carbon Control...................................    63
  Closing........................................................    64

              Appendix: Answers to Post-Hearing Questions

Mr. John B. Stephenson, Director, Natural Resources and 
  Environment, U.S. Government Accountability Office.............    66

Ms. Jill E. Gravender, Vice President for Policy, The Climate 
  Registry.......................................................    70

Ms. Leslie C. Wong, Director, Greenhouse Gas Programs, Waste 
  Management, Inc................................................    76

Mr. Rob Ellis, Greenhouse Gas Program Manager, Advanced Waste 
  Management Systems, Inc. (AWMS)................................    82

 Monitoring, Measurement, and Verification of Greenhouse Gas Emissions 
 II: The Role of Federal and Academic Research and Monitoring Programs

                             April 22, 2009

                                                                   Page
Witness List.....................................................    86

Hearing Charter..................................................    87

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    95
    Written Statement............................................    96

Statement by Representative Ralph M. Hall, Ranking Minority 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    96
    Written Statement............................................    98

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    98

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    99

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    99

                               Witnesses:

Dr. Alexander E. ``Sandy'' MacDonald, Deputy Assistant 
  Administrator for Laboratories and Cooperative Institutes, 
  Office of Oceanic and Atmospheric Research, National Oceanic 
  and Atmospheric Administration, U.S. Department of Commerce
    Oral Statement...............................................   101
    Written Statement............................................   102
    Biography....................................................   110

Dr. Beverly Law, Professor, Department of Forest Ecosystems and 
  Society; Science Chair, AmeriFlux Network, Oregon State 
  University
    Oral Statement...............................................   111
    Written Statement............................................   112
    Biography....................................................   117

Dr. Richard A. Birdsey, Project Leader and Scientist, USDA Forest 
  Service; Chair, Carbon Cycle Scientific Steering Group
    Oral Statement...............................................   118
    Written Statement............................................   119
    Biography....................................................   126

Dr. Michael H. Freilich, Director, Earth Science Division, 
  Science Mission Directorate, National Aeronautics and Space 
  Administration (NASA)
    Oral Statement...............................................   126
    Written Statement............................................   128
    Biography....................................................   134

Ms. Dina Kruger, Director, Climate Change Division, Office of 
  Atmospheric Programs, Environmental Protection Agency
    Oral Statement...............................................   134
    Written Statement............................................   136
    Biography....................................................   140

Dr. Patrick D. Gallagher, Deputy Director, National Institute of 
  Standards and Technology, U.S. Department of Commerce
    Oral Statement...............................................   140
    Written Statement............................................   142
    Biography....................................................   146

Dr. Albert J. Heber, Professor, Agricultural and Biological 
  Engineering Department, Purdue University
    Oral Statement...............................................   146
    Written Statement............................................   147
    Biography....................................................   175

Discussion.......................................................   175
  Climate Modeling Programs......................................   175
  Remote Sensing Data and Standards Coordination.................   176
  Monitoring Resources...........................................   178
  Regulating Carbon Credit Sources...............................   179
  Baselines and Inventories......................................   180
  Skeptical Arguments............................................   182
  The Effects of Forest Degradation..............................   186
  Gaps in the National Observation Network.......................   187
  More on Skeptical Arguments....................................   188
  Greenhouse Gas Measurement.....................................   189
  Measuring in Second and Third World Nations....................   191
  Forestry and Ocean Acidification Issues........................   192
  Coordinating Data Collection...................................   194
  Economic Considerations........................................   196
  The Human Contribution of Greenhouse Gases.....................   199
  Closing........................................................   201

              Appendix: Answers to Post-Hearing Questions

Dr. Alexander E. ``Sandy'' MacDonald, Deputy Assistant 
  Administrator for Laboratories and Cooperative Institutes, 
  Office of Oceanic and Atmospheric Research, National Oceanic 
  and Atmospheric Administration, U.S. Department of Commerce....   204

Dr. Beverly Law, Professor, Department of Forest Ecosystems and 
  Society; Science Chair, AmeriFlux Network, Oregon State 
  University.....................................................   212

Dr. Richard A. Birdsey, Project Leader and Scientist, USDA Forest 
  Service; Chair, Carbon Cycle Scientific Steering Group.........   214

Dr. Michael H. Freilich, Director, Earth Science Division, 
  Science Mission Directorate, National Aeronautics and Space 
  Administration (NASA)..........................................   217

Ms. Dina Kruger, Director, Climate Change Division, Office of 
  Atmospheric Programs, Environmental Protection Agency..........   221

Dr. Patrick D. Gallagher, Deputy Director, National Institute of 
  Standards and Technology, U.S. Department of Commerce..........   224

Dr. Albert J. Heber, Professor, Agricultural and Biological 
  Engineering Department, Purdue University......................   227


    HOW DO WE KNOW WHAT WE ARE EMITTING? MONITORING, REPORTING, AND 
                   VERIFYING GREENHOUSE GAS EMISSIONS

                              ----------                              


                       TUESDAY, FEBRUARY 24, 2009

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chair of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                          How Do We Know What

                      We Are Emitting? Monitoring,

                        Reporting, and Verifying

                        Greenhouse Gas Emissions

                       tuesday, february 24, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On February 24, 2009, the House Committee on Science and 
Technology, Subcommittee on Energy and Environment will hold a hearing 
entitled ``How Do We Know What We Are Emitting? Monitoring, Reporting, 
and Verifying Greenhouse Gas Emissions.'' The purpose of the hearing is 
to determine the federal role in supporting research and development of 
monitoring technologies, emissions factors, models, and other tools 
necessary to support reliable accounting of baseline greenhouse gas 
emissions and changes in emissions relative to the baseline under a 
regulatory program for greenhouse gases.
    The Subcommittee will receive testimony on the procedures and 
methods used to monitor, report, and verify greenhouse gas (GHG) 
emissions from businesses, government agencies, and localities and to 
identify the challenges associated with accounting for emissions 
associated with different activities. The Subcommittee will also 
receive testimony on whether opportunities exist to improve the 
technologies, models, or other methods used to track greenhouse gases.

Witnesses

        <bullet>  Mr. John Stephenson, Director, Natural Resources and 
        Environment, Government Accountability Office. Mr. Stephenson 
        will discuss the systems designed to track greenhouse gas 
        emissions from businesses and government agencies and the 
        strengths and limitations of the information provided by 
        existing greenhouse gas emission registries and the use of this 
        information in a GHG regulatory system.

        <bullet>  Ms. Jill Gravender, Vice President for Policy, The 
        Climate Registry. The Climate Registry is a nonprofit 
        organization that establishes standards for businesses and 
        governments to calculate, verify, and publicly report 
        greenhouse gas emissions into a single registry. Ms. Gravender 
        will discuss the general approach The Climate Registry has 
        taken to develop protocols that both bring consistency to 
        emissions reporting and provide assurance that the values 
        reported by members are robust.

        <bullet>  Ms. Leslie Wong, Director of Greenhouse Gas Programs, 
        Waste Management, Inc. Ms. Wong will discuss Waste Management's 
        efforts to develop a corporate-wide greenhouse gas emission 
        inventory and the company's participation in the California 
        Climate Action Registry, the Western Climate Initiative, and 
        the Chicago Climate Exchange.

        <bullet>  Mr. Rob Ellis, Greenhouse Gas Program Manager, 
        Advanced Waste Management Systems, Inc. Mr. Ellis will discuss 
        Advanced Waste Management Systems' role in verifying the 
        information reported to greenhouse gas registries, such as The 
        Climate Registry.

Background

    In order to develop a framework to address greenhouse gas (GHG) 
emissions, it is essential to have a credible system for monitoring, 
reporting, and verifying GHG emissions. Accurate accounting of 
emissions is used to project changes in the concentration of GHGs in 
the atmosphere (inventories) and to determine emission contributions 
from specific sources (registries). Inventories of GHGs provide 
information about the net emissions within political or geographic 
boundaries (states, nations or continents) or within economic sectors 
containing many individual entities (e.g., transportation, 
manufacturing, power generation). GHG registries provide information 
about the emissions from specific entities within sectors (e.g., 
individual companies, towns, or universities) or the emissions 
associated with specific projects (e.g., under the Clean Development 
Mechanism of the Kyoto Protocol). This hearing will concentrate on 
information reported to GHG registries.
    Measurement, reporting and verification are the backbone of a cap-
and-trade or any other GHG control scheme. In a cap and trade system, 
permits to emit GHG's are considered commodities and their price is 
established by trading these commodities on the GHG market. Incorrect 
emissions data can undermine a program's legitimacy and effectiveness. 
Also, determination of the baseline emissions is essential to defining 
the emissions cap and to allocating allowances under a cap and trade 
system. A successful market-based GHG control scheme will need a fair, 
robust, and accurate monitoring, reporting, and verifying system, 
thereby ensuring that emissions reductions have, in fact, occurred.

Measuring Greenhouse Gas Emissions
    Greenhouse gas emissions can be quantified by measuring emissions 
of greenhouse gases\1\ directly or by estimating emissions using other 
information such as fossil fuel combustion. Estimation is used more 
often than direct measurement and is the principle means used to 
support the European Union's Emissions Trading Scheme (ETS). Emissions 
are calculated by multiplying measurable activities such as fuel usage, 
with an emissions factor which is a numerical constant that links 
estimated emissions to a measurable activity that causes the emissions 
to occur.\2\
---------------------------------------------------------------------------
    \1\ The six greenhouse gases are: Carbon dioxide (CO<INF>2</INF>), 
methane (CH<INF>4</INF>), nitrous oxide (N<INF>2</INF>O), 
hydrofluorocarbons (HFCs), perfluorocarbons (PFCs), and sulfur 
hexafluoride (SF<INF>6</INF>).
    \2\ Office of Policy and International Affairs, United States 
Department of Energy. Technical Guidelines: Voluntary Reporting of 
Greenhouse Gases (1605(b) ) Program. January 2007.
---------------------------------------------------------------------------
    Emissions levels may also be quantified through mass balance 
calculations. For example, if two kilograms of the greenhouse gas HFC-
134a was injected into an automobile air conditioner and years later 
the remaining kilogram is removed, then one can assume that the other 
kilogram was emitted into the atmosphere.\3\
---------------------------------------------------------------------------
    \3\ Office of Policy and International Affairs, United States 
Department of Energy. Technical Guidelines: Voluntary Reporting of 
Greenhouse Gases (1605(b) ) Program. January 2007.
---------------------------------------------------------------------------
    Emissions can be directly measured. On type of measurement device 
is a continuous emissions monitor (CEM). CEMs are rare in the European 
Union, but in the United States they are used to monitor carbon dioxide 
(CO<INF>2</INF>), sulfur and nitrogen oxide emissions for entities 
regulated under the acid rain program of Title IV of the Clean Air Act. 
CEMs continuously monitor the flue gas emitted from coal, oil, and 
natural gas power generating units (over 25 MW) and some large 
manufacturing facilities. While the Clean Air Act does not currently 
regulate CO<INF>2</INF>, the reporting provision has given utilities 
and other combustion sources experience in monitoring CO<INF>2</INF> 
emissions and a baseline of information on CO<INF>2</INF> emissions.

Reporting Greenhouse Gas Emissions
    The information provided by different registries varies with 
respect to the gases monitored, the time period for reporting, the 
specific reporting protocols, and the data verification required of 
participants in the registry. For each registry the goal is to ensure 
that all entities are able to produce consistent and robust emissions 
data that will enable comparisons to be made from one reporting period 
to the next.
    In the United States, there are several GHG registries that support 
reporting requirements for State and regional programs. At the federal 
level, there are currently two voluntary reporting programs, The 
Environmental Protection Agency's (EPA's) Climate Leaders Program and 
the Department of Energy's Voluntary Reporting of Greenhouse Gases 
Program or the 1605(b) program. EPA is expected to issue a notice of 
proposed rule-making for a mandatory GHG reporting program very soon.
    Over the past few years, states and regions have established 
policies to qualify and control GHGs. The California Climate Action 
Registry (CCAR) tracks emissions associated with specific entities and 
activities in California, and The Climate Registry compiles information 
on annual emissions from each member of the registry. Participation in 
The Climate Registry is voluntary, and The Registry has members 
throughout North America. The Chicago Climate Exchange (CCX) a GHG 
emissions trading market also provides a framework for reporting 
emissions from entities participating in the Exchange to its registry.

Verifying Greenhouse Gas Emissions
    In order to ensure consistency and quality of reported emissions 
information, a GHG registry will often require third-party verification 
of the reported emissions. During a verification audit, the verifier 
will check that the proper procedures, emissions inputs, use of 
emissions factors, etc., adhere to the registry's guidelines.
    Verifiers themselves are accredited by the American National 
Standards Institute (ANSI). ANSI evaluates verifiers by assessing 
whether they have the technical expertise to perform verifications, are 
knowledgeable about monitoring, reporting, and verification protocols, 
including the international standard (ISO 14065) and the protocols of 
the specific registries they will work with.
    Chair Baird. Good morning and thank you all for joining us. 
I especially want to welcome the students who are here. This is 
the senior class from Herndon, Virginia, do I understand? 
Welcome to our Science and Technology Subcommittee hearing, and 
we are glad you are all here. Make yourself at home. We will 
fit these kids in so they can see a little bit of this hearing 
because it is on a topic I think is of great importance to 
their future. I am particularly pleased to be able to chair 
this subcommittee and excited to be able to work with Mr. 
Inglis who is a good friend and with whom I have had the 
privilege of traveling to look at some of the effects of 
climate change.
    By the way, Bob, my take, and you will hear this a lot on 
this committee this year, is I am no longer going to refer to 
what we are talking about as climate change because it is 
actually in my judgment lethal overheating of the planet and 
acidification of our oceans. You will hear this a lot from me, 
but climate change sounds nice. Change you can believe in just 
helped elect the President, and global warming sounds like a 
good thing. We like to be warm. But I hate to be overheated, 
and acidification of the ocean is actually also happening. I 
raised that, and actually we have the sad news today, 
apparently a rocket malfunctioned carrying a carbon-observing 
satellite and caused that satellite to go into the ocean 
instead of space earlier this morning. It was a big setback for 
us scientifically. The other side, maybe the satellite knows 
something we don't, and it realizes that part of the carbon 
problem is in the ocean and we need to spend more attention 
there. That is looking on the bright side. Of course, it will 
be worthless to us there.
    This is an important hearing, and it is going to give us an 
opportunity to examine the quality of the information being 
collected on the emission of greenhouse gases. A number of 
states have established programs to address climate change, 
lethal overheating, and to reduce their greenhouse gas 
emissions. Over 130 nations will meet in Copenhagen, Denmark 
this coming December. This is an incredibly important meeting 
to negotiate a new agreement to control greenhouse gas 
emissions. Members of the U.S. House of Representatives and the 
Senate have stated their intention to develop legislation to 
regulate greenhouse gases. And the Environmental Protection 
Agency is planning to release a federal register notice soon to 
establish a mandatory greenhouse gas reporting system.
    However, in order to evaluate programs, either mandatory or 
voluntary, for controlling greenhouse gases, we must be able to 
track emissions accurately. We need an accurate measurement of 
baseline emissions. We need to know the emissions levels we are 
starting from, and we need a good baseline estimate as a 
benchmark to determine whether control programs are effective 
or not in reducing emissions.
    We have experience and technologies to monitor emissions 
from utilities that we gained through the acid rain program 
under Title IV of the Clean Air Act. However, there are many 
more entities that need to be monitored under a greenhouse, 
ocean acidification gas control program and some of these 
organizations have to initiate new programs to track emissions 
accurately.
    If we are going to develop a program to control greenhouse 
and ocean acidification gas emissions, we need to start 
developing tools that will enable regulated entities to track 
their emissions using methods that are accurate and that are 
not overly burdensome.
    We have an excellent panel of witnesses today here to tell 
us about how this could work. All of our witnesses bring 
extraordinary expertise. I look forward to their testimony and 
to their recommendations on how we can ensure that information 
on greenhouse and ocean acidification gas emissions provides a 
reliable measure of emission sources and of the effectiveness 
of policies we may put in place to control the emissions.
    [The prepared statement of Chair Baird follows:]
                Prepared Statement of Chair Brian Baird
    Good morning and welcome to the first hearing of the Subcommittee 
on Energy and Environment in the 111th Congress. I am looking forward 
to working with all of you over the next two years.
    This morning's hearing provides us with an opportunity to examine 
the quality of the information that is being collected on the emissions 
of greenhouse gases. A number of states have established programs to 
address climate change and to reduce their greenhouse gas emissions. 
Over 130 nations will meet in Copenhagen, Denmark this coming December 
to negotiate a new agreement to control greenhouse gas emissions. 
Members of the U.S. House of Representatives and the U.S. Senate have 
stated their intention to develop legislation to regulate greenhouse 
gases. And, the Environmental Protection Agency is planning to release 
a Federal Register notice soon to establish a mandatory greenhouse gas 
reporting system.
    In order to evaluate programs--either mandatory or voluntary--for 
controlling greenhouse gases, we must be able to track emissions 
accurately. We need an accurate measurement of baseline emissions. We 
need to know the emissions levels we are starting from and we need a 
good baseline estimate as a benchmark to determine whether control 
programs are effective or not in reducing emissions.
    We have experience and technologies to monitor emissions from 
utilities that we gained through the acid rain program under Title IV 
of the Clean Air Act. However, there are many more entities that need 
to be monitored under a greenhouse gas control program and some of 
these organizations have to initiate new programs to track their 
emissions accurately.
    If we are going to develop a program to control greenhouse gas 
emissions, we need to start developing tools that will enable regulated 
entities to track their emissions using methods that are accurate and 
that are not overly burdensome.
    We have an excellent panel of witnesses with us here this morning 
whose experience encompasses all three aspects of our hearing topic 
today. I look forward to their testimony and to their recommendations 
on how we can ensure that information on greenhouse gas emissions 
provides a reliable measure of emission sources and of the 
effectiveness of the policies we put in place to control these 
emissions.

    Chair Baird. With that, I would recognize my friend and 
colleague, Mr. Inglis, for his opening statement.
    Mr. Inglis. Thank you, Mr. Chairman, and first of all, let 
me congratulate you on having the gavel in this committee. For 
those of you who don't know, Dr. Brian Baird is really quite an 
expert on the topics he was just speaking about and has taught 
me a great deal. And I think it really is a great thing to have 
you in the chair, and we look forward to working with you in a 
collaborative fashion. You know, my view is that compromise is 
not really what we want. That is a zero-sum game where somebody 
has won and somebody else has papered over a loss. 
Collaboration is where you draw the strengths from both 
parties, and you figure out how to use those strengths to 
produce something better than either party acting alone could 
produce. And so that is the spirit that I think that Chairman 
Baird brings to this committee and one that I also want to make 
evident here.
    And so I am excited about this first hearing in this 
committee because I am hoping the panel, Mr. Chairman, is going 
to help with an idea that we are working on in my office that I 
have mentioned to you. It has to do with a revenue-neutral 
carbon tax as perhaps a better idea than a cap-and-trade 
system. Two problems with cap-and-trade, one is a massive tax 
increase. Second, it has the vicissitudes of the prices of the 
credits going up and down, up and down, traded by Wall Street 
traders. I don't think that sounds too good in today's 
environment. But a revenue-neutral carbon tax, transparent so 
that we can see what the tax is, and revenue-neutral, which 
starts with an equal, offsetting tax reduction--the payroll 
tax--means that technology then has a source of funding. Reduce 
the payroll tax and impose a price on carbon and now people 
have money in their pocket to afford the new technology and to 
drive into the energy market the kind of transformational 
change that we saw with the Internet and the PC. What Microsoft 
and Apple did for the Internet and the PC, I think the revenue-
neutral carbon tax can do for energy. It can make it so that 
entrepreneurs and inventors get married at a certain point on 
that line of that transparent carbon tax because there will be 
clear price signals as to when they should marry and when they 
should take out the incumbent technology.
    So the reason that this hearing is relevant to that is that 
we are also trying to figure out a way to make that so that it 
does not punish American manufacturing, and the key to that is 
perhaps a WTO compliant, and we are struggling to get it WTO 
compliant but I think we can get there, border adjustment so 
that when products come in from overseas, we are happy to have 
them. It is just that we want to apply the same tax that we 
have applied domestically to those imported goods. And one of 
the key challenges there is figuring out how do you make that 
fair adjustment. And if you can tell me some scientific way 
that we can judge the carbon output, or I should say carbon 
input, into those products that are being imported, and 
particularly if it is something mathematical, some easy way of 
doing that--of course that easy part may be a little bit 
difficult--but if there was some way to project what is the 
carbon footprint of imported goods and then apply it equally to 
domestically produced goods so that then you really are looking 
at the spirit of WTO compliance, and perhaps we can work it 
into technical compliance as well with WTO rules.
    So I am excited about this hearing because I am hoping you 
have some insights into that and how this monitoring might--
that the measuring devices that you are talking about may help 
us as we try to figure out a way to measure the carbon 
footprint of goods produced and imported here. It is a key part 
of this revenue-neutral carbon tax concept. It is also one of 
the more complicated parts of it because the last thing we want 
is to have American manufacturing subject to this and say the 
developing world exempt from it. That results simply in the 
export of American manufacturing capacity, and that is why 
Kyoto failed 96 to nothing in the U.S. Senate.
    So we can improve on that if we collaborate, and I am happy 
to be next to my friend, Dr. Baird, here on the Committee and 
hope that we can collaborate and look forward to learning from 
this panel today, Mr. Chairman.
    [The prepared statement of Mr. Inglis follows:]
            Prepared Statement of Representative Bob Inglis
    Thank you for holding this, the first Energy and Environment 
Subcommittee hearing of the 111th Congress, Mr. Chairman. This 
committee has a long-standing reputation for bipartisanship and 
cooperation, and I look forward to carrying on that tradition with you 
in this subcommittee.
    Last summer, the cap and trade bill withered in the Senate. By 
itself, cap and trade is a massive tax increase. That's not such a good 
idea in the midst of this economic downturn.
    A better solution is to put a price on carbon, and give the 
consumer a way to pay for it. All it will take is a simple carbon tax 
coupled with an equal, offsetting reduction in payroll taxes. We need 
to impose a tax on the thing we want less of (carbon dioxide) and 
reduce taxes on the things we want more of (income and jobs).
    Improving our ability to monitor emissions will help us push 
industry, utilities, and manufacturers, to finally internalize the 
external costs of carbon emissions. A carbon tax would attach the 
national security and environmental costs to carbon-based fuels like 
oil, and cause the market to recognize the price of these negative 
externalities. That, in turn, can lead us to improve our efficiency in 
energy and manufacturing production, create new jobs in a competitive 
clean energy market, and reduce our dependence on foreign oil.
    I'm excited about this hearing, because it gives us a glimpse of 
the tremendous opportunity we have as a country to jump-start a new 
energy economy. I'm eager to hear from our witnesses today, and would 
invite their thoughts on how to monitor and verify emissions in 
international countries like China and India.
    Thank you again for holding this hearing, Mr. Chairman.

    Chair Baird. Thank you, Mr. Inglis, for your comments. If 
there are other Members of the Committee who want to submit 
additional opening statements, your statements will be added to 
the record at this point.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Thank you, Mr. Chairman, for calling this hearing today and thank 
you to our panelists for their testimony.
    The issue of regulating Greenhouse Gasses (GHGs) is particularly 
timely as Congress begins to consider wide-sweeping climate change 
legislation during the 111th session. To ensure the success of a cap 
and trade system, permits for GHGs must be accurately reported and 
assigned a fair price in order to establish a functioning market. 
Incorrect emissions data can undermine a program's legitimacy and 
effectiveness.
    As we all know, climate change is not just a phenomenon unique to 
the United States, it is a global problem. It is integral that our own 
system of calculating and reporting emissions be established and 
precise, not only to ensure its success, but also to effectively 
coordinate the framework and structure with other international 
standards.
    Many energy industries in the U.S. and around the world are in 
flux-waiting, relying on Congress to address the incredibly important 
policy issue of global warming. It is imperative that the measurements 
and standards upon which we base our policies are thoughtfully 
considered and accurate. I believe this hearing is a step towards that 
end.
    Thank you, Mr. Chairman for my time and I look forward to hearing 
from the panel.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Good morning, Mr. Chairman and Ranking Member.
    For any policy regarding cap and trade of greenhouse gas emissions, 
we must have good information on how to measure these emissions.
    Measurement, reporting, and verification truly are the backbone of 
a cap and trade or any other greenhouse gas control scheme.
    In addition, we need to be able to determine baseline emissions, so 
that we can then define appropriate emissions caps. Only then can we 
properly allocate allowances under a cap and trade system.
    The Science Committee has an important role to play here. Hearings 
like today's will help inform us and give us a sense of the issues to 
be considered that will be the foundation of any greenhouse gas-
reducing policy.
    The witnesses who will join us are true subject experts. It is my 
hope that they can provide Subcommittee Members with good information 
that is based on science.
    I want to commend Chairman Baird for holding this hearing.
    While I anticipate that we may get into some pretty technical 
details on just how these emissions are quantified, this is just the 
kind of information we need.
    Many of the Members of the Science Committee are themselves 
scientists.
    Many Members of this subcommittee, like me, represent energy 
producing states. We care deeply about this issue and have a strong 
stake in the proceedings.
    We recognize that the Federal Government has some voluntary 
reporting repositories for greenhouse gas emissions.
    Also, some states are moving toward mandatory reporting 
requirements for such emissions.
    I am interested to know the witnesses' opinions of the two federal 
voluntary reporting programs: the Environmental Protection Agency's 
(EPA's) Climate Leaders Program and the Department of Energy's 
Voluntary Reporting of Greenhouse Gases Program or the 1605(b) program.
    EPA is expected to issue a notice of proposed rule-making for a 
mandatory greenhouse gas reporting program soon.
    Mr. Chairman, as a nurse, I am concerned about the effect that 
global warming could have on our world food supply. I am concerned that 
the ice caps at the Earth's poles are melting. I am concerned that 
devastating storms like Hurricanes Katrina, Rita and Ike are damaging 
Texas and other gulf states with increasing frequency.
    Greenhouse gas emissions are at the root of many of these problems. 
We cannot delay in implementing science-based policies to mitigate 
these harms.
    The United States must demonstrate leadership on this issue. Only 
then will other nations move toward positive changes regarding 
greenhouse gas emissions.
    Thank you, Mr. Chairman. I yield back the balance of my time.

    Chair Baird. At this point I would like to introduce our 
witnesses. Mr. John Stephenson is the Director of Natural 
Resources and Environment at the Government Accountability 
Office. Ms. Jill Gravender is the Vice President for Policy at 
The Climate Registry. Ms. Leslie Wong is the Director of 
Greenhouse Gas Programs at Waste Management, Inc., and Mr. Rob 
Ellis is the Greenhouse Gas Program Manager at Advanced Waste 
Management Systems, Inc.
    As our witnesses know, you will each have five minutes for 
your spoken testimony. Your written testimony will be included 
in the record for the hearing, and when you have all completed 
your spoken testimony, we will begin with questions. Each 
Member of the panel here will have five minutes to question, 
and we appreciate again your presence here and look forward to 
your input. We will start with Mr. Stephenson.

    STATEMENT OF MR. JOHN B. STEPHENSON, DIRECTOR, NATURAL 
   RESOURCES AND ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Stephenson. Thank you, Mr. Chair, and other Members of 
the Subcommittee. I am here today to talk about the importance 
of developing reliable emissions data for carbon dioxide and 
other greenhouse gases. In other words, we must know how many 
tons of such gases are actually released into the atmosphere by 
power plants, industrial facilities, and thousands of other 
emitting sources, and be able to measure the changes in those 
emissions over time before we can successfully institute any 
market-based mitigation scheme such as cap-and-trade or the tax 
program we just heard about that would create a price for all 
six primary greenhouse gases--carbon dioxide, nitrous oxide, 
methane, and the three synthetic gases.
    It is important to note that the data needs, whether 
emissions on a facility-specific basis or emissions on an 
economy-wide basis, depend on the point at which the program 
regulates emissions, that is, whether the program attempts to 
regulate a small number of up-stream emitters such as fossil 
fuel producers and importers or, instead, a much larger number 
of downstream emitters such as individual industrial 
facilities.
    For example, an upstream program for carbon dioxide would 
likely regulate fewer than 3,000 sources and cover virtually 
all carbon dioxide emissions from fossil fuels, whereas a 
downstream program would regulate about 10,000 large emitters, 
like power plants, and cover only about half of the total 
carbon emissions. In general, the challenges in establishing 
baseline emissions data, as well as in monitoring, reporting, 
and verifying those emissions over time will increase as the 
number of regulated entities' activities and greenhouse gases 
increase. Upstream programs would generally have less complex 
data requirements than downstream programs. The U.S. has 
economy-wide fuel use data which could be used for an upstream 
program, but this would not be suitable for facility-level 
emissions data needed for a downstream program.
    The U.S. also has facility-specific data for carbon dioxide 
emissions, as you mentioned, for coal-fired power plants, but 
such data is not available for other greenhouse gases or other 
industry sectors. Experiences with existing cap-and-trade 
programs demonstrate the criticality of quality emissions data. 
For example, the U.S. has, since 1995, operated a highly 
successful cap-and-trade program to limit the emissions of 
sulfur dioxide, not a greenhouse gas but a pollutant that 
causes acid rain. The Acid Rain Program has been successful 
largely because regulated entities are required to routinely 
monitor, report and verify emissions. On the other hand, as we 
reported in November 2008, the European trading scheme has been 
less successful largely because of the lack of quality 
emissions data, causing an inaccurate allocation of allowances 
in the beginning and the price of a ton of carbon to plummet to 
zero.
    It is important to note that the EU program is attempting 
to regulate only one greenhouse gas, carbon dioxide, in only 
one industry sector, the power sector. Data on emissions for 
other greenhouse gases in sectors such as methane from 
landfills, nitrous oxide from agricultural operations, is far 
less refined than that for carbon dioxide. Determining 
emissions of these gases will be more challenging due to 
limited historical monitoring and a lack of reliable emissions 
factors. Nevertheless, comprehensive reliable emissions data 
for all greenhouse gases in all sectors will be essential for 
any market-based mitigation scheme, whether cap-and-trade or 
tax currently being debated in the Congress.
    There are some existing emissions inventories and 
registries, and you will hear about some today, that provides a 
starting point for understanding the challenges in establishing 
baselines and tracking emissions over time. For example, the 
U.S. Environmental Protection Agency maintains an official U.S. 
emissions inventory to meet our commitments to the U.N. 
Framework Convention on Climate Change. This inventory uses 
models to estimate emissions at the national and the industry 
sector level and would not be suitable for a downstream cap-
and-trade system. Several private and non-profit efforts also 
provide data collection services. For example, the World 
Resources Institute Greenhouse Gas Protocol is a widely used 
international accounting system for quantifying and managing 
greenhouse gas emissions, and it has developed accounting and 
reporting standards that are compatible with most inventory 
programs. In addition, The Climate Registry that you will hear 
about next includes standards for emissions monitoring and for 
reporting those emissions through its website. The Chicago 
Climate Exchange also has emissions reduction and trading 
scheme and requires its participants to use specific protocols 
to establish emissions baselines and track progress toward 
emissions reduction goals. But none of these inventories or the 
registry is at the scope or complexity contemplated for a 
nationwide program.
    In conclusion, Mr. Chair, we believe this hearing 
highlights a critical element of the climate change debate, the 
need to develop high-quality emissions baselines for all 
greenhouse gases in all sectors and the ability to monitor, 
report, and verify future emissions against those baselines.
    Thank you, Mr. Chair. That concludes my statement. I would 
be happy to answer questions at the appropriate time.
    [The prepared statement of Mr. Stephenson follows:]
                Prepared Statement of John B. Stephenson
Mr. Chairman and Members of the Subcommittee:

    I am pleased to be here today to discuss the importance of high 
quality data on greenhouse gas emissions in the development and 
implementation of programs intended to address climate change. In 
recent years, key scientific assessments have underscored the 
importance of reducing or stabilizing emissions of carbon dioxide and 
other greenhouse gases--including methane, nitrous oxide, and several 
synthetic gases--to mitigate the adverse effects of climate change. 
According to the National Academy of Sciences, global temperatures have 
already risen 1.4 degrees Fahrenheit since the start of the 20th 
century--with much of this warming occurring in the last 30 years--and 
temperatures will likely rise at least another two degrees Fahrenheit, 
and potentially more than 11 degrees, over the next 100 years. Most 
scientists agree that the warming in recent decades has been caused 
primarily by human activities that have increased the amount of 
greenhouse gases in the atmosphere. This warming will cause significant 
changes in sea level, ecosystems, and ice cover, among other impacts. 
In the Arctic region, temperatures have increased almost twice as much 
as the global average, and the landscape is changing rapidly. Figure 1 
below identifies the contribution of carbon dioxide emissions, the most 
prevalent greenhouse gas, from various sources in the United States.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Congress is currently considering various proposals to address 
or mitigate the adverse effects of climate change, including actions to 
limit greenhouse gas emissions. In the United States, most debate over 
mitigation options generally focuses on market-based programs--such as 
carbon tax or cap-and-trade system--that would create a price on 
emissions of greenhouse gases. For either program, the point of 
regulation may occur (1) ``upstream'' and cover sources of carbon 
dioxide when they first enter the economy, such as fossil fuel 
producers; (2) ``downstream'' and cover direct and indirect emitters, 
such as power plants; or (3) at a combination of upstream and 
downstream sources.
    In general, under a cap-and-trade program, the government would 
limit the overall amount of greenhouse gas emissions from regulated 
entities. These entities would need to hold allowances for their 
emissions, and each allowance would entitle them to emit a specific 
amount of a greenhouse gas. Under such a program, the government could 
sell the allowances, give them away, or some combination of the two. 
Firms that find ways to reduce their carbon dioxide emissions to below 
their allowed limit could sell their excess allowances to firms that 
emit more than their limits, effectively creating a market for 
allowance trading and establishing a price for a ton of emissions based 
on supply and demand.
    Another possible mitigation policy is a tax on greenhouse gas 
emissions. A tax would establish a direct price on emissions by levying 
a charge on every ton of carbon dioxide emitted, creating an economic 
incentive for emitters of greenhouse gases to decrease their emissions 
by, for example, using fossil fuels more efficiently. Unlike a cap-and-
trade program, a tax would provide more certainty as to the cost of 
emitting greenhouse gas emissions, but the precise effect of the tax in 
reducing emissions would depend on the extent to which producers and 
consumers respond to higher prices.
    In discussing the emissions data required for a climate change 
mitigation program, it also is useful to distinguish between emissions 
inventories and emissions registries. Emissions inventories aggregate 
emissions data on a high level--for example, by state, industrial 
sector or country. Inventories generally account for greenhouse gases 
emitted and removed from the atmosphere over a specific timeframe. An 
emissions registry, on the other hand, is a tool for collecting, 
verifying, and tracking emissions data from individual facilities or 
projects. Because registries can serve a variety of purposes, their 
structures may vary substantially. For example, registries may vary in 
terms of the gases monitored, the timing of data collection, and the 
method of data verification.
    In this context, my testimony today discusses (1) the need for high 
quality data on emissions in the context of a program intended to limit 
greenhouse gas emissions, and (2) key considerations in developing 
reliable data on greenhouse gas emissions. This testimony is based on 
our previously issued work and a review of relevant literature.\1\
---------------------------------------------------------------------------
    \1\ We conducted our work in accordance with all sections of GAO's 
Quality Assurance Framework that were subject to the objectives of each 
engagement. The framework requires that we plan and perform each 
engagement to obtain sufficient and appropriate evidence to meet our 
stated objectives and to discuss any limitations in our work. We 
believe that the information and data obtained, and the analyses 
conducted, provided a reasonable basis for the findings and conclusions 
in these reports.

High Quality Emissions Data Are Critical to the Integrity of Programs 
                    Intended to Limit Greenhouse Gas Emissions

    The domestic and international experiences with market-based air 
pollution control and climate change programs demonstrate that 
comprehensive and accurate information on emissions is critical to a 
program's success. Since 1995, the United States has operated a cap-
and-trade program to limit sulfur dioxide emissions, an air pollutant 
that contributes to acid rain, from electric utilities. Under Title IV 
of the Clean Air Act Amendments of 1990, this program has reduced 
sulfur dioxide emissions by capping total emissions, distributing 
allowances to emit sulfur dioxide through a combination of free 
allocation and auctions, and allowing electric utilities to buy and 
sell allowances as needed to cover their emissions.
    Prior GAO reports and independent studies have shown that strong 
data collection, monitoring, reporting, and verification requirements 
have been central to this program's success. First, with respect to 
setting a baseline level of emissions from regulated entities, the 
program relied on data spanning several years rather than any one year 
in particular. Specifically, it used historical average emissions from 
1985 to 1987 as the baseline against which to measure reductions 
required to begin in 1995 and 2000. The use of historical data reduced 
the covered entities' incentive to increase emissions prior to the 
program's establishment to obtain a greater allowance allocation--the 
baseline years occurred too far before the announcement of the 
program.\2\ Averaging these data across several years also helped to 
ensure that the baseline reflected changes in emissions that can result 
in a given year due to economic and other conditions. As a result, the 
program achieved greater assurances that it reduced emissions from 
historical levels. In addition, electricity generating units regulated 
under Title IV of the Clean Air Act Amendments of 1990 are required to 
monitor and report their sulfur dioxide, nitrogen oxide, and carbon 
dioxide emissions, among other data. The monitoring and reporting 
requirement has ensured a high degree of compliance and overall program 
integrity. It is important to note that regulating a single pollutant, 
such as sulfur dioxide, from a largely homogeneous population of 
electric utilities is less complicated than monitoring, reporting, and 
verifying emissions of up to six different greenhouse gases from 
diverse types of facilities.
---------------------------------------------------------------------------
    \2\ See GAO, Air Pollution: Allowance Trading Offers an Opportunity 
to Reduce Emissions at Less Cost, GAO/RCED-95-30 (Washington, D.C.: 
Dec. 16, 1994).
---------------------------------------------------------------------------
    The European Union also has experience implementing a cap-and-trade 
program that illustrates the importance of quality data in a market-
based system. As discussed in our November 2008 report, the European 
Union's Emissions Trading Scheme (ETS) relies on a cap-and-trade model 
similar to that used in the U.S. acid rain program.\3\ The ETS began 
with a learning period--phase I--to gain experience with emissions 
trading from 2005 to 2007. Phase I included approximately 11,000 
electric power and industrial installations in 25 member states, which 
accounted for about half of the EU's carbon dioxide emissions.
---------------------------------------------------------------------------
    \3\ See GAO, International Climate Change Programs: Lessons Learned 
from the European Union's Emissions Trading Scheme and the Kyoto 
Protocol's Clean Development Mechanism, GAO-09-151 (Washington, D.C.: 
Nov. 18, 2008).
---------------------------------------------------------------------------
    While the first phase provided key lessons about emissions trading, 
its cumulative effect on emissions is uncertain because of a lack of 
baseline emissions data. In the first phase, each EU member state had 
to identify which entities to regulate under the ETS (such as power 
plants, oil refineries, and other manufacturing facilities), obtain 
baseline emissions data for the covered entities, establish an 
emissions cap, and determine how many allowances to distribute to each 
covered entity. At the time, most member states had high-level, 
aggregated estimates on carbon dioxide emissions that accounted for 
sources within and outside the scope of the ETS, but did not have 
baseline data on a facility-specific basis. This facility-specific data 
was necessary to determine both the total emissions released by all 
entities covered under the ETS--a downstream program--as well as how 
many allowances each particular entity would need to cover its annual 
emissions. In addition, some member states had limited authority to 
collect data because they did not yet have in place a national law or 
regulation mandating submission of emissions data. Accordingly, member 
states based their emissions caps and allocation decisions on business-
as-usual emissions projections and baseline data voluntarily submitted 
by covered entities.
    The inherent uncertainty about business-as-usual projections--i.e., 
how actual emissions compare to the emissions that would have occurred 
in the absence of the ETS--was compounded by the assumptions underlying 
the models used by member states to forecast emissions. The models 
incorporated assumptions about factors that influence business-as-usual 
emissions projections, such as economic growth and relative fuel 
prices. Some member states made relatively optimistic assumptions about 
economic growth, which resulted in higher projections of emissions. As 
such, while the first phase provided key lessons about emissions 
trading, the lack of facility-specific baseline data means its 
cumulative effect on emissions is uncertain.
    The lack of facility-specific baseline data also affected the price 
of ETS allowances. Under the ETS, covered entities are required to 
report emissions data that have been verified by third parties to their 
member states. In 2006, the release of emissions data revealed that the 
supply of allowances--the cap--exceeded the demand, and the allowance 
price collapsed. This illustrated the problems that can arise when a 
program relies on poor baseline emissions data and highlighted the need 
for accurate baseline data in setting an effective emissions cap and 
achieving the intended environmental objectives. See Figure 2 for a 
graph displaying the allowance price trends in phase I.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As we reported in our prior work on lessons learned from the 
international climate change programs, many experts participating on a 
panel we assembled in cooperation with the National Academy of Sciences 
would not expect the United States to encounter the data challenges 
experienced in the EU's first trading phase because some baseline 
emissions data are already available.\4\ Several experts also stated 
that existing data on fossil fuel consumption are sufficient to 
establish an emissions trading program. These data can be used to 
estimate economy-wide carbon dioxide emissions as well as facility-
specific data on carbon dioxide emissions from certain industrial 
sectors, such as power plants that have participated in the U.S. sulfur 
dioxide emissions trading program.
---------------------------------------------------------------------------
    \4\ See GAO-09-151.
---------------------------------------------------------------------------
    Collecting and reporting emissions data can also provide benefits 
beyond ensuring the integrity and results achieved through a greenhouse 
gas reduction program. Such data can be used by researchers to analyze 
environmental conditions and trends, create atmospheric and economic 
models, and provide early warning of potential environmental problems. 
It can also help inform and direct environmental management efforts. 
The availability of emissions data may aid strategic planning in the 
private sector, enabling individual firms to make better-informed 
decisions pertaining to capital investments and energy use. Because 
many states, municipalities, and private firms have established 
voluntary climate goals, emissions data will enable these organizations 
to assess progress and better account for performance. Finally, the 
availability of emissions data can provide a consistent and transparent 
basis for comparison between countries, industries, and individual 
firms and enhance public understanding of emissions sources.

Collecting Reliable Data on Greenhouse Gas Emissions Involves Key 
                    Considerations

    Monitoring, reporting, and verification needs for reliable data on 
greenhouse gas emissions depend first on the purpose and intended use 
of the data; for example, the data required for a mandatory program to 
limit emissions may vary substantially from that required for a 
business or governmental entity that voluntarily tracks its emissions 
for public relations or other purposes.
    First, as we have previously reported, the scope of a data 
collection effort--i.e., monitoring, reporting, and verification 
activities--is determined by the program's point of regulation. An 
upstream mitigation program would affect a relatively small population 
of regulated entities, such as fuel importers and producers, whose 
products could be less difficult to measure and report. The quantity of 
emissions associated with those products could be calculated using 
available emissions factors.\5\ Under a cap-and-trade program, each 
importer or producer would have to hold an allowance for each ton of 
carbon dioxide emissions associated with its products. Alternatively, 
under an emissions tax, each regulated entity would have to pay the 
government a pre-determined amount of money for each ton of emissions 
associated with the combustion of its products. Under either system, 
accurate reporting and verification of emissions would help ensure the 
integrity of the program, and accurate and reliable baseline data would 
be necessary to track progress.
---------------------------------------------------------------------------
    \5\ An emissions factor is a representative value that attempts to 
relate the quantity of a pollutant released to the atmosphere with an 
activity associated with the release of that pollutant. These factors 
are usually expressed as the weight of pollutant divided by a unit 
weight, volume, distance, or duration of the activity emitting the 
pollutant (e.g., kilograms of particulate emitted per megagram of coal 
burned). Such factors facilitate estimation of emissions from various 
sources of air pollution. See, for example, EPA's AP-42 emissions 
factors, available at http://www.epa.gov/ttn/chief/ap42/
---------------------------------------------------------------------------
    On the other hand, data collection, monitoring, and verification 
requirements become more substantial under a downstream program because 
it could affect a larger population of regulated entities, potentially 
including industrial facilities, agricultural operations, mobile and 
other fuel combustion sources, and users of refrigerants. Again, each 
regulated entity would need to have accurate and reliable data on 
historical and current emissions, and in some cases, gathering such 
information would be relatively straightforward. For example, 
electricity generating units regulated under Title IV of the Clean Air 
Act Amendments of 1990 are required to monitor and report their carbon 
dioxide emissions. However, other regulated entities may face greater 
challenges in determining their emissions due to limited monitoring 
data or a lack of reliable emissions factors.
    Furthermore, the data requirements for a mitigation program become 
more complex and challenging as the number and types of covered 
activities increases.\6\ This challenge may be of particular concern in 
a downstream program that covers emissions from diffuse sources. Of the 
six primary greenhouse gases, emissions of some are better 
characterized than others.\7\ For example, carbon dioxide emissions 
from energy-related activities and cement processing are relatively 
easy to estimate with a high degree of accuracy, whereas measuring the 
emissions of other greenhouse gases stemming from other types of 
activities is more challenging. Specifically, there may be insufficient 
scientific understanding to develop a data collection methodology, data 
may be incomplete or missing, or emissions factors may not be 
sufficiently developed. For instance, nitrous oxide emissions occur 
from the production of caprolactam--a chemical used to produce a 
polymer--but there are currently not enough data on the production of 
caprolactam to estimate these emissions in the United States.
---------------------------------------------------------------------------
    \6\ See GAO-09-151.
    \7\ See U.S. EPA, Inventory of U.S. Greenhouse Gas Emissions and 
Sinks: 1990-2006 (April 2008), http://www.epa.gov/climatechange/
emissions/usinventoryreport.html
---------------------------------------------------------------------------
    In some cases, existing emissions inventories and registries that 
have been developed for a variety of purposes could help regulated 
entities in meeting potential requirements to establish baseline 
emissions levels and monitor, verify, and report their ongoing 
emissions. For example, the United States Environmental Protection 
Agency prepares an official U.S. greenhouse gas inventory each year to 
comply with its commitments under the United Nations Framework 
Convention on Climate Change (UNFCCC). This inventory provides national 
information on the activities that cause emissions and removals, as 
well as background on the methods used to make the calculations. In 
addition to the U.S. inventory, multi-state emissions reduction 
programs, such as the Regional Greenhouse Gas Initiative, a regulatory 
program targeting reductions in carbon dioxide from electricity 
generators, have developed emissions inventories to guide their 
programs. Many individual states also prepare greenhouse gas 
inventories using guidance provided by EPA. These existing inventories 
and registries could assist in the development of a mandatory emissions 
reduction program.
    Other emissions inventories and registries developed by government 
and private entities also provide a useful starting point for 
understanding data requirements for establishing emissions baselines 
and monitoring, verifying, and reporting greenhouse gas emissions.\8\ 
For example, the Department of Energy's Voluntary Reporting of 
Greenhouse Gases Program encourages corporations, government agencies, 
non-profit organizations, households, and other private and public 
entities to annually report their greenhouse gas emissions, emission 
reductions, and sequestration activities to a registry using consistent 
standards.\9\ In addition, EPA's Climate Leaders Program, an EPA 
industry-government partnership that works with companies to develop 
comprehensive climate change strategies, has developed standards to 
measure and monitor emissions reductions from certain types of 
projects.
---------------------------------------------------------------------------
    \8\ Pub. L. No. 110-161, tit. II, 121 Stat. 1844, 2128 (2007) 
directs EPA to develop a rule requiring mandatory reporting of 
greenhouse gas emissions from all sectors of the economy.
    \9\ Sequestration activities refer to biological projects that pull 
carbon dioxide out of the air by, for example, planting trees or 
enhancing the management of agricultural soils, and geological projects 
that capture and store carbon dioxide in underground formations.
---------------------------------------------------------------------------
    Several private and nonprofit efforts also provide data collection 
services. For example, the Greenhouse Gas Protocol, a widely-used 
international accounting system for quantifying and managing greenhouse 
gas emissions, has developed accounting and reporting standards that 
are compatible with most greenhouse gas inventory programs.\10\ Another 
effort, the Climate Registry, is a nonprofit collaboration involving 
U.S. states and Canadian provinces that has developed standards to 
calculate, verify, and report greenhouse gas emissions. Both voluntary 
and mandatory programs can use the Climate Registry's standards and 
publicly report their emissions through its website. Other private 
initiatives, such as the Chicago Climate Exchange (CCX), a voluntary 
emission reduction and trading system, requires participants to 
establish emissions baselines and track their progress towards 
emissions reduction goals. Emissions reductions through CCX must be 
confirmed by an independent, third-party verifier. Finally, an entire 
industry of companies exists to help companies track and monitor their 
greenhouse gas emissions and many have developed protocols and best 
practices for measuring baseline emissions levels and tracking 
reductions. Many of these companies also provide external third-party 
verification services to help industrial and other facilities ensure 
the accuracy of their emissions accounting practices.
---------------------------------------------------------------------------
    \10\ The Greenhouse Gas Protocol was developed by the World 
Resources Institute, a U.S. non-governmental organization, and the 
World Business Council for Sustainable Development, a Geneva-based 
coalition of 170 international companies.
---------------------------------------------------------------------------
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to respond to any questions that you or other Members of the 
Subcommittee may have at this time.

                    Biography for John B. Stephenson
    Mr. Stephenson is currently the Director of Natural Resource and 
Environment issues for the U.S. Government Accountability Office--the 
independent investigative arm of the Congress. In that capacity, he has 
for the past nine years directed numerous studies and research 
projects, issued hundreds of reports, and testified on many occasions 
before several Senate and House Committees. His work has provided 
invaluable assistance to the Congress in its oversight and legislative 
role on diverse environmental protection issues such as clean air, 
clean water, safe drinking water, chemical controls, toxic substances, 
climate change, superfund, and hazardous materials spill prevention and 
cleanup, as well as critical infrastructure protection.
    Prior to his current position, he led numerous GAO studies and 
investigation in the information technology and federal acquisition and 
federal grant areas. He has extensive experience in dealing with 
Congressional Committees and Members, federal agencies, trade 
associations, special interest groups, and State and local governments. 
From April 1998-February 2000, he was Deputy Staff Director for the 
Senate Special Committee on the Year 2000 Technology Problem for the 
Chairman (Senator Robert Bennett, R-UT), and Vice Chairman (Senator 
Christopher Dodd, D-CT). In that capacity, he ran the day-to-day 
operations of the Committee including orchestrating over 35 hearings, 
preparing legislation, organizing briefings and floor activities for 
the full Senate, working with the White House's Year 2000 Director and 
staff, and organizing numerous press and public events. He returned to 
GAO in March 2000 where he was executive assistant to the U.S. 
Comptroller General (the head of GAO) until entering the Senior 
Executive Service in October 2000.
    Mr. Stephenson holds a BS degree in Industrial Management from 
Purdue University, an MBA from Xavier University, and is a graduate of 
the Harvard Kennedy School of Government's Senior Executive Fellows 
program. He lives in Fairfax Station, Virginia with his wife, 11-year-
old daughter, and 9-year-old son. He also has two grown sons who reside 
in Cincinnati, Ohio.

    Chair Baird. Thank you. Ms. Gravender.

STATEMENT OF MS. JILL E. GRAVENDER, VICE PRESIDENT FOR POLICY, 
                      THE CLIMATE REGISTRY

    Ms. Gravender. Good morning Chair Baird and distinguished 
Members of the Subcommittee. Thank you for the opportunity to 
testify before you today. As an organization committed to the 
accurate and transparent reporting and verification of 
greenhouse gas emissions, The Climate Registry is pleased to 
brief the Subcommittee on these important topics.
    First, I would like to provide a bit of background on The 
Climate Registry. The Registry is a non-profit organization 
created in a collaborative effort by North American states, 
provinces, territories and Native Sovereign Nations. The 
Registry is governed by a unique Board of Directors which today 
consists of representatives from 41 U.S. states and the 
District of Columbia, 12 Canadian provinces and territories, 
six Mexican states, and four Native Sovereign Nations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In the map that is projected before you, the participating 
jurisdictions are highlighted in green.
    The concept of The Registry took shape as states became 
increasingly interested in taking progressive action on climate 
change. They realized the opportunity to collaborate with one 
another to create a unified North American Greenhouse Gas 
Registry. As a result, The Registry's mission is to set 
consistent and transparent standards to calculate, verify and 
publicly report greenhouse gas emissions into a single North 
American registry. The Registry supports both voluntary and 
mandatory greenhouse gas programs and provides comprehensive 
data to promote the reduction of greenhouse gas emissions. To 
date, The Registry has more than 320 members representing large 
Fortune 500 companies, electric utilities, municipalities, 
colleges and universities, government agencies, and small 
businesses. The Registry's voluntary greenhouse gas reporting 
program is a rigorous initiative that requires its members to 
report their corporate-wide emissions of all six Kyoto gases 
from their operations throughout North America annually at the 
facility level. This program is based on two important 
international greenhouse gas accounting standards, namely, the 
World Resource Institute/World Council for Sustainable 
Development's Greenhouse Gas Protocol and the International 
Standard for Greenhouse Gas Accounting, ISO 14064-1. These 
standards are compatible and complementary and have become the 
foundation for greenhouse gas accounting globally.
    The Registry's General Reporting Protocol, or GRP, builds 
upon these standards and provides specific direction on how to 
assemble greenhouse gas inventories and answers common 
questions such as, how do I report leased vehicles. Who reports 
if there are multiple owners of a facility? And how do I treat 
acquisitions? It is important to note that greenhouse gas 
reporting is substantially different from reporting criteria 
pollutants, which typically can be measured from smokestacks, 
since greenhouse gas emissions are ubiquitous and come from 
both large and small sources.
    One of the most important aspects of The Registry's 
voluntary program is its requirement of annual third-party 
verification. Verification is a systematic, independent, and 
documented process for evaluating the emissions report against 
agreed-upon criteria. Verification is similar to an audit of 
financial statements. It is an external attestation to the 
quality and accuracy of reported information, and it creates 
confidence that the data is accurate. The Registry's 
verification and accreditation programs are also based on 
international standards and are explained in more detail in my 
written testimony.
    Thus far, my testimony has focused on The Registry's 
voluntary program. The Registry supports both voluntary and 
mandatory greenhouse gas reporting programs. Many of the states 
and provinces comprising The Registry's Board of Directors have 
adopted or are in the process of adopting mandatory greenhouse 
gas initiatives either individually or as part of regional 
initiatives. The Registry is currently working with over 20 
jurisdictions, including the states and provinces participating 
in the Western Climate Initiative and the Midwestern Greenhouse 
Gas Reduction Accord, to develop a common greenhouse gas data 
collection platform to serve mandatory programs across North 
America.
    At the federal level, The Registry's Board of Directors 
recently adopted a policy statement to articulate the role it 
seeks for The Registry within a federal greenhouse gas 
reporting program. This statement is also included in my 
written testimony. In their statement, the Board of Directors 
expressed their desire for The Registry to be viewed as a model 
and a resource to support federal greenhouse gas registries.
    The Subcommittee asked me to speak on the challenges and 
opportunities associated with tracking greenhouse gas emissions 
accurately. Before I do, I want to stress the fact that it is 
indeed possible for most organizations to accurately account 
for, report, and verify their emissions today. That said, there 
are challenges to reporting, and they tend to fall into two 
categories: organizational challenges and scientific 
uncertainty. Organizational challenges generally occur due to a 
lack of management systems specifically designed for greenhouse 
gas data collection. Since greenhouse gases have not been 
regulated before, many organizations do not have systems in 
place to monitor and track these emissions. Scientific 
uncertainty presents additional challenges to obtaining high-
quality data. Quantification methods for certain sources of 
emissions either do not exist or contain high degrees of 
uncertainty. My written testimony describes specific areas of 
scientific uncertainty, the most notable of which is the 
quantification of fugitive emissions of methane. In terms of 
opportunities to improve the accuracy of greenhouse gas 
reporting, our recommendations include updating emission 
factors and quantification methods in a timely fashion, 
developing industry-specific protocols, and improving 
measurement technologies.
    To conclude, The Registry was created to help organizations 
answer the very question posed by this hearing today, how do we 
know what we are emitting? Given the recent leadership of 
individual states and regions, the U.S. is well-positioned to 
think about emissions beyond the traditional smokestack 
approach and to work across State and federal jurisdictional 
lines to begin to tackle climate change in a new and 
collaborative way, and The Registry is uniquely positioned to 
help. We look forward to partnering with the Federal Government 
to serve a larger role in supporting national and North 
American greenhouse gas initiatives.
    Thank you again for the opportunity to testify, and I would 
be happy to answer any questions you have.
    [The prepared statement of Ms. Gravender follows:]
                Prepared Statement of Jill E. Gravender
    Good morning Chairman Baird and distinguished Members of the 
Subcommittee. Thank you for the opportunity to testify before you 
today.
    As an organization that is committed to consistent, accurate and 
transparent reporting and verification of greenhouse gas (GHG) 
emissions, The Climate Registry (The Registry) is pleased to brief the 
Subcommittee on these important topics today.
    In my testimony, I will:

        <bullet>  Provide an overview of The Registry and its voluntary 
        GHG reporting program,

        <bullet>  Explain how The Registry is working to support 
        mandatory GHG reporting programs at the State/provincial, 
        regional, and federal levels,

        <bullet>  Discuss challenges to obtaining quality emissions 
        data, and

        <bullet>  Provide recommendations for research that could make 
        tracking and reporting of GHG emissions easier.

1. Overview

    The Climate Registry is a non-profit organization, created in a 
collaborative effort by North American states, provinces, territories 
and Native Sovereign Nations. The Registry is governed by a Board of 
Directors which today consists of representatives from 41 U.S. states 
and the District of Columbia, 12 Canadian provinces and territories, 
six Mexican states, and four Native Sovereign Nations. (See Appendix 
A--Map of The Climate Registry's Board of Directors.)
    The Registry's mission is to set consistent and transparent 
standards to calculate, verify, and publicly report GHG emissions into 
a single North American registry. The Registry supports both voluntary 
and mandatory reporting programs and provides comprehensive, accurate 
data to promote the reduction of GHG emissions.
    To date, the Registry has more than 320 members--representing large 
Fortune 500 companies, electric utilities, municipalities, colleges and 
universities, government agencies and small businesses. The Registry 
provides its members with a series of tools to help them successfully 
prepare their GHG inventories This includes: trainings, informational 
webinars, reporting and verification tips, a support hotline, and 
access to our web-based user-friendly on-line reporting tool, the 
Climate Registry Information System (CRIS).

1.1. Evolution of The Registry:
    The evolution of The Registry is an interesting, important, and 
unique one. Individual states began to take progressive action 
themselves to help mitigate the negative impacts of climate change 
several years ago. As states became increasingly interested in 
developing voluntary GHG reporting programs to track GHG emissions at 
the corporate level, they realized the opportunity to collaborate with 
one another to create a single unified GHG registry to serve all of 
North America. By working together they could create a centralized 
repository of high quality, accurate, transparent, and consistently 
verified GHG emissions inventories for the public.

2. The Registry's Voluntary GHG Reporting Program:

    The Registry's voluntary GHG reporting program is a rigorous 
initiative that provides companies, governments, and organizations with 
the tools and technical guidance necessary to establish an accurate 
entity-wide inventory of their GHG emissions.
    The Registry's voluntary GHG reporting program is based on two 
important and related international standards:

        <bullet>  World Resources Institute/World Business Council for 
        Sustainable Development Corporate Greenhouse Gas Protocol,\1\ 
        which was the first to document key principles and concepts for 
        corporate GHG accounting, and
---------------------------------------------------------------------------
    \1\ World Business Council for Sustainable Development (WBCSD)/
World Resources Institute (WRI). Greenhouse Gas Protocol, Corporate 
Accounting and Reporting Standard, April 2004.

        <bullet>  International Organization for Standardization (ISO) 
        standard for GHG accounting (ISO 14064-1)\2\
---------------------------------------------------------------------------
    \2\ 14064-1:2006, Greenhouse gases--Part 1: Specification with 
guidance at the organization level for quantification and reporting of 
greenhouse gas emissions and removals.

    These ``standards'' are compatible and complementary, and have 
become the foundation for GHG accounting globally. Both standards are 
written at a conceptual level and do not provide all of the necessary 
prescription for multiple organizations to compile comparable emissions 
inventories.
    As a result, a number of organizations developed ``GHG accounting 
protocols'' based on these international standards to document specific 
reporting rules and requirements to ensure that the resulting GHG data 
would be consistent and comparable across organizations. The California 
Climate Action Registry (the California Registry) was one of the first 
organizations in the U.S. to translate the international standards into 
specific program protocols.
    The California Registry's rigorous reporting and verification 
protocols became the basis for The Registry's protocols. Through a 
public stakeholder process, The Registry expanded and improved the 
California Registry's protocols to be applicable throughout North 
America.\3\
---------------------------------------------------------------------------
    \3\ The California Registry requires organizations to report their 
GHG emissions within the State of California.
---------------------------------------------------------------------------
    The California Registry is now transitioning to become the Climate 
Action Reserve, and will soon change its focus from entity level 
inventory reporting to emission reduction projects. The Climate 
Registry's voluntary GHG program will continue to serve as the premier 
voluntary registry in North America.

2.1 Key Components to the Voluntary Reporting Program
    The goal of The Registry's voluntary reporting program is to 
provide high quality, consistent GHG emissions data to its members and 
the public. This ``corporate-wide'' or ``entity-wide'' approach to 
emissions reporting provides organizations with a comprehensive 
understanding of their GHG emissions sources and the total impact their 
operations have on the climate.
    Corporations, organizations, and government agencies all 
voluntarily choose to join the Registry's program. By doing so, these 
organizations become Registry ``Members'' and commit to annually report 
and verify their emissions footprint for North America.
    Members join The Registry for multiple reasons, but primarily 
because they are interested in:

        <bullet>  A cost effective means to track/manage GHG emissions;

        <bullet>  Access to software and technical support;

        <bullet>  Documenting their early actions;

        <bullet>  Preparing for mandatory State/federal reporting;

        <bullet>  Educating employees on GHG emissions;

        <bullet>  Gaining recognition as a global environmental leader;

        <bullet>  Having a voice in the development of GHG policies.

    By joining The Registry members agree to report the following:

        <bullet>  ``Entity-wide'' or ``corporate-wide'' emissions 
        across North America at the facility level;

        <bullet>  Emissions of all six internationally-recognized GHGs 
        (carbon dioxide, methane, nitrous oxide, hydrofluorocarbons, 
        perfluorocarbons and sulfur hexafluoride)--the six ``Kyoto 
        Gases'';

        <bullet>  All direct emissions--stationary combustion, mobile 
        combustion, process and fugitive emissions (Scope 1);

        <bullet>  All indirect emissions from purchased electricity, 
        steam, heating or cooling (Scope 2); and

        <bullet>  Emission on a calendar year basis.

    Additionally, members are able to attach optional information 
(Scope 3 emissions, management plans, emission reduction goals) to 
their annual emission report in CRIS.
    The Registry requires all emission reports to be third-party 
verified annually. Once The Registry reviews and accepts verified 
emission reports, The Registry makes the reports available to the 
public via CRIS.

2.2 The General Reporting Protocol
    The basis of The Registry's voluntary reporting program is its 
General Reporting Protocol (GRP), which assembles international GHG 
accounting best practices into a user friendly document. Please refer 
to: http://www.theclimateregistry.org/downloads/GRP.pdf to view a copy 
of the protocol.
    The Registry's GRP was developed through an open public process 
with input from businesses, environmental organizations, academics and 
GHG protocol experts and interested members of the public. The Registry 
intends to continue to refine the GRP over time in order to add clarity 
and specificity and incorporate new developments in GHG science and 
accounting methodologies.
    The GRP contains policy guidance and GHG calculation methodologies 
for major emission sources for most operations (stationary combustion, 
mobile combustion, basic fugitive emissions, indirect emissions). Given 
the wide spectrum of process emissions that result from different 
industries, The Registry plans to develop industry specific protocols 
to provide further guidance to various industries.\4\ Calculation 
methodologies for process emission from several key industries are 
included in Appendix E of the GRP.
---------------------------------------------------------------------------
    \4\ The Registry released two new draft protocols for a 30-day 
public comment period on February 23, 2009: the Electric Sector 
Protocol and the Local Government Operations Protocol. Copies of the 
draft protocols and additional information can be found on: 
www.theclimateregistry.org. The Registry is also currently working with 
the Western Regional Air Partnership to develop a protocol for the oil 
and gas exploration and production sector. This protocol will likely be 
released for public comment later in 2009.
---------------------------------------------------------------------------
    The guidance in the GRP is rooted in the following GHG accounting 
principles:

        <bullet>  Relevance

        <bullet>  Completeness

        <bullet>  Consistency

        <bullet>  Transparency

        <bullet>  Accuracy

    As a result, Registry members' annual emission reports contain 
meaningful information to help organizations better understand their 
GHG emissions. Since you cannot manage what you do not measure, this is 
a critical first step in reducing GHG emissions.
    The following program design elements help The Registry ensure the 
accuracy and consistency of its GHG emission reports:

        <bullet>  Defined reporting scope (boundaries)

        <bullet>  Defined quantification methodologies

        <bullet>  Transparent data quality ``Tiers''

        <bullet>  Automated calculation and reporting tools

        <bullet>  Rigorous third-party verification program

Defined Reporting Boundaries
    In order to ensure consistent GHG data, the Registry requires 
members to define the following boundaries:

        <bullet>  Geographic Boundaries: Members must report their 
        North American emissions, and are encouraged to report their 
        worldwide emissions.

        <bullet>  Organizational Boundaries: Members must identify the 
        legal entity that is responsible for reporting, and must also 
        determine an emissions consolidation method (control and equity 
        share or control only).

        <bullet>  Operational Boundaries: Members must report their 
        Direct (Scope 1) and Indirect (Scope 2) emissions. Additional 
        indirect emissions (Scope 3) are optional.

    Defining these boundaries transparently helps to ensure that end-
users understand the scope and content of the emission reports.

Defined Quantification Methodologies
    Once sufficient boundaries are defined, members can quantify their 
GHG emissions. In many instances the Registry provides multiple 
quantification methodologies for a single source of emissions. In this 
case, members may choose which quantification methodology makes the 
most sense for their operations. The Registry approves the use of all 
of the listed quantification methodologies contained in the GRP for its 
voluntary program. The Registry allows for both calculation-based 
quantification and measurement-based quantification of emissions.

Transparent Data Quality Tiers
    The Registry uses a tiered quantification system to rank emission 
quantification methodologies according to their level of accuracy. In 
this system, ``Tier A'' designates the preferred, or most accurate, 
approach for a given emissions source; ``Tier B'' represents an 
alternative second-best approach; and ``Tier C'' represents the least 
accurate, but still acceptable approach. In some instances, The 
Registry defines multiple approaches to the same tier (A1, A2, etc.). 
The Registry encourages members to use the highest tier possible for 
all emission sources.

Automatic Calculation and Reporting
    To ensure members consistently and accurately quantify their 
emissions, The Registry developed sophisticated emission calculation 
tools in its CRIS application. Members enter their raw activity data 
(gallons of fuel use, kWh of electricity consumed, etc.), select the 
appropriate built in calculation methodology in the system, and the 
tool automatically calculates the relevant GHG emissions. This tool 
eliminates calculation errors in the reporting process, and facilitates 
reporting for members. In addition, CRIS contains built in quality 
assurance checks that flag potential or existing problems with a 
member's emission report.

2.3 The General Verification Protocol
    The most important aspect of ensuring the consistency and accuracy 
of data in The Registry's voluntary reporting program is its rigorous 
verification program. Verification is the systematic, independent, and 
documented process for the evaluation of a member's emission report 
against agreed upon verification criteria. This process is similar to 
an audit of financial statements--it is an external attestation to the 
quality and accuracy of the reported emissions.
    Third-party verification is necessary to provide confidence to 
users (State regulatory agencies, native sovereign nation authorities, 
investors, suppliers, customers, local governments, the public, etc.) 
that the emissions data submitted to the Registry represents a 
faithful, true and fair account of emissions--free of material 
misstatements and conforming to the Registry's accounting and reporting 
rules.
    Third-party verification is becoming widely accepted for ensuring 
accurate emissions data, and has been relied upon by several GHG 
regulatory programs, including the European Union's Emissions Trading 
System (EU ETS) and the United Kingdom's GHG Emissions Trading System.
    The Registry's General Verification Protocol (GVP) contains the 
verification criteria, policies and procedures that Verification Bodies 
must comply with when conducting verification activities for Registry 
members. (Please visit our website to view the GVP: http://
www.theclimateregistry.org/downloads/GVP.pdf)
    The Registry's verification program is based on the international 
standard for GHG verification (ISO 14064-3\5\ ), which outlines the 
following key principles of verification:
---------------------------------------------------------------------------
    \5\ ISO 14064-3:2006, Greenhouse gases--Part 3: Specification with 
guidance for the validation and verification of greenhouse gas 
assertions.

---------------------------------------------------------------------------
        <bullet>  Independence

        <bullet>  Ethical Conduct

        <bullet>  Fair Presentation

        <bullet>  Due Professional Care

    Verification Bodies must demonstrate and embody the above criteria 
to successfully review and assess GHG emission reports. A Verification 
Body is a firm that consists of technically competent and independent 
personnel (Verifiers) who are knowledgeable about GHG emissions 
inventories, management systems, and data and information auditing.
    Since the credibility of a member's emission report is attested to 
by a Verification Body, it is crucial that the Verification Body 
provide an objective review of the emissions report. To ensure that no 
organizational, personal, or case-specific conflicts exist between a 
Verification Body and a member, The Registry developed a rigorous 
Conflict of Interest (COI) process.
    Verification Bodies must complete a case-specific COI assessment 
prior to conducting any verification activities for a member. In some 
instances, where potential or real conflicts do exist, Verification 
Bodies must take steps to mitigate high COIs before the Registry will 
allow verification activities to proceed. Any Verification Body that 
determines that its risk for COI is anything other than low may not 
provide verification services to that member. The Registry prohibits 
Verification Bodies from providing GHG verification services for any 
member for which the Verification Body has provided GHG consultancy 
services, regardless of the point in time that these services occurred.
    Four additional concepts play a key role in shaping The Registry's 
verification program:

        1.  Risk-Based Approach to Verification: Given the 
        impossibility of assessing and confirming the accuracy of every 
        piece of GHG information in an emissions report, The Registry 
        adopted ISO 14064-3's risk-based approach to verification. This 
        approach directs Verification Bodies to focus their attention 
        on those data systems, processes, emissions sources and 
        calculations that pose the greatest risk of generating a 
        material misstatement.

        2.  Materiality: Verification Bodies use the concept of 
        materiality to determine if omitted or misstated GHG emissions 
        will lead to significant misrepresentation of a member's 
        emissions, thereby influencing conclusions or decisions made on 
        the basis of those emissions. Therefore, a material 
        misstatement is one where the error could affect the decisions 
        of intended users of the emissions report.

            The Registry defines the materiality threshold for its 
        voluntary program at five percent (for both understatements and 
        overstatements) of a member's direct (Scope 1) and indirect 
        (Scope 2) emissions. The Registry requires Verification Bodies 
        to assess the accuracy of a member's direct and indirect 
        emissions separately. Therefore, a member's direct and indirect 
        emissions must both be deemed as accurate (within five percent) 
        for a Verification Body to issue a positive Verification 
        Statement.

        3.  Level of Assurance: The level of assurance a Verification 
        Body attaches to its verification findings dictates the 
        relative degree of confidence the Verification Body has in its 
        assessment of the reported data. The Registry requires its 
        Verification Bodies to provide a reasonable level of assurance 
        that an emission report is materially correct. A reasonable 
        level of assurance is considered to be the highest possible 
        level of confidence; absolute assurance is not attainable 
        because of factors such as the use of judgment and inherent 
        limitations of control.

        4.  Inherent Uncertainty: For purposes of its voluntary 
        reporting program, The Registry defines inherent uncertainty as 
        the uncertainty associated with 1) the inexact nature of 
        calculating GHG emissions (metering equipment, emission 
        factors, etc.).\6\
---------------------------------------------------------------------------
    \6\ Inherent uncertainty also applies to the inexact nature of the 
calculations associated with the Registry's permitted use of simplified 
estimation methods (for up to five percent of a member's emissions).

    The Registry does not include inherent uncertainty in a 
Verification Body's assessment of materiality. Therefore, for The 
Registry's voluntary program, when determining the accuracy of an 
emissions report, a Verification Body must focus their attention on the 
completeness of the emissions inventory, the use of appropriate 
calculation methods, the mathematical accuracy of the calculations, and 
---------------------------------------------------------------------------
a member's adherence to The Registry's programmatic requirements.

Core Verification Activities
    In order to attest to the accuracy of an emissions report, a 
Verification Body must complete the following five core verification 
activities:

        1.  Assess conformance with The Registry's reporting and 
        verification requirements;

        2.  Assess the completeness of the emission report;

        3.  Perform a risk assessment based on a review of information 
        systems and controls;

        4.  Develop a sampling plan (identify records to be reviewed 
        and facilities to be visited);

        5.  Evaluate the GHG emissions, information systems and 
        controls against The Registry's criteria (five percent 
        materiality threshold).

Verification Documentation
    At the end of the verification process, a Verification Body must 
produce two documents: 1) a Verification Report that summarizes their 
verification activities and findings, and 2) a Verification Statement 
that attests to the member's compliance with the Registry's reporting 
and verification requirements.

2.4 Accreditation Program
    To ensure the competence of the Verification Bodies in The 
Registry's program, The Registry adopted the international standard for 
accrediting GHG Verification Bodies (ISO 14065\7\ ) and further defined 
specific Registry requirements in additional to this standard. Through 
this process, Verification Bodies must demonstrate that they are 
independent, impartial, and competent to conduct GHG verifications.
---------------------------------------------------------------------------
    \7\ ISO 14065-2007, Greenhouse gas--Requirements for greenhouse gas 
validation and verification bodies for use in accreditation or other 
forms of recognition.
---------------------------------------------------------------------------
    The Registry's Guidance on Accreditation (GoA) describes the 
details of The Registry's accreditation requirements. It is located on 
The Registry's website: http://www.theclimateregistry.org/downloads/
GoA.pdf.
    Since ISO standards are implemented by national Accreditation 
Bodies, The Registry plans to partner with each of the three national 
Accreditation Bodies in North America\8\ to carry out its accreditation 
program. The American National Standards Institute (ANSI), the national 
Accreditation Body in the U.S., is the first Accreditation Body to 
partner with The Registry.
---------------------------------------------------------------------------
    \8\ The North American Accreditation Bodies consist of the American 
National Standards Institute (ANSI) in the U.S., the Standards Council 
of Canada (SCC) in Canada, and Entidad Mexicana de Accreditacion (EMA) 
in Mexico.
---------------------------------------------------------------------------
    Through this partnership, ANSI manages a rigorous review of all 
interested Verification Bodies in an effort to assess each firm's 
independence, impartiality and competence. This process includes a 
review of a Verification Body's internal management systems, an 
assessment of the competency of their staff, and an on-site assessment 
of a Verification Body's ability to successfully complete the 
verification activities required by the Registry.
    ISO 14065 details a series of requirements that Verification Bodies 
must meet to become accredited to the standard. The standard includes 
requirements for demonstrating:

        <bullet>  Impartiality

        <bullet>  Competency

        <bullet>  Deployment and Management of Personnel

        <bullet>  Communications and Records Retention

        <bullet>  Verification processes

        <bullet>  Appeals and complaint processes, and

        <bullet>  Management system requirements.

    In addition to the requirements above, Verification Bodies 
interested in conducting verifications for members of The Registry must 
also demonstrate their ability to meet twelve additional accreditation 
criteria set forth by The Registry. The Registry participates in ANSI's 
review process and additionally ``recognizes'' the ANSI-accredited 
Verification Bodies deemed competent to conduct verification activities 
for The Registry.
    Only ANSI-accredited, Registry-recognized Verification Bodies are 
permitted to provide verification services to Registry members.

3.  The Registry's Support of Mandatory GHG Reporting Programs

    Thus far, my testimony has focused on The Registry's voluntary 
reporting program, however, The Registry's mission indicates that it 
supports both voluntary and mandatory GHG reporting programs. While The 
Registry does not have the authority to develop or implement mandatory 
reporting programs, it is uniquely positioned to leverage its GHG 
accounting expertise to assist states (and provinces) to best implement 
and manage their own mandatory GHG programs.
    The Registry aims to accomplish the following through its support 
of mandatory GHG reporting programs:

        <bullet>  Streamline and centralize the reporting process for 
        regulated parties;

        <bullet>  Assist jurisdictions to standardize approaches to 
        calculate, report, and verify emissions;

        <bullet>  Provide jurisdictions with a turn-key, low cost 
        solution for implementing data collection and management of GHG 
        programs;

        <bullet>  Facilitate the transfer of data from mandatory 
        programs to the Registry's voluntary program; and

        <bullet>  Leverage the investment that The Registry has made in 
        the Climate Registry Information System (CRIS).

    Many of the jurisdictions comprising The Registry's Board of 
Directors have adopted, or are in the process of adopting, mandatory 
GHG reporting requirements, either individually or as part of regional 
GHG initiatives.
    The Registry assists these jurisdictions in implementing their 
mandatory GHG programs by:

        <bullet>  Providing assistance to promote consistency (where 
        applicable) with The Registry's protocols;

        <bullet>  Developing tools for jurisdictions to understand the 
        options available to develop accreditation & verification 
        programs;

        <bullet>  Offering two technical support options via CRIS

                  The Common Framework for Mandatory GHG Reporting

                  Data Transfer

    Utilizing The Registry's web-based reporting platform, CRIS, as a 
foundation, The Registry is developing a ``Common Framework'' for 
mandatory GHG reporting. The Common Framework consists of the CRIS 
application plus additional GHG reporting infrastructure components 
necessary to support most mandatory reporting programs. While the 
Common Framework ensures that multiple jurisdictions will share many of 
the same reporting requirements, it also allows jurisdictions to 
customize the application to meet their specific jurisdiction's needs.
    The beauty of this concept is that multiple jurisdictions will have 
similar mandatory GHG data collection systems located on one server, 
but each jurisdiction will maintain confidential access to their own 
data (agency staff can only view the data submitted to their state). 
Therefore, regulated parties may enter emissions data for multiple 
mandatory GHG reporting programs through a common IT interface, thereby 
significantly reducing their reporting burden.
    Through the Common Framework, The Registry offers jurisdictions 
with mandatory GHG reporting programs the benefits of a cost-sharing 
opportunity with other jurisdictions and economies of scale resulting 
from shared system approach, while also minimizing the reporting burden 
for organizations with operations in multiple jurisdictions and 
encouraging voluntary reporting.
    The Registry's second technical support option, Data Transfer, will 
permit states to transfer mandatory GHG data from their own GHG 
database systems to the Registry's voluntary program and other regional 
GHG programs.
    Currently, The Registry is working on a pilot project with the 
State of Nevada to support its mandatory reporting program and is 
working with over twenty jurisdictions to develop the Common Framework 
for potential use across North America.

3.1 Regional GHG Initiatives
    Two significant regional GHG initiatives are currently in 
development in the U.S.: The Western Climate Initiative (WCI) and the 
Midwest Greenhouse Gas Reduction Accord (MGGRA), both of which include 
multiple U.S. states and Canadian provinces working together to achieve 
regional GHG reduction goals through mandatory GHG reporting and cap 
and trade programs. The Registry is working with both initiatives to 
ensure as much consistency of GHG emissions as possible. In addition, 
both initiatives have indicated that they intend to use The Registry's 
IT infrastructure to serve as their common data repository.

3.2 Relationship to Federal GHG Reporting Programs
    The FY 2008 Consolidated Appropriations Act included language 
requiring the U.S. Environmental Protection Agency (U.S. EPA) to 
promulgate a rule to ``require mandatory reporting of GHG emissions 
above appropriate thresholds in all sectors of the economy.'' The draft 
rule was due in September 2008 and the final rule is due by June 2009. 
We understand that U.S. EPA has developed a draft rule which has not 
yet been publicly released.
    The Registry's Board of Directors recently adopted a federal policy 
position statement (Appendix B) to articulate the role it is seeking 
for The Registry in the context of a federal GHG reporting program. In 
their statement, the Board of Directors expressed their desire that 
future federal climate programs recognize the states, provinces and 
Native Sovereign Nations for taking early policy actions, including 
creating The Registry.
    The Board stated that The Registry should be viewed as a model and 
a resource to support a federal GHG registry. It further asserted that 
federal mandatory GHG reporting rules should utilize the systems and 
infrastructure already put in place through the states and The 
Registry. By securing a role for The Registry in a federal GHG 
reporting regime, the Board seeks to ensure GHG data consistency across 
North America, reduce the reporting burden on the regulated community, 
reduce administrative costs, avoid duplication and recognize the 
efforts of companies who have chosen to rigorously report and reduce 
their emissions early.
    The Board strongly endorsed that federal GHG reporting and 
regulatory programs should partner with The Registry as a cost-
effective central repository or clearinghouse for reporting and/or 
tracking emissions and should preserve states' abilities to continue to 
be innovators and leaders on climate policy.

4. Challenges to Obtaining Emissions Data

    The Subcommittee specifically asked me to speak to the challenges 
that members face when reporting their emissions to The Registry. 
Members primarily face two types of challenges: 1) organizational 
challenges, and 2) scientific uncertainty.
    Organizational challenges generally result from a lack of data 
collection systems specifically designed for GHG data collection. Since 
GHGs have not been regulated before, many organizations do not have 
management systems in place to monitor and track these emissions. It 
can take time to develop such systems, which has delayed some members' 
ability to report.
    Additionally, compiling a corporate emissions footprint requires an 
organization to collect GHG emissions information from all of its 
sources. Some of an organization's sources may constitute a small 
percentage of their emissions inventory, but they are still important 
to identify and include in an entity-wide inventory. This challenge may 
not be as great for mandatory reporting programs that use a traditional 
regulatory approach to collect data from sources with emissions above a 
certain threshold, as the reporting of smaller sources is not required.
    Scientific uncertainty presents additional challenges to obtaining 
high quality data. Measurement and/or calculation methodologies for 
certain sources of emissions either do not exist, or contain a high 
degree of uncertainty. Several major areas of scientific uncertainty 
are:

        <bullet>  Fugitive emissions of methane (from landfills 
        wastewater treatment plants, flaring, and other sources);

        <bullet>  Fugitive emissions of refrigerants;

        <bullet>  Out-of-date emission factors;

        <bullet>  Unknown carbon content of materials.

    Appendix C contains a list of calculation methodologies with high 
uncertainty that could be improved with additional scientific research 
and technological developments.
    It is important to note that this scientific and inherent 
uncertainty is a critical consideration for mandatory GHG programs that 
seek to implement a cap and trade component to their program. Under 
such a program, since GHG emission reductions equate to a financial 
commodity, it is critical to the integrity of the carbon market that 
the emissions are quantified with acceptable accuracy. While this may 
vary from program to program, both the WCI and the EU-ETS have 
generally found that uncertainty of plus or minus five percent is 
acceptable for their cap-and-trade programs.
    As a result, cap-and-trade programs will likely be constrained to 
only include emission sources with calculation methods that contain an 
acceptable level of uncertainty. The more research and development that 
can be directed to eliminate or reduce the uncertainty of large 
emission sources, the more robust a cap-and-trade program will be.

5.  Recommendations to promote more accurate GHG reporting

    The Subcommittee specifically asked me to provide recommendations 
that will promote more accurate GHG accounting verification and 
reporting, but before I do, I want to stress the fact that it is 
possible for organizations to accurately account for, report, and 
verify GHG emissions today.
    While scientific certainty does need to be improved in specialized 
sectors, most organizations are capable of accounting for their major 
GHG emission sources (stationary combustion, mobile combustion, 
indirect emissions, etc.). Significant progress has been made to 
develop best practices for reporting, and organizations no longer feel 
daunted by the process--as is evidenced by the over 300 members who 
have joined The Registry's voluntary program in less than a year.
    Given that reduced scientific uncertainty would help increase 
organizations' ability to accurately report GHG emissions, 
opportunities exist to improve accuracy in GHG reporting by:

        <bullet>  Updating emission factors in a timely fashion (EPA, 
        EIA, DOE, etc.);

        <bullet>  Conducting comprehensive surveys GHG emission 
        information to produce better emission factors and 
        quantification methods;

        <bullet>  Developing more industry-specific protocols;

        <bullet>  Funding the development of improving measurement 
        technology

                  Remote sensing

                  Laser methane gas detector monitoring of emissions 
                from landfills

        <bullet>  Incentivizing the use of existing measurement 
        technology.

6. Conclusion

    To conclude, The Climate Registry was created to help organizations 
answer the very question posed by this hearing, ``How do we know what 
we're emitting?'' The Registry took great care in designing its 
reporting, accreditation, and verification programs to ensure that GHG 
emission reports are comprehensive, accurate, consistent, and 
transparent, such that they are meaningful not only to the 
organizations themselves, but to the public and policy-makers as well.
    The Registry was created by states, provinces and Native Sovereign 
Nations to be a model for a federal registry and to establish a single 
unified registry across North America. To date, The Registry has 
developed robust reporting and verification protocols, established 
clear and specific calculation methodologies, and has created a 
comprehensive GHG database application that is capable of supporting 
both voluntary and mandatory GHG reporting initiatives.
    Time is of the essence when it comes to mitigating the negative 
impacts of climate change. Currently, given the leadership of 
individual jurisdictions, the U.S. is well positioned to work across 
State and federal jurisdictional lines to begin to tackle climate 
change in a new and collaborative way, and The Registry is uniquely 
positioned to help. We look forward to partnering with the Federal 
Government to serve a larger role in supporting national and 
international programs.
    Thank you again for the opportunity to present this testimony. I 
would be happy to answer any questions that you may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    Biography for Jill E. Gravender
    As Vice President of Policy for The Climate Registry, Ms. Gravender 
oversees the development of The Registry's voluntary greenhouse gas 
(GHG) reporting program, designs tools to assist jurisdictions with the 
implementation of mandatory GHG reporting programs, and provides 
overall policy direction to the organization.
    Ms. Gravender has over ten years of experience in environmental 
policy and management. She has specifically focused much of her work on 
climate change policy and greenhouse gas emissions management. In her 
current role with The Climate Registry, Ms. Gravender is responsible 
for promoting consistent reporting, accreditation, verification, and 
data collection standards for GHG emissions between The Registry's 
voluntary reporting program and emerging mandatory GHG reporting 
programs. In this capacity, she regularly interfaces with state/
provincial; regional, and federal policy-makers.
    Prior to joining The Climate Registry, Ms. Gravender served in 
multiple key roles at the California Climate Action Registry including, 
National & Operations Officer, Vice President of Programs, and 
Technical Director. In addition to her expertise in GHG accounting and 
verification issues, she previously served as the Director of Water 
Programs for the Environment Now Foundation, the Director of Operations 
for the New America Foundation, and as an independent consultant 
working on a variety of environmental and climate change issues.
    Ms. Gravender has a Bachelor's degree in Economics from Arizona 
State University and a Master's degree in Environmental Science and 
Management from the University of California, Santa Barbara.

    Chair Baird. Thank you. Ms. Wong.

   STATEMENT OF MS. LESLIE C. WONG, DIRECTOR, GREENHOUSE GAS 
                PROGRAMS, WASTE MANAGEMENT, INC.

    Ms. Wong. Chair Baird, Ranking Member Inglis, and Members 
of the Subcommittee, thank you for the opportunity to speak 
with you today about Waste Management's greenhouse gas programs 
and our efforts to measure and understand our company-wide 
greenhouse gas emissions.
    Waste Management (WM) is the leading provider of waste 
management, recycling and environmental services in North 
America. We also produce renewable, waste-based energy, enough 
now to power over one million homes a year. Waste Management 
has chosen to voluntarily participate in greenhouse gas 
inventory and reduction efforts since 2004, both to achieve our 
own sustainability goals and to help our customers achieve 
their goals.
    It is important to note, however, that the waste sector is 
a very small contributor to U.S. greenhouse gas emissions; it 
is less than three percent. And through advancing technology, 
environmental regulation and recycling, we have decreased 
greenhouse gas emissions by more than 75 percent in the past 
decade, despite a twofold increase in waste generation during 
that time period. In addition, EPA's 2008 greenhouse gas 
inventory found that landfill methane emissions have decreased 
by more than 16 percent since 1990.
    We are a big organization to inventory. We have about 2,500 
sites in 48 U.S. states and Canada. We have recycling 
facilities, transfer stations, clean energy power plants, 
hauling companies with over 22,000 vehicles, and about 300 
active and closed landfills. Our primary greenhouse gas 
emissions include direct carbon dioxide from using fossil fuel 
in vehicles and facilities, direct carbon dioxide emissions 
from the non-biogenic portion of the waste combusted in our 
waste-to-energy plants, indirect greenhouse gas emissions from 
the use of electricity, direct emissions of HFC's, PFC's and 
sulfur hexafluoride in de minimus amounts, and finally direct 
methane and carbon dioxide emissions from landfills--this 
includes fugitive and combustion emissions from landfill gas 
which is itself approximately half carbon dioxide and half 
methane. We are already working to reduce our greenhouse gas 
emissions by tripling our recycling volume by 2020, by 
investing in innovative technology for landfill fleet 
management and doubling our renewable power production by 2020.
    To complement our greenhouse gas reduction efforts, we have 
participated in two voluntary greenhouse gas management 
programs, and we are now undertaking a voluntary greenhouse gas 
footprint of our own development.
    Waste Management is a founding member of the Chicago 
Climate Exchange and was the first solid waste company to join. 
Since 2004, we are on track to meet our membership commitment 
of a six percent reduction from our CCX baseline by 2010. As a 
CCX member, we prepare a third-party verified annual inventory 
of carbon dioxide from fuel combustion and from waste 
combustion at our wholly owned waste-to-energy facilities.
    Then in 2006, Waste Management was the first solid waste 
company to join the California Climate Action Registry, known 
as CCAR. We report direct carbon dioxide emissions from fuel 
consumption, indirect carbon dioxide emissions from electricity 
use, and these are also third-party verified reports. We also 
opted to report greenhouse gas emissions from landfills to 
pilot a landfill greenhouse gas inventory tool called the Solid 
Waste Industry for Climate Solutions, or SWICS, protocol. The 
protocol greatly enhances currently available gas generation 
models that rely on default values by replacing that with 
measured data. This protocol also recognizes carbon 
sequestration where the anaerobic conditions of a modern 
landfill allow significant amounts of biogenic material to not 
degrade.
    Once CCX and CCAR got us started, we launched a two-year 
project to inventory our company-wide emissions using 2009 data 
to report in 2010. The Waste Management carbon footprint team 
has so far identified all of our sources, identified or 
developed emission calculation protocols and developed a 
software tool for collecting verifiable data from the field. 
The next step is data collection and then comes actual 
reporting.
    Our data will be auditable to support third-party 
verification, but we have recommended to EPA that third-party 
verification is unnecessary in a mandatory federal reporting 
program. There is no precedent for third-party verification in 
any federal environmental statute under which we operate.
    The protocols we are using at other landfills were 
developed by The Climate Registry in conjunction with CCAR, but 
to calculate landfill emissions we will use our SWICS protocol 
because it reflects the most sophisticated means of landfill 
assessment currently available through peer-reviewed science. 
However, estimation of fugitive landfill emissions is still a 
work in progress. A broadly accepted protocol does not exist. 
However, Waste Management, with other industry and academic 
leaders and EPA, is now conducting tests to measure landfill 
gas emissions under a variety of conditions, and this is 
detailed in our written testimony. We have urged the agency to 
consider waiting until the result of this research can be used 
to further refine greenhouse gas emission estimation before 
requiring landfills to report site-specific greenhouse gas 
emissions.
    In our greenhouse gas inventory efforts, Waste Management 
has learned that developing a proper program takes significant 
time. We believe a phased approach that allows reporting for a 
limited range of greenhouse gases or limited set of sources for 
the first two to three years is essential. We recommend that a 
federal reporting program provide a transition period and 
exclude sources for which there is not an approved emission 
calculation protocol until such time that one is adopted.
    Thank you for the opportunity to present this information, 
and I will be ready to answer questions when you are. Thanks.
    [The prepared statement of Ms. Wong follows:]
                  Prepared Statement of Leslie C. Wong
    Chairman Baird, Ranking Member Inglis, and Members of the 
Subcommittee, thank you for the opportunity to speak with you today 
about Waste Management's greenhouse gas programs and our efforts to 
measure and understand our company-wide greenhouse gas emissions.
    Waste Management (WM) is the leading provider of comprehensive 
waste management, recycling and environmental services in North 
America. We are also a leading producer of renewable, waste-based 
energy--enough to power over one million homes each year. Waste 
Management is committed as an industry leader and environmental steward 
to identify our company carbon footprint, voluntarily reduce our 
greenhouse gas (GHG) emissions, and help our customers do the same.
    Waste Management's greenhouse gas emissions include:

        <bullet>  CO<INF>2</INF> emissions from combustion of fossil 
        fuel in our vehicles and in stationary sources at our 
        facilities;

        <bullet>  CO<INF>2</INF> emissions from non-biogenic\1\ waste 
        combusted at our waste-to-energy plants (about 34 percent of an 
        average waste-to-energy plant's total CO<INF>2</INF> 
        emissions). These emissions are more than offset by production 
        of renewable electricity;
---------------------------------------------------------------------------
    \1\ Non-biogenic describes waste that is not produced from a 
biological process, and includes materials such as plastics and 
synthetic textiles.

        <bullet>  Indirect GHG emissions from our use of electricity; 
---------------------------------------------------------------------------
        and

        <bullet>  Methane emissions from MSW landfills. These emissions 
        are controlled by operation of gas collection and control 
        systems, some of which generate renewable energy, combined with 
        landfill cover management.

WM employs a number of innovative technologies to reduce greenhouse gas 
                    emissions, including:

        <bullet>  Saving virgin resources and energy through the 
        Nation's largest recycling program. We announced in October 
        2007 that we plan to triple the amount of recyclable materials 
        we manage by 2020;

        <bullet>  Advancing technology for alternative transportation 
        fuels (e.g., landfill gas to liquefied natural gas) and engine 
        design to lower GHG emissions from our vehicles. We are 
        developing a landfill gas to liquefied natural gas plant in 
        Altamont, California, and we plan to direct capital spending of 
        up to $500 million per year over a ten-year period to increase 
        fuel efficiency of our fleet by 15 percent and reduce our 
        emissions by 15 percent by 2020;

        <bullet>  The operation of landfill-gas-to-energy, waste-to-
        energy and biomass plants that produce electricity and fuels to 
        replace fossil fuel use. We plan to double our 2008 output of 
        renewable energy by 2020;

        <bullet>  The recovery and destruction of methane gas from 
        landfills in accordance with and beyond that required by 
        regulation; and

        <bullet>  Development of ``Next Generation'' landfill 
        technology that offers enhanced collection and beneficial use 
        of landfill gas.

The Solid Waste Sector has Substantially Reduced GHG Emissions

    Overall, the waste sector is a very small contributor to total U.S. 
GHG emissions--less than three percent. Through technological 
advancements, environmental regulations and emphasis on resource 
conservation and recovery, the solid waste management sector decreased 
GHG emissions from municipal solid waste (MSW) management by more than 
75 percent from 1974 to 1997--despite an almost two-fold increase in 
waste generation during that time period.\2\ The EPA's 2008 U.S. GHG 
Inventory notes that just since 1990, landfill methane emissions have 
decreased by more than 16 percent.
---------------------------------------------------------------------------
    \2\ K. Weitz et al., The Impact of Municipal Solid Waste Management 
on Greenhouse Gas Emissions in the United States, Journal of Air & 
Waste Management Association, Volume 52, September 2002.

WM is a Founding Member of the Chicago Climate Exchange

    Waste Management was the first company in the solid waste industry 
to join with others to methodically reduce GHG emissions. As a founding 
member of the Chicago Climate Exchange (CCX), we meet CCX's membership 
commitment to decrease greenhouse gas emissions for both Phase I and 
Phase II of the program, which is a six percent reduction in emissions 
from our 1998-2001 baseline, in year 2010.
    To demonstrate compliance, WM prepares an annual inventory of fuel 
consumption-related CO<INF>2</INF> emissions per the CCX Rules. Since 
2004 WM has annually reported to the CCX our U.S. CO<INF>2</INF> 
emissions from fuel consumption, as well as waste combustion at our 
wholly-owned waste-to-energy facilities. This includes CO<INF>2</INF> 
from combustion of fuel in our U.S. operated collection vehicles and 
stationary facilities, small quantities of supplemental fossil fuel 
consumed by our waste-to-energy plants, and combustion of non-biogenic 
materials (primarily plastics) contained in the waste burned in our 
waste-to-energy plants. CCX members' annual inventories are third-party 
audited by the Financial Industry Regulatory Authority (FINRA) at the 
direction of CCX, and then certified.

Initial inventorying in California. WM joined the California Climate 
Action Registry (CCAR) in 2006 to pilot greenhouse gas inventorying by 
voluntarily measuring and reporting emissions from all of our 
California operations. Waste Management was the first solid waste 
company to join CCAR and was recently designated a ``Climate Action 
Leader'' by CCAR. As a member of CCAR, we reported our 2006 direct 
CO<INF>2</INF> emissions from mobile and stationary source fuel 
consumption, and indirect CO<INF>2</INF> emissions from electricity use 
that occurred in the State of California in accordance with CCAR 
quantification and reporting practices. The 2006 emissions report was 
third-party verified and accepted by CCAR in May 2008. Our 2007 
emissions inventory is undergoing verification.
    WM is voluntarily reporting to CCAR GHG emissions from our 
California landfills, using the Solid Waste Industry for Climate 
Solutions (SWICS) protocol developed by SCS Engineers,\3\ which we have 
shared with State regulators, the U.S. EPA, The Climate Registry, CCAR 
and the Subcommittee. The protocol presents an in depth literature 
review and makes recommendations on refining current landfill emissions 
models. It replaces default values for landfill gas collection 
efficiency and methane oxidation in existing EPA models with ranges, 
and thus better accounts for effects of climate, landfill design and 
landfill cover types. The protocol represents a first step in refining 
existing EPA models and protocols to improve landfill GHG emission 
estimation. The protocol has been accepted by TCR for inclusion in 
guidance to be provided, when finalized, to local governments to use in 
reporting emissions from landfills.
---------------------------------------------------------------------------
    \3\ SCS Engineers, Current MSW Industry Position and State-of-the-
Practice on LFG Collection Efficiency, methane Oxidation and Carbon 
Sequestration in Landfills, Prepared for Solid Waste Industry for 
Climate Solutions (SWICS), Version 2.2, Revised January 2009.
---------------------------------------------------------------------------
    WM also voluntarily reported to CCAR:

        <bullet>  Estimated avoided emissions associated with renewable 
        power production at our California landfill gas to energy 
        projects and our biomass plant;

        <bullet>  GHG reductions associated with the recycling of 
        municipal solid waste materials processed by WM operations in 
        California; and

        <bullet>  Estimated annual carbon sequestration in our 
        California landfills.

    These results are publicly available at http://
www.climateregistry.org/CARROT/public/reports.aspx under ``Waste 
Management.''

Company-Wide WM Greenhouse Gas Inventory

    Our participation in CCX and CCAR has been a useful prelude to 
developing a company-wide greenhouse gas inventory, or as we are 
calling it, our company carbon footprint. In anticipation of State and 
federal regulation and in order to understand and disclose our carbon 
footprint, in December 2007 WM launched a two-year project using a 
multi-disciplinary team to inventory our 2009 emissions to be ready for 
voluntary or mandatory reporting in 2010. Once WM has completed its 
carbon footprint, we will be able to use the information to further 
develop GHG management and reduction strategies.
    Inventorying GHG emissions is a big task for a large and complex 
company like Waste Management, which has a total of approximately 2,500 
facilities and about 22,000 collection and transfer vehicles. The 
project team is applying the experience gained through membership in 
the CCX and voluntary GHG reporting in California. The team is 
identifying WM sources of GHG, calculating GHG emissions, and--where no 
methods exist--developing new protocols reflecting the state-of-the-art 
thinking on the most accurate, available GHG estimation methods.
    The WM team is well on the way to meeting our goal of collecting 
and calculating our 2009 GHG emissions throughout this year and 
reporting them in 2010. The team organized itself around four major 
tasks, which have been largely accomplished:

        1.  Identifying all WM sources of GHG, and identifying existing 
        or developing new protocols for measuring their emissions;

        2.  Developing the organizational structure for reporting 
        emissions from individual facilities, up to the company as a 
        whole, and identifying internal means to collect emissions 
        data;

        3.  Benchmarking, selecting and configuring a software tool for 
        managing and reporting WM emissions data, which we have named 
        Climate Care; and

        4.  Communicating to internal and external stakeholders about 
        what we are doing, and developing training for WM staff who 
        will be involved in data collection.

    This year the team's focus will be to provide training and to work 
with WM field personnel to collect, document and quality assure our 
2009 emissions information, upload the data into our Climate Care 
software and calculate our carbon footprint in early 2010.
    For each source category in our inventory we have identified 
auditable data resources, for example fuel and utility invoices that 
have been subject to accounting audits. While we are preparing an 
inventory that can support third-party verification, we believe that 
third-party verification is unnecessary in a mandatory federal 
reporting program. There is no precedent for third-party verification 
in any federal environmental statute under which we operate. We do, 
however, support third-party verification of greenhouse gas offsets, 
which are tradable commodities with direct financial value.
    The protocols and emission calculation methodologies we will employ 
for most of our GHG sources are those developed by The Climate Registry 
in conjunction with CCAR. For indirect emissions from electricity use, 
we will use monthly invoices to identify usage in kilowatts and 
calculate emissions using emission factors from U.S. EPA's eGrid table 
that provides information on the fuel mix used by electric utilities on 
a state-by-state basis.
    To calculate CO<INF>2</INF> emissions from burning fossil fuels in 
our vehicles and in stationary sources at our facilities, we will use 
centralized company-wide fuel purchase data and monthly invoices to 
calculate the amount used of each fuel type, along with the TCR 
protocol and U.S. and Canadian tables for calculating the carbon 
content of each type of fuel used.
    On an annual basis we will use stack-testing information along with 
waste characterization data to calculate CO<INF>2</INF> emissions from 
our waste-to energy facilities. Further, testing of stack gas from 
waste-to-energy plants using ASTM Standards D-6866 can determine 
precisely the percentage of carbon dioxide emissions attributable to 
biogenic and non-biogenic sources, so that we can differentiate the two 
for inventory accounting purposes under the TCR protocol.
    WM emissions from use of refrigerants and high voltage equipment 
will be estimated at the end of 2009 and a more detailed inventory 
process developed for use in 2010.
    On an annual basis, WM will be calculating the biogenic CO<INF>2</INF> 
emissions from landfill flares and landfill gas fired engines and 
turbines, as well as calculating fugitive emissions of biogenic 
CO<INF>2</INF> and methane using the SWICS protocol. TCR has recognized 
the SWICS protocol as additional guidance that may be used by TCR 
members to report landfill emissions in a protocol due to be published 
for public comment in the near future. In addition, WM will calculate 
the carbon sequestration attributable to the portion of annual receipts 
of biogenic waste that will not decompose in the landfill to produce 
methane. Inclusion of landfill carbon sequestration as an anthropogenic 
sink is consistent with both the UN Intergovernmental Panel on Climate 
Change (IPCC) and U.S. EPA national inventory practices, which account 
for carbon sequestration of undecomposed wood products, food scraps and 
yard trimmings disposed of in landfills. Both entities consider carbon 
sequestration to be an integral component of the landfill carbon mass 
balance calculations. We have recommended that EPA incorporate carbon 
sequestration into the landfill GHG emissions calculation methodology 
it eventually adopts for site-specific federal GHG reporting.

Lessons Learned:

Estimating fugitive landfill emissions is still a work in progress
    While modeling aggregated landfill emissions across the U.S. using 
national default assumptions is possible, estimating individual 
landfill emissions is still a ``work in progress'' and not yet ready 
for site-specific or entity-based mandatory inventorying. A broadly 
accepted protocol for estimating the carbon mass balance of landfills 
does not yet exist. However, Waste Management and other landfill 
operators, along with the State of California and the EPA Office of 
Research and Development are investing significant resources to refine 
and improve existing models based on site-specific data.
    WM along with other public and private owner/operators of landfills 
funded development of the SWICS protocol by SCS Engineers. The protocol 
represents a first step in refining existing EPA models and protocols 
to improve landfill GHG emission estimation.
    As a second step, WM is conducting field emissions testing using 
tunable diode lasers and flux boxes, to measure landfill gas (LFG) 
emissions under a variety of conditions including: slopes and flat 
surfaces; daily cover and active working face; intermediate cover; 
final cover (with and without a geomembrane); and to measure seasonal 
variations in methane oxidation and capture efficiency. Ultimately, WM 
hopes to develop a database that describes methane emissions over the 
range of conditions one finds at both operating and closed landfills 
using field-validated numbers instead of uncertain models. The multi-
year testing program will evaluate a minimum of ten cover types over a 
minimum of two seasons. Concurrently, WM and other waste sector members 
have also volunteered sites and are cooperating with research being 
conducted by Dr. Jean Bogner for the California Energy Commission. 
Additionally, WM and Veolia conducted field research for a comparative 
analysis of several landfill methane estimation techniques (flux box, 
tracer gas, micrometeorological, plume mapping, DIAL measurements). 
Results from this research initiative will be reported in 2009. The 
EPA's Office of Research and Development participated in the research 
with us and we are discussing further work with them under a 
cooperative agreement.
    Finally, researchers at Florida State University working with WM 
are developing a model to evaluate methane oxidation in landfill cover. 
The FSU model will represent the physical and chemical processes in 
cover that control emissions and oxidation. This will provide a tool 
that will allow the design and operation of landfill cover systems, in 
concert with gas collection systems, to minimize emissions. It may also 
prove acceptable for use as an emissions inventory tool in a year or 
two once field validation is accomplished.
    A great deal of research is underway or planned for the next two 
years that will be enormously valuable to EPA and the waste sector in 
better understanding the estimation and control of landfill methane and 
CO<INF>2</INF> emissions. We have urged the Agency to consider waiting 
until after the results of this research can be used to develop more 
refined emissions estimation methods before requiring landfills to 
inventory site-specific GHG emissions as part of a federal mandatory 
reporting program.

A Phased Approach to Inventory Development is More Workable

    In our GHG inventory efforts from 2006 to date, WM has learned that 
developing a complete and accurate GHG inventory requires building an 
efficient, accurate and verifiable data collection system and 
identifying or devising reliable, scientifically accurate emission 
calculation protocols. Both efforts take time, particularly for 
organizations with a large number of diverse GHG emission sources. We 
believe a phased approach to inventorying that allows an organization 
to focus on reporting one GHG, or emissions from a selected set of 
sources in the first two to three years will allow an organization to 
develop the tools necessary to transition to full GHG reporting 
thereafter. Both TCR and CCAR recognize the need for a transitional 
period and make it available to their members to allow reporters to 
gain the knowledge and develop the tools necessary to comply with the 
full complement of the registries' requirements. We recommend that a 
federal mandatory reporting program, when implemented, incorporate a 
similar transition period.
    Thank you for this opportunity to share with you this summary of 
our programs and efforts relating to GHG emissions. I will be pleased 
to try to answer any questions that you may have.

                      Biography for Leslie C. Wong
    Ms. Wong serves as Waste Management's Director of Greenhouse Gas 
Programs and, in that role, is overseeing the development of a company-
wide greenhouse gas footprint and a corresponding greenhouse gas 
inventory and reporting program. Ms. Wong also assists Waste Management 
in the areas of air permitting, compliance, training and regulatory 
analysis. Prior to joining Waste Management in 2008, Ms. Wong was an 
environmental consultant and a landfill gas-to-energy project 
developer. Her professional experience includes greenhouse gas 
inventory development and review; renewable energy project development 
and environmental management; air permitting, compliance and offset 
management in ozone non-attainment areas, environmental regulatory 
analysis and interpretation and environmental agency negotiations 
support. She is a member of the State Bar of Texas, earned her Juris 
Doctor from the University of Arkansas at Little Rock School of Law, 
and earned her B.A. from Hendrix College in Conway, Arkansas.

    Chair Baird. Thank you. Mr. Ellis.

  STATEMENT OF MR. ROB ELLIS, GREENHOUSE GAS PROGRAM MANAGER, 
         ADVANCED WASTE MANAGEMENT SYSTEMS, INC. (AWMS)

    Mr. Ellis. Thank you, Chair Baird and Members of the 
Subcommittee. I appreciate the opportunity to speak on this 
topic.
    With greenhouse gas offset programs trading in markets such 
as the Chicago Climate Exchange and with companies publicly 
reporting their greenhouse gas emissions inventories in 
programs such as The Climate Registry, the consequences of 
error and opportunity for fraud are high. The protection 
against this is the requirement that disinterested third 
parties, such as Advanced Waste Management Systems, or AWMS, 
provide a verification that the reported values are accurate 
and complete. The ISO 14064-3 and ISO 14065 International 
Organization for Standardization Standards are the acceptable 
rules for conducting greenhouse gas verifications in the U.S. 
and the world. These are the standards utilized for obtaining 
accreditation to perform verifications for entities such as The 
Climate Registry and the Chicago Climate Exchange. Both of 
these organizations have tasked the American National Standards 
Institute, ANSI, with accreditation of these verifiers. Using 
these ISO standards and the protocols of the specific program, 
ANSI conducts a thorough audit of the verifier to ensure 
appropriate technical knowledge, auditing skills, knowledge of 
the appropriate protocols, and implementation of a management 
system capable of providing a consistent work product. This 
accreditation process entails both witnessing of actual 
verification work and of the verifier's management structure.
    AWMS successfully completed the accreditation process and 
is now one of six companies accredited to perform verification 
for The Climate Registry. We are also accredited to perform 
verifications for the Chicago Climate Exchange. The process for 
performing greenhouse gas verification varies slightly 
depending on the program, but the need for certainty for the 
reported data is so great that any greenhouse gas verification 
is conducted in a very consistent and rigorous fashion. The 
verification process essentially is a complete deconstruction 
of a company's inventory data. The initial data analysis is 
performed remotely using supplied information such as internal 
tracking, spreadsheets, monitoring reports, fuel usage, 
receipts, et cetera. The verifier uses this hard data to ensure 
appropriate application of emissions factors and usage of 
correct equations when generating the inventory or offset 
amount.
    Along with this more technical analysis comes simple 
analysis such as looking for transcription errors, data entry 
errors, things like that. The completed data analysis serves as 
the basis for risk assessment approach for on-site activities. 
Those areas of the company's inventory judged to be at greatest 
risk of error, material impact of the inventory, they are 
scheduled for detailed analysis by an on-site verification 
team. On-site activities focus on where the data originated. 
Examples include verification of monitoring equipment, 
maintenance and calibration, verification that all emission 
points are included in the inventory, and interviews with those 
responsible for collecting that data.
    The final step in the verification process is a technical 
review by another verifier from within the verification body. 
This is an additional, complete verification with the exception 
being that the observations of the on-site verification team 
are used rather than adding additional on-site burden.
    To conclude, I would like to emphasize the importance of 
the conflict of interest component to any verification program. 
The inherent risk of performing verification of consulting work 
that one's own company has conducted presents a conflict of 
interest that jeopardizes any greenhouse gas inventory or 
offset program. Such programs must protect against verification 
bodies hiding consulting work behind false or weak corporate 
separations. Additionally, relationships in which one verifies 
another's consulting work, if the favor is returned, must be 
watched for. Advanced Waste Management Systems, for example, 
performs no consulting activity of any kind.
    Thank you very much, and I look forward to answering any 
questions.
    [The prepared statement of Mr. Ellis follows:]
                    Prepared Statement of Rob Ellis
    Over the past decade the world has developed sophisticated 
approaches to control and monitor greenhouse gas emissions, including 
creating an economic model by which greenhouse gas caps are mandated 
allowing industry to emit a set level of carbon dioxide equivalent tons 
(there are six greenhouse gases, each a multiple of CO<INF>2</INF> 
which is the base greenhouse gas).
    An industry exceeding the cap is permitted to continue operation if 
it exceeds these limits, but it must buy offsets from industries that 
are emitting less greenhouse gas than the limit. This is the ``Cap & 
Trade'' mechanism well tested in many international markets.
    The commerce in these carbon markets now involves tens of billions 
of dollars of trade in carbon credits. Carbon credits are essentially 
traded as a commodity in much the same way as corn or wheat. Successful 
markets include the European Union Emission Trading Scheme and here in 
the U.S., the Chicago Climate Exchange.
    In addition, both voluntary and mandatory emissions reporting 
programs have been established. Examples include The Climate Registry, 
the Regional Greenhouse Gas Initiative (RGGI), and the California 
Global Warming Solutions Act of 2006 (AB 32). These programs are 
fundamentally based upon companies accurately reporting their 
greenhouse gas inventories.
    Given the value of greenhouse gas reductions claims, or credits, 
and the need for accurate emissions inventories, the opportunity for 
fraud is huge. Plus, a greenhouse gas credit is not obvious as is a 
bushel of corn. To ensure the validity of greenhouse gas claims a 
third-party, disinterested verifier is required. These verifiers must 
pass rigorous examination, field observation, and in-house auditing to 
become accredited to the international greenhouse gas verification 
standards, ISO 14064-3 and ISO 14065. The American National Standards 
Institute (ANSI) oversees this accreditation process. Advanced Waste 
Management Systems, Inc. (AWMS) was one of six North American firms to 
successfully pass these requirements for verifying greenhouse gas 
inventories for The Climate Registry. In addition, AWMS holds 
accreditation from The Chicago Climate Exchange to perform greenhouse 
gas offset project verification. We arrived at this point by operating 
an office in Europe since 2002 to pursue greenhouse gas verification 
under international UNFCCC protocols. Additionally, AWMS retained the 
top British trainer in greenhouse gas verification to come to our 
headquarters office in Tennessee to train all 10 of our degreed 
professional staff.
    The Chicago Climate Exchange accreditation process entailed 
submitting detailed financial, operational, and personnel information 
in one complete package. This package was judged by the Chicago Climate 
Exchange to warrant accreditation of AWMS as a verifier within the 
project types of Landfill Methane and Renewable Energy. The Chicago 
Climate Exchange has determined, however, that ANSI accreditation will 
now be required of all verifiers.
    The ANSI accreditation process began with an application phase that 
required AWMS to submit its complete management system. This management 
system was based upon AWMS international experience as well as the 
requirements of The Climate Registry. ANSI, based upon an initial 
review, judged the AWMS management system to be robust enough to 
warrant entry into the pilot accreditation program. This program was 
divided into two phases: a witness assessment and a program/office 
assessment.
    For the witness assessment, AWMS was required to make available a 
member of The Climate Registry pursuing verification to ANSI staff for 
the purpose of witnessing AWMS staff perform the verification. The ANSI 
auditor shadowed the AWMS verification team to judge whether the AWMS 
verifiers possessed the technical capabilities and knowledge of the 
protocols required. AWMS passed this phase of the accreditation process 
with no non-conformities or findings.
    The program/office assessment entailed ANSI auditors auditing the 
AWMS management system at AWMS headquarters. The audit team reviewed 
our complete system and confirmed whether our program met the 
requirements of ISO 14065 and The Climate Registry. This audit included 
checks such as conflict-of-interest and impartiality assurances, 
methods for ensuring qualified personnel are assigned to each 
verification, on-going training tools, records keeping, AWMS' ability 
to adjust to revisions to relevant protocols, and AWMS' internal 
corrective and preventive action system. Again, AWMS successfully 
completed this phase of the verification.
    Upon completion of the ANSI audits AWMS was granted accreditation 
as one of only six companies to pass the pilot application process.
    Advanced Waste Management Systems, Inc. utilizes ISO 14065 as the 
foundation for its greenhouse gas verification procedures. This 
Standard dictates four phases to the verification process: Pre-
Engagement, Approach, Verification, and Verification Statement. This 
ISO Standard is a general set of rules designed to allow their 
adaptation to more specific protocols such as those of The Climate 
Registry and the Chicago Climate Exchange. AWMS has created a specific 
set of procedures for our verification activities. Program specific 
protocols also provide specific guidance on performing verifications.
    As an example, AWMS has created a procedure defining the process 
for verification of an inventory of a member of The Climate Registry. 
The Pre-Engagement phase of this procedure centers on formally 
establishing the relationship between the member and AWMS, the 
verifier. This process is initiated by an application filed by the 
member. This application includes information such as the number of 
sites comprising the member, the number of employees at each site, and 
the primary greenhouse gases emission sources at each of those sites. 
This information allows AWMS to determine the appropriate amount of 
resources required to perform the verification. The application also 
provides the required information to initiate a conflict-of-interest 
assessment. The Climate Registry, as with all greenhouse gas accounting 
programs in which AWMS has participated, has a very strict conflict-of-
interest policy. For example, AWMS must demonstrate that no employee 
who will be involved in a verification owns greater than $5,000 
interest in that member. This information is submitted to The Climate 
Registry for formal approval of the relationship. Upon approval of the 
conflict-of-interest AWMS submits to the member a Verification 
Agreement that formalizes AWMS' roles as that member's verifier. This 
document also outlines the member's rights and duties. AWMS assigns a 
Lead Verifier at this point, as well.
    The Approach phase of this procedure centers on communication 
between the member and AWMS. Central to this communication is the 
Verification Plan. The Verification Plan includes sections defining 
topics such as the level of assurance, verification objectives, 
verification criteria, verification scope, and the materiality. This 
Verification Plan also defines the schedule of activities. A kick-off 
meeting is held during this phase that covers the topics of the 
Verification Plan in order to achieve consensus with the member. Once 
the Verification Plan is finalized a notification of activities is 
formally presented to The Climate Registry for approval. During this 
phase, AWMS also presents to the member a list of information that will 
need to be provided in order to perform the verification. Examples may 
include the spreadsheet or database used to track emissions, meter 
readings, electric and/or gas bills, emissions monitoring reports, 
maintenance and calibration records, etc.
    The Verification phase of this procedure entails the detailed 
verification activities. The verification process is initiated with a 
desk audit. A desk audit is performed remotely using the electronic or 
hard copy data that has been submitted to AWMS by the member. The 
primary focus of the desk audit is to determine whether appropriate 
emissions factors and equations have been utilized to calculate the 
metric tons of CO<INF>2</INF> equivalent and to assess conformance to 
appropriate reporting protocols. In the case of The Climate Registry 
the desk audit also includes an assessment of the on-line based CRIS 
reporting tool. This tool allows the member to enter source data (e.g., 
electricity usage, fuel usage) into a web-based database that will then 
calculate the member's inventory using the appropriate emissions 
factors and equations. By utilizing CRIS the member can be assured that 
the appropriate calculations are being made, and AWMS as the verifier 
does not need to check each individual calculation. The option is 
available to the member, however, to perform their own internal 
calculations of their greenhouse gas inventory and to then input these 
final numbers into CRIS. In this case the desk audit is the stage where 
AWMS performs a detailed evaluation of these internal tools to confirm 
the calculations are correct. Typically this involves large 
spreadsheets with many internal links and source data. The desk audit 
specifically involves deconstructing these spreadsheets to understand 
how the data was utilized. AWMS utilizes the member provided 
information such as electric and gas bills to perform a check on data 
entry as well. Errors often include transcription errors, missing 
entries, and copy and paste errors. Any such errors are tracked on an 
issues log maintained by each member of the verification team.
    The results of the desk audit are the basis of a risk assessment 
performed by the AWMS verification team to determine the schedule on-
site activities. In the case of The Climate Registry an on-site 
assessment is always required for a member reporting an inventory of 
greater than 1,000 metric tons of CO<INF>2</INF> equivalent. The risk 
assessment is conducted to determine those areas of the member's 
reported inventory that have either the highest impact on the total 
inventory or those areas that have the highest likelihood of error. 
Examples might include a member with 90 percent of their inventory 
resulting from a single electric meter or a member with refrigerant 
usage that is tracked by a single maintenance technician. Upon 
completion of the risk assessment AWMS generates a formal Sampling Plan 
that is distributed to the member for planning.
    The on-site portion of the verification is focused on the actual 
data utilized to generate the member's inventory. The fundamental 
principle of the on-site verification is that an inventory calculation 
is only as good as the data that it is based upon. The verification 
team is focused on determining whether this raw data is being 
appropriately tracked and gathered. This includes detailed checks on 
metrology such as flow meters, electricity meters, and continuous 
emissions monitors. These checks include verification that routine 
maintenance has been performed, and whether routine calibrations are 
performed as required. The on-site portion of the verification also 
entails detailed personnel interviews. These interviews are conducted 
to determine whether the data collection methodologies are appropriate 
and complete. Information such as whether the data is collected via 
electronic data logger versus hand written readings supports the 
accuracy of the raw data. For example, if the data is logged via 
handwritten forms, the verification team determines whether the 
individuals recording the data are trained on that instrumentation and 
whether there are trained backups available on-site should that 
technician be unavailable. In many cases the data is not collected as 
simply as one meter or instrument, but rather as an extrapolation. This 
is most common to vehicle emissions where fuel consumption may vary 
from on-site tanks that are routinely monitored to fleet vehicles which 
fuel at public gas stations. In these cases it is necessary for the 
verification team to confirm the validity of the techniques used to 
arrive at the final value. The Climate Registry protocols allow for 
varying levels of data quality, however the verifier must ensure that 
members accurately state their data quality. As with the desk audit 
phase, each member of the verification team maintains an issues log 
used to track any noted errors.
    Upon completion of the on-site verification the AWMS verification 
team performs a debrief at which time the errors noted on each 
verification team member's issues log are reconciled. Noted errors are 
communicated to the member giving them an opportunity to perform 
possible corrective actions. AWMS at all times maintains third-party 
status and is obligated as a verifier to simply communicate error; at 
no time does AWMS engage in consulting as to how to fix the errors. The 
sum of the errors (in percentage of the direct emissions value and 
indirect emissions value) drives the necessity for corrective action. 
In the case of The Climate Registry any error of greater than five 
percent (regardless of whether it is under reporting or over reporting) 
results in a negative verification. In these cases the member must make 
corrective action in order to remain conformant with The Climate 
Registry. Corrective action must substitute good data for bad or 
missing data or result in a sound enough estimation technique to bridge 
the bad or missing data. Substitute data can be found, for example, by 
using electric bills in place of direct meter readings, or fuel 
purchase records in place of flow meter readings. Estimation techniques 
may include using sound data points from either side of the gap to 
create a trend. Members have the option to use simplified estimation 
techniques for up to five percent of their total inventory.
    The Verification Statement phase of the procedure begins upon 
completion of the on-site verification activities that conclude with 
the verification team issuing the verification report. This report is 
handed off to an AWMS technical reviewer who may be any qualified 
verifier that has not participated in the verification in any way up 
until this point. It is the responsibility of this technical reviewer 
to conduct an additional complete review of the member's inventory. The 
technical reviewer utilizes the observations of the verification team 
in place of a repeat on-site assessment. The technical reviewer is 
responsible for issuing the final verification statement. This 
statement may reflect either a positive verification or a statement 
that the inventory was not verifiable.
    The Climate Registry members must complete the verification process 
annually. Initial baseline verifications require a higher level of 
effort, but the process flow remains the same every time. AWMS 
maintains routine communication with those members that have 
verification statements issued by AWMS in order to determine if 
protocol driven triggers require a new baseline inventory. In cases 
where these triggers are not met, the verification process may take 
less time given the level of familiarity with the member's internal 
monitoring methodologies.
    As programs continue to be developed and honed, AWMS sees one key 
issue that bears close attention: conflict-of-interest management. The 
situation of a company performing a verification of a body of work 
which that same company's consulting wing has generated must be 
protected against. As the various greenhouse gas inventory and offset 
programs continue to expand their membership the opportunity for this 
conflict expands as well. To maintain validity such programs must have 
thorough mechanisms to prevent verifiers from hiding consulting work 
behind false corporate separations. Similarly greenhouse gas programs 
must be aware that opportunity exists for several verifiers to pass 
work between themselves with a tacit agreement that Company A will 
verify Company B's consulting work if Company B returns the favor. The 
independence of the verification body is critical to the viability of 
any greenhouse gas trading scheme or inventory program.

                        Biography for Rob Ellis

EDUCATION

University of Tennessee at Chattanooga, Chattanooga, TN--M.S., 
        Environmental Science

University of Rochester Rochester, NY--B.S., Geology

Lead EMS Auditor course and exam

Lead OHSAS 18001 Auditor course

Lead GHG Verifier course and exam

WORK EXPERIENCE

August 2003-Present, GHG Program Manager, AWMS, Chattanooga, TN

        <bullet>  Management of greenhouse gas verification business 
        activities.

        <bullet>  Development and maintenance of AWMS' internal 
        greenhouse gas verification procedures and policies and 
        management of successful ANSI accreditation.

        <bullet>  Perform greenhouse gas verifications to The Climate 
        Registry protocols and Chicago Climate Exchange protocols.

        <bullet>  Perform environmental management system audits to the 
        ISO 14001 Standard and health and safety management system 
        audits to the OHSAS 18001 Standard.

        <bullet>  Provide support in the development and maintenance of 
        AWMS' ISO 14001 and OHSAS 18001 registrar services.

August 2002-August 2003, Env., Health and Safety, ALSTOM Power, 
Chattanooga, TN

        <bullet>  Responsible for the design, implementation, and 
        maintenance of OHSAS 18001 conforming health and safety 
        management system.

        <bullet>  Maintenance of the ISO 14001 environmental management 
        system.

        <bullet>  Maintenance of compliance with environmental, health 
        and safety regulations and permits.

        <bullet>  Monitor environmental, health and safety statistics.

September 1999-August 2002, Geologist, Harding ESE, Knoxville, TN

        <bullet>  Field lead for installation of injection, extraction, 
        and monitoring wells and associated conveyance and remediation 
        systems.

        <bullet>  NDPES and DMR report filing for active remediation 
        sites.

        <bullet>  Quarterly and Annual reporting to clients and 
        regulatory agencies.

        <bullet>  Database management including analytical results, 
        maintenance and construction logs, and field activities.

        <bullet>  Groundwater and soil sampling.

CERTIFICATIONS

        <bullet>  Professional Geologist

        <bullet>  AWMS GHG Lead Verifier

        <bullet>  RABQSA EMS Lead Auditor

        <bullet>  AWMS OHSMS Lead Auditor

                               Discussion

             Upstream vs Downstream Analysis and Monitoring

    Chair Baird. I thank all the witnesses for very informative 
testimony. One of the things that strikes me about this process 
is it is extraordinarily complex, and my own perspective is I 
think similar to what Mr. Inglis has alluded to earlier. It 
seems to be on the carbon front in terms of the mass 
production. It might just be easier to go upstream and say, 
well, let us just tax a ton of coal or a barrel of oil and 
figure, well, somewhere downstream we are taking care of the 
CO<INF>2</INF> output from that. But at the same time, I think 
the testimony we have heard from Waste Management, from Ms. 
Gravender, suggest there is a need, particularly if you look at 
methane sources from agriculture and other things that are not 
so easily captured up front.
    I wonder if you could share with us the sort of pros and 
cons of the upstream versus downstream analysis and monitoring 
and also carbon versus other non-CO<INF>2</INF> greenhouse gas 
emissions.
    Mr. Stephenson. Are you directing that at me?
    Chair Baird. Yeah, well, the whole panel.
    Mr. Stephenson. I would say you are right. Much more is 
known about carbon emissions right now than probably any of the 
other greenhouse gases, and because of the Acid Rain Program, 
you do have in-stack monitoring for about 50 percent of the 
emitting sources of carbon dioxide.
    That is not true for methane and other gases. For example, 
for methane from landfills there is probably not as much known. 
But there is a lot of progress as we have heard on working on 
factors to estimate those emissions. Nitrous oxide is even more 
difficult to estimate because it comes from farming and tilling 
soil, and how are you going to assign an emissions baseline to 
farms and how are you going to monitor that? So in general, I 
think upstream is easier just because there would be a fewer 
number of entities. The further upstream you go, the easier it 
is because of fewer entities, and the easier it would be to 
regulate. And it is a math problem, as Congressman Baird said, 
to estimate how much a ton of anthracite coal upstream, for 
example, would result in a ton of emissions of carbon 
downstream from the regulated entity. So a lot of the emissions 
baselines can be estimated at that high level.
    Chair Baird. Let us hear from some of our other witnesses 
about this issue.
    Ms. Gravender. I think it is a very interesting 
observation. While the goal for greenhouse gas emissions is for 
reductions, there are different perspectives if you are talking 
about a downstream corporate-wide inventory versus an upstream 
inventory, and I think from The Climate Registry, we have 
really understood the benefit of having that corporate-wide 
footprint. It gives companies an opportunity to manage their 
emissions because as we like to say, you can't manage what you 
don't measure. So if you don't have a clear understanding of 
your own corporate footprint, it is difficult to make those 
reductions. While it may be easier to regulate upstream, there 
is still value in having a corporate inventory, and many of our 
companies have benefited from that, not only for reducing their 
own emissions but also for understanding policies that the 
Federal Government might take on in the future.
    Chair Baird. Ms. Wong.
    Ms. Wong. You could say that my business is the ultimate 
end of the stream for many products. But what I would like to 
add to this statement is that life cycle assessment is 
extremely important. What we need to do is determine the life 
cycle carbon emissions of a whole host of products and services 
and then start thinking about who needs to do the inventory, 
who needs to do the reductions. You have to have a place to 
start, and that is the life cycle inventory.
    Chair Baird. Good point. Mr. Ellis, any comment on this?
    Mr. Ellis. Sure. I would just like to add that I think the 
downstream program encourages forward thinking. For example, 
the founding reporters to The Climate Registry are very forward 
thinking. They are taking ownership of their inventory, and 
oftentimes by the time they have called upon us as a verifier 
and we get there, they have already acted to reduce their 
footprint and reduce that inventory. And I think that that is 
something that is important to keep in mind when you talk about 
downstream reporting at the entity level.

                 International Agreement on Monitoring

    Chair Baird. As we look toward Copenhagen, one of my 
problems with this approach is I see the urgency as much 
greater than the bureaucracy's pace, and my fear is as I listen 
to all the good work that has been done, that is encouraging, 
my own believe is we ought to set a 350 part per million 
standard at Copenhagen. And we are already above that, and that 
means dramatic reductions worldwide, particularly in our own 
country. And my fear, to be honest, is that we will spend a lot 
of time because of the complexities of this issue not agreeing 
on monitoring and thereby not reducing carbon. If you had to 
estimate, what do you think the likelihood is that something 
coming out of Copenhagen could say, well, okay, we re going to 
agree on this mechanism and this is how we will monitor it. 
What do you think the likelihood is we get to that agreement? 
Maybe that is not going to be the goal of Copenhagen, but at 
some point, if you are going to reduce, you are going to have 
to have some kind of monitoring.
    Mr. Stephenson. What are you asking, whether we will reach 
an agreement on that or whether it is----
    Chair Baird. No, let me say it this way. If you were to get 
some of the top experts, yourselves and some other folks in the 
room and say, look, we have to come up with a monitoring 
system, whether or not we establish cap-and-trade, but just set 
aside the cap-and-trade side, set aside a carbon tax, just an 
agreed-upon monitoring system and set aside Copenhagen, just 
you all get together with some other experts from around the 
world, what do you think it would take us to get to an agreed-
upon system?
    Mr. Stephenson. For carbon or for all----
    Chair Baird. For all.
    Mr. Stephenson.--greenhouse gas?
    Chair Baird. Or parse it out if you want.
    Mr. Stephenson. It is probably possible--the estimating 
techniques for carbon are better than the other greenhouse 
gases, so it is probably possible to get an emissions baseline 
that is pretty reliable, but the framework for estimating and 
therefore monitoring or establishing baselines get more complex 
for the other gases. And yeah, 85 percent of the greenhouse 
gases are carbon but in terms of potential warming potential, 
you know, methane and nitrous oxide are much more potent than 
carbon. So you can't exclude those other gases. So I think 
there is a lot of work to be done on just the estimating 
techniques, the metrics you use and everything else to be able 
to reliably estimate a baseline nationwide. It is going to be 
very difficult and time consuming.
    Ms. Gravender. My sense is that we will come out of 
Copenhagen with at least a rigorous agreement, and I think if 
we take the opportunity to look at something like The Climate 
Registry wherein companies are actually reporting their 
greenhouse gas emissions, and the majority of those emissions, 
say from stationary combustion or mobile combustion, are in 
fact easily quantifiable and verifiable. There are certainly 
some accuracy issues associated with some of the other Kyoto 
gases, but I think the first step is saying, ``let us do this'' 
and try to do it and perhaps give some flexibility on some of 
those gases where there isn't as much accuracy out there, but 
at least learn from that process and evaluate that over time to 
see where really the scientific accuracy is needed and how we 
can focus in on those areas to have a greater confidence in 
those additional gases. But I do think that we should and we 
need to take that step forward, and many of the emissions are 
able to be quantified and measured at this point.
    Chair Baird. That is encouraging. My time is expired.

                              Carbon Taxes

    Mr. Inglis. Thank you, Mr. Chairman. I would like to ask an 
open-ended question, but I think my question is coming far 
enough out of left field that I need to describe it a little 
bit again. What I am looking for is your expertise on 
monitoring systems and figuring out what body of knowledge out 
there that might be applied to answering this question, and it 
is really just sort of a Ways and Means question, but if you 
want to be in compliance with WTO, you got to figure out a way 
to not discriminate against imported goods. But at the same 
time, we don't want them to get a freebie in the air. So what 
we want to potentially do, if you do this carbon tax, revenue-
neutral carbon tax, you can apply it within the domestic market 
and that can be removed as a value-added tax can be removed 
when it hits international commerce. So you apply it 
domestically, and then you can remove it at the border when you 
are shipping out. Of course, when it gets to another country, 
they can apply it there. And so what we would like to do is say 
goods coming in be subjected to the exact same regime that we 
have got. But figuring out how to somehow take a shot at the 
measurement of--if we go with an upstream application of the 
revenue-neutral carbon tax, it seems the most reasonable 
administratively in this country. The question is how could you 
compare that to what China's carbon footprint might be in the 
materials that are being imported? One possibility is to say 
that here is the average carbon content in American steel, and 
that would be determined by figuring out all the inputs into 
that steel and then apply the same tax to imported steel. Now, 
in France, they want an adjustment because they would say, 
listen, we got a lot of nuclear. We would like to appeal for a 
lower assessment. In China, it is basically giving them a 
freebie because they are using dirtier technology and dirtier 
coal, right?
    But do you have any ideas about how to help me out with 
measuring so that you can have an efficient, streamlined 
process of applying a domestic standard to internationally 
produced goods? Anybody want to take a shot at that? Thank you, 
Ms. Wong.
    Ms. Wong. If I may, I don't know that what you really need 
is a way to calculate emissions from activities in other 
countries, but to have a base data collection effort in what 
different types of manufacturing activities emit, have them 
agreed upon at the international level, and be able to apply 
them to products. For example, if you use a nuclear-based 
energy to produce a product, it is going to have a lower carbon 
footprint than a high-sulfur coal with no scrubbers. Now, it 
would be huge undertaking and it would have to be agreed upon 
at an international basis in order to be applied 
internationally. But if the different countries could come 
together and agree to certain footprints for certain 
activities, they could be applied to a manufacturing process to 
come up with a life cycle.
    Mr. Inglis. Anyone else want to take a shot at that?
    Mr. Stephenson. I would just say that let us take imports 
from China. Determining their carbon footprint and what kinds 
of inventory estimating techniques they use and having to 
verify and monitor that is going to be very problematic. I 
don't know whether you could estimate----
    Mr. Inglis. Yes, in fact----
    Mr. Stephenson.--estimate the carbon footprint for a like-
U.S. product maybe and apply that to the import.
    Mr. Inglis. That is exactly what we are thinking about 
doing.
    Mr. Stephenson. And it would be much easier at the 
commodity level like the example you gave on steel than it 
would at the end product level, I would think.
    Mr. Inglis. Right. What we are looking for really is some 
mathematical system----
    Mr. Stephenson. Yes.
    Mr. Inglis.--you can sort of take a----
    Mr. Stephenson. For all kinds of products.
    Mr. Inglis. It wouldn't be exact, but it would be somewhere 
in the ballpark. And it is important that it not be 
discriminatory. It can't hurt imports more than it is applied 
to domestic-produced goods.
    Mr. Stephenson. GAO does have some ongoing work right now 
for Senate Finance looking at revenue generation from climate 
change, and we are getting into this issue a little bit.

                      More on Monitoring Standards

    Mr. Inglis. That is another question I have. I have got a 
little bit of time left. Who is best to develop monitoring 
standards? What is the agency that is best to do that if we go 
into either cap-and-trade or revenue-neutral carbon tax? Is it 
NIST or is it EPA or is it somebody else?
    Mr. Stephenson. Well, right now EPA is the one that 
estimates emissions inventories for Kyoto, for the framework 
convention, I should say. So they have probably a jump start on 
other agencies, but the Department of Energy also has a lot of 
information on estimating techniques.
    Mr. Inglis. And what I have been asking about here, do you 
think that is still within the EPA? That is where it is logical 
or is that somewhere else?
    Mr. Stephenson. I don't know, I would have to think about 
that. It doesn't seem like EPA is a fit for that.
    Mr. Inglis. Right. Thank you, Mr. Chair.
    Chair Baird. Mr. Lujan.
    Mr. Lujan. Mr. Chair, thank you very much. And first and 
foremost, thank you for holding this hearing. This is a very 
important issue. As we look not just at what is happening 
around the country, but around the world, especially as we move 
forward to continue to create the jobs we need, to be able to 
get the country moving in the right direction, to be able to be 
smarter about the way we are developing technologies and moving 
industry forward, but also in the way that we are going to be 
generating electricity, power, looking to power our vehicles in 
this country, and the amount of waste. Mr. Chair, you know we 
recently had a hearing on the importance of recycling waste 
when it comes to technologies with computers, cell phones and 
what we need to be looking at and how we are going to evaluate, 
how we can move forward into the future. Not only are we going 
to be able to monitor the amount of greenhouse gases, Mr. 
Chair, that are moving forward but we are also going to 
possibly create some job opportunities as a result of moving 
forward and monitoring.

                    Coordinating Agencies and States

    And so Mr. Chair, my questions stem mainly from the 
coordination of carrying on the line of question we just had 
but from a coordination perspective. How will The Climate 
Registry be able to coordinate with the EPA and the states, 
those states that have moved forward? I am proud to say, Mr. 
Chair, that New Mexico was one of the first states to adopt a 
mandatory greenhouse gas reporting program. And so how do you 
envision that coordination? Anyone that may want to take that. 
Ms. Gravender.
    Ms. Gravender. Thank you very much for the question. It is 
an important one. The Climate Registry has been interacting 
with U.S. EPA, has been in conversations with them. They are 
certainly aware of our protocols, the work that we have done. 
While we haven't seen the mandatory rule yet that they are 
about to release on greenhouse gas emissions, we hope that it 
will be derived from much of the information that we have 
worked on so far. In our written testimony we do have a 
statement from our Board of Directors that stipulates that at a 
minimum, every federal greenhouse gas reporting program should 
utilize the greenhouse gas calculation and accounting methods 
that are consistent with The Climate Registry, allow states and 
provinces to collect data for federal programs, and maintain 
the states' abilities to collect additional information if they 
would like. So we feel that there is a lot of opportunity for 
collaboration, both on the policy side and also from a data 
collection standpoint. The Registry has a number of 
sophisticated programs that we feel would be useful to 
implementing some type of a federal greenhouse gas registry.
    Mr. Lujan. Mr. Chair, anyone else?
    Mr. Ellis. I would just chime in on the verification side 
of things and point to the work that ANSI has done to 
coordinate that side of the house and ensure that there is 
consistency in verification activities, and an easy example to 
point to is the ISO 14065 and 14064-3. They are internationally 
recognized standards for performing verification. So as a 
verifier, having gone through the ANSI accreditation process, 
we are confident that we can operate on an international scale, 
and programs such as The Climate Registry and the Chicago 
Climate Exchange both point to that ANSI accreditation process 
as being a requirement. So on the verification side, I can say 
there is definitely a very good level of harmonization and 
consistency, which is critical to any program I think.
    Mr. Lujan. Thank you. And Mr. Chair, a follow-up, Mr. 
Ellis. You state The Climate Registry permits the use of 
estimation techniques of up to five percent of their total 
inventory. Is it possible that some entity could calculate big 
greenhouse gas reductions under the five percent rule without 
actually achieving the greenhouse gas reductions?
    Mr. Ellis. They are simplified techniques. I suppose it is 
possible that they could wedge something into that five 
percent, but I think it is unlikely. These tend to fall out to 
things like, you know, the Chair's vehicle that he didn't keep 
good fuel receipts on or something like that that they can't 
really wrap their hands around but they need to acknowledge it 
is there. And I think you are unlikely to see some large-scale 
program revolving around the sales department's company vehicle 
or something along those lines. So it is very unlikely.
    Mr. Lujan. And Mr. Chair, lastly, what I would like to 
encourage is that we do reach out to public utility 
commissioners around the country. I can tell you as a former 
public utility commissioner, the work that is being done, 
especially my familiarity with this with the western states is 
somewhere where I know that we could probably lean on getting 
some additional expertise or help in coordinating those efforts 
at that level, Mr. Chair. And again, thank you for holding this 
hearing. I yield back my time.
    Chair Baird. Thank you, Mr. Lujan, and you bring great 
expertise in that area, and thank you for that. Mr. Bartlett? 
Dr. Bartlett.

                        Methane and Water Vapor

    Mr. Bartlett. Thank you very much. Isn't it true that water 
vapor is far and away the largest greenhouse gas? I think that 
is true. And if that is true, then if the emission of other 
greenhouse gases increases the temperature of the Earth, should 
we not have more water vapor which would then start a self-
reinforcing cycle, more water vapor, warmer Earth, more water 
vapor, warmer Earth? If this is true, then shouldn't we be in a 
position to measure global water vapor so that we could see if 
this vicious cycle is starting? Is there any focus on that at 
all? It would seem a priority that water vapor is the largest 
greenhouse gas, and I think it is, so if the other greenhouse 
gases increase global temperature, that would mean there would 
be more water vapor which would mean more global warming so 
this should start a--obviously we are in balance now and have 
been for a long time. But if we tip that balance, might not 
some pretty evil things happen?
    Methane is what, 20 times more effective than CO<INF>2</INF> 
as a greenhouse gas? Do we know the total contribution of those 
two presently as greenhouse gases? Less methane but 20 times 
more effective.
    Mr. Stephenson. Well----
    Mr. Bartlett. Which is the largest contributor now?
    Mr. Stephenson. Well, right now methane is about six 
percent of the total greenhouse gas, but if you apply the 
factor that you are talking about, we haven't done the math but 
you could do that. In other words, you know, one ton of methane 
is probably worth 21 tons of carbon, and it gets even higher 
for nitrous oxide which is 300 times more potent than carbon 
dioxide.
    Mr. Bartlett. Yes, but a whole lot less of it. Now, we are 
focusing on landfills for methane, but my understanding is that 
the cattle on the Earth may produce more methane, may produce 
more effective global warming, than all the cars in all the 
world. Now, if that is true, why shouldn't we have a focus on 
having less animals? We would be healthier, by the way. The 
meat people bribed the nutritionists to lie about food groups, 
and we now have a meat food group and a dairy food group and 
they are not different. As a matter of fact, the best proteins 
in all the world come from the dairy group. Milk protein is the 
best protein in the world. Eggs are the second best. If you 
assign a value of 100 to milk, eggs are about 96, and meat 
starts at the low 90's and goes on down. If we are really 
worried about global warming, why shouldn't we have a focus on 
having less animals? That would mean more vegetarians and 
longer life for all of us?
    Mr. Stephenson. I guess it has to be implementable. The 
public hasn't shown its desire to give up meat.
    Mr. Bartlett. I think that education is a big part of this. 
The American people need to know that the proteins they get 
from dairy products are far superior to the proteins they get 
from meat, and they need to know that the proteins produced by 
dairy products require what, about one-tenth to one-twentieth 
of the amount of feed that it requires to produce meat? Pork 
and chicken people brag that they get three pounds of pig for 
one pound of food. That is three pounds of wet pig, 70 percent 
water, you can't eat the bones, to one pound of grain which is 
about 90 percent dry matter. So on a dry-matter basis, it is at 
least ten to one for the pig and the chicken and maybe twenty 
to one for the steer. If you have a milk cow who will produce 
20,000 pounds of milk in a year, a ton of dry matter in a year 
with little more feed than the steer would eat by the way, and 
at the end of the year you still got the cow to eat if you 
want.
    So if we are really concerned about global warming, why 
shouldn't we be focusing on methane? You know, if most of our 
people became vegetarians, it would a far greater contribution 
to reducing greenhouse gases and every one of us driving a 
Prius. Isn't that true?
    Mr. Stephenson. I suppose we should strive to reduce all 
forms of greenhouse gas.
    Mr. Bartlett. Now, this one is particularly important 
because not only are you reducing greenhouse gases, you are 
improving your health. So why shouldn't there be a focus on 
that?
    Mr. Stephenson. I can't answer that. You are the policy-
making body.
    Mr. Bartlett. Why couldn't we have an education program 
which you all could contribute to and inform the American 
people. You don't have to eat meat to get good protein. When 
you eat meat, you are really contributing to greenhouse warming 
because methane is 20 times more potent than CO<INF>2</INF>. 
And again, back to one of the original statements I made, my 
understanding is that cows in the world produce more potential 
global warming than all the cars in all the world.
    Chair Baird. Dr. Bartlett----
    Mr. Bartlett. If that is true, don't you think it would be 
advantageous if more of our people knew that?
    Chair Baird. Dr. Bartlett, could we ask perhaps Ms. 
Gravender? I am very intrigued by the line of questioning. I 
wonder if Ms. Gravender in her work with greenhouse gas 
registry has evaluated methane output from feed lots for 
example or from animals. Maybe you can give us some data on 
that, maybe not?
    Ms. Gravender. At this point we have not looked at methane 
emissions from animals. That said, I do know that the 
California Climate Action Registry does have a methane--they 
are working on methane digesters which in part is capturing 
some of the emission from animals as an emission reduction 
project. So there has been some work that has been done on 
this. Otherwise I would say that I do think over all the public 
opinion is beginning to become interested in eating locally, if 
you will, to reduce the transportation associated and emissions 
associated with transporting food and emissions that result 
from that. So I do think that there is an increase in awareness 
of greenhouse gas emissions over all and our own personal 
impact on those emissions.
    Mr. Bartlett. Local variance I think you call them, don't 
they? People that eat----
    Ms. Gravender. That is correct.
    Mr. Bartlett.--no more than 300 miles from home.
    Ms. Gravender. That is correct.
    Mr. Bartlett. Thank you very much, Mr. Chairman.
    Chair Baird. Thank you, Dr. Bartlett, for always an 
interesting approach and I think an important line of 
questioning. Dr. Lipinski.

                  Carbon Monitoring and trade Registry

    Mr. Lipinski. Thank you, Mr. Chair. Certainly Dr. Bartlett 
has my mind thinking along different lines now, but the 
question that I really wanted to put forward, and I am here, 
and I thank the Chair and also the Ranking Member for having 
this hearing, just trying to understand and get a better handle 
on, we hear so much talk about cap-and-trade or a carbon tax. I 
am an engineer and I always want to know how do I measure that.
    So I just wanted to ask, starting with Ms. Wong and anyone 
else who wants to also chime in here, what are the differences 
between the Chicago Climate Exchange and The Climate Registry 
protocols? I am just trying to get a handle on that for myself, 
the differences in those protocols.
    Ms. Wong. That is a good question. To begin with, the 
Chicago Climate Exchange is an actual trading system. It is a 
cap-and-trade system that enforces reductions on its members. 
Of course, membership is voluntary. And the credits that are 
generated within the system can be traded among members. But 
the other one you asked about was not The Climate Registry but 
the California Climate----
    Mr. Lipinski. No, The Climate Registry.
    Ms. Wong. The Climate Registry is a set of protocols. It is 
not--they do not have their own carbon credits or trading 
process. It is a means of developing an inventory. It is a 
collection of protocols, calculations, scientific information, 
guidelines. They publish some guidelines for data collection 
also. They are very different. One is an organization in and of 
itself. The other is an aid to developing an inventory.
    Mr. Lipinski. How does the CSX \1\--how is that measured? 
When you are trading, you have to have some sort of measurement 
of what you are trading.
---------------------------------------------------------------------------
    \1\ The Climate Spot Exchange
---------------------------------------------------------------------------
    Ms. Wong. Yes, sir. They do have their own protocols as 
well, and sometimes they borrow from other established 
protocols.
    Mr. Stephenson. I think the Chicago Climate Exchange uses 
the World Resource Institute protocol to baseline, but we have 
The Climate Registry expert right next to me.
    Ms. Gravender. One of the main differences is that the 
Chicago Climate Exchange is focused on emission reduction 
products, so you are taking a baseline and then you are 
measuring the activity in addition to that baseline in order to 
quantify an emission reduction. The Climate Registry conversely 
is talking about putting together corporate-wide inventory. So 
that is the primary difference between the two activities. One 
is emission reductions that are then traded on the market, and 
the other is a corporate-wide inventory.
    Mr. Ellis. I would point out to you from the verification 
side the Chicago Climate Exchange is a bit more prescriptive in 
the things that we need to look for, for example, quarterly 
monitoring as opposed to just routine monitoring, that sort of 
thing, for methane content in the landfill sector for example. 
So there is a bit of a difference in the verification side of 
things which is natural since you are talking about dollars on 
the Chicago Climate Exchange, the need for absolute 
verification is a little bit more important when you insert 
money.
    Mr. Lipinski. If you compare the measurements, and I know 
you were starting with a different--you have the baseline there 
and then you are talking about reduction with the CSX is what 
the interest is, but if you compared The Climate Registry and 
the measurements there and the measurements of the CSX, are 
they close? Is there a real comparison there? Has there been a 
comparison of that?
    Ms. Gravender. Well, again, they are measuring different 
things, so it is difficult to do a parallel comparison in some 
regard. Also, the Chicago Climate Exchange is a private 
operation whereas The Climate Registry is a public endeavor. So 
all of our protocols are vetted publicly with public comment 
periods. The Chicago Climate Exchange developed the protocols 
without that public feedback. So there is still a private and 
public difference between the two as well.
    Mr. Lipinski. Do we not know what exactly what the Chicago 
Climate Exchange, what their other measurements are?
    Ms. Gravender. I will say that the Chicago Climate 
Exchange, the protocols are only available to those who 
participate. So they are not available for public consumption 
for us to do that assessment.
    Mr. Stephenson. But right now, the baseline estimating 
techniques are not the same, and that is the point that you are 
making. I think that they need to be standardized for a 
nationwide system before it can work. There are lots of 
slightly different estimating techniques or protocols that you 
can use for various greenhouse gases.
    Mr. Lipinski. I thank all of you for your testimony. Ms. 
Wong.
    Ms. Wong. Just one small correction. Chicago Climate 
Exchange has posted their protocols on their website now. They 
were not available some time ago, but they have added them to 
their website. And if I may say, if you are looking to the 
underlying science, how do you calculate emissions from a 
typical process, they are going to be very, very similar. They 
just use the data in different ways.
    Mr. Lipinski. Okay. Thank you.

                           Lief Cycle Pricing

    Chair Baird. We will do another round of questions. This is 
a fascinating discussion. I am intrigued. Someone, maybe Ms. 
Wong or others acknowledge the importance of life cycle 
estimation. We had some folks from the forestry groups in 
yesterday, and they explained that they had some frustration, 
and I am not sure this is correct, but they felt that LEED 
certification on environmentally friendly businesses was so 
focused on sort of the R value if you will, of the insulating 
value, that it didn't look at lifestyles so that wood-framed 
buildings could be rated lower according to them than steel or 
concrete which strikes me in terms of my understanding of life 
cycle reanalyzing the acidification gas profile, a wood 
building is a carbon sink, whereas it burns a lot of fuel to 
make steel or concrete. The reason I ask that is are we at a 
point, and what would it take to get to a point, where I as a 
consumer who cares about the environment, whether it is through 
my dietary habits or decisions about cars or drinking water out 
of a bottle, to where I can make an informed decision, you 
know, I can look on this, you know, it is just water. But you 
can look at a bottle and say, okay, you have got X amount of 
vitamin B, X amount of high fructose corn syrup, whatever. But 
I can't do anything like that easily to inform myself about the 
life cycle carbon footprint. Are we at where we could do that, 
where you could have a label that tells you the life cycle 
carbon footprint, and not just on a product you buy but on a 
behavior you engage in?
    Ms. Wong. If I could speak to that briefly, a lot of our 
activities that we have engaged in for sustainability purposes 
and greenhouse gas management purposes have been driven by our 
customers. Our customers have asked for it, and we have done 
the necessary research to supply them with the information they 
needed, either to conduct an activity or to measure the 
services we were providing for them. So yes, if there were a 
system available where life cycle analyses were available, it 
would be very helpful and it is occurring now. There is more 
information out there than you might think. Unfortunately, it 
is hidden in each individual company's website. It has not been 
compiled.
    Ms. Gravender. I believe The Carbon Trust in the U.K. has 
begun a program where they actually have an icon of a black 
footprint that is small or large as an indication of the 
emissions associated with producing that product. So I believe 
that we are starting to get to the point where consumer 
knowledge and consumer awareness is growing and is interested. 
In terms of the lifestyle, I am not sure how that is going to 
transpire. The Climate Registry is considering taking on some 
of these issue of life cycle assessment within our voluntary 
registry and will take all of your remarks into consideration.
    Chair Baird. One of the things that strikes me, and I am 
sure you all know this better than I, but if you were to make a 
presumption that a sort of a morality or philosophical basis, 
there is no reason that one person on planet Earth should be 
able to produce more greenhouse gas and ocean acidification 
gases than another, and get I believe we are 20-some folds 
greater than where we need to be in order to get lethal 
overheating of our planet and acidification where it needs to 
be. We need to dramatically reduce, and you know, back to Dr. 
Bartlett's observation, I think there is a general sense that 
people feel, well, we are entitled to a certain lifestyle, and 
I think the gentleman, Mr. Stephenson, said people don't want 
to give up eating meat. You know, part of acting as a 
responsible person in a shared environment is you don't say 
what do I want to do, you say what is the right thing to do, 
what are the consequences of my action. And the reason I ask 
these questions is how do we get to that.

                 Preventing Carbon Market Manipulation

    I want to ask Mr. Ellis, you made an interesting 
observation. We have seen a financial melt-down because, you 
know, credit default swap, nobody was paying attention and 
because there were conflicts of interest with people reporting 
one thing, even though they knew something else to be true 
because it was in their incentive to do so. As we look at a 
grand scheme of things, and as Mr. Inglis pointed out, we look 
at these fluctuations in the markets already in Europe, how do 
you get around that? If you come up with a complex cap-and-
trade kind of system, how do we prevent it from market 
manipulation, dishonest numbers, et cetera?
    Mr. Ellis. Well, I think the simple answer is third-party 
verification. And along with that obviously needs to come a 
very strong management of that. And I think we can look to The 
Climate Registry as setting a good example in that regard. The 
amount of information that I as a verifier provide to them in 
order to be vetted, in order to even embark on a verification 
with one of their members, it is very detailed, and just simply 
asking the question I think helps start that. For instance, no 
member of our staff that has more than $5,000 personal interest 
in a company can perform any sort of verification work for that 
company. The greatest risk I see, however, is like I mentioned 
in my written testimony and here today, is thinly veiled 
consulting and verification sides of the same company. I think 
it is fairly easy to engineer something like that on paper to 
say, oh, that is our consulting branch. They don't do any 
verification work. It is pretty easy to make it look that way 
on paper. But I think when you really get out there in the 
field, you can pierce a hole through that veil pretty easily.
    So that would be our biggest word of warning, and it is 
also why we, as a business, have made the absolute decision 
that we will not consult. It just introduces risk. I mean, even 
if I don't personally know the person that did the consulting 
work and I am the verifier, if I see my company logo on that 
report that I am verifying, I am going to feel some amount of 
pressure to reflect positively on that work product. So I think 
the simple answer is a strong verification will smooth those 
market fluctuations because there is faith that the product 
actually exists, especially when you are talking greenhouse gas 
that you can't see and hold.
    Chair Baird. Ms. Wong.
    Ms. Wong. If I could add to that, I think the key to the 
question was beginning with an extremely complex system. An 
extremely complex system with added complexity because third-
party validation is added is not going to get us very far. What 
is going to get us to real reductions is a simple system that 
is predictable, that can be implemented quickly. You may not 
get all of the reductions you want immediately, but you will 
get some demonstrable reductions. And then you can take 
additional time to develop your program.
    Chair Baird. What about a hybrid where you encourage the 
voluntary self-monitored thing, and then there are adverse or 
positive consequences if the third-party validates what you 
have done? In other words, if you get it right, you say, we 
have lowered it by 30 percent, these guys come along, low and 
behold you have lowered it by 30 percent, you get a fabulous 
prize. If you don't, you get a fabulous penalty.
    Mr. Ellis. There is a bit of that built into The Climate 
Registry right now, and the baseline verification is much 
stronger. You are building a relationship between the verifier 
and the reporter and saying, okay, you have the internal 
management structure to understand your inventory and manage 
this program well, and then every annual subsequent 
verification can be ratcheted down a bit because you have faith 
in the system and you are just verifying the system still in 
place, not necessarily every single work product of the system. 
So that has been acknowledged I think well by The Climate 
Registry.
    Mr. Inglis. Mr. Chairman, following up on that, could you 
lead me through an example, Mr. Ellis, of how verification 
might work in a particular business? Let us say Waste 
Management has a site. How would you go about verifying their 
compliance with a voluntary cap-and-trade? How does that work?
    Mr. Ellis. For instance, in The Climate Registry where it 
is a voluntary inventory program, it is a pretty simple flow 
chart if you want to call it that, where initially we gather 
remotely all their data, as much as they can send us, and we 
take a representative sample, for example, electricity usage, 
say. We would look at their spreadsheet by which they tracked 
that electricity usage, and then we would ask them to send us 
January's bills. And we look and learn how that interface 
happens. How did it get from the bill or the meter, whatever, 
to the spreadsheet? And we deconstruct every bit of that data 
and then rebuild it and see if we come up with the same 
numbers. And then that serves as a risk analysis to say there 
is the most inherent risk? Where did they most likely miss a 
meter or, you know, misdocument some information, something 
along those lines. And that is when we go on site and 
specifically target those high-risk areas and those areas that 
could most materially impact the verification. And that process 
holds true, just as an example, of the range that we deal with 
at AWMS. Our first verification was a small-scale ski resort, 
and we embark next week on verification of one of the largest 
electricity generation transmission and distribution utilities 
in the United States. So that mechanism holds true across 
almost literally as wide of a range of spectrum as you could 
possibly imagine.
    Mr. Inglis. In order to do the ski slope, do you have to 
have already the electric utility?
    Mr. Ellis. No. No, the protocols apply the same to each.
    Mr. Inglis. I guess what I am asking is the electric--how 
certain are you that the ski slope, the bill reflects the 
actual generation of the power? In other words, they know how 
much was nuclear, how much was--I mean, is that easily 
discerned?
    Mr. Ellis. It is, absolutely. You know, first we assess 
off-site, whether the bills are accurately transcribed. I mean, 
you can have simple data transcription errors that lead to a 
material impact. But then the on-site, in their case, 
electricity was a huge component. It was the overwhelming 
component of their inventory. So we literally said, okay, we 
are in this building, show me the meter, you know, and make 
sure that that meter marries up to what we physically see on 
site. So it can be physically verified. Absolutely.
    Mr. Inglis. And Ms. Wong, you made a very important point 
earlier about this being simple to do because we don't want to 
add a burden. If we can avoid the burden, we want to not add a 
burden. So you found it fairly easy to ferret out that 
information?
    Ms. Wong. It depends on the source. In the case of 
electrical utility usage, there are eGRID standards published 
putting a value on the typical carbon impact of electrical 
generation in a particular state. It averages in all the 
different sources. And you can use that as a default value. Or 
if you are buying exclusively from a utility that uses green 
energy, you can do your own formula from that utility, but 
using the eGRID numbers provides a pretty robust result.
    Mr. Inglis. Electricity being really somewhat fungible, how 
certain are you that you can really track that? I mean, you 
feel comfortable with that, that if you are buying green energy 
you really are buying green energy?
    Ms. Wong. Well, we produce green energy, and the green 
energy we produce we certainly validate as green energy. I 
don't think I can really speak to the subject of how to 
determine whether energy is green or not, but when you ask if I 
am comfortable with the end result, yes, because an invoice is 
ultimately audited as part of your financial data. Chances are 
if a company is paying an invoice, it is accurate. They are 
going to do something about it if they are overpaying, and the 
seller is going to do something about it if they are 
underpaying. So when you use an invoice as your core data 
source, it is inherently verifiable.
    Mr. Inglis. Did you want to add something to that, anything 
else?
    Mr. Stephenson. Let me just add, you mentioned electricity 
grid is homogeneous. I mean, you can't tell whether your watt 
of electricity came from a nuclear plant or a wind farm or 
whatever. If 20 percent of our energy comes from nuclear, you 
can allocate the carbon emissions based on a watt of 
electricity. So you couldn't say this guy was nuclear and he 
has a smaller carbon footprint than this guy who got it all 
from those high-sulfur content coal or something.
    Mr. Inglis. Thank you, Mr. Chairman.
    Chair Baird. Ms. Edwards.

            Voluntary and Mandatory Standards and Reporting

    Ms. Edwards. Thank you, Mr. Chair, and I apologize I wasn't 
here earlier for your testimony, but I looked at it and I just 
have one question or a set of questions for Ms. Gravender. Is 
that how you pronounce your name? Thank you. And it has to do 
with voluntary versus mandatory, you know, reporting and 
standards because I have had experience in dealing with 
companies reporting labor practices internationally. And there 
are many mixed messages about how and whether these kind of 
voluntary reporting systems can work when it is essentially 
sort of self-policing. And so I wonder if you could explore 
with me just for a bit about what kinds of incentives or not 
really enforcement mechanisms because it is a voluntary 
program, but what kind of incentives can be in place that 
encourage companies to straightforwardly and accurately report? 
And then what is in it for them? I mean, I looked in your 
testimony, and you indicated some of the reasons why folks 
would want to participate in a reporting program, but what is 
in it for them in the end? And then lastly, if you could talk 
to us about how one might make a transition from a voluntary 
system to a mandatory system and then what are the sets of 
things that need to be in place in order to encourage 
compliance even in a mandatory system?
    Ms. Gravender. Thank you for your questions. I think the 
first thing to understand is that while The Registry's 
voluntary program is voluntary and you elect to participate, it 
is not in fact self-policing. We have third-party verifiers 
such as Advanced Waste Management who must review and attest to 
the quality of the data that is reported. So you can't 
voluntarily choose which emissions you are going to report, 
rather you voluntarily choose to participate in the program and 
then the data that you report is reviewed by a third-party 
verification body annually. So that is a bit different.
    What is in it for companies, as we said earlier, companies 
cannot manage what they don't measure. So it is very valuable 
for organizations to understand their corporate-wide footprint 
so that they can identify where there are opportunities for 
reductions. That may lead to emission reduction projects that 
create financial value to them, it may also just be an 
inefficiency approach for them where they an identify 
pollution, if you will, that they can reduce and act more 
effectively.
    In terms of a transition from voluntary to mandatory, I 
think we are thinking of this from the mindset of most 
organizations will likely report mandatory emissions first. So 
I think it is sort of flipping the question in how can 
mandatory data be then used in a voluntary world. Assuming a 
company is required to report to a mandatory program, that is 
likely going to be facilities that trigger a certain threshold 
of emissions to their largest sources of emissions. And then to 
supplement that for the full corporate footprint if you will, 
can that mandatory data be transferred into a more robust 
voluntary database if you will where the organization could 
round out the rest of their emissions footprint. That is how we 
are seeing the intersection between mandatory reporting which 
will likely be at a certain threshold to voluntary reporting 
that will get more comprehensive in scope.
    Ms. Edwards. And then are there incentives in terms of a 
company's relationship to a consumer or client that would 
encourage greater participation?
    Ms. Gravender. I think some companies are more aware, more 
concerned about the public perception and want to be seen as an 
environmentally progressive organization or particularly 
concerned about their emissions footprint. So I think there is 
just a different risk assessment and interest in that from a 
corporate perspective.
    Ms. Edwards. I mean, if you look now for example at like 
LEED's standards and LEED's certification, you know, I mean 
there are developers out there who say they want that LEED's 
certification. And we haven't really had to do very much to 
necessarily require it, but it has become kind of an industry 
mantra. And I wonder if there is a similar application in the 
area of emissions.
    Ms. Gravender. Well, I think there is certainly the 
possibility. We have seen from the California Climate Action 
Registry which is a voluntary registry, when the State of 
California implemented mandatory reporting, we thought this 
will get an interesting observation. Will those companies that 
signed up for a voluntary program drop off and just participate 
in the mandatory program or will they maintain both? And what 
we have seen thus far, even though it is very early in the 
process, is that companies are staying in the voluntary 
registry because they derive value associated with that. So we 
expect to see, and hope to see, a similar experience. It will 
be very interesting to see how mandatory greenhouse gas 
emissions are required to be reported at the federal level to 
see how organizations react to that.
    Ms. Edwards. Thank you very much. Thank you, Mr. Chair.
    Chair Baird. Dr. Bartlett.

                          Informing the Public

    Mr. Bartlett. Thank you very much. I enjoy the Waste 
Management ads on television. They have such beautiful nature 
scenes, but every time I see that ad, I am reminded that 
although burning that stuff is kind of green, that waste stream 
represents profligate use of fossil fuels, doesn't it? And so 
in an increasingly energy-deficient world, there is going to be 
less and less of that waste stream. And wouldn't it be greener 
to not have used that stuff initially so that it doesn't end up 
in the landfill? That is just an observation. How close are we 
to being able to have truth in advertising? I am not a big fan 
of government and government regulation, but I am a huge fan of 
truth in advertising and labeling. How close are we so that we 
can tell the consumer, and probably have to use something like 
CO<INF>2</INF> equivalence because that is what people are 
understanding about contribution to climate change and global 
warming. How close are we to telling the guy what this action 
will entail in terms of CO<INF>2</INF> equivalent footprint? 
Like when you sit down to eat that big beefsteak, if in big red 
letters on the menu it told him that that had a bigger carbon 
footprint than driving his Explorer there to eat it, don't you 
think we might have some change in behavior? Because I think 
most people are really concerned about this but they are 
ignorant, they don't know what they are doing. How close are we 
that we can put down the global warming contribution of all of 
our actions and things we buy and so forth?
    Ms. Wong. Well, sir, we have the technology now to obtain 
the carbon footprint of just about any activity you would like 
to footprint.
    Mr. Bartlett. So why aren't we putting that down on the 
menu and on the gas pump and on your thermostat in your house 
if you turn it up two degrees, what is the CO<INF>2</INF> 
footprint? Why aren't we doing that? I think people would like 
to know the contributions they are making so they can use less 
destructive pursuits and products and so forth? Is that 
something we need to do or is that something the industry can 
voluntarily--I am not a big fan of Big Brother, by the way. I 
like industry to lead. Why doesn't industry lead in doing this?
    Ms. Wong. Well, as an example, we have been engaged in 
greenhouse gas inventorying and reduction efforts since 2004, 
and it is still voluntary. We are still doing it, still 
advancing it, and we plan to disclose our company carbon 
footprint for 2009 in 2010.
    Mr. Bartlett. But that is on a website somewhere. It is not 
on your electric bill, it is not on your menu, it is not listed 
on the products you buy in the grocery store. Everything we 
buy, everything we do, you just can't live and use energy 
without having a CO<INF>2</INF> equivalent footprint, can you? 
Why aren't we being told what that is so that we can make wise 
choices? We have the capability to do it, don't we? Can we at 
least make a reasonable guesstimate as to the CO<INF>2</INF> 
equivalent contribution of everything we buy and everything we 
do? Why wouldn't that be desirable to have that there so that 
people can see?
    Mr. Stephenson. It would, but the quickest way to do it is 
to mandate it, unless there is public pressure to have such 
information. That is usually the way it happens the quickest, 
if there is a great demand from the public to have better 
information on the carbon footprint of everything they do. 
There are many websites that individuals can go on and estimate 
their own carbon footprint, for example, but how many people do 
you think actually do it? They just don't for whatever reason.
    Mr. Bartlett. It is so easy to see it if it is on the gas 
pump, if it is on your menu, if it is on the box of Cheerios 
you buy. It is so easy to see it there. I would just like to 
see it there. I encourage industry to do this before government 
tells them to do it. You know, that just encourages government 
to get bigger, when industry doesn't do something and they are 
forced to do it because we ask them to do it. I would hope that 
you would encourage the industry you are all associated with to 
start putting the CO<INF>2</INF> equivalent of carbon footprint 
on everything that you sell, on all of our activities so that 
Americans know the contribution that they are making to 
potential global warming. I think most of us want to be 
responsible, but you know, there is enormous ignorance out 
there about the consequences of our activities. Well, thank you 
very much. Thank you, Mr. Chairman, for a good hearing.

                      International Carbon Control

    Chair Baird. Thank you, Mr. Bartlett. I want to talk a 
little bit briefly about how can we scale this up 
internationally if we go to Copenhagen, if we go to 
international cap-and-trade or something like that? How capable 
are other countries of learning our way of exporting this? We 
don't have it yet in our own country, so it is presumptuous I 
suppose. We export it, but Ms. Wong asserts and others seem to 
verify we can get a pretty good estimate of carbon footprint. 
We seem to think that either with the combination of upstream 
or downstream albeit with some imperfections we might be able 
to get a pretty good sense. How do we scale this up globally?
    Ms. Wong. Well, I think you have kind of answered your 
question in asking. We do need to do a little more here before 
we can scale it up, and a good start is to provide a uniform 
base to do a small amount of reporting, a limited reporting 
scope, and then allow the states to enhance that to perhaps 
require more data or more intense data and compile that to come 
up with our own carbon footprint, and then we can lead through 
example.
    Mr. Stephenson. I would just say I think you need to start 
where the information is the best right now in carbon and then 
work on the other greenhouse gases in increasing complexity as 
better information becomes available on the other gases.
    Mr. Ellis. These are programs that have been operating at 
an international level a lot longer than we have been in the 
conversation, so as opposed to looking at it maybe as an export 
situation, we can pay attention to the import situation. There 
is a lot of good science and a lot of good, real-life market 
experience out there. They have gone through a number of course 
corrections in the European emissions trading scheme, and there 
are a number of other international trading schemes out there. 
So I think the question should also include what can we import? 
It is a critical element.
    Chair Baird. Excellent point, and there are certain other 
manufacturers that are working on making the electronics, 
automobiles, et cetera, far more recyclable than ours are. So 
it is a very, very good point.

                                Closing

    Mr. Inglis, did you have any additional questions? With 
that, I want to thank our witnesses for an outstanding and 
informative hearing today. The record will remain open for two 
weeks for additional statements for the Members and for answers 
to any follow-up questions the Committee may ask of witnesses. 
With that the witnesses are excused and the hearing is now 
adjourned. I thank the witnesses and all those in attendance 
today. I thank our panelists.
    [Whereupon, at 1:38 p.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by John B. Stephenson, Director, Natural Resources and 
        Environment, U.S. Government Accountability Office

    We provide specific answers to your questions in the enclosure and 
also provide some general observations below that address a number of 
the items in your questions. It is worth noting that, in some cases, we 
do not have a basis to respond to some of the questions because we do 
not have ongoing or completed work in those areas. To the extent that 
the Subcommittee has a continuing interest in areas where we axe not 
able to provide complete responses, we are available to meet with you 
or your staff to discuss your interests and assist in developing a 
request for GAO to do additional work that would enable us to respond 
to these and other questions about greenhouse gas emissions data.

General Observations

        <bullet>  The data requirements to develop reliable emissions 
        baselines depend largely on (1) the types of entities and gases 
        covered in a regulatory program and (2) the point of 
        regulation.

           First, the data requirements depend on the breadth of 
        entities covered across economic sectors and the number of 
        greenhouse gases covered. With respect to breadth, if a program 
        were to only include electricity generating units, we already 
        have adequate emissions data to establish an emissions 
        baseline. If a program were to address emitting entities across 
        all economic sectors--as many policy experts recommend--data 
        gaps may exist. We have not evaluated the quality of baseline 
        emissions data for sectors beyond electricity generating units. 
        Any facility that has historical data on its combustion of 
        different fossil fuels would be able to develop a reasonable 
        estimate of its carbon dioxide emissions. However, including 
        other greenhouse gases beyond carbon dioxide in a program could 
        present challenges in establishing an emissions baseline. While 
        carbon dioxide emissions from fossil fuel combustion can be 
        calculated with a reasonable degree of certainty based on the 
        use of different fuels, emissions of other greenhouse gas 
        emissions can be more difficult to quantify. This is 
        particularly true for nitrous oxide and methane, which are 
        generally emitted by diffuse sources such as agricultural 
        operations, fossil fuel extraction, and landfills. We have not 
        evaluated the quality of methods for calculating emissions of 
        the other three primary greenhouse gases (hydrofluorocarbons, 
        perfluorocarbons, and sulfur hexafluoride), although these 
        substances are produced by a relatively limited number of 
        manufacturers and these manufacturers may be able to provide 
        information on historical production and emissions that could 
        help in establishing a baseline.

           Second, the point of regulation would play a major role in 
        the need for additional data on baseline emissions levels. 
        Specifically, an ``upstream'' program that focuses on a 
        relatively limited number of fossil fuel and synthetic gas 
        manufacturers, importers, and producers would greatly reduce 
        the data requirements for establishing baseline emissions 
        levels. For example, an ``upstream'' program might involve 
        thousands of entities whereas a ``downstream'' program focused 
        on individual industrial facilities and consumers could involve 
        tens of thousands of regulated entities. Thus, developing a 
        reliable emissions baseline for an ``upstream'' program would 
        be much easier than doing so for a ``downstream'' program.

        <bullet>  Direct monitoring of emissions is not necessary to 
        establish baseline emissions levels for carbon dioxide. Carbon 
        dioxide emissions can be calculated with a reasonable degree of 
        certainty using information on the type and quantity of fossil 
        fuel combusted. The key data need here is reliable historical 
        data on fossil fuel use rather than direct monitoring data. 
        Direct monitoring may be useful or necessary for establishing 
        baselines for other greenhouse gases, but we have not evaluated 
        data needs for these gases. We are available to work with you 
        to obtain more information on this issue if this is an area of 
        further interest.

Questions submitted by Representative Bob Inglis

Q1.  Mr. Stephenson, in your testimony you describe the method in which 
EPA determined a baseline of emissions for implementation of the Acid 
Rain program.

Q1a.  How long will it take EPA to create a similar baseline for GHG?

A1a. EPA has baseline data on carbon dioxide emissions from power 
plants that are sufficient for that sector of the economy. We have not 
evaluated the extent to which EPA has reliable data for other economic 
sectors or greenhouse gases. Officials within EPA's Office of Air and 
Radiation may be better positioned to respond to this question.

Q1b.  Could a GHG emissions baseline be generated in a similar manner 
to the acid rain program such that it is based on an average of a 
three-year time period that occurs well before implementation of the 
regulatory program to prevent gaming of the numbers?

A1b. This approach would help prevent gaming and could be used for 
regulating carbon dioxide emissions from the electric power sector but 
we have not evaluated the availability or quality of data for other 
gases or economic sectors. As we reported in our prior work on lessons 
learned from the international climate change programs, several experts 
stated that existing data on fossil fuel consumption axe sufficient to 
establish an emissions trading program, although we reported this 
information as expert opinion rather than independently verified fact.

Q2.  What happened to those facilities in the EU during the first phase 
that did not have an accurate baseline to start with?

A2. Our review did not focus on the baselines of specific facilities. 
In the first trading phase, the EU generally lacked the facility-
specific emissions data essential to the effective implementation of a 
downstream program that distributes allowances for free. Instead, most 
EU member states based the cap and allowance allocations largely on 
business-as-usual projections, which are inherently uncertain. During 
the first trading phase, verified emissions data reported by regulated 
entities revealed over-allocation--the cap, or supply of allowances, 
was greater than actual emissions. The number of allowances that each 
facility received, however, did not exceed its actual emissions. Some 
facilities, such as those in the power industry, were not given enough 
allowances to cover emissions and they purchased or reduced emissions. 
Other facilities, such as those in the energy-intensive manufacturing 
sectors, were given a surplus of allowances that they could trade on 
the market or hold. It is worth noting that EU member states have since 
taken verified emissions data from the first phase into account to set 
emissions caps in the second phase.

Q3.  As you state in your testimony, EPA generates an emission 
inventory as part of the U.S. commitment to UNFCCC. You also claim that 
emission factors for some industries such as electricity and cement are 
very advanced, while others have yet to be generated.

        a.  How does EPA account for emissions for the industries where 
        the agency lacks robust emission factors?

        b.  How much uncertainty is built into the EPA GHG inventory?

A3a,b. As stated in its most recent inventory, EPA adheres to UNFCCC 
reporting guidelines and IPCC protocols when compiling its annual 
greenhouse gas inventory. In 2006, the IPCC revised these guidelines in 
order to increase the comprehensiveness and detail of emissions 
estimates.
    The specific methodologies used by EPA to calculate and account for 
uncertainty vary by the gas and the source, i.e., activity generating 
the emissions. Each annual inventory report contains descriptions of 
the uncertainty analyses performed for some of the sources, including 
the models and methods used to calculate the emission estimates and the 
potential sources of uncertainty surrounding them.
    Carbon dioxide emissions from fossil fuel combustion can be 
estimated with a high degree of accuracy using emissions factors. 
According to EPA, combustion-related emissions represented 
approximately 94 percent of carbon dioxide emissions and 81 percent of 
total emissions in 2007.\1\ Emission estimates for other gases, such as 
methane and nitrous oxide, are considered less certain.
---------------------------------------------------------------------------
    \1\ Measured in terms of carbon dioxide equivalent. Carbon dioxide 
equivalents provide a common standard for measuring the warming 
efficiency of different greenhouse gases and are calculated by 
multiplying the emissions of the non-carbon-dioxide gas by its global 
warming potential, a factor that measures its heat trapping ability 
relative to that of carbon dioxide.

Q3c.  Is the EPA inventory an accurate enough accounting to base a 
regulatory program on? Wouldn't some industries be better positioned 
than others due to the greater amount of confidence on the accuracy of 
---------------------------------------------------------------------------
the emission factor for that industry?

A3c. We have not specifically answered these questions in our prior or 
ongoing work. In general, the data needs for a U.S. regulatory program 
would depend on its design--specifically, the point of regulation and 
the method of allowance allocation. For example, a ``downstream'' 
program, which regulates emissions at the facility level, would involve 
a large number of regulated entities and would require extensive data. 
Reliable data are especially important for a program that gives away 
allowances in order to determine how many each facility should receive. 
The ETS demonstrated that giving away allowances can create and 
transfer substantial assets of considerable value. Specifically, some 
power producers in the EU's deregulated energy markets passed on the 
market value of allowances, which they received for free, to consumers 
by adding the value of allowances to energy rates, resulting in 
windfall profits.
    Conversely, an ``upstream'' program would regulate emissions at the 
producer/importer level, which would significantly reduce the number of 
reporting entities and the administrative burden of collecting the 
data.

Q3d.  Should NIST play a role in setting these emission factors?

A3d. We have not assessed the appropriate role of NIST with respect to 
setting emission factors.

Q4.  How would the data required for a mandatory program to limit 
emissions differ from a voluntary program? Many of the voluntary 
programs have similar reporting requirements. Why would a mandatory 
program be so different?

A4. High quality data are important for ensuring the integrity of 
voluntary and regulatory programs. Data quality takes on increasing 
importance in the context of regulatory programs such as a tax or a 
cap-and-trade system that place a price on greenhouse gas emissions.

Q5.  How well would a mandatory program actually function if it was 
based on registries that are generated from emission factors and 
estimates versus direct monitoring? Would the level of emission 
reductions be compromised if the registries were based on estimates 
versus direct monitoring?

A5. We have not specifically addressed this question in our issued or 
ongoing work. In general, carbon dioxide emissions can be calculated 
with reasonable accuracy using emissions factors and data on fuel 
quantities and types. Thus, direct monitoring of carbon dioxide 
emissions may not be necessary to establish reasonable registries and 
baselines for carbon dioxide emissions, especially in an upstream 
system. Our work has not focused on the availability or quality of 
emissions factors or direct monitoring methods for other greenhouse 
gases.

Q6.  At the federal level, the mechanism to create high quality 
emissions data will enable us to track progress and economic impacts; 
at the individual facility level, managers will be able to make better 
investment decisions with robust emissions data.

        a.  Do voluntary emission registry firms supply the protocols 
        and standards to properly capture all emissive activities with 
        the same amount of reliability?

        b.  Is ANSI doing a sufficient job in pushing these standards 
        to a consensus?

A6a,b. We have neither assessed the standards or protocols of voluntary 
emission registry firms, nor have we focused on ANSI's role in pushing 
the standards to a consensus.

Q7.  Are there any significant obstacles to the monitoring or verifying 
of emissions that Congress should consider?

A7. Our work has not identified the presence or absence of significant 
obstacles to monitoring or verifying emissions.

Q8.  Other than those industries that are currently required to report 
their carbon dioxide emissions to the EPA, what other industries have 
developed technologies to directly monitor GHG emissions?

        a.  What industries do not have appropriate monitoring 
        technology, but will likely need it under any mandatory program 
        to limit emissions?

        b.  Are you aware of any government programs that are currently 
        dedicated to developing direct monitoring technologies for GHG 
        emissions?

A8a,b. GAO has not assessed the extent to which specific industries 
have developed direct monitoring technologies for greenhouse gas 
emissions, or whether any government programs contribute to these 
efforts. The need for such technologies would also depend on a 
regulatory program's scope and design.
                   Answers to Post-Hearing Questions
Responses by Jill E. Gravender, Vice President for Policy, The Climate 
        Registry

Questions submitted by Chair Brian Baird

Q1.  The Climate Registry requires its participating members to report 
emissions from all sources in North America. However, members may 
choose to report a global inventory. Are there different requirements 
for the emissions reporting for facilities outside of North America? 
How does the Climate Registry define a reputable verifier for the 
purposes of verifying emissions data for facilities outside North 
America?

A1. The reporting requirements for worldwide emissions (or non-North 
American emissions) are the same as The Registry requires for North 
American emissions. However, while The Registry has made a concerted 
effort to define emission factors for the U.S., Canada, and Mexico, The 
Registry has not currently done so for the rest of the world. While The 
Registry plans to include some basic emission factors from other 
countries in the near future, a member is responsible for determining 
proper emission factors and calculations, if necessary, to accurately 
calculate their emissions from sources outside of North America.
    It is important to note that The Registry requires third-party 
verification of worldwide emissions, if a member chooses to report 
them. As a result, all reported worldwide emissions must obtain a 
verification finding of ``reasonable assurance'' that the reported 
emissions are within The Registry's five percent materiality threshold.
    Members may choose to report their worldwide emissions two ways: 1) 
Members could use an ANSI-accredited, Registry-recognized Verification 
Body to verify their entire worldwide emissions, and 2) Members could 
use an ANSI-accredited, Registry-recognized Verification Body to verify 
their North American emissions inventory, and then use an ISO 14065-
accredited Verification Body to verify their non-North American 
emission inventory.
    The Registry depends on the national accreditation bodies in 
various countries to assess the general competency of Verification 
Bodies interested in verifying GHG emission inventories outside of 
North America. As The Registry's program grows, we will continue to 
monitor and evaluate the appropriateness of this policy to ensure that 
Verification Bodies are qualified to verify emission inventories 
worldwide.

Q2.  As was noted during the hearing, power plants and large industrial 
facilities have continuous emission monitoring (CEM) equipment that 
record emissions of several gases. What other facilities emitting 
greenhouse gas emissions might it be possible to apply similar CEM 
technologies to?

A2. EPA's Acid Rain Program requires regulated facilities to use CEMs 
to report NOX and SO<INF>2</INF> data to EPA. CEMs may also be used to 
measure CO<INF>2</INF>, however, additional adjustments may need to be 
made to the device (inclusion of a CO<INF>2</INF> or oxygen monitor 
plus a flow monitor would be necessary to compute emissions in tons per 
hour). The Climate Registry suggests that you speak directly to EPA's 
Acid Rain program for answers to technical questions pertaining to 
CEMs.
    It is possible to apply CEMs to any facility that has a stack, 
however, depending on the size of the emissions output of that stack, 
it may or may not be efficient to deploy CEMs to every stack. It may be 
just as effective to use calculation methodologies based on fuel use, 
efficiency; time operated, etc.
    Most single large sources of GHG emissions already have CEMs 
installed. Since GHGs are ubiquitous and can be produced from a large 
number of small sources, they are very different in nature from 
criteria pollutants, and therefore, must be measured and controlled 
differently. Since GHGs are produced from small sources, it is not 
feasible, nor cost effective to require CEMs to be installed on all GHG 
sources. Instead, alternative methods, such as calculations based on a 
number of relevant parameters must be used instead to quantify GHGs in 
a meaningful, cost effective way.

Q3.  In your written testimony you indicate it would be helpful to 
develop more industry-specific protocols. Which industries would be the 
best candidates for these improved protocols?

A3. Since the Subcommittee hearing in February, the US EPA released its 
Draft Mandatory Reporting Rule for GHG Emissions. This Draft requires a 
number of specific industries to report their GHG emissions. The 
following sectors will be required to report to EPA under the Mandatory 
Reporting Rule:

        <bullet>  Adipic Acid Production

        <bullet>  Aluminum Production

        <bullet>  Ammonia Manufacturing

        <bullet>  Cement Production

        <bullet>  Electric Power Systems

        <bullet>  Electricity Generating Facilities

        <bullet>  Electronic Manufacturing Facilities

        <bullet>  HCFC--22 Production

        <bullet>  HFC 23 Destruction Processes

        <bullet>  Lime Manufacturing

        <bullet>  Manure Management

        <bullet>  Landfills

        <bullet>  Nitric Acid Production

        <bullet>  Petrochemical Production

        <bullet>  Petroleum Refineries

        <bullet>  Phosphoric Acid Production

        <bullet>  Silicon Carbide Production

        <bullet>  Soda Ash Production

        <bullet>  Titanium Dioxide Production

        <bullet>  Underground Coal Mines

    Based on EPA's reporting threshold of 25,000 tonnes of 
CO<INF>2</INF>e per year, emissions from these sectors will produce 
approximately 85-90 percent of total U.S. national emissions. These 
industries should be the focus of industry specific reporting 
protocols.

Q4.  Your written testimony provides a list of GHG calculation 
methodologies that require refinement to reduce uncertainty in GHG 
emission reporting. It appears that some of the items listed might be 
considered proprietary information by the specific entity involved. 
Would this concern be a barrier to design of a structured sampling or 
survey program to develop improved calculation methodologies?

A4. The results of some of the required measurements (amount of coke 
produced, etc.) may be considered proprietary information, however, it 
is important that consistent calculation or measurement methodologies 
exist to determine these results. Therefore, companies should not have 
a problem using a standardized calculation/measurement method to 
determine the information necessary to calculate their emissions, but 
they may not wish to share the resulting raw information publicly in 
order to protect confidential business information.
    It is important to note that all emissions information may not be 
considered confidential under the Clean Air Act, however, raw 
information used to calculate emissions could be considered 
confidential.

Q5.  During the hearing, it was pointed out that it can take some time 
for a new member of The Registry to obtain all the necessary 
information to meet The Registry's requirements for reporting their 
emissions. About how much time does it require for new members to be 
able to fully report their emissions in accordance with The Registry's 
standards from the time an entity indicates their desire to be a member 
of The Registry?

A5. The time necessary to successfully complete a GHG emissions 
inventory depends entirely on how much work an organization has done to 
assemble their inventory prior to joining The Registry. The biggest 
factors in successfully completing an emissions inventory are: 1) how 
well the emissions information is organized (management systems, data 
archiving, measurement practices, documentation, skilled personnel, 
etc.) and 2) how well the organization's staff understands The 
Registry's reporting requirements.
    Some organizations join The Registry without ever assembling an 
emissions inventory before. In general, these organizations can collect 
the basic information necessary to report their annual emissions within 
a year. Other organizations only join The Registry once they are 
convinced that their current emission inventory will meet The 
Registry's reporting requirements. As a result, they could join The 
Registry and report their emissions immediately.
    In general, The Registry believes that most organizations can 
assemble a reasonable inventory in a year or so. However, to provide 
organizations with the ability to scale up their inventorying 
activities over time, The Registry allows organizations up to three 
years to report their complete North American inventory of all six 
internationally recognized GHGs.

Questions submitted by Representative Bob Inglis

Q1.  How different are the reporting protocols for The Climate Registry 
compared to other organizations? Has there been an effort made between 
different organizations (The Climate Registry, the California Registry, 
and the Chicago Climate Exchange) to standardize these protocols to 
make it easier on those companies that want to participate in more than 
one?

A1. The Climate Registry is the only voluntary GHG registry that 
requires public reporting of all North American emissions. Therefore, 
it is different and distinct from other voluntary and mandatory GHG 
programs. The Climate Registry used a series of international GHG 
standards (World Resources Institute/World Business Council for 
Sustainable Development's GHG Protocol and the ISO 14064 standard) and 
existing best practice protocols (i.e., the California Registry and 
other industry publications) as the foundation for its Protocols. The 
Registry's protocols are therefore consistent with international GHG 
reporting and verification standards and industry best practices. In 
addition, The Registry produced its protocols through a public 
development process that included technical experts, industry 
representatives, environmental groups, and government agencies.
    The California Climate Action Registry was created in 2001, and 
quickly became known as the model for a rigorous voluntary GHG 
reporting program. The Climate Registry was incorporated in 2007. The 
Climate Registry drew from the California Registry's existing protocols 
to develop its own protocols.
    In April, 2009, the California Climate Action Registry officially 
changed its name to be the Climate Action Reserve (The Reserve). Moving 
forward, The Reserve will focus its efforts on developing emission 
reduction protocols and tracking the resulting emission reductions, 
i.e., ``offset projects.'' The California Registry will continue to 
collect emissions data for 2009 (reported in 2010), but will then cease 
collecting emissions data. The California Registry is working with The 
Climate Registry to transition its members to report to The Climate 
Registry to continue their entity-wide emission inventory reporting 
efforts.
    The Chicago Climate Exchange (CCX) is a private exchange that works 
with its members to reduce GHG emissions. CCX develops protocols for 
emission reduction projects and serves as an exchange for its members 
to transfer the emission reductions to and from interested parties 
within the exchange. The Climate Registry focuses on public reporting 
of a company's GHG emissions inventory and does not require members to 
reduce GHG emissions. The Registry also does not develop emission 
reduction protocols. Thus, the Chicago Climate Exchange's work is 
complementary to The Climate Registry's. In fact, several companies are 
members of both The Registry and CCX.
    The Climate Registry's primary mission is to ensure consistency of 
GHG calculation, reporting, and verification standards. The Registry is 
working closely with mandatory GHG programs at the State, regional, and 
federal level to ensure that at a minimum the calculation methodologies 
are the same across programs. The Registry's goal is to serve as a 
central data repository for members to report their emissions (once) to 
multiple programs, thereby reducing the reporting burden for members, 
while meeting the various policy needs of different GHG programs.

Q2.  How many small businesses are part of The Climate Registry? Do you 
provide additional assistance to companies who wish to participate and 
report their greenhouse gas emissions but may not be, able to afford 
the cost of gathering all the data and go through a third-party 
verification process?

A2. Approximately one third of The Climate Registry's 330-plus members 
could be considered small businesses. The Climate Registry provides the 
same excellent customer service and technical support to all of our 
members, including the small ones. The Registry offers regular webinars 
and trainings to help all members assemble their GHG inventory. In 
addition, The Registry has a ``help line'' where members can call staff 
experts to discuss particularly difficult reporting issues.
    Small businesses must meet the same reporting requirements as 
larger organizations. There are not different standards of reporting 
based on size.
    Third-party verification is required for all members, regardless of 
size. However, The Registry offers a service called ``batch 
verification'' for organizations with relatively small and simple 
inventories (less than 1,000 tonnes of CO<INF>2</INF>e per year, no 
process emissions, etc.).
    The purpose of Batch Verification is to help reduce the cost of 
verification by ``batching'' together a number of small inventories for 
one Verification Body to review and verify. The Batch Verification Body 
is selected by The Registry each year (not the member) and The Registry 
negotiates one standard rate for verification for each eligible 
member--which is generally lower than a member seeking verification 
services directly.

Q3.  How long does it take for a third-party verifier to become 
accredited by your organization? How many are actually accredited?

A3. The Registry does not accredit Verification Bodies itself, but 
rather uses the American National Standards Institute (ANSI) as its 
third-party accreditation body.
    The amount of time it takes for a Verification Body to become 
accredited depends on how well organized and prepared the Verification 
Body is. If a Verification Body has a well defined and documented 
management system in place the accreditation process should not take 
more than approximately three months. If a Verification Body's 
management system is not in place, it could take some time for them to 
become accredited.
    Currently there are seven ANSI-accredited, Registry-recognized 
Verification Bodies. We anticipate there will be three more accredited 
Verification Bodies shortly. To see the list of ANSI-accredited, 
Registry-recognized Verification Bodies, please visit The Registry's 
website: http://www.theclimateregistry.org/resources/verification/list-
of-verifiers.php

Q4.  If Congress were to enact a mandatory emission reduction program, 
should the official database/registry be managed directly by the 
Federal Government? Or would the data be better managed by some outside 
organization such as The Climate Registry?

A4. Without knowing the specifics of a federal emission reduction 
program, it is difficult to advise the Subcommittee on how best to 
manage it. Regardless of the program design, however, it will be 
important that reporters do not have to enter emissions data in more 
than one place for more than one use. For example, if a reporter is 
subject to mandatory reporting at the State, regional, and federal 
level, reporting the same data three or more times will not be 
efficient.
    There are several ways to address the need for multiple GHG 
programs that limit the reporting burden for reporters. 1) Congress 
should ensure that data reported to one program can be exchanged and 
used by other programs--perhaps through the Exchange Network; or 2) 
Congress should ensure that there is one central data repository 
through which reporters may enter their emissions data once to meet all 
of the necessary reporting requirements for multiple programs. This 
concept could be achieved by either the Federal Government or through 
an organization like The Climate Registry.
    The Climate Registry is currently developing its ``Common Framework 
for Mandatory Reporting'' to serve as the central repository for GHG 
data to various mandatory reporting programs as well as its voluntary 
registry.
    The Registry will be submitting formal comments to U.S. EPA to 
further elaborate how data collection between multiple GHG programs 
could happen. The Registry's comments to the EPA regarding its 
Mandatory Rule are available on The Registry's website: http://
www.theclimateregistry.org/downloads/Public%20Hearing%20 
comments%20on%20EPA%20rule.pdf

Q5.  What is currently being done to update obsolete emission factors? 
Are these calculation methodologies generated by the government alone? 
Or, do they arise from a collaborative effort from industry which then 
becomes the de facto standard?

A5. Several government agencies are responsible for updating key 
emission factors (EIA, DOE, EPA, etc.) necessary for calculating GHG 
emission inventories. Most default emission factors are developed by 
government agencies, however, detailed calculation methodologies for 
specific industries are often developed by industry associations, such 
as the American Petroleum Institute and others.

Q6.  It has been estimated that nearly 20 percent of global greenhouse 
gas emissions are generated from livestock. Does the agricultural 
industry participate in The Climate Registry? Does The Climate Registry 
have a suitable protocol for inventorying emissions from livestock and 
land use changes, with account for approximately one third of global 
greenhouse gas emissions?

A6. The Climate Registry's members currently include nine members 
associated with the food and beverage industry. This ranges from an 
onion farm, to a dairy operation, to a cheese producer.
    The Climate Registry has not yet developed a protocol for livestock 
management or forestry management. As a result, members with these 
types of emissions will need to follow industry best practices to 
calculate their emission inventories.
    Please note that livestock management and land use management are 
both areas where emission reduction activity can occur. The California 
Climate Action Registry, recently re-named the Climate Action Reserve, 
has developed emission reduction protocols for both sectors. (http://
www.climateregistry.org/tools/protocols/project-protocols.html)

Q7.  Based on the sentiments expressed by the Senate in the Byrd-Hagel 
resolution in 9997, any mandatory emission reduction program will 
surely have an international piece to maintain American competitiveness 
in international markets. How does The Climate Registry plan on 
including this type of information? This will be particularly important 
in the cases of China, India, Brazil, and Mexico because these 
countries may not develop verifiable climate registries for some time.

A7. The Climate Registry is working with mandatory GHG reporting 
programs that are being developed by states, regions, and Federal 
governments to ensure that the calculation, reporting, and verification 
standards are as consistent as possible. In this capacity, The Climate 
Registry is not setting climate policy, but rather, informing policy-
makers of the need for consistency, and offering its technical tools 
for use in mandatory programs. It will ultimately be the responsibility 
of the U.S. Government to define how the Byrd-Hagel resolution will be 
addressed in any federal program needing Senate approval.

Q8.  As Congress considers ways to associate a cost with carbon dioxide 
emissions, a mechanism to create high quality emissions data is of 
increased importance. At the federal level, this mechanism will enable 
us to track progress and economic impacts; at the individual facility 
level, managers will be able to make better investment decisions with 
robust emissions data.

Q8a.  Should industries be responsible for composing their own 
reporting standards?

A8a. Industries should not be able to set their own reporting 
standards. Any federal reporting standards should be based on 
international standards such as the World Resource Institute/World 
Business Council for Sustainable Development's GHG Protocol and the ISO 
14064 standard, in addition to industry best practices. The Federal 
Government must define a clear set of reporting standards for all 
regulated parties that take into account the internationally accepted 
GHG standards as well as industry best practices.

Q8b.  Should NIST play a role in setting reporting standards?

A8b. As indicated above, international GHG reporting standards have 
already been defined; they just need to be implemented. That said, NIST 
could play a useful role in helping to develop technologies that 
increase the ease and accuracy in reporting GHG emissions.

Q8c.  Do voluntary emission registry firms like yours supply the 
protocols and standards to properly capture all emission activities 
with the same amount of reliability?

A8c. The Climate Registry supplies its members with reporting and 
verification protocols that explain how GHG emissions must be 
calculated and verified. Two protocols, the General Reporting Protocol 
and the General Verification Protocol, address the most commonly 
occurring emission sources. In addition, The Registry is working to 
finalize two new industry specific protocols (Electric Power Sector and 
Local Government Operations), and will continue to develop new industry 
specific protocols that provide further guidance to reporters in speck 
sectors.
    The level of reliability is determined through The Registry's 
annual third-party verification process, wherein all reported emissions 
must meet a materiality threshold of five percent.

Q8d.  Is ANSI doing a sufficient job in pushing these standards to a 
consensus?

A8d. ANSI has designed and implemented a program to meet the needs of 
ISO 14065. This program accredits Verification Bodies interested in 
verifying GHG emissions to the international standard and ensures that 
competent Verification Bodies are conducting verification activities.
    The Climate Registry currently uses ANSI as its accreditation body. 
It is critically important that the Federal Government and other State 
and regional GHG programs also utilize ANSI in this capacity to ensure 
one common standard for the accreditation of Verification Bodies in the 
U.S. As a result, the important push to consensus will be driven by the 
policy-makers in their decision to use ANSI as a third-party 
accreditation body rather than by ANSI itself.

Q9.  Are there any significant obstacles to the monitoring or verifying 
of emissions that Congress should consider?

A9. While there are many details to consider, it is important to 
recognize that we currently have the capacity to accurately calculate, 
report, monitor, and verify GHG emissions from most sectors. While some 
additional refinements may be needed, we should not delay the start of 
a robust program until all of the minor details are resolved.
                   Answers to Post-Hearing Questions
Responses by Leslie C. Wong, Director, Greenhouse Gas Programs, Waste 
        Management, Inc.

Questions submitted by Chair Brian Baird

Q1.  In your written testimony you describe a process now underway to 
characterize fugitive methane emissions over the range of conditions 
characteristic of different landfills, both operating and closed. How 
does the variability in fugitive methane emissions associated with 
these factors compare with the variability in estimates for methane 
emissions using current estimation methods? Do the variations in 
season, management, and site specific conditions for landfills make 
these sources candidates for continuous monitoring that would allow for 
reporting of a range of emissions or a more realistic summation of the 
actual annual emissions from these facilities?

A1. The U.S. EPA in its proposed mandatory GHG Reporting Rule, reviewed 
methods for estimating landfill emissions and concluded that direct 
measurement techniques were not yet available for accurately or 
reliably measuring landfill emissions. According to EPA in its proposed 
rule preamble, ``the direct measurement methods available (flux 
chambers and optical remote sensing) are currently being used for 
research purposes, but are complex and costly, their application to 
landfills is still under investigation, and they may not produce 
accurate results if the measuring system has incomplete coverage.'' 
Waste Management agrees with EPA's determination that reliable and 
accurate, direct measurement methods are not now available for 
continuous greenhouse gas (GHG) emission monitoring at landfills. As 
the leading researcher employing these methods, WM can confirm that 
research is continuing, but data sufficient to support their use as 
tools to generate accurate measurements to serve as the basis for 
regulatory compliance have not been generated to date.
    Instead, EPA proposes that landfill owner/operators use a 
combination of two approaches: 1) all landfills would use the UN 
Intergovernmental Panel on Climate Change (IPCC) First Order Decay 
model to estimate landfill emissions that reflect degradation of wastes 
in a landfill; and 2) for landfills that operate landfill gas 
collection and control systems, EPA proposes that these landfills also 
measure collected landfill gas flow and the methane concentration of 
the gas flow, with an estimated gas collection efficiency to calculate 
methane generation. Where landfills have active landfill gas collection 
and control systems, we are able to directly and continuously monitor 
total collected landfill gas flow; and, although it is not standard 
operating practice nor required by the New Source Performance Standards 
for Municipal Solid Waste Landfills, we can continuously monitor the 
methane concentration of collected landfill gas.
    Coupled with these two measurement approaches, EPA also requires 
owner/operators to estimate the amount of uncollected methane that is 
oxidized in the landfill cover material. EPA provides a default factor 
for methane oxidation or allows reporters to calculate an oxidation 
factor using site-specific data. A significant number of field studies 
conducted in the U.S. and Europe have provided good estimates of 
methane oxidation, in the form of ranges, under differing circumstances 
of cover type, soil type and climate.
    EPA's proposed GHG reporting requirements recognizes that landfills 
are large non-point sources of GHG emissions and far more similar to a 
large agricultural operation than to a point source such as a stack on 
an industrial manufacturing plant. Landfill fugitive GHG emissions, in 
the form of the uncollected and unoxidized methane component of 
landfill gas, are neither continuous nor uniform. The volume of 
fugitive landfill gas emissions, and the methane concentration in the 
fugitive emissions, varies spatially across the landfill footprint, and 
varies temporally across the course of a day, across seasons, and by 
region of the country due to climate, soils, topography and waste 
types. Based on these conclusions, EPA has proposed a workable approach 
that we support.

Questions submitted by Representative Bob Inglis

Q1.  Ms. Wong, in your testimony you state that in 2007 Waste 
Management launched a two-year project to inventory emissions in order 
to account for your carbon footprint. How much has this effort cost 
your company so far? What will the total cost of this effort be?

A1. In December of 2007, WM formed a multi-disciplinary Carbon 
Footprint Project Team to better understand our greenhouse gas (GHG) 
emissions by measuring our company-wide carbon footprint, including 
direct and indirect emissions from all WM controlled entities. The Team 
is well on the way to meeting our goal of collecting data for and 
calculating our 2009 GHG emissions so we can report them in 2010. The 
Team organized itself around four major tasks:

        1.  Identifying all WM sources of GHG, and identifying existing 
        or developing new protocols for measuring their emissions;

        2.  Developing the organizational structure for reporting 
        emissions from individual facilities, up to the company as a 
        whole, and identifying internal means to collect emissions 
        data;

        3.  Selecting and configuring a software tool for managing GHG 
        emissions data, calculating GHG emissions of various types and 
        reporting WM's GHG emissions, which we have named ``Climate 
        Care''; and

        4.  Communicating to internal and external stakeholders about 
        what we are doing, and developing training for WM staff who 
        will be involved in data collection.

    The Team's focus this year will be on collecting and internally 
validating our 2009 emissions information, uploading it to Climate 
Care, calculating GHG emissions by pollutant and compiling the WM 
carbon footprint in early 2010.
    Set forth below are some estimates of our internal staff resources, 
our investment in electronic infrastructure and our consultant costs 
associated with developing our ``Climate Care'' GHG data management 
tool, identifying our sources, gathering information required to 
calculate emissions and calculating our emissions for calendar year 
2009. These cost estimates do not include internal resources or 
external consulting costs associated with landfill monitoring research, 
emissions testing, development of the SWICS landfill GHG estimation 
protocol, or upgrades to existing landfill gas collection monitoring 
equipment, as we consider these to be long-term investments with 
benefits reaching beyond facilitation of GHG reporting. Also, these 
cost estimates do not include the cost of third-party verification, as 
WM is hopeful that third-party verification will not be required on a 
federal basis.
    However, WM has investigated what the cost of third-party 
verification would be to the company if The Climate Registry's 
protocols were adopted on a federal level. Using a cost estimate from a 
reputable third-party verifier for labor and internal cost estimates 
for travel expenses to provide cross-country access to that verifier, 
the total estimated cost for annual third-party verification of WM's 
GHG reports would be approximately $500,000.
    To provide some background on the costs provided below, WM is 
including in its carbon footprint all six commonly recognized GHGs as 
emitted by approximately 2,500 sites including open and closed 
landfills of various types, waste-to-energy facilities, alternative 
fuel power plants, recycling facilities, transfer stations, hauling 
companies and office-based operations. This wide variety of operations, 
however, generates GHGs from only four major sources: direct emissions 
from landfills; direct emissions from fuel combustion in on-road and 
off-road mobile sources as well as stationary sources; indirect 
emissions from use of electricity; and direct emissions of refrigerants 
from maintenance of our own equipment and processing of discarded 
refrigeration units at some facilities.
    Landfill emissions are calculated using the SWICS protocol (shared 
with Committee staff). Waste-to-energy facility and power plant 
emissions are calculated using existing emissions test data and waste/
fuel receipt data. On-road and off-road mobile source and stationary 
fuel-burning source emissions are calculated using TCR/CCAR fuel 
default emission factors and fuel invoice data. Indirect emissions from 
use of electricity are calculated using E-Grid default emission factors 
and electricity invoice data. Refrigerant emissions, which are expected 
to be well under five percent of WM's GHG emissions, are estimated 
using company average refrigeration unit usage and management 
assumptions for each type of site.
    The effort associated with our carbon footprint effort is reflected 
in internal WM staff costs, in external consulting costs of IHS, our 
equipment vendor, and ERM, who customized the IHS software for use by 
WM, and in the cost of purchasing software and related operating 
licenses. Internal staff costs include two full-time managers, one 
environmental and one IT, technical support from professionals in all 
WM operations departments, WM legal and financial control support, and 
data entry personnel.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The internal WM staff hourly rate used above represents an average 
salary plus a standard benefits multiplier for the key staff that 
worked on this project. It is not a fully loaded rate, and it does not 
include travel associated with working on the project. The estimates of 
hours of efforts were obtained from interviewing the staff involved. 
The ERM and IHS staff hourly rates represent an average of each 
company's billable rates for the personnel assigned to WM's project. 
Hours and cost are from the contract between ERM and WM. Hardware and 
software costs are from invoice data.

Q2.  Waste Management is a member of the Chicago Climate Exchange and 
the California Climate Action Registry. How similar are the reporting 
requirements of these two organizations? What are the differences 
between them?

A2. Waste Management, as a founding member of the Chicago Climate 
Exchange (CCX) and as a member of the California Climate Action 
Registry (CCAR), has voluntarily reported GHG emissions for a subset of 
our operations in accordance with the two entities' membership rules 
and protocols. The protocols for calculating emissions are very similar 
across the two programs, and the protocols used are consistent with the 
widely accepted GHG reporting protocol developed jointly by the World 
Resources Institute and World Business Council for Sustainable 
Development. The primary difference between the two programs is that 
CCX focuses solely on the carbon dioxide (CO<INF>2</INF>) emissions of 
its members, while CCAR requires its reporting members to report all 
six Kyoto GHGs (CO<INF>2</INF>, methane, nitrous oxide, HFCs, PFCs, 
SF6) after a three-year transition period.
    CCX specifically requires its members to measure baseline and 
yearly CO<INF>2</INF> emissions resulting from fossil fuel combustion 
in stationary and mobile sources. Additionally, WM is required to 
report CO<INF>2</INF> emissions from its nine wholly owned waste-to-
energy plants and five power plants. Because the majority of these 
plants produce renewable energy, WM reports only the CO<INF>2</INF> 
emissions resulting from combustion of non-biogenic materials 
(primarily plastics) contained in the municipal solid waste and from 
combustion of supplemental and base load fossil fuel. The annual 
inventory is reported to CCX and is third-party audited by the 
Financial Industry Regulatory Authority (FINRA formally NASD) at the 
direction of CCX.
    Waste Management, as a transitional reporting member of the CCAR, 
reports only its CO<INF>2</INF> emissions for the first three years of 
membership, which concluded with the 2008-reporting year. WM has 
reported CO<INF>2</INF> direct emissions from fuel combustion in 
stationary facilities and vehicles, and indirect CO<INF>2</INF> 
emissions from electricity use in the State of California in accordance 
with CCAR quantification and reporting rules. The emission reports are 
third-party verified by CCAR-approved verifiers. With the end of our 
transition period, WM will for the 2009-reporting year be required to 
report GHG emissions for all six Kyoto gases from its California 
facilities and vehicles.
    Neither CCX nor CCAR requires reporting of landfill GHG emissions. 
However, WM has supplied landfill GHG emissions data to CCAR on a 
voluntary basis, using the Solid Waste Industry for Carbon Solutions 
(SWICS) protocol.

Q3.  Waste Management emits greenhouse gases from many different 
sources.

        a.  What percentage of your emissions is tracked by direct 
        monitoring technologies? Can this number be increased?

        b.  What types of technologies would be needed in order to 
        increase the amount of greenhouse gas emission that are 
        directly monitored? Are any of these technologies currently 
        being developed?

A3a,b. WM, for its company-wide carbon footprint, plans to use The 
Climate Registry (TCR) or CCAR-approved GHG emission calculation 
protocols for estimating all of its GHG emissions. The U.S. EPA has 
proposed the same or very similar protocols for its mandatory GHG 
Reporting Rule. These calculation methodologies employ scientifically 
demonstrated mathematical formulas, which are used to estimate GHG 
emissions associated with landfill emissions, fossil fuel combustion in 
stationary, off-road mobile and on-road mobile sources, electricity 
use, and municipal solid waste combustion at our waste-to-energy 
plants.
    For landfill emissions, U.S. EPA in its proposed mandatory GHG 
Reporting Rule, reviewed methods for estimating landfill emissions and 
concluded that direct measurement techniques were not yet available for 
accurately or reliably measuring landfill emissions. Instead, EPA 
proposes that landfill owner/operators use a combination of two 
approaches: 1) all landfills would use the UN Intergovernmental Panel 
on Climate Change (IPCC) First Order Decay model to estimate landfill 
emissions that reflect degradation of wastes in a landfill; and 2) for 
landfills that operate landfill gas collection and control systems, EPA 
proposes that these landfills also measure collected landfill gas flow, 
the methane concentration of the gas flow, and estimated gas collection 
efficiency with site-specific data to calculate methane generation. 
Where landfills have active landfill gas collection and control 
systems, we are able to directly and continuously monitor total 
collected landfill gas flow; and, although it is not standard operating 
practice nor required by the New Source Performance Standards for 
Municipal Solid Waste Landfills, we can continuously monitor the 
methane concentration of collected landfill gas.
    Coupled with these two measurement approaches, EPA also requires 
owner/operators to estimate the amount of uncollected methane that is 
oxidized in the landfill cover material. EPA provides a default factor 
for methane oxidation or allows reporters to calculate an oxidation 
factor using site-specific data. A significant number of field studies 
conducted in the U.S. and Europe have provided good estimates of 
methane oxidation, in the form of ranges, under differing circumstances 
of cover type, soil type and climate.
    For waste-to-energy plants, EPA's proposed rule asks for an annual 
measurement of GHG emissions for the facility. WM plans to use an 
annual stack test (using the EPA-approved methodology) to develop an 
emissions factor for carbon dioxide, nitrous oxide and methane in 
pounds per ton of municipal solid waste (MSW) combusted. The emissions 
factors are then multiplied by the annual throughput of MSW combusted 
at the facility. For an annual measurement, use of stack tests in this 
manner will provide as accurate and reliable a measurement as would an 
annual averaged reading from a continuous emissions monitor. The 
formalized emission test provides a high degree of accuracy, as does 
the precise measurement of the mass of MSW input to the system. A 
continuous emission monitor does not employ the technical finesse of a 
formalized emission test, and is subject to periodic maintenance and 
recalibration.
    The reporting of GHG emissions associated with fuel use in 
stationary and mobile sources typically uses a calculation methodology 
that estimates emissions based on the carbon content of the fuel and 
the mass of fuel consumed. This is an accurate estimate because carbon 
is not consumed in the combustion process, but is emitted. Inventorying 
indirect emissions from electricity use requires the use of estimation 
techniques based on actual metered use rates combined with GHG emission 
factors based on the type and proportion of fossil or renewable fuels 
used to generate electricity in a particular state. The utilities 
themselves are able to directly measure their stack emissions of 
CO<INF>2</INF>, but users of electricity must calculate their indirect 
emissions associated with electricity use because they cannot determine 
the specific power plants providing electricity to the grid at the time 
power is used.

Q4.  You state in your testimony that the solid waste management sector 
decreased greenhouse gas emissions by more than 75 percent from 1974 to 
1997. How were these reductions made? What opportunities exist to 
further decrease your emissions?

A4. Through improved practices, such as recycling and landfill gas 
collection and combustion, GHG emissions from MSW management have 
decreased by over 75 percent from 1974-1997 despite an almost two-fold 
increase in waste generation.\1\ The EPA-sponsored study footnoted 
below evaluated MSW management practices as they evolved throughout the 
last several decades. For the baseline year of 1974, MSW management 
consisted of limited recycling, combustion without energy recovery, and 
landfilling without gas collection or control. This was compared with 
data for 1980, 1990, and 1997, accounting for changes in MSW quantity, 
composition, management practices, and technology. Over time, the 
United States has moved toward increased recycling, composting, 
combustion (with energy recovery) and landfilling with gas recovery, 
control, and utilization.
---------------------------------------------------------------------------
    \1\ K. Weitz et al., The Impact of Municipal Solid Waste Management 
on Greenhouse Gas Emissions in the United States, Journal of Air & 
Waste Management Association, Volume 52, September 2002.
---------------------------------------------------------------------------
    WM believes that additional opportunities exist for further 
reducing GHG emissions within our sector. In October of 2007, WM 
announced a series of environmental initiatives to serve as a platform 
for sustainable growth, building on a number of innovative technologies 
WM already employs. They include:

        <bullet>  The operation of landfill gas-to-energy, waste-to-
        energy and biomass plants that produce electricity and fuels 
        that replace fossil fuel use. We plan to double our output of 
        renewable energy by 2020;

        <bullet>  Saving resources and energy by recovering valuable 
        materials through the Nation's largest recycling program. We 
        plan to triple the amount of recyclable materials we manage by 
        2020;

        <bullet>  Advancing technology for alternative transportation 
        fuels (e.g., landfill gas to liquefied natural gas) and engine 
        design to lower GHG emissions from our vehicles. We expect to 
        direct capital spending of up to $500 million per year over a 
        ten-year period to increase the fuel efficiency of our fleet by 
        15 percent and reduce our emissions by 15 percent by 2020;

        <bullet>  The continued recovery and destruction of methane gas 
        from landfills; and

        <bullet>  Development of ``Next Generation'' technology 
        landfills that offer enhanced collection and beneficial use of 
        landfill gas.

Q5.  As Congress considers ways to associate a cost with carbon dioxide 
emissions, a mechanism to create high quality emissions data is of 
increased importance. At the federal level, this mechanism will enable 
us to track progress and economic impacts; at the individual facility 
level, managers will be able to make better investment decisions with 
robust emissions data.

        a.  Should industries be responsible for composing their own 
        reporting standards?

        b.  Should NIST play a role in setting reporting standards?

        c.  Do voluntary emission registry firms supply the protocols 
        and standards to properly capture all emissive activities with 
        the same amount of reliability?

        d.  Is ANSI doing a sufficient job in pushing these standards 
        to a consensus?

A5a,b,c,d. As Waste Management has worked over the last year to develop 
the tools to measure our company-wide carbon footprint, we have gained 
an appreciation for the complexity of the effort and the need to ensure 
our customers, our regulators and ourselves that we have done so 
correctly. One of the key challenges we have faced is the lack of 
broadly accepted protocols for measuring GHG emissions from our solid 
waste management operations, particularly landfills.
    To facilitate our voluntary reporting of methane emissions from 
landfills to the California Climate Action Registry, WM and other 
public and private owners and operators of landfills formed the Solid 
Waste Industry for Climate Solutions (SWICS), and commissioned SCS 
Engineers to conduct an in depth literature review and make 
recommendations on refining current landfill emissions models. The 
protocol, which has been shared with EPA, The States of California, 
Massachusetts, and New Jersey, along with CCAR and the Climate 
Registry, replaces default values for landfill gas collection 
efficiency and methane oxidation in existing EPA models with ranges, 
which better account for effects of climate, landfill design and 
landfill cover types. The protocol was peer reviewed by a team of 
landfill academicians and practitioners. The protocol represents a 
first step in refining existing EPA models and protocols to improve 
landfill methane estimation. We are pleased that EPA's proposed 
mandatory reporting rule adopted aspects of the protocol to allow 
reporters to either use default values supplied by EPA, or to undertake 
more rigorous emissions estimation using site-specific information on 
collection system and landfill cover system design and operation.
    Our experience with developing a protocol for estimating landfill 
emissions leads us to believe that a consensus-based standards-setting 
process would be the most constructive means for developing generally 
accepted protocols for sectors that now lack such protocols. GHG 
emissions inventorying and accounting is an evolving art and science. 
The advent of federal GHG reporting requirements offers an excellent 
opportunity to develop consensus standards for emissions inventorying 
for key industry sectors. The National Technology Transfer and 
Advancement Act of 1995 (P.L. 104-113) directs federal agencies to use 
consensus-based standards in lieu of government-unique standards except 
when inconsistent with law or otherwise impracticable.
    The American National Standards Institute (ANSI) process for 
voluntary standards development is the ``gold standard'' of such 
processes. It is guided by the principles of consensus, due process and 
openness, and depends heavily upon data gathering and compromises among 
a diverse range of stakeholders. The process ensures that access to the 
standards development process, including an appeals mechanism, is made 
available to anyone directly or materially affected by a standard that 
is under development. WM would welcome and support efforts by NIST and 
ANSI to develop consensus-based protocols to implement both mandatory 
and voluntary GHG emissions reporting programs.

Q6.  Are there any significant obstacles to the monitoring or verifying 
of emissions that Congress should consider?

A6. Waste Management does not support a requirement for third-party 
verification of mandatory GHG emissions reporting. There is no 
precedent for third-party verification in any federal environmental 
statute under which we operate. The solid waste management sector is 
subject to numerous reporting requirements under federal statutory 
programs including the Resource Conservation and Recovery Act, Clean 
Air Act, Emergency Planning and Community Right-to-Know Act, Spill 
Containment and Countermeasures Program, the Clean Water Act, and 
Superfund to name a few. None of these programs require third-party 
verification of reporting, and many do not even require self-
certification. All, however, include enforcement provisions, which 
create significant disincentives for faulty or false reporting. Any GHG 
reduction regime promulgated at the federal or State level will 
incorporate similar enforcement mechanisms designed to promote good 
behavior and penalize violators.
    Our experience with third-party verification under the CCX and 
CCAR, suggests that any requirement for third-party verification in a 
federal mandatory reporting program will add significant logistical 
issues and delays to the reporting process without enhancing the 
quality or reliability of reported data. EPA would have to develop 
standards for the certification of third-party verifiers, approve a 
sufficient number to ensure that the thousands of reporters subject to 
the mandatory reporting rule would have ample access to certified 
verifiers, and then oversee the verification process. Should disputes 
arise between reporters and third-party verifiers, the likely venue for 
negotiation is the court system, which would add profound delays to the 
confirmation of reported data. The EPA has proposed instead to require 
GHG emissions reporters to self-certify their emissions reports that 
EPA will then verify. EPA has outlined robust data requirements to 
ensure that it has the background information necessary to verify the 
completeness and quality of the emissions reports. We believe that this 
approach will avoid delays in program implementation, reduce the number 
of disputes and the time required to rectify them, as well as reduce 
costs for reporters who would have had to pay for third-party 
verification, while still ensuring the completeness and quality of 
emissions data, which itself in many cases will require the services of 
a third-party expert.
                   Answers to Post-Hearing Questions
Responses by Rob Ellis, Greenhouse Gas Program Manager, Advanced Waste 
        Management Systems, Inc. (AWMS)

Questions submitted by Chair Brian Baird

Q1.  In your testimony, you explain that the fundamental principle of 
the on-site verification is that an inventory calculation is only as 
good as the raw data used to make that calculation. In your experience, 
what are some of the challenges with gathering good quality raw data?

A1. For many companies the process of generating a complete GHG 
inventory is new. In AWMS' experience the greatest challenge we see is 
the difficulty of creating a complete inventory. In the cases where a 
reporter has omitted a GHG source it is impossible for that reporter to 
go back in time and begin measuring that source. This can result in an 
unverifiable inventory if that omission exceeds materiality (five 
percent error) thresholds. This is a key point: a GHG inventory is not 
one point source, or a ``tailpipe'' measurement--there are many 
emissions sources at any given site.

Q2.  Can you explain any drawbacks to using the data collected from the 
Continuous Emissions Monitoring Systems (CEMS)? What are the 
maintenance requirements for CEMS? Do CEMS measure methane and nitrous 
oxide or only carbon dioxide? Do you verify the emissions recorded with 
CEMS?

A2. The primary drawback to using the data collected from CEMS is that 
it can lead to a false sense that GHG inventories are measurable with a 
single point source measurement device. As stated, a GHG inventory 
comprises monitoring and measurement of many GHG sources, most of which 
will be outside the scope of CEMS. Should a power plant, for example, 
rely on solely CEMS then data sources such as emergency generator 
emissions, coal pile emissions, and fugitive emissions will be omitted. 
The maintenance requirements for CEMS are very specific, and include 
items such as automated calibrations and periodic stack testing to 
confirm the accuracy of the CEMS. In AWMS' experience a power plant 
often will assign staff the specific job of CEMS maintenance full-time. 
Taken in this context, however, CEMS data provides a very reliable 
source of data. As a verifier AMWS would accept CEMS data in accordance 
with the applicable reporting protocol, but would still perform a 
verification of the data by checking items such as calibration records 
and the availability records of the CEMS. CEMS can be set to monitor 
almost any gas, however methane would not likely be one of these. 
Temperatures in stack gas would be so high any methane would probably 
combust.

Questions submitted by Representative Bob Inglis

Q1.  How many companies in the U.S. at this time are third-party 
verifiers? How long does it take to get accreditation to be a third-
party verifier?

A1. Utilizing the global best management practice of ISO 14065 
accreditation, there are eight accredited verifiers (including AWMS). 
This accreditation program is overseen and managed by the American 
National Standards Institute (ANSI). ANSI represents the U.S. in the 
International Accreditation Forum (IAF) that ties this accreditation to 
the international community. In AWMS' case the process to become 
accredited by ANSI took about eight months (May 2008 thru December 
2008). AWMS was a successful member of the pilot group of verifiers, so 
some of this time can be attributed to the fact that each step was 
being performed for the first time.

Q2.  How long does it take for you to audit a single company's 
greenhouse gas inventory? Is your entire staff involved in every audit? 
What is the average number of staff assigned per audit? How many audits 
can your company conduct in a single year?

A2. As can be expected, the length of time to perform a verification 
varies greatly depending on the reporting entity. Having said that, 
there are a number of key indicators that affect that time. For 
example, the homogeneity of a reporter's operations drives the level of 
effort greatly. Reporters utilizing a small number of technologies 
(e.g., coal fired power plants) require a smaller number of site visits 
in order to sample the emissions inventory where reporters utilizing a 
large number of technologies (e.g., coal fired, gas fired, and waste-
to-energy) require a larger number of site visits in order to sample 
the emissions inventory. AWMS does not involve the entire staff in any 
audit; the average number of staff assigned per audit is two to three 
(consisting of a Lead Verifier, an additional Verifier when necessary, 
and a Peer Reviewer). AWMS has not had to turn down any verification 
work due to a lack of resources.

Q3.  Are the verification protocols utilized for auditing greenhouse 
gas inventories the same as protocols used for determining the validity 
of off-sets? How are these protocols different?

A3. The protocols for auditing greenhouse gas inventories are slightly 
different from those used to verify offset projects. The primary reason 
for this is there are different programs for inventories (e.g., TCR) 
and offset projects (e.g., CCX). Being different entities, they have 
developed their own protocols. The protocols differ primarily in the 
calculation methodologies but are based on international practices. 
There are key similarities, however, such as the requirement for third-
party verification. This is the globally accepted best management 
practice.

Q4.  What is the typical margin of error you have found during 
auditing? Do you assist companies to reduce this error in reporting? 
Are there any penalties incurred by the companies that have significant 
errors in their reporting?

A4. TCR and international practices have set the acceptable error level 
at five percent (assessed independently against direct and indirect 
emissions). AMWS has been able to successfully verify reporters against 
this requirement to-date. A very clear requirement of any third-party 
verification body is that we will in no way assist companies. AWMS' 
responsibility is to identify error and maintain our impartiality by 
not participating in or recommending corrections. Along those lines any 
assessment of penalty is the responsibility of the relevant program. 
AWMS does have the responsibility to report our verification findings 
without consideration of reward or consequence.

Q5.  Do you test the monitoring technologies to ensure that the data 
received from them is accurate?

A5. AMWS verifies whether the reporter assesses themselves to ensure 
that their data is accurate. This includes actions such as verifying 
proper maintenance, equipment calibration, placement, and, where 
required, physical sampling such as stack tests. AWMS reviews the 
records of these actions to ensure they are being performed.

Q6.  As Congress considers ways to associate a cost with carbon dioxide 
emissions, a mechanism to create high quality emissions data is of 
increased importance. At the federal level, this mechanism will enable 
us to track progress and economic impacts; at the individual facility 
level, managers will be able to make better investment decisions with 
robust emissions data.

Q6a.  Should industries be responsible for composing their own 
reporting standards?

A6a. In order for any emissions inventory to be accepted at an 
international level, and thus gain access to the international market, 
industries need to follow the global best management practices. This 
necessitates a centralized set of protocols by which industries 
calculate their inventories. A prime example is that of The Climate 
Registry that creates a system of comparable inventories, i.e., 
comparing apples to apples. If industries are asked to compose their 
own reporting standards there will be no consistency and U.S. companies 
will be barred from any trading on the international market.

Q6b.  Should NIST play a role in setting reporting standards?

A6b. Any role that NIST could play in GHG reporting is already being 
filled, with the American National Standards Institute (ANSI) being the 
best example. The unique value that ANSI brings to the role is their 
membership in the International Accreditation Forum (IAF). IAF is a 
global unifying body that ensures that accreditation as a verifier 
under ANSI's program is recognized internationally. This, in turn, 
ensures that a U.S. company that has their inventory verified by an 
ANSI accredited verifier will be recognized at the international level. 
For this reason, ANSI is the best choice to provide oversight of any 
U.S. GHG program. As far as specific reporting protocols, those have 
also been developed and are in common use. These protocols, such as The 
Climate Registry's General Reporting Protocol, have been developed with 
linkage to international protocols in mind, thus ensuring that U.S. 
verified inventories would be recognized internationally. Both ANSI and 
TCR are in practice today; there is no need to recreate these functions 
within NIST.

Q6c.  Do voluntary emission registry firms supply the protocols and 
standards to properly capture all emissive activities with the same 
amount of reliability?

A6c. In AWMS' experience the voluntary emission registries in which we 
participate (TCR, CCX) are producing high quality protocols that do 
properly capture emissive activities. As with any protocol or standard 
it is up to the end-user (reporters in this case) to appropriately 
apply these protocols. That highlights the fact that third-party 
verification is a critical element; it is in this phase of an inventory 
program that assurances are made that a reporter appropriately 
interpreted and applied the protocols and that no emissive activities 
were omitted. Relative to GHG programs, ANSI utilizes ISO 14065 and ISO 
14064-3 which are Standards written and ratified by ISO member nations 
(159 nations). ANSI ensures that U.S. programs and verifiers operate in 
a fashion consistent with the international community, thus keeping the 
link to the international market open.

Q6d.  Is ANSI doing a sufficient job in pushing these standards to a 
consensus?

A6d. Absolutely, ANSI is doing an excellent job in pushing these 
standards to a consensus. AWMS has experienced a great deal of two-way 
communication with ANSI, including updates on the status of various 
U.S. programs utilizing ANSI as the accreditation scheme of choice. 
Examples grow on a routine basis and ANSI continues to work towards 
bringing all verifier accreditation under one system. Through ANSI's 
representation in the IAF this scheme ensures recognition of not only 
U.S. verifiers on the international level, but also the inventories 
verified by that same group.

Q7.  Are there any significant obstacles to the monitoring or verifying 
of emissions that Congress should consider?

A7. A very recent obstacle presented itself with the release of the 
draft EPA mandatory greenhouse gas reporting rule. In this draft EPA 
recommends bypassing third-party verification in favor of internalizing 
that function to the EPA. This immediately would place the U.S. program 
in contradiction to every other GHG program in the world. In so doing, 
all U.S. reported inventories would be called into question 
internationally and would prevent U.S. reporters from entering the 
international trading market. The argument is presented within this 
draft rule that EPA has experience with this sort of work through the 
acid rain program. This is not true in that the comparison between 
monitoring and verifying data for the acid rain program can be linked 
to CEMS, while those same CEMS comprise only a portion of a GHG 
inventory. A GHG verification involves much more than checking the data 
quality of a monitoring device; this is expertise that resides in the 
public sector with private companies specialized in emissions inventory 
verification. This relates directly to another argument presented in 
the draft EPA rule that states that third-party verification is too 
expensive. Again, this argument is flawed in that third-party verifiers 
are already operating in the marketplace. There is no ramp-up cost 
associated with these companies any longer, and third-party verifiers 
already have trained staff and management systems in place. Should EPA 
assume the responsibility of verifier at this stage, all that ramp-up, 
learning, training, and program development will need to be repeated in 
the EPA. The argument that there is no need for third-party 
verification and that spot checks by EPA are sufficient is a very 
shortsighted argument By ignoring the international best practice the 
U.S. will take itself out of the international carbon market and 
eliminate the vast potential of earnings for forward-minded companies 
who build carbon credits. This draft EPA rule poses an obstacle to 
international recognition and acceptance of a U.S. GHG inventory 
program and any future cap and trade program, should the decision to 
eliminate third-party verification stand.
    Further, the draft EPA rule replaces globally vetted emissions 
calculations and emissions factors with EPA's own versions that have 
never been tested or internationally used. These EPA procedures further 
require numerous repetitive site and fuel specific calculations, the 
cost of which would be extreme.


 MONITORING, MEASUREMENT, AND VERIFICATION OF GREENHOUSE GAS EMISSIONS 
 II: THE ROLE OF FEDERAL AND ACADEMIC RESEARCH AND MONITORING PROGRAMS

                              ----------                              


                       WEDNESDAY, APRIL 22, 2009

                  House of Representatives,
               Committee on Science and Technology,
                                            Washington, DC.

    The Committee met, pursuant to call, at 10:04 a.m., in Room 
2321 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chair of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

               Monitoring, Measurement, and Verification

                    of Greenhouse Gas Emissions II:

                    The Role of Federal and Academic

                    Research and Monitoring Programs

                        tuesday, april 22, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On April 22, 2009, the House Committee on Science and Technology 
will hold a hearing entitled ``Monitoring, Measurement, and 
Verification of Greenhouse Gas Emissions II: The Role of Federal and 
Academic Research and Monitoring Programs.'' The purpose of the hearing 
is to examine existing and planned federal programs focused on 
monitoring, measuring, and verifying sources and sinks of greenhouse 
gases, their atmospheric chemistry and their impacts on Earth's 
climate. The Committee will examine both top-down and bottom-up methods 
for tracking greenhouse gases including: ground-based, tropospheric, 
and space-based monitoring systems as well as facility-based monitoring 
systems and inventory and reporting methods.
    The Committee seeks to understand how the existing and planned 
federal measurement and monitoring systems can be utilized to gain 
greater understanding of sources and sinks of greenhouse gases and to 
support research on greenhouse gases, evaluation of national and 
international greenhouse gas mitigation policies, and development of 
projections of regional climate impacts to inform development and 
implementation of mitigation and adaptation strategies. The Committee 
also seeks to identify the key requirements that need to be addressed 
in developing a scientifically and operationally robust system for 
verifying compliance with potential climate agreements.

Witnesses

        <bullet>  Dr. Alexander ``Sandy'' MacDonald, Director, Earth 
        Systems Research Laboratory, National Oceanic and Atmospheric 
        Administration (NOAA)

        <bullet>  Dr. Beverly Law, Professor, Global Change Forest 
        Science, Oregon State University, and Science Chair, AmeriFlux 
        Network

        <bullet>  Dr. Richard Birdsey, Project Leader, Climate, Fire, 
        and Carbon Cycle Science, USDA Forest Service, and Chair, 
        Carbon Cycle Scientific Steering Group

        <bullet>  Dr. Michael Freilich, Director, Earth Science 
        Division, National Aeronautics and Space Administration (NASA)

        <bullet>  Ms. Dina Kruger, Director, Climate Change Division, 
        Office of Atmospheric Programs, Environmental Protection Agency 
        (EPA)

        <bullet>  Dr. Patrick D. Gallagher, Deputy Director, National 
        Institute of Standards and Technology (NIST)

        <bullet>  Dr. Albert J. Heber, Professor of Agricultural and 
        Biological Engineering, Director, Purdue Agricultural Air 
        Quality Laboratory, Purdue University, and Science Advisor, 
        National Air Emission Monitoring Study

Background

    The Federal Government has a number of programs that gather 
observations on greenhouse gases, climate, ecosystem function, land use 
change, and primary production on land and in the oceans using ground-
based, aircraft-based, and space-based measurement techniques. These 
monitoring and measurement programs are integral parts of research and 
observation programs designed to gain greater understanding of the 
Earth's carbon cycle, global nutrient budgets, atmospheric chemistry, 
the fate and transport of air pollutants, and ecosystem health and 
function.
    There are also several monitoring, measurement and reporting 
activities that are tied to voluntary reporting, regulatory programs, 
or international treaty obligations. The voluntary emissions reporting 
program at the Department of Energy (DOE) tracks the emissions of 
entities that volunteer to provide information about the greenhouse gas 
emissions associated with their activities. Under the Clean Air Act, 
the Environmental Protection Agency manages cap-and-trade programs to 
control the emissions of air pollutants from the power generating 
sector. The U.S. has ratified two international treaties--the U.N. 
Framework Convention on Climate Change and the Montreal Protocol. Both 
of these treaties require monitoring and reporting of greenhouse and 
ozone depleting gases, respectively to ensure compliance and 
effectiveness of these treaties.
    Research efforts are also underway to quantify greenhouse gas 
emissions from previously unmonitored sources. For example, the 
National Air Emission Monitoring Study (NAEMS) is continuously 
monitoring levels of hydrogen sulfide, particulate matter, ammonia, 
nitrous oxide, volatile organic compounds and greenhouse gases released 
from lagoons and animal barns at 20 animal feeding operations in the 
United States. Led by researchers at Purdue University, the 2.5 year 
study was established in 2006 by a voluntary Air Compliance Agreement 
between EPA and the pork, dairy, egg, and broiler industries. The study 
is currently in its second year of monitoring, and once complete will 
be used to develop protocols for measuring and quantifying air 
pollutants emitted by animal feeding operations.
    Several proposals are under consideration to develop mandatory 
programs to report and to control the emissions of greenhouse gases 
associated with the burning of fossil fuels here in the U.S. At the 
same time, 192 countries are preparing to meet in Copenhagen, Denmark 
in December of this year to negotiate an agreement on an international 
framework to control emissions of greenhouse gases.
    The monitoring system now in place serves important ongoing 
functions in the support of research on the Earth's climate and carbon 
cycling systems. The current observation system also provides us with 
information about the likely direction and magnitude of changes in 
climate and other phenomena, such as ocean acidification, that we are 
likely to experience as concentrations of greenhouse gases in the 
atmosphere continue to increase.
    A different configuration and level of investment may be required 
if we are to adapt the current monitoring and observation systems to 
address specific questions about the efficacy and level of compliance 
we are achieving as a result of a control program for greenhouse gases. 
This hearing will explore the following three issues:

        <bullet>  Is our current monitoring system being maintained to 
        support research and general information needs to track the 
        Earth's climate and anticipate future impacts?

        <bullet>  What changes need to be made to the current 
        monitoring systems to support the need for verification and 
        compliance with a greenhouse gas control program domestically?

        <bullet>  What is the status of the international effort to 
        monitor greenhouse gases and will the international monitoring 
        effort be able to support compliance with an international 
        greenhouse gas control program?

    The specific type of monitoring system needed is dependent upon the 
nature of the reporting or control program that is ultimately selected. 
The current observing and monitoring networks include both ``top-down'' 
and ``bottom-up'' measurements in addition to utilizing modeling, 
accounting, and other estimation methods.
    Top-down measures include satellite-based monitoring or ground-
based monitoring focused on measurement of aggregate emissions over 
large areas or global averages such as the concentration of carbon 
dioxide in the atmosphere. Bottom-up measures include monitoring or 
reporting of emissions from specific facilities or geographic 
locations. Both general categories of measurements and observations 
will be needed. However, the extent and mix of top-down and bottom-up 
approaches will be different depending upon the design of the control 
program.
    In both cases, key parameters that need to be determined are the 
baselines from which changes in emissions will be measured. In some 
instances, these baselines will be relatively easy to determine. For 
example, the measurement of carbon dioxide (CO<INF>2</INF>) emissions 
associated with fossil fuel based electric generation has been directly 
measured using continuous emission monitors for some years. The 
determination of baseline emissions for a forest or an agricultural 
area is much more challenging.
    While CO<INF>2</INF> is the most prevalent greenhouse gas of 
concern, there are five other greenhouse gases that are included in 
reporting programs and are likely to be included in a greenhouse gas 
control program. These are methane (CH<INF>4</INF>), nitrous oxide 
(N<INF>2</INF>O), hydrofluorocarbons (HFCs), perfluorocarbons (PFCs), 
and sulphur hexafluoride (SF6). These gases, the dynamics of their 
sources and sinks, and the monitoring and measurement of them is less 
well-developed than the systems for CO<INF>2</INF>.
    The witnesses will discuss the specific types of monitoring 
programs, how these are being used, and how they may need to be altered 
to provide information to verify compliance and effectiveness of a 
greenhouse gas control program.
    In addition to his role at the U.S. Forest Service, Dr. Richard 
Birdsey serves as Chair of the Carbon Cycle Scientific Steering Group 
which provides scientific advice to the North American Carbon Program 
and the Carbon Cycle Science Program. Interagency coordination of the 
research, observation, and monitoring efforts is done through the U.S. 
Global Change Research Program and is essential to this effort.
    The information in the Appendix that follows provides a brief 
overview of key programs supported by the Federal Government. They 
include programs of the National Oceanic and Atmospheric Administration 
(NOAA), the Environmental Protection Agency (EPA), the National 
Institute of Technology and Standards (NIST), the U.S. Department of 
Agriculture Forest Service, and the National Aeronautics and Space 
Administration (NASA). In addition, two monitoring efforts managed by 
the academic community are also included. These programs are supported 
with federal funds provided by multiple agencies.

                                APPENDIX

            INTERAGENCY RESEARCH AND MONITORING COORDINATION

Climate Change Science Program (CCSP)

    The major goal of the CCSP initiatives to study and understand key 
aspects of the climate system, including the global carbon cycle. 
According to Our Changing Planet: The U.S. Climate Change Science 
Program for Fiscal Year 2009, the strategic research questions for the 
global carbon cycle are:

        <bullet>  What are the magnitudes and distributions of North 
        American carbon sources and sinks on seasonal to centennial 
        time scales, and what are the processes controlling their 
        dynamics?

        <bullet>  What are the magnitudes and distributions of ocean 
        carbon sources and sinks on seasonal to centennial time scales, 
        and what are the processes controlling their dynamics?

        <bullet>  What are the effects on carbon sources and sinks of 
        past, present, and future land-use change and resource 
        management practices at local, regional, and global scales?

        <bullet>  How do global terrestrial, oceanic, and atmospheric 
        carbon sources and sinks change on seasonal to centennial time 
        scales, and how can this knowledge be integrated to quantify 
        and explain annual global carbon budgets?

        <bullet>  What will be the future atmospheric concentrations of 
        carbon dioxide, methane, and other carbon-containing greenhouse 
        gases, and how will terrestrial and marine carbon sources and 
        sinks change in the future?

        <bullet>  How will the Earth system, and its different 
        components, respond to various options for managing carbon in 
        the environment, and what scientific information is needed for 
        evaluating these options?

    To address these questions, federal agencies, including the 
Department of Energy, NASA, the National Institute of Standards and 
Technology, the National Oceanic and Atmospheric Administration, the 
National Science Foundation, the U.S. Department of Agriculture's 
Agricultural Research Service, Cooperative State Research, Education, 
and Extension Service, Forest Service, and Natural Resources 
Conservation Service, and the U.S. Geological Survey contribute to and 
coordinate carbon cycle research.
    The major elements of the U.S. Carbon Cycle Science Program are:

        <bullet>  The North American Carbon Program (NACP). The NACP 
        addresses some of the strategic questions on the global carbon 
        cycle noted above. The goal is to better characterize and 
        understand the factors that influence changes in the 
        concentrations of carbon dioxide and methane in the atmosphere 
        and the amount of carbon, including the fraction of fossil fuel 
        carbon, being taken up by North America's ecosystems and 
        adjacent coastal oceans.

        <bullet>  The Ocean Carbon and Climate Change (OCCC) Program. 
        The OCCO addresses specific aspects of the global carbon cycle 
        associated with ocean processes. The OCCC and the NACP are 
        complementary programs with a focus on understanding the 
        exchanges of carbon between terrestrial and coastal ocean 
        systems.

    There are several interagency working groups with the larger 
interagency effort that are focused on the carbon cycle and on the 
coordination of climate observations. These include the Carbon Cycle 
Interagency Working Group and the Observations Working Group of the 
U.S. Climate Change Science Program.
    U.S. observation and research efforts are linked to the broader 
international scientific community through our participation in 
international organizations associated with the World Meteorological 
Organization (WMO) including the Global Climate Observing System (GCOS) 
and the Intergovernmental Panel on Climate Change (IPCC).
                    MONITORING NETWORKS AND PROGRAMS

The AmeriFlux Network

    The AmeriFlux network is a ground-based, terrestrial carbon 
observing system that measures the exchange of carbon dioxide, water 
vapor and energy between the atmosphere and terrestrial ecosystems. The 
90 sites are located in different ecosystems throughout North, Central, 
and South America and consist of towers equipped with instruments at 
various heights above ground level. These sites adhere to common 
protocols across the network to produce continuous, long-term 
measurements of temperature, wind, water, energy, and carbon dioxide. 
Using these measurements, researchers estimate terrestrial carbon 
sources and sinks, the responses of these sources and sinks to climate 
and land use change, and test models of the carbon cycle and the 
climate system. Data from ground-based sensors is also needed to 
calibrate remote sensing and space-based monitoring systems.
    The AmeriFlux Network is supported by a number of federal agencies. 
The Department of Energy's Office of Biological and Environmental 
Research supports approximately 20 of the sites, measurement and data 
quality assurance, and data archiving activities for the network. The 
network's science office is funded by the National Science Foundation 
and the remaining sites are funded individually by other agencies such 
as the National Aeronautics and Space Administration, the National 
Oceanic and Atmospheric Administration, the United States Geological 
Service, the Forest Service, the Agricultural Research Service, and the 
National Science Foundation.
    The AmeriFlux Network's carbon dioxide flux observations and carbon 
cycle modeling are important contributions to other national and 
international observation networks. The Network's information is linked 
to other federal agencies' observing systems (i.e., NASA, NOAA, NSF, 
USDA Forest Service) through the North American Carbon Program's (NACP) 
research plan. The NACP plan for research on the carbon cycle is 
focused on measuring and understanding the permanence of North American 
carbon sinks, and the AmeriFlux Network is an integral component of 
this effort.
    The AmeriFlux Network is linked to international carbon flux 
measurement networks (i.e., CarboEuroFlux, FluxNet-Canada, AsiaFlux and 
OzFlux) through the National Science Foundation's global carbon flux 
network known as FluxNet. FluxNet provides infrastructure for managing, 
archiving and distributing data collected at FluxNet sites to the 
science community. FluxNet also supports efforts to calibrate 
observations collected at different sites and to ensure data from these 
sites are inter-comparable. FluxNet also provides forums for exchange 
of research findings and facilitates communication among scientists 
working in related fields. The goal is to build an integrated global 
network of information from the regional networks in place on each 
continent to better understand the carbon, energy and water balance of 
ecosystems and how they fluctuate seasonally and in response to changes 
in climate.

Monitoring Networks Managed by the National Oceanic and Atmospheric 
                    Administration (NOAA)

    NOAA's climate observations are extensive and support a number of 
atmospheric measurement platforms. The majority of atmospheric 
measurements are conduced by NOAA's Earth System Research Laboratory 
(ESRL), located in Boulder, Colorado. ESRL's Global Monitoring Division 
(GMD) conducts long-term continuous measurements on atmospheric gases, 
aerosols, and solar radiation to inform research on source and sink 
strengths, global climate forcing, stratospheric ozone depletion, and 
baseline air quality. The Division has a number of measurement 
capabilities. However, the global baseline observations and the carbon 
cycle observations are most likely to have a role in verifying the 
effectiveness of emission reduction strategies. The programs which 
support these observations will be examined briefly below.

Global Atmospheric Baseline Observatories
    ESRL/GMD supports the Global Atmospheric Baseline Observatories in 
five locations around the world: Barrow, Alaska; Mauna Loa, Hawaii; 
Cape Matatula, American Samoa; the South Pole, Antarctica, and Trinidad 
Head, California. Up to 250 different atmospheric parameters relevant 
to the study of climate change and ozone depletion are measured at each 
of these locations. Measurements are made to determine baseline 
greenhouse gas levels and are critical to the collection and continuity 
of the world's atmospheric measurements. The first continuous carbon 
dioxide measurements, for example, were taken in 1958 by Dr. Charles 
David Keeling at the Mauna Loa Observatory in Hawaii. The Mauna Loa 
observations are now the longest record of continuous monthly mean 
carbon dioxide measurements in the world and were the basis for the 
now-famous Keeling Curve. The Keeling Curve showed the first 
significant evidence of increasing carbon dioxide levels in the 
atmosphere and was instrumental in showing that human activity is 
changing the composition of the atmosphere through the combustion of 
fossil fuels.

Carbon Tracker and Related Observations
    ESRL/GMD also conducts a number of greenhouse gas measurements 
through its observation networks. The Division's Carbon Cycle 
Greenhouse Gases Group conducts measurements that document the spatial 
and temporal distributions of carbon-cycle gases and provide essential 
constraints to our understanding of the global carbon cycle. The Group 
conducts in-situ and flask sampling of CO<INF>2</INF> and other 
atmospheric trace gases using platforms such as: tall towers and 
existing television, radio and cell phone towers; ships; cooperative 
fixed sampling sites; and aircraft.
    These observations are linked with other agencies' and 
international observation networks to support the ESRL's research and 
visualization projects. One of ESRL/GMD's programs that could have a 
role in verifying the effectiveness of emission reduction strategies is 
its CarbonTracker program. Launched in 2007, the Carbon Tracker a 
visualization tool for biological carbon flux on a regional and global 
basis. Carbon tracker uses the aforementioned measurement networks, 
other NOAA and DOE sampling sites, and sampling sites operated by 
Australia and Canada. The measurements are fed into a model with 135 
ecosystems and 11 ocean basins worldwide. The model then calculates 
carbon release or uptake by oceans, wildfires, fossil fuel combustion, 
and the biosphere and transforms the data into a color-coded map of 
sources and sinks.
    ESRL is also planning to support a future project known as CALNEX. 
CALNEX 2010 is a joint NOAA, California Air Resources Board, and 
California Energy Commission field study of atmospheric processes over 
California and the eastern Pacific coastal region set to begin in 2010. 
Direct emissions of a wide range of species will be studied, including 
aerosol, gas-phase ozone, aerosol precursors (e.g., VOCs, NOX, 
SO<INF>2</INF>, CO, etc.) and greenhouse gases (CO<INF>2</INF>, 
CH<INF>4</INF>, etc.). The top-down approach that that will be used is 
expected to provide an independent assessment of existing inventories.

Carbon Inventory, Management, Monitoring and Reporting by the USDA 
                    Forest Service

    The Forest Inventory and Analysis (FIA) Program is one of the 
longest running and oldest research programs of the U.S. Forest 
Service. The U.S. program was modeled on inventory programs established 
in Scandinavian countries in the 1920s. The first comprehensive 
inventory of forests in the U.S. began in the early 1930s but was not 
completed until the 1960s. The need for more current information led to 
direction in the 1998 Farm Bill to the Forest Service to adopt a 
continuous annual inventory system. The information in the inventory is 
used to estimate the greenhouse gas emissions associated with U.S. 
forest lands. These estimates are incorporated into the National 
Inventory of Emissions for the U.S. reported to the U.N. Framework 
Convention on Climate Change.
    In addition, the Forest Service has an active research program on 
carbon cycling in forests that includes more specific direct 
measurements of the flux of greenhouse gases from forest vegetation and 
soils and change in these in response to changes in ecosystem 
conditions or management practices.

Compilation of the National Emissions Inventory and Monitoring by the 
                    Environmental Protection Agency (EPA)

    EPA is the lead agency charged with compiling the U.S. National 
Greenhouse Gas Emissions Inventory. Data from DOE, USDA, and other 
federal agencies are compiled to provide an annual accounting of U.S. 
greenhouse gas emissions. This Inventory is submitted to the U.N. 
Framework Convention on Climate Change in accordance with our 
obligations under this treaty.
    EPA receives data on carbon dioxide emissions from electric power 
generation facilities from continuous emission monitors at these 
facilities. These data are collected as part of the cap-and-trade 
systems for controlling emissions of sulfur dioxide and nitrogen oxides 
in accordance with the Clean Air Act. The carbon emissions are 
monitored as a means of verifying individual facility emissions and 
ensuring compliance with the cap-and-trade program.

National Institute of Technology and Standards (NIST)

    NIST's role is to develop standard reference materials and assist 
with calibration and characterization of the instruments used to 
observe and monitor greenhouse gases. Because these measurements are 
made over long period of time and from many sources and by many 
different groups and individuals, NIST's role of ensuring comparability 
and accuracy of these measurements is very important. NIST works with 
federal agencies to ensure the quality of the data gathered through our 
monitoring and observation networks. In addition, NIST serves as the 
official U.S. representative in international efforts to ensure quality 
and comparability of data contributed by different nations to global 
data repositories.

Observations and Monitoring Programs of the National Aeronautics and 
                    Space Administration (NASA)

The Advanced Global Atmospheric Gases Experiment (AGAGE)
    The Advanced Global Atmospheric Gases Experiment (AGAGE) network is 
sponsored by NASA's Atmospheric Composition Focus Area in Earth 
Science. AGAGE and previous experiments that measure the composition of 
the global atmosphere have been in place since 1978. The ground-based 
network supports high frequency measurements of gases specific to the 
Montreal Protocol--chlorofluorocarbons (CFCs) and 
hydrochlorofluorocarbons--and non-CO<INF>2</INF> gases specific to the 
Kyoto Protocol (hydrochlorofluorocarbons, methane, and nitrous oxide). 
AGAGE includes stations in non-U.S. countries and is part of a 
collaboration with the System for Observation of Halogenated Greenhouse 
Gases in Europe (SOGE).

NASA Space-Based Greenhouse Gas Sensors
    NASA satellite and airborne data has in the past had an influence 
on environmental policy, specifically in the case of the Montreal 
Protocol. NASA Earth observing data helped develop the scientific basis 
that led to the Montreal Protocol and contributes to the subsequent 
ozone monitoring program to support the Protocol.
    Data from existing NASA sensors on orbit are already being used to 
study GHGs. Planned satellites are expected to have a greater 
contribution. Satellites are expected to be a critical component in 
obtaining the measurements needed to support potential climate 
policies.

        <bullet>  Tropospheric Emission Spectrometer (TES) on NASA's 
        Aura spacecraft. TES is a high-resolution infrared spectrometer 
        that makes direct measurements of the ozone globally and of 
        other gases, including carbon monoxide and methane. TES takes a 
        global survey on a 16-day repeat cycle. TES' measurements of 
        ozone at different altitudes are used to create an ozone 
        profile.

        <bullet>  Atmospheric Infrared Sounder (AIRS) on NASA's Earth 
        observing Aqua satellite. AIRS measures temperatures, 
        humidities and other properties to help researchers understand 
        the climate system and to improve weather forecasting. Included 
        in its measurements are global data on CO<INF>2</INF> in the 
        mid-troposphere (about five miles above Earth). Researchers 
        also use AIRS data to measure ozone, carbon monoxide, carbon 
        dioxide, methane, sulfur dioxide, and dust particles. AIRS, 
        however, does not measure CO<INF>2</INF> near the surface where 
        it is emitted and absorbed into the land and ocean. To detect 
        the sources of emissions and the absorption of CO<INF>2</INF> 
        near the surface, a different type of sensor was required; that 
        requirement led to the development of the Orbiting Carbon 
        Observatory.

        <bullet>  The Ozone Monitoring Instrument (OMI) on NASA's Aura 
        spacecraft continues the record of ozone measurements collected 
        by the Total Ozone Mapping Spectrometer (TOMS) instrument and 
        other ozone measurements collected from previous NASA 
        satellites in support of the Montreal Protocol. OMI also 
        measures nitrogen dioxide (NO<INF>2</INF>), sulfur dioxide 
        (SO<INF>2</INF>), bromine monoxide (BrO), and OCIO among other 
        aspects of air quality.

Orbiting Carbon Observatory (OCO)
    The Orbiting Carbon Observatory (OCO), which was launched on 
February 24, 2009 and failed to reach orbit, ``is the first spacecraft 
dedicated to studying atmospheric carbon dioxide,'' according to a 
December 2008 NASA publication entitled, ``Orbiting Carbon Observatory: 
Science Writer's Guide.'' OCO carried three spectrometers and would 
have detected CO<INF>2</INF> at the level of one to two parts per 
million--an increase of three times the precision of any earlier 
satellites that had trace gas sensors. ``The surface footprint of each 
measurement is [was to have been] about 1 square mile . . ..'' OCO was 
to have collected eight million measurements of CO<INF>2</INF> 
atmospheric concentration every 16 days. The small size of the 
footprint and the number of measurements are important for achieving 
the quality and accuracy of OCO measurements, which are ``accurate to 
0.3 to 0.5 percent on regional to continental scales,'' according the 
OCO Science Writers Guide. The Guide also notes that the level of 
precision at which OCO's instrument was designed was necessary, 
``because atmospheric carbon dioxide concentrations rarely vary by more 
than two percent from one pole to the other.''
    Better understanding of the absorption and emission of carbon and 
the variation of those changes over time, would have provided 
researchers with new knowledge about how carbon dioxide emissions 
contribute to climate change, the efficiency of carbon sinks, and 
helped researchers forecast changes in atmospheric carbon dioxide. This 
fundamental knowledge will be important for designing strategies to 
manage carbon emissions, according to researchers involved in the OCO 
project.

The Ice, Cloud and land Elevation Satellite (ICESat)
    ICESat is the satellite used to measure the mass balance of ice 
sheets, cloud and aerosol heights and variations in land elevation and 
vegetation cover. This satellite provides global coverage of topography 
and vegetation. This satellite also provides specific observations of 
the major polar ice sheets in Greenland and Antarctica. A follow-on 
mission is planned to provide continuity for the study of the major ice 
sheets.

Other Federal Agency Satellite and Airborne Measurement Projects
    The Landsat 5 and Landsat 7 satellites were developed by NASA and 
launched in 1985 and 1999 respectively. The satellites continue the 
space-based Landsat observations of the Earth's land cover, which began 
in 1972. The Landsat satellites are currently operated by the 
Department of Interior's U.S. Geological Survey. NASA is developing the 
Landsat Data Continuity Mission (LDCM)--the follow-on to Landsat 7--for 
the USGS. A proposed 2007 plan for a National Land Imaging Program, 
which would sustain U.S. long-term space observations of the land has 
thus far not been implemented.
    A 2006 report, Reducing Greenhouse Gas Emissions from Deforestation 
in Developing Countries: Considerations for Monitoring and Measuring, 
noted that Landsat and other remote sensing data can be used to 
identify deforestation. Landsat data have also been used in studies to 
identify selective logging in the Brazilian Amazon. (Selective logging 
affects the carbon storage of tropical forests.) In addition, Landsat 
data have been applied to research on the use of satellite images for 
monitoring and verifying agricultural practices related to soil carbon 
sequestration.
    NASA was one of several agencies including the U.S. Department of 
Energy's Lawrence Berkeley National Laboratory, the National Oceanic 
and Atmospheric Administration, the University of California, and the 
California Air Resources Board that participated in an airborne 
research campaign to measure GHGs over California. According to a June 
2008 news release from the Berkeley Lab, the goal was to gain knowledge 
about how much California's greenhouse gas emissions are contributing 
to the overall GHG total worldwide.
    The flight was linked to the NASA ARCTAS (Arctic Research in the 
Composition of the Troposphere from Aircraft and Satellites) program. 
ARCTAS connects to the broader International Polar Year effort known as 
Polar Study using Aircraft, Remote Sensing, Surface Measurements and 
Models (POLARCAT), which is an international initiative to employ 
aircraft and remote sensing platforms to investigate climate change, 
air pollution, and atmospheric chemistry.
    In addition, the High Performance Instrumented Airborne Platform 
for Environmental Research (HIAPER) Pole-to-Pole Observations (HIPPO) 
project is an example of an airborne carbon measuring project that 
involved other research institutions and facilities. With funding 
support from NSF and NOAA, researchers from the National Center for 
Atmospheric Research (NCAR), Scripps, and Harvard teamed-up to develop 
a project that would investigate whether northern forests were 
absorbing less carbon than had been estimated and tropical forests were 
absorbing more than estimated.
    The project used an NSF/NCAR Gulfstream V jet, which has long-range 
and high-flying capabilities that suited the project. Repairs and spare 
parts were easily obtained because Gulfstream is a commercial aircraft 
that is used around the world. In addition to carbon dioxide, HIPPO 
measured other greenhouse gases at one- to ten-second intervals.

Key Non-U.S. Satellites and Sensors
    Europe's key greenhouse gas monitoring sensor is known as SCIAMACHY 
on the European Space Agency's Envisat satellite. The SCIAMACHY 
instrument measures trace gases, including carbon dioxide, methane, and 
carbon monoxide in the troposphere and the stratosphere.
    Japan's Greenhouse Gas Observing Satellite (GOSAT), named 
``Ibuki,'' was developed to detect atmospheric carbon dioxide and 
methane to support compliance monitoring of the Kyoto Protocol. The 
Protocol is an international and binding agreement under the United 
Nations Framework Convention on Climate Change and establishes targets 
for reducing greenhouse gas emissions during the 2008-2012 period.
    Ibuki, which was launched on a Japanese H2-A rocket on January 23, 
2009, includes an infrared spectrometer to detect carbon dioxide 
(CO<INF>2</INF>) and methane (CH<INF>4</INF>) concentrations and a 
cloud/aerosol sensor.
    Japan also operates the Advanced Land Observing Satellite (ALOS) 
and its Phased Array L-Band Synthetic Aperture Radar (PALSAR) is an 
advanced imaging radar which is particularly suited for forest and 
wetland observations. PALSAR measurements are strengthening the 
satellite capabilities for mapping tropical forests for initiatives 
such as Reduced Emissions from Deforestation and Degradation (REDD).
    Finally, University of Toronto's Canadian Advanced Nanospace 
eXperiment (CanX) program is a technology demonstration project. The 
CanX-2 micro-satellite includes an Argus spectrometer which was 
designed to record greenhouse gas constituents in the near infrared 
band at a surface resolution of one kilometer.
    Chair Gordon. Good morning and welcome to the Committee's 
second hearing to examine the systems we have to track the 
emissions, sequestration, and transport of greenhouse gases in 
the atmosphere, on land, and on the oceans. We welcome our 
witnesses. We will be having more Members; this is like a lot 
of times in this committee, a busy day, but we are being 
televised so some of our Members are watching us, and we have 
our staff here watching here and in the back. And so we want to 
get all this information down. This is very important.
    In our first hearing we examined the greenhouse gas 
reporting systems and the methods used to verify the 
information reported to greenhouse gas registries. Today we 
will hear about federally-sponsored programs to monitor 
greenhouse gases.
    Monitoring and verification of greenhouse gases doesn't 
sound like a very exciting topic. It is a little like 
housekeeping; it is an essential task that goes unnoticed until 
it isn't done well or isn't done at all.
    So without robust monitoring and verification systems we 
cannot understand the sources and sinks of greenhouse gases. We 
cannot detect changes in atmospheric or ocean chemistry or 
understand the potential impacts of these changes, and we 
cannot evaluate the effectiveness of policies to control 
emissions of greenhouse gases. Equally important, we cannot 
verify compliance with emission reductions agreements.
    Our nation is a leader in these areas of research. Some of 
the satellite observations that enable us to track Earth's heat 
budget are available only because of our investment in science 
programs at NASA. The ground and satellite observations that we 
gather tell us a lot about local weather and climate patterns, 
air quality, and the health of ecosystems and the oceans.
    The monitoring and measurement systems that we have today 
serve primarily a research function. Some, such as the 
monitoring system associated with EPA's Acid Rain Program serve 
as a regulatory purpose, and we also track emissions to meet 
our reporting obligations under international agreements: the 
United Nations Framework Convention on Climate Change and the 
Montreal Protocol.
    Our colleagues on Energy and Commerce have begun their work 
to develop a plan to reduce our nation's greenhouse gas 
emissions. In December, 192 countries will meet in Copenhagen 
to forge an international agreement to reduce emissions.
    We will need a robust monitoring system that is capable of 
telling us whether we are reducing emissions and meeting our 
policy goals, and we need to know how the earth's climate 
system is responding. Of course, the specific design of the 
monitoring system will depend upon the type of emissions 
control policy we ultimately decide upon.
    We have an excellent panel of witnesses with us here this 
morning who will offer constructive suggestions on how we can 
best utilize the assets we already have in place and make 
strategic investments where necessary to develop a robust and 
reliable monitoring system.
    At a time when warming appears to be accelerating and 
people are experiencing regional climate impacts already, we 
need to ensure that we have the information we need on a 
sustained basis to implement the most effective policies.
    So thank you all for participating in this important 
hearing.
    The Chair now recognizes Mr. Hall for an opening statement.
    [The prepared statement of Chair Gordon follows:]
                Prepared Statement of Chair Bart Gordon
    Good morning and welcome to the Committee's second hearing to 
examine the systems we have to track the emissions, sequestration and 
transport of greenhouse gases in the atmosphere, on land, and in the 
oceans.
    In our first hearing, we examined greenhouse gas reporting systems 
and the methods used to verify the information reported to greenhouse 
gas registries. Today, we will hear about federally sponsored programs 
to monitor greenhouse gases.
    Monitoring and verification of greenhouse gases doesn't sound like 
a very exciting topic. It's a little like housekeeping--it is an 
essential task that goes unnoticed--until it isn't done well or it 
isn't done at all.
    Without robust monitoring and verification systems, we cannot 
understand the sources and sinks of greenhouse gases. We cannot detect 
changes in atmospheric or ocean chemistry or understand the potential 
impacts of those changes. And, we cannot evaluate the effectiveness of 
policies to control emissions of greenhouse gases. Equally important, 
we cannot verify compliance with emissions reductions agreements.
    Our nation is a leader in these areas of research. Some of the 
satellite observations that enable us to track Earth's heat budget are 
available only because of our investments in science programs at NASA. 
The ground and satellite observations that we gather tell us a lot 
about local weather and climate patterns, air quality, and the health 
of ecosystems and oceans.
    The monitoring and measurement systems we have today serve 
primarily a research function. Some, such as the monitoring system 
associated with EPA's acid rain program, serve a regulatory purpose. 
And we also track emissions to meet our reporting obligations under 
international agreements--the United Nations Framework Convention on 
Climate Change and the Montreal Protocol.
    The Intergovernmental Panel on Climate Change's recent reports tell 
us that we must control greenhouse gas emissions if we are to avoid 
future accelerated warming and its most devastating consequences.
    Our colleagues on the Energy and Commerce Committee have begun 
their work to develop a plan to reduce our nation's greenhouse gas 
emissions. In December, 192 countries will meet in Copenhagen to forge 
an international agreement to reduce emissions.
    We will need a robust monitoring system that is capable of telling 
us whether we are reducing emissions and meeting our policy goals. And, 
we need to know how the Earth's climate system is responding.
    Of course, the specific design of the monitoring system will depend 
upon the type of emission control policy we ultimately decide upon.
    We have an excellent panel of witnesses with us here this morning 
who will offer constructive suggestions on how we can best utilize the 
assets we already have in place and make strategic investments where 
necessary to develop a robust and reliable monitoring system.
    At a time when warming appears to be accelerating and people are 
experiencing regional climate impacts already, we need to ensure that 
we will have the information we need on a sustained basis to implement 
the most effective policies.
    Thank you all for participating in this important hearing.

    Mr. Hall. Mr. Chairman, I thank you, on I thank you for 
holding the hearing here and measuring and verifying greenhouse 
gas emissions, and I appreciate your leadership on this very, 
very important topic.
    While this may not be the most exciting part of the climate 
change debate that Congress is going to have this year, I truly 
believe it is one of the most important and appreciate those of 
you who have prepared for this, who have traveled for this, and 
who are giving us your time, because we listen to you because 
you know more about what we are talking about than we do, and 
we base the law on what you tell us, the part we believe and 
understand. So speaking as American as you can for those of us 
that are not physicists or didn't have the grade average that 
most of you had. I wouldn't have liked any of you in college 
because you ruined the curve for guys like me, but I appreciate 
you being here.
    And while it is said it is not the most exciting part of 
the climate debate, but knowing exactly how many pollutants are 
being emitted into the environment and establishing a 
verifiable baseline as a requirement for virtually every 
environmental law our country has ever passed, and without 
knowing the current state of things, it is impossible for us to 
truly assess the impact that we are having on the environment, 
whether that is good or whether it is bad. And if we don't know 
where we are starting, how can we prove that we have made any 
progress?
    Mr. Chairman, you and I both sit on another committee that 
is focusing heavily on the climate change debate. The entire 
premise of this debate in the Energy and Commerce Committee is 
based on the idea that we can accurately measure, we can 
accurately monitor, and accurately verify greenhouse gas 
emissions coming from all sectors of the economy.
    And it is also based on the idea that we can accurately 
measure, monitor, and verify greenhouse gases removed from the 
atmosphere through offsets. Setting a cap implies that we know 
where we currently stand. The trade part implies that we know 
where it is all coming from. We are betting the entire U.S. 
economy on the assumption that verifiable data collection and 
monitoring is as simple as some of the authors say it is going 
to be.
    The hearing we are having this morning demonstrates that we 
do not have these abilities yet. Our witnesses are going to 
tell us about the need for greater scientific information, 
about the need for an accurate emissions baseline in order to 
implement any regulatory scheme, about the necessity of 
developing tools and protocols for verifying sources and sinks 
of greenhouse gases. The fact that we are still early on in the 
research and development phase of these methods and monitoring 
technologies means that we cannot in good faith assure the 
American people that any regulatory framework designed to 
regulate greenhouse gas emissions based on such methods and 
technology will not be harmful to the economy.
    Accurate measurements, verifiable data, and the integrity 
of methodology are the very things that form the foundation of 
any regulatory scheme and are the instruments necessary for 
responsible governance. Albert Einstein once said, and my kids 
think I knew Albert Einstein, and he wasn't a bad guy. ``If we 
knew what we were doing, it would not be called research, would 
it?''
    Mr. Chairman, I couldn't agree more with Albert. He was a 
friend of mine, a good guy.
    Our committee has to continue to be at the forefront of 
this debate because the work we do here is the groundwork 
needed by other committees to do their own work, so I have to 
thank you once again for holding the hearing, Mr. Chairman, and 
I look forward to hearing from these very distinguished 
witnesses, and I yield back my time, sir.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Thank you, Mr. Chairman. I would like to thank you for holding this 
hearing today on monitoring, measuring and verifying greenhouse gas 
emissions. I appreciate your leadership on this very important topic.
    While this may not be the most exciting part of the climate change 
debate the Congress will have this year, I truly believe it is one of 
the most important. Knowing exactly how many pollutants are being 
emitted into the environment and establishing a verifiable baseline is 
a requirement for virtually every environmental law our country has 
passed. Without knowing the current state of things, it is impossible 
for us to truly assess the impact we are having on the environment, 
good or bad. If we don't know where we are starting, how can we prove 
that we have made any progress?
    Mr. Chairman, you and I both sit on another committee that is 
focusing heavily on the climate change debate. The entire premise of 
the debate in the Energy and Commerce Committee is based on the idea 
that we can accurately measure, monitor, and verify greenhouse gas 
emissions coming from all sectors of the economy. It is also based on 
the idea that we can accurately measure, monitor and verify greenhouse 
gases removed from the atmosphere through off-sets. Setting a cap 
implies that we know where we currently stand; the trade part implies 
that we know where it is all coming from. We are betting the entire 
U.S. economy on the assumption that verifiable data collection and 
monitoring is as simple as wanting it to be.
    The hearing we are having this morning demonstrates that we do not 
have these abilities yet. Our witnesses are going to tell us about the 
need for greater scientific information. About the need for an accurate 
emission baseline in order to implement any regulatory scheme. About 
the necessity of developing tools and protocols for verifying sources 
and sinks of greenhouse gases. The fact that we are still early on in 
the research and development phase of these methods and monitoring 
technologies means that we cannot, in good faith, assure the American 
people that any regulatory framework designed to regulate greenhouse 
gas emissions based on such methods and technology will not be harmful 
to the economy.
    Accurate measurements, verifiable data and the integrity of 
methodology are the very things that form the foundation of any 
regulatory scheme and are the instruments necessary for responsible 
governance. Albert Einstein once said, ``If we knew what we were doing, 
it would not be called research, would it?'' Mr. Chairman, I couldn't 
agree more with this sentiment.
    Our committee must continue to be at the forefront of this debate 
because the work we do here is the groundwork needed by other 
committees to do their own work. So I have to thank you once again for 
holding this hearing, and I look forward to hearing from our 
distinguished witnesses.

    Chair Gordon. Thank you, Mr. Hall, and we will try to get 
it in Texan so we can both understand it.
    If there are other Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good Morning. Thank you, Mr. Chairman, for holding today's hearing 
to discuss the monitoring and measuring of greenhouse gas emissions.
    President Obama has made addressing climate change and greenhouse 
gas emissions a priority for the 111th Congress. As we prepare to 
tackle this major piece of legislation, it is imperative that we 
understand where and how we produce greenhouse gases in the United 
States and around the world. A strong system for measuring and 
monitoring greenhouse gas emissions will help ensure compliance with 
any emissions reduction programs and measure our progress towards 
decreasing our greenhouse gas emissions.
    I would like to hear from our witnesses today how our current array 
of measurement systems can be most effectively and efficiently used to 
develop baselines and ensure compliance with a new greenhouse gas 
emissions reduction program. Further, I would also like to know what 
new monitoring and measurement technologies will be necessary as we 
reduce our emissions to lower levels and how the Federal Government and 
U.S. academic research centers can remain on the forefront of this 
important technology.
    As we all know, the U.S. is not the sole producer of greenhouse gas 
emissions, and we will not be the sole country to establish a program 
to reduce greenhouse gases. I am interested to hear how our systems can 
work internationally, especially as the United Nations prepares to 
consider a new climate change agreement in January.
    I welcome our panel of witnesses, and I look forward to their 
testimony.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Good morning, Mr. Chairman.
    I would like to welcome today's panel to our hearing, focused on 
federal programs for monitoring, measuring, and verifying sources and 
sinks of greenhouse gases.
    Today's hearing will also examine greenhouse gas impacts on Earth's 
climate.
    The United States is the world's biggest emitter of greenhouse 
gases. We are thus in the prime position to lead by example in 
mitigating those emissions.
    Doing so will not only improve our environment, but it may also 
influence the world's biggest economies to do similar good.
    While the federal agencies are already utilizing various strategies 
to monitor and quantify greenhouse gas emissions, we are thinking 
towards the future.
    Today's hearing will examine the status of our current monitoring 
systems.
    It will also help guide Members of Congress on changes that should 
be made to fulfill the need for verification and compliance with a 
greenhouse gas control program.
    Mr. Chairman, it is my sense that our Administration and the 
American public favor progressive greenhouse gas mitigation policies.
    Also, I believe that other nations are waiting for our leadership 
in this area.
    Currently, the Department of Energy has a voluntary emissions 
reporting program in place.
    It tracks the emissions of entities that volunteer to provide 
information about greenhouse gas emissions associated with their 
activities.
    A voluntary system has not worked to sufficiently bring down 
greenhouse gas emissions. The result is a slow up-tick in global 
warming.
    While I know that some fellow Members of this committee and a 
minority of scientists may not agree, the consensus is that global 
warming is happening.
    At a local level, we have a problem with greenhouse gas and other 
harmful pollutants that are emitted by a company just to the west of 
Dallas.
    This company has been authorized by the state to burn hazardous 
waste as fuel.
    The result is terrible air quality and a public health hazard. The 
jet stream carries it into my district.
    According to the Environmental Protection Agency's toxic release 
inventory, this entity more than doubled the release of toxics into the 
air between 1994 and 1995.
    During 1995, the company discharged 11,000 pounds of chromium, 2000 
pounds of butadiene, 7000 pounds of benzene, 255 pounds of methyl ethyl 
ketone, 3000 pounds of toluene, 750 pounds of xylene and 250 pounds of 
cyclohexane.
    While emitting ``probable carcinogens'' such as benzene, butadiene 
and chromium, this entity also releases toxic heavy metals including 
arsenic and mercury.
    The Environmental Protection Agency has determined that this 
business is the second largest source of dioxin emissions in the U.S.
    Mr. Chairman, clean air is a serious concern that is literally 
``close to home'' for me.
    Thank you for hosting today's Full Committee hearing to learn more 
about greenhouse gas emissions.
    It is my hope that we can move forward proactively to devise 
policies for verification of compliance and effectiveness of a 
greenhouse gas control program.

    [The prepared statement of Mr. Carnahan follows:]
           Prepared Statement of Representative Russ Carnahan
    Chairman Gordon, Ranking Member Hall, thank you for hosting this 
important hearing on ``Monitoring, Measurement, and Verification of 
Greenhouse Gas Emissions II: The Role of Federal and Academic Research 
and Monitoring Programs.'' Thank you to the witnesses for appearing 
before the Committee today.
    As Congress considers legislation this year to address the 
emissions of greenhouse gasses, collecting accurate and comprehensive 
scientific data about the progress and potential effects of climate 
change has become ever more important. I am pleased that the scientific 
infrastructure we have developed in response to previous international 
agreements, such as the Montreal Protocol and the U.N. Framework 
Convention on Climate Change, has enabled us to chart the disturbing 
trends in our climate. However, we must further develop our scientific 
capacity if we are to collect the information necessary to implement 
and monitor comprehensive policy solutions to climate change.
    Today, I am interested in learning more about the efforts of our 
witnesses to collect the data we need and what Congress can do to help. 
I am disheartened by the recent failure of the Orbiting Carbon 
Observatory to reach orbit, and I would like to know more about NASA's 
plans to compensate for the loss of this critical tool. As a member of 
the Subcommittee on Research and Science Education, I am particularly 
interested in the role universities have to play in researching climate 
change, and I would be glad to hear the panelists' opinions with regard 
to streamlining the flow of our scarce research dollars to the most 
promising projects. Finally, as Vice Chairman of the Subcommittee on 
International Organizations within the Foreign Affairs Committee, I am 
interested in learning more about opportunities to facilitate 
cooperation and coordination with international scientific bodies on 
climate science research.
    In closing, thank you again, Chairman Gordon, for calling this 
important hearing, and thank you to the witnesses for offering your 
testimony.

    Chair Gordon. At this time I would like to introduce our 
witnesses. Dr. Alexander MacDonald is the Director of the Earth 
Systems Research Laboratory at the National Oceanic and 
Atmospheric Administration. Dr. Richard Birdsey is the Project 
Leader of the Research Work Unit, Climate, Fire, and Carbon 
Cycle Systems at the Northern Research Station of the U.S. 
Forest Service and the Chair of the Carbon Cycle Scientific 
Steering Group. Dr. Michael Freilich is the Director of the 
Earth Science Division at NASA. Ms. Dina Kruger is the Director 
of the Climate Change Division in the Office of Atmospheric 
Programs at EPA. Dr. Patrick Gallagher is the Deputy Director 
of NIST, and Dr. Albert Heber is the Professor of Agriculture 
and Biological Engineering at Purdue University and the Science 
Advisor to the National Air Emissions Monitoring Study.
    At this point I would like to recognize my friend from 
Oregon, Representative David Wu, to introduce our last witness.
    Mr. Wu. Thank you very much, Mr. Chair. I would like to 
welcome Dr. Beverly Law for being here today. Dr. Law is a 
Professor of Global Change Forest Science at Oregon State 
University and currently serves as the Science Chair of the 
AmeriFlux Network and as a member of the Science Steering 
Groups of the U.S. Carbon Cycle Science Program and the North 
American Carbon Program. She is also serving on the National 
Research Council, Committee on Methods for Estimating 
Greenhouse Gases. Her research is on the effects of climate and 
disturbances on carbon, water, and energy exchange between 
terrestrial ecosystems and the atmosphere and methods for 
integrating observations and modeling to quantify and 
understand regional carbon balances. Dr. Law has been an author 
of over 100 journal articles. We welcome you, and we are glad 
that we could turn out some Oregon weather for all the 
witnesses today.
    I yield back the balance of my time, Mr. Chair.
    Chair Gordon. Thank you, Mr. Wu, and Dr. Law, we hope you 
will take it back to Oregon with you.
    As our witnesses know, we try to limit our oral testimony 
to five minutes. But we are on a short track here. This is very 
important, and we want to hear from you, and we appreciate your 
earlier written testimony, and I would encourage you when this 
is over if you have additional thoughts as we prepare 
legislation--Mr. Hall mentioned that we also serve on Energy 
and Commerce Committee, and so we will be a part of it there, 
but we want to be sure the monitoring is right, and we need 
your help in doing that.
    And so your written testimony will be included as a part of 
the record, and when you have completed your testimony, we will 
start questions. Each Member will have five minutes to ask 
their questions.
    So we will start now with Dr. MacDonald.

   STATEMENT OF DR. ALEXANDER E. ``SANDY'' MACDONALD, DEPUTY 
   ASSISTANT ADMINISTRATOR FOR LABORATORIES AND COOPERATIVE 
    INSTITUTES, OFFICE OF OCEANIC AND ATMOSPHERIC RESEARCH, 
     NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. 
                     DEPARTMENT OF COMMERCE

    Dr. MacDonald. Good morning, Chair Gordon, Ranking Member 
Hall, and Members of the Committee. Thank you for inviting me 
to discuss the key role that NOAA plays in monitoring 
greenhouse gases and aerosols.
    Emissions are the result of human activities, particularly 
of carbon dioxide, are changing the Earth's environment. The 
unequivocal warming of the atmosphere and ocean, along with 
increasing ocean acidity, are serious challenges to our future.
    In addressing this threat it is important to assess the 
effectiveness of potential mitigation programs. This will be 
complex because in addition to fossil fuel emissions, soil and 
vegetation exchange CO<INF>2</INF> at the atmosphere. We are 
fortunate that our advanced technical civilization has both the 
tools and expertise needed to implement the monitoring systems 
we will need.
    NOAA has decades of experience monitoring greenhouse gases. 
The current global system for monitoring can be traced back to 
the 1950s when the first observations were made at the South 
Pole and Mauna Loa, Hawaii. NOAA has six comprehensive 
atmospheric observatories and routinely measures greenhouse 
gases at over 100 sites worldwide with an accuracy of a 0.10 
percent. Aircrafts, ship, and satellite measurements are also 
used to get global scale distributions.
    NOAA and its partners occasionally conduct field programs 
where they deploy aircraft with sensitive instruments. Here is 
a picture of our NOAA P-3, the flying chemistry lab, measuring 
aerosols and gases in an experiment conducted over Houston in 
2006.
    NOAA could improve its North American monitoring to provide 
a check on the success of the mitigation effort. It is helpful 
to think of greenhouse gases like one thinks about a bank 
account. The total amount of CO<INF>2</INF> in the air, roughly 
three trillion tons, is the equivalent of the bank balance. 
Emissions increase the balance, which is bad, and when CO<INF>2</INF> 
goes from the atmosphere into the ocean or land, it decreases 
the amount in the atmospheric bank.
    So there is two ways to check your bank balance. One is to 
track the income and outgo in your checkbook. Another way is to 
call the bank and say, how much money do I have? There are also 
two ways to calculate how much CO<INF>2</INF> is in the air. 
First we would add the emissions, subtract the CO<INF>2</INF> 
going into the land and ocean, and we call this the bottom-up 
approach. The top-down method would be to simply measure, using 
our tools, the amount of carbon dioxide in the air.
    In the mitigation program it is very important that we do 
both of these. By carefully tracking total amounts we can 
independently check the emissions and tell us whether the 
mitigation efforts are working. This would also allow us to 
monitor the progress of the global program and see what other 
countries are doing.
    NOAA's carbon tracker is a sophisticated computer program 
that measures the distribution and total amounts of carbon 
dioxide. On this poster carbon tracker is showing areas of high 
carbon dioxide in red. You see those in southern U.S., and 
areas with low amounts in blue, and in this case the blue is 
because the air flowed over Siberia and Canada, and the leaves 
were soaking up the carbon dioxide, so that is why that blue 
area northern U.S. is there.
    Programs like AmeriFlux tell us the biological sources, 
while fossil fuel emissions give us the human contribution. 
History shows that accounting through self-reporting is not 
adequate. Carbon trackers' top-down estimates are the ideal 
compliment to the bottom-up emissions measurements. In the end 
we count on the atmosphere to tell us the complete story.
    Mitigation will require a more comprehensive program. Our 
system for monitoring greenhouse gases was designed for 
research understanding on planetary and continental scales and 
wasn't designed for the regional scale that we will need for 
national mitigation. Fortunately, the system can be enhanced in 
the coming decade to meet our needs. Our surface networks, our 
satellites, and things like the orbiting carbon observatory of 
NASA would give us the horizontal coverage while aircraft and 
other instruments could give us the vertical coverage. A robust 
and complete emissions inventory will need to be implemented by 
EPA and Department of Agriculture.
    In conclusion, NOAA has a broad mission to understand and 
predict the atmosphere and global ocean. We can serve as the 
honest broker to determine how well our mitigation policies are 
working and how they can be improved. We look forward to the 
role NOAA will play in this important endeavor.
    Thank you.
    [The prepared statement of Dr. MacDonald follows:]
         Prepared Statement of Alexander E. ``Sandy'' MacDonald

INTRODUCTION

    Good morning Chairman Gordon, Ranking Member Hall, and other 
Members of the Committee. I am Alexander MacDonald, Deputy Assistant 
Administrator for Laboratories and Cooperative Institutes in the Office 
of Oceanic and Atmospheric Research at the National Oceanic and 
Atmospheric Administration (NOAA), in the Department of Commerce. Thank 
you for inviting me to discuss NOAA's research and monitoring programs 
that support our understanding of greenhouse gases in the atmosphere, 
as well as the country's needs with respect to monitoring of greenhouse 
gases and aerosols in light of potential future mitigation policy and 
overall advancement of climate science and research.
    NOAA's mission is to understand and predict changes in Earth's 
environment and conserve and manage coastal and marine resources to 
meet our nation's economic, social, and environmental needs. In support 
of its mission, NOAA has developed a long-standing capability to 
monitor and understand climate and climate change. From observatories 
and cooperative sampling sites and satellites around the world, NOAA 
measures virtually all greenhouse gases, ozone-depleting gases, and 
aerosols to understand their trends, distributions, and fluxes. NOAA, 
in cooperation with other agencies, conducts intensive research 
campaigns to understand the impacts of regional emissions on climate 
and air quality. Oceanic distributions and exchange of carbon dioxide 
(CO<INF>2</INF>) and other gases with the atmosphere are monitored 
intensively by NOAA scientists. From these measurements and models to 
support them, NOAA scientists quantify and improve our understanding of 
the sources, sinks, and trends of a host of related greenhouse gases 
(including CO<INF>2</INF>, methane, and nitrous oxide), aerosols, and 
atmospheric tracers. These continuing data records, maintained by NOAA 
and its interagency partners (e.g., National Aeronautics and Space 
Administration (NASA), Department of Energy (DOE), U.S. Department of 
Agriculture (USDA), et al.), reflect the U.S. scientific leadership in 
this area, and are essential to diagnose current global climate trends 
and project future climate impacts, including effects on global weather 
extremes. NOAA's field missions and global networks for long-term 
monitoring of greenhouse gases, ozone, ozone precursors, ozone-
depleting compounds, aerosols, aerosol precursors and surface radiation 
produce the highest quality atmospheric data. These data provide a 
reference for accurate climate model initialization and validation 
necessary to develop credible scenarios for the future, and for 
developing national and international emission management strategies.
    In this testimony, I will briefly describe the issues related to 
reducing greenhouse gas emissions, identify some of the needs and 
collaborative efforts underway for science-based support of emission 
reduction efforts, summarize NOAA's capabilities and expertise in 
providing information on greenhouse gases and aerosols, and address 
what NOAA can do to provide the information society will need for 
reducing emissions in this century.

WHAT ARE THE ISSUES?

    The carbon cycle and influences of greenhouse gases are complex and 
dynamic. An efficient emissions policy requires a robust bottom-up and 
top-down monitoring approach. Identifying and quantifying human and 
natural emissions of these climate forcing agents, such as 
CO<INF>2</INF>, methane, nitrous oxide, several halocarbons, and 
certain aerosol and ozone-forming agents is necessary for informing 
emission reduction strategies. We must understand where the emissions 
are coming from in order to reduce their quantity. We also must be able 
to identify which areas act as carbon ``sinks,'' removing CO<INF>2</INF> 
from the atmosphere and possibly offsetting CO<INF>2</INF> emissions, 
and which areas act as ``sources,'' adding CO<INF>2</INF> to the 
atmosphere, e.g., areas of oceanic up-welling. To answer these 
questions and ensure effective, efficient policy requires monitoring 
and validation of emissions from specific sources and projects. In 
addition, monitoring the concentrations of gases in the atmosphere for 
verification with reported emissions is critical to understand whether 
policies are having the desired result.
    According to the IPCC Assessments, the increase of CO<INF>2</INF> 
in the atmosphere is the single largest contributor to observed climate 
change. Increasing atmospheric CO<INF>2</INF>, mainly from burning of 
fossil fuels, has not only substantially altered global climate, but 
has also increased the acidity of the oceans. This trend will continue 
as long as humans continue to increase atmospheric CO<INF>2</INF>. It 
is well understood that CO<INF>2</INF>, once emitted, remains in the 
atmosphere and oceans for a very long time--many thousands of years. 
Thus, the changes induced today will have a long-term impact on climate 
and ocean acidity. For these reasons, reduction of CO<INF>2</INF> 
emissions is often the primary focus in discussions about mitigating 
climate change; urgency in doing so is well understood throughout the 
scientific community.
    Other greenhouse gases and aerosol influences must be considered in 
any emission reduction strategy. Although gases such as methane and 
nitrous oxide are not rising as fast as CO<INF>2</INF>, they still 
contribute substantially to climate change, and their future growth 
rates are uncertain. Anticipated changes in climate are likely to 
affect the emission from land and water surfaces. Some aerosols, such 
as black carbon, have a warming effect and others, which are mostly 
associated with poor air quality, have a cooling effect. Aerosols, for 
the most part, are partly offsetting the warming caused by greenhouse 
gases. Therefore, it is important to know how changes in emissions will 
alter atmospheric concentrations of greenhouse gases and aerosol.
    There is a definite urgency to reduce greenhouse gas emissions, but 
we cannot expect to see the effects of reduced emissions immediately on 
the rate of climate change. There are various reasons as to why this is 
the case: (1) many greenhouse gases, especially CO<INF>2</INF>, persist 
in the atmosphere long after emissions are reduced or halted; (2) even 
though the emissions are local, the climate change they bring about is 
global and takes time to realize; (3) links between trends in 
greenhouse gas concentration and North American weather extremes, 
including hurricanes, tornadoes, damaging winds, floods, droughts, cold 
waves, and heat waves have not been fully established; (4) there are 
natural variations in climate and it will take time before we have the 
necessary data to show that changes in climate have grown larger than 
the natural variation (i.e., to establish statistical significance 
between what we are experiencing and what is part of natural 
variation); and (5) since climate change is a global problem, the 
actions of other nations also have an effect on climate. In the short-
term, then, we must rely on reporting and measurement of human-caused 
emissions and observations of the greenhouse gas and aerosol abundances 
in the atmosphere to provide the sole basis for evaluating the 
effectiveness of actions to mitigate climate change.
    Greenhouse gas emissions are generated by practically all economic 
sectors, including energy, agriculture, manufacturing, transportation, 
housing and urban planning, and public health.

A NEED FOR SCIENTIFIC INFORMATION

    NOAA maintains a widespread global monitoring network, including a 
dense observation system in North America, and an ability to measure 
many atmospheric tracers to characterize the origins of greenhouse 
gases. NOAA works in partnership with many federal agencies and 
international organizations, and has been providing greenhouse gas 
information on global, hemispheric, and continental scales for a long 
time. NOAA's observation systems and partnerships have evolved over 
several decades around the goal to resolve scientific questions about 
the global carbon cycle and climate change. But today the question has 
become, ``How can we provide scientific information to support and 
enhance emission reduction efforts?'' An observation and analysis 
system developed to effectively support and enhance emission reduction 
efforts would have significant economic and environmental value, and 
would support the efforts of decision-makers at all levels of 
government. At regional levels, verification that reported emission 
reductions are consistent with what is observed in the atmosphere will 
require many more observations of greenhouse gases and tracers 
(including those from satellites like those currently being built or 
planned at NASA), improved and higher resolution modeling, and an 
enhanced understanding of biospheric responses to climate change. It 
will require the expertise contained in several federal agencies, 
especially DOE, NASA, USDA, the Environmental Protection Agency (EPA), 
and the National Institute of Standards and Technology (NIST).
    The need for sound scientific information regarding climate change 
mitigation will accelerate. The Committee has identified several 
questions with respect to greenhouse gas emissions, climate change, and 
the research endeavors and capabilities currently underway in our 
nation. Chosen courses of action will require a firm grounding in 
science and a reasonable expectation of success. Taking action to 
mitigate climate change is followed by the need to answer questions of 
accountability--Are the actions working as intended? Do we need to do 
something different? Do we need to accelerate or can we relax emission 
reduction efforts? How do these reduction efforts affect other air 
pollutants and solid and liquid effluents? The lead-up to actions, and 
the follow-through of determining the effectiveness of those actions, 
are both rooted in science.
    Science-based information is needed to support greenhouse gas 
emission reduction policy and includes knowledge of the current 
emissions and atmospheric composition of greenhouse gases, on-going 
verification that emission reduction efforts are having their intended 
effect, and an understanding of how natural greenhouse gas emissions 
and uptake are impacted by climate change.
    History shows that emission measurements are most reliable when 
there is a robust verification process. Reported emissions (i.e., 
emissions inventories) are necessary for regulation and initiating 
emission models, but we will have to verify that reported emissions are 
consistent with what is observed in the atmosphere. No large-scale 
emission reduction effort has succeeded without independent 
verification of its progress, whether it is ozone depletion, air 
quality, acid rain, or wastewater management. For example, such efforts 
by NOAA and NASA, required by the Clean Air Act Amendments of 1990, has 
been critical to verifying the success of emission reductions related 
to stratospheric ozone depletion. This and other efforts, however, are 
simple compared to what lies ahead with climate change forcing agents. 
The complexity and variability of the carbon cycle alone present a 
challenging task of verifying that reported emission reductions are 
consistent with what we observe in the atmosphere. In the end, the 
atmosphere tells the story--do observed changes in the atmospheric 
levels reflect calculated emissions?
    Objective, credible, and specific information about the 
effectiveness of mitigation efforts undertaken, and about the response 
of the natural carbon cycle to climate change itself, will be necessary 
to guide policies. Given the sustained investments required to meet 
this challenge, it is critical that efforts to reduce emissions be 
verifiable at local, regional and national levels and consistent with 
evidence in the atmosphere. It is also possible that potential 
feedbacks in the climate system could exacerbate the problem. For 
example, there is a real possibility that the melting of Arctic 
permafrost soils in response to global warming will liberate enormous 
amounts of methane and CO<INF>2</INF>, and would be at that time out of 
our control. Aerosols also need to be watched, as they can have both 
warming and cooling effects and are linked to some potential greenhouse 
gas emission reduction strategies. Thus, in addition to verification of 
the efficacy of emission reduction programs and offsets, based on 
observed atmospheric conditions, we must focus on climate information 
at regional and local levels to confirm the effectiveness of any 
efforts or policies to mitigate climate change, and understand 
distributions, trends, and Earth-system impacts of increasing CO<INF>2</INF> 
and other greenhouse gases in the atmosphere. For management to be 
effective, society will require the best information that research can 
deliver.
    It is also important to clarify the limits to what monitoring (and 
efforts to verify that reported emissions are consistent with what is 
observed in the atmosphere) at the local and regional level can 
accomplish. A comprehensive climate policy will require compliance at 
the individual source level and a ``bottom-up'' reporting approach. 
NOAA's capabilities will not verify emissions at individual sources, 
this will be the responsibility of the EPA through compliance 
assistance efforts. However, at the aggregated level, the information 
NOAA can provide will serve to inform EPA's efforts.

WHAT ARE NOAA'S CAPABILITIES?

    NOAA's capabilities span a range of activities relevant to climate 
science, including observations, analysis, modeling, prediction and 
assessment. NOAA maintains global observational networks and numerous 
field programs, and works closely with partnering agencies, institutes, 
and universities across the Nation and around the world. NOAA is well-
poised to work with key federal agencies and other partners to 
determine the effectiveness of mitigation efforts, and to integrate new 
information into its natural resource management efforts.
    Measurements and products of NOAA's research contribute 
significantly to the U.S. Global Change Research Program. NOAA is 
active with 12 other agencies in the Carbon Cycle Science Program (now 
part of the U.S. Climate Change Science Program, CCSP). This is 
coordinated through the NASA/USDA-led Carbon Cycle Interagency Working 
Group (CCIWG), which meets tri-weekly and sponsors the North American 
Carbon Program and Ocean Carbon Biogeochemistry Program. Research in 
these programs, involving both agency and university scientists, is 
coordinated through separate CCIWG-sponsored Scientific Steering Groups 
that meet twice yearly. The CCIWG also sponsors biennial all-
investigators meetings, workshops at national conferences, and the 
development of the First State of the Carbon Cycle Report, 2007 (CCSP 
Synthesis Report 2.2) for North America. This report summarized our 
current understanding of the sources and sinks of carbon in North 
America, based primarily upon bottom up (i.e., ecosystem measurements 
and calculations) approaches which are compared to top down (i.e., 
atmospheric measurement and analysis) approaches, driven mainly by 
NOAA's measurements and CarbonTracker. Currently the CCIWG agencies are 
working with carbon cycle scientists across the Nation to develop a new 
Carbon Cycle Science Program for the coming decade. Efforts coordinated 
through the CCIWG have been extraordinarily successful in bringing the 
diverse research capabilities of scientists and organizations across 
the country to understand how human and natural systems contribute to 
CO<INF>2</INF> and related greenhouse gases in the atmosphere. NOAA is 
proud of its on-going role at all levels in this effort.
    On a global basis, NOAA's observations of greenhouse gases and 
aerosols form the backbone of the World Meteorological Organization's 
(WMO) Global Atmosphere Watch Programme. NOAA's carbon cycle monitoring 
network currently constitutes two-thirds of the atmospheric monitoring 
sites reporting to the WMO Greenhouse Gas Data Centre (WDCGG). Data 
from the WDCGG are a primary component of the Global Climate 
Observation System. Updated and displayed daily, NOAA's high-quality 
measurements of carbon cycle and other greenhouse gases from all of its 
sites are available worldwide to all interested parties. Because of 
this strong global role, NOAA has leadership positions on the GEO 
(Group on Earth Observations) Task Team for Carbon and the WMO 
Scientific Advisory Groups for greenhouse gases, aerosols, and ozone.
    Greenhouse Gas and Aerosol Monitoring. NOAA has monitored all of 
the major greenhouse gases, along with aerosols, for nearly 40 years at 
its baseline observatories and its cooperative sampling sites. This 
long-term commitment to monitoring these substances has required 
detailed, accurate measurements, high quality research, and 
technological advancement over the decades. NOAA's skills and 
commitment in this effort are unsurpassed. For example, the measurement 
of CO<INF>2</INF> in the atmosphere and oceans has flourished under 
NOAA since its work began several decades ago. This science-based 
effort requires sustained, comparable measurements at an accuracy level 
of 0.05 percent or better. NOAA's capabilities and commitment is 
acknowledged by the scientific community throughout universities, 
federal agencies, and international organizations. Scientists 
researching the carbon cycle or conducting climate research depend upon 
NOAA to provide the world calibration scale and to deliver consistent, 
accurate field measurements of CO<INF>2</INF> and other climate-
relevant gases. The significance of NOAA's capabilities is exemplified 
by the agency's high level of quality control and assurance (e.g., 
ongoing, long-term comparisons of field measurements), its involvement 
in national and international planning and execution, and its 
leadership role in the world community--via the WMO--for calibration.
    Oceanic Measurements. The largest, active reservoir of CO<INF>2</INF> 
is the ocean, which accumulates 40-50 percent of the CO<INF>2</INF> 
emitted into the atmosphere. Processes in the ocean constitute the 
ultimate sink for atmospheric CO<INF>2</INF>, though those removal 
processes take thousands of years. Understanding the cycling of carbon 
in the ocean has been at the core of NOAA's mission for decades. NOAA 
scientists provide about half of the Nation's measurements of CO<INF>2</INF> 
in both deep and surface waters globally and are leaders in 
understanding the processes that drive gas exchange between the ocean 
and atmosphere. NOAA scientists also are leaders in understanding ocean 
acidification, which is driven by increasing CO<INF>2</INF> in the 
atmosphere, and they are major players in the international effort to 
monitor, understand, and assess the trends of carbon in the ocean and 
its impacts on ocean habitat and living resources.
    Satellite Observations. NOAA retrieves data on CO<INF>2</INF> and 
other greenhouse gases and aerosols from NASA satellites. NASA and 
international satellites complement NOAA's global in situ observing 
system for greenhouse gases by providing global coverage, high-spatial 
resolution and vertically integrated measurements. To ensure data 
comparability, it is critical that the satellite retrievals be 
consistent in form with long-standing, high quality, accurate 
measurements made on the ground or from aircraft and with reanalysis 
output such as that of NOAA's CarbonTracker. Data comparability 
requires a coherent, on-going research effort among groups involved in 
both ground-based and remote measurements and traceability to 
international standards such as provided by NIST; these efforts provide 
NOAA with an opportunity to work closely with national and 
international partners in this endeavor.
    Intensive Field Campaigns. NOAA has a demonstrated capability of 
carrying out intensive observational campaigns using NOAA aircraft as a 
``flying chemistry laboratory'' to measure all the major greenhouse 
gases, tracers that help ascertain the origin of the gases, 
tropospheric ozone and its precursors, and aerosols and their 
precursors (Figure 1). This capability can be deployed anywhere in the 
U.S. and in most places in the world to ``spot check'' emissions of 
climate forcing agents from specific regions and establish internal 
relationships among emissions of different gases. Suitably planned 
observational campaigns can help quantify emissions of climate-forcing 
agents and identify their locations and emission sectors. NOAA's 
capability can help establish a reasonably useful baseline of emissions 
from various parts of the country.
    Process Understanding. NOAA has a demonstrated capability in 
carrying out research to understand and quantify the transformation of 
chemicals to climate relevant agents such as ozone and aerosols. NOAA 
also is a leader in seeking to understand and quantify the transport of 
chemicals. These capabilities enable NOAA to translate observations 
into information that can be used in models to predict what actually 
happens in the Earth system.
    Integration of Observations through CarbonTracker. NOAA's 
CarbonTracker tool is widely acknowledged as the most open and 
effective reanalysis approach to date for estimating CO<INF>2</INF> 
emissions and uptake (Figure 2), particularly at large spatial scales. 
When fully developed, CarbonTracker will make it possible to track 
regional emissions of CO<INF>2</INF> over long periods of time and to 
determine which areas are absorbing CO<INF>2</INF> from the atmosphere. 
CarbonTracker uses an existing land model, recognized as the best for 
this work. The land model is informed in part by measurements carried 
out in the DOE's Ameriflux Network, which provides information on 
ecosystem function on kilometer scales. (Augmenting Ameriflux sites in 
the future would allow for incorporation of additional atmospheric 
measurements into CarbonTracker and help improve its resolution, 
particularly near Ameriflux sites.) The land model also is informed by 
NASA and NOAA satellite observations of land surface and biosphere 
characteristics. CarbonTracker uses a transport model with satellite-
supported meteorological fields that can exploit the current 
distribution of observing sites. Finally, CarbonTracker incorporates 
global fossil emission estimates (DOE), fires (NASA MODIS instruments 
on NASA Aqua and Terra satellites) and a modification of NOAA's world-
class ocean circulation model. Because CarbonTracker constrains the 
model results with atmospheric observations, it was able to identify 
the impact of the 2002 drought on North American absorption of 
CO<INF>2</INF>. This suggests that, under its current configuration, 
CarbonTracker is effective in capturing large-scale, North American 
phenomena. There is not, however, a current greenhouse gas monitoring 
network large enough for CarbonTracker to provide fine scale resolution 
with low uncertainty.
    An important role that a ``top down'' system like CarbonTracker 
plays is to independently validate the combined fluxes calculated from 
``bottom up'' efforts such as estimated fossil fuel emissions and 
biological sources. If estimates of sources and sinks do not agree with 
measured atmospheric concentrations, the ``top down'' approach provides 
the information needed to continually improve our understanding of the 
carbon cycle.
    Analysis of data to predict climate change and its impacts. NOAA 
has a demonstrated capability in climate and chemistry modeling. Such 
modeling is essential for providing information about why past changes 
occurred, knowing what the ``climate baseline'' is now, and identifying 
what can be expected when emissions are altered. These models can 
quantify consequences of changes in emissions on both climate and air 
quality. They also are useful in predicting what will happen in the 
future and how ecosystems and human systems will respond, with and 
without emission regulations--information that will be important for 
decision-makers.

WHAT NOAA CAN DO TO HELP VERIFY EMISSION REDUCTIONS

    Based on the capabilities described above, NOAA will play a central 
role providing in scientific information that will be necessary to 
verify whether reported greenhouse gas emission reductions are 
consistent with what is observed in the atmosphere. NOAA can help, 
along with other agencies, in characterizing a baseline for atmospheric 
composition, supporting EPA's development of greenhouse gas emission 
inventories, and setting up a greenhouse gas information system for the 
21st century. NOAA, along with other agencies, can provide timely 
analyses on the impacts of the proposed regulatory action by verifying 
reported emissions at the aggregated level, assessing the effectiveness 
of offsets, and characterizing the impacts of emission reduction 
efforts across sectors and regions of the Nation and world.
    Upgrade the Greenhouse Gas and Aerosol Monitoring System. The 
current greenhouse gas monitoring systems implemented by the federal 
science agencies are designed to support research to understand the 
role of gases and aerosols in climate forcing. The growing need to 
provide scientific verification and support to efforts to mitigate 
climate change through changes in human-caused emissions requires a 
more comprehensive monitoring system. Such a system will need to be 
developed over the next decade with cooperation among federal agencies, 
particularly NOAA, NASA, National Science Foundation (NSF), 
Environmental Protection Agency (EPA), Department of Transportation 
(DOT), and DOE, and with our international partners. Global 
measurements of CO<INF>2</INF>, such as those NASA's Orbiting Carbon 
Observatory (recently lost on launch), would have made is one example 
of the new capabilities that will be needed. NASA's and NOAA's roles in 
verifying NASA satellite data through comparisons with CarbonTracker 
profiles and with direct measurements by aircraft and ground-based 
facilities will be critical for demonstrating the potential for 
incorporating satellite measurements into a comprehensive system of 
observations. NOAA and NASA have recently developed a method to measure 
mid-troposphere CO<INF>2</INF> from the NASA Atmospheric Infrared 
Sounder instrument on NASA's Aqua satellite. NOAA is investigating 
other new technologies, including use of manned and unmanned aircraft, 
commercial aircraft, and tall towers to sample air above the surface. 
We are also working on exciting new possibilities, such as the Air 
Core, a method of bringing air from all altitudes (a chemical sounding) 
back to the laboratory for analysis. Air Core was invented by Dr. 
Pieter Tans of NOAA's Earth System Research Laboratory. A major 
advantage of retrieving air samples is that it allows the measurement 
of many tracers which can be used to attribute sources and sinks of 
CO<INF>2</INF>.
    Establish a Greenhouse Gas Information System for the 21st Century. 
The ability of the United States and other nations to effectively 
implement policies for limiting atmospheric greenhouse gas 
concentrations would benefit considerably by ensuring that reported 
emission reductions and offsets are consistent with atmospheric 
observations at regional and national scales. A U.S. program to reduce 
human-caused concentrations of CO<INF>2</INF> that incorporates such a 
system would help guarantee an efficient, effective, and economic 
approach to emission reduction. It would have considerable value for 
improving our approach to reducing emissions and verifying treaty 
agreements.
    Such a system would combine ground-based, air-based, ocean-based, 
and space-based measurements with facility and site-specific 
measurements, carbon-cycle modeling, fossil-fuel emission inventories, 
land-use data, and an extensive distribution system for information 
about sources and sinks of greenhouse gases at policy-relevant temporal 
and spatial scales. A greenhouse gas information system would need to 
be linked to enhanced capabilities for seamless weather-climate 
modeling and prediction across timescales.
    A global greenhouse gas information system would build from 
existing capabilities and require collaboration to expand and develop 
improved ground, sea, and air-based measurements; sustained space-based 
observations; and measurements of non-CO<INF>2</INF> short-lived gases 
for fossil-fuel combustion attribution. Ground-based observations must 
be focused on accuracy as well as long-term continuity to be of value 
to the climate record. Deriving actionable information from these 
observation sources further requires coordinated efforts in carbon-
cycle modeling, data assimilation, and data analysis--spanning several 
networks, spatial scales, disciplines, and agencies. The specific 
requirements of such a system would be dictated by policy objectives 
and by the degree of international cooperation.
    This information system could build on NOAA's current global 
leadership, observation, modeling, prediction, and analysis 
capabilities and would involve coordination with other federal 
agencies, national and international partners, and the private sector. 
This information system also would be a structural, operational, and 
research backbone in a global effort to verify reduction of CO<INF>2</INF> 
and other greenhouse gas and certain aerosol emissions and quantify 
changes in emissions or uptake by natural systems. Such a system would 
have lasting value for national and international assessments and would 
serve as the ultimate tool for guiding these efforts globally. To 
successfully simulate the atmospheric CO<INF>2</INF> record, a 
reanalysis tool like CarbonTracker must work with the most advanced 
models of the coupled oceanic and terrestrial carbon cycle, which would 
require collaborations with federal and State agencies, universities, 
and international partners. A dense observing network and targeted 
field campaigns combined with a data assimilation capability would 
provide an objective check on efforts to track emissions and the 
contributions of fossil fuel use.
    Deliver early information to establish a baseline characterizing 
the influence of current and past emissions on atmospheric composition. 
There are near-term opportunities for helping establish a baseline of 
current emissions and providing process information in support of model 
development. Verification of emissions from some individual sources can 
be started almost immediately. Climate change forcing agents, their 
precursors, and related tracers can be measured with existing 
instruments placed on NOAA's aircraft, ships, and ground-based 
stations. This early information would aid in evaluating overall 
emission reduction strategies. Such measurements can be coordinated 
with those from other agencies (e.g., NASA, DOE, NSF, DOT, and EPA) to 
provide a more comprehensive coverage of sources, geographic regions, 
and temporal characteristics for providing baseline information on 
emissions as quickly as possible.
    Support development of robust emission inventory of climate forcing 
agents for the country. A systematic, up-to-date inventory of 
emissions, their distributions, and their variations will help 
decision-makers base their decisions on accurate information, climate 
scientists more accurately model future climate and its impacts, and 
stakeholders feel confident of the consequences of the emission 
changes. A robust, accurate, updated, emissions inventory can be 
developed, refined, and maintained through close interaction with other 
agencies, most notably by supporting EPA, DOE's Energy Information 
Administration, and others maintaining accounting registries. 
Development of an improved inventory would go hand-in-hand with 
development of a greenhouse gas information system for the 21st 
century, as improvements in emission estimates inform model development 
and vice-versa.
    Model, predict and analyze the impacts of proposed mitigation 
actions on climate change. NOAA has the capability to make climate 
predictions, and this capability is being continually improved. NOAA's 
capabilities will be critical for predicting the consequences of any 
actions taken to reduce emissions. Such information will be essential 
to support the best possible decisions.

CONCLUDING REMARKS

    In conclusion, I have described the issues involved in dealing with 
reduction of emissions for the benefit of climate, the science-based 
information needs for dealing with reductions, the expertise NOAA 
currently has to address some of the issues, and what more NOAA--in 
conjunction and coordination with other federal agencies--can do to 
provide science-based information for emission reductions.
    NOAA--with its broad mission responsibilities for physical and life 
sciences, and its stewardship responsibilities--and its national and 
international partners have the technological prowess to implement the 
comprehensive and highly sophisticated global information systems 
needed to measure the effectiveness of greenhouse gas mitigation 
strategies. Such a system should include new satellite sensors, an 
improved monitoring network in the atmosphere and oceans, and powerful 
new techniques to analyze the data in support of policy. We look 
forward to the role NOAA will play in providing the information society 
will need for reducing emissions in this century.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


             Biography for Alexander E. ``Sandy'' MacDonald
    Dr. Alexander E. (Sandy) MacDonald was named the first Director of 
the Earth System Research Laboratory and first Deputy Assistant 
Administrator for NOAA Research Laboratories and Cooperative Institutes 
on July 27, 2006. Dr. MacDonald served as Acting Director for the Earth 
System Research Laboratory and Director of the ESRL Global Systems 
Division during the consolidation of the Boulder Laboratories into the 
Earth System Research Laboratory in 2006. Prior to the consolidation, 
Dr. MacDonald led the Forecast Systems Laboratory.
    Dr. MacDonald was the Director of the Program for Regional 
Observing and Forecasting Services (PROFS) from 1983 to 1988. From 
1980-1982, he was Chief of PROFS' Exploratory Development Group and 
from 1975-1980 he was a Techniques Improvement Meteorologist in the 
Scientific Services Division, Western Region, National Weather Service 
in Salt Lake City, UT. He was an Air Force Officer while a member of 
the U.S. Air Force from 1967-1971.

    Chair Gordon. Thank you, Dr. MacDonald. I agree. NOAA is a 
very important player in this equation.
    Dr. Law, you are recognized for five minutes.

 STATEMENT OF DR. BEVERLY LAW, PROFESSOR, DEPARTMENT OF FOREST 
   ECOSYSTEMS AND SOCIETY; SCIENCE CHAIR, AMERIFLUX NETWORK, 
                    OREGON STATE UNIVERSITY

    Dr. Law. Chair Gordon, Ranking Member Hall, and Members of 
the Committee, thank you for inviting me here today to talk 
about the AmeriFlux Network and the potential to quantify 
fluxes from natural and managed systems in the context of 
greenhouse gas emissions.
    The AmeriFlux Network has about 90 flux sites currently, 
and it has great potential to improve understanding of the 
carbon cycle and land-based contributions to greenhouse gases. 
AmeriFlux provides ecosystem-level measurements of the net of 
ecosystem carbon processes that produce a source or a sink to 
the atmosphere. The data are used to calibrate remote sensing 
data and models. Carbon cycle and climate system monitors use 
flux data to characterize land sources and sinks for carbon and 
to understand ecosystem responses to climate and land use.
    So the most effective tool to measure the net carbon fluxes 
from natural and managed systems is an array of flux sites. The 
most powerful tool to produce spatial estimates of fluxes from 
ecosystems is a bottom-up process model that ingests the flux 
data as well as data from inventories and remote sensing of 
land characteristics, and this is used to map the carbon stocks 
and fluxes for every square kilometer.
    The output of a bottom-up process model could be used to 
constrain estimates of the terrestrial portion of the observed 
greenhouse gases. Continuity of AmeriFlux needs to be ensured. 
The network is built on a model of cooperating investigators, 
primarily university professors. The AmeriFlux records are now 
seven to fifteen years in length and are beginning to show 
long-term trends. AmeriFlux sites are supported by multiple 
agencies with the Department of Energy funding about half the 
sites.
    I am in the unique position of heading a regional project 
that uses observations and models that are going to be 
discussed today. To develop a sustained and robust carbon 
monitoring system, I think it is necessary to enhance the 
AmeriFlux Network, intensify the greenhouse gas concentration 
network, improve crop and forest inventories, ensure continuity 
of critical remote sensing data, including Landsat and MODIS 
for the land or bottom-up approach, provide more resources for 
coordinated data management for assimilation in models, and 
accelerate data availability and analysis for a more 
comprehensive modeling and assessment.
    For AmeriFlux some required resources would be to add sites 
in under-represented regions and disturbances classes of 
forests, add measurements of methane fluxes and isotopes for 
identifying sources, and add well-calibrated CO<INF>2</INF> 
concentration measurements to augment NOAA's CO<INF>2</INF> 
observations. Additional resources are required for AmeriFlux 
data management and data processing and regional to global 
analysis. The resources needed for a robust monitoring system 
are about the same as that for carbon cycle research.
    The effects mechanism for communication between academic 
community and federal agencies are the science steering groups 
of the North American Carbon Program and the Carbon Cycle 
Science Program. The NACP is the best organizing mechanism for 
developing an integrated national network of observations and 
modeling the challenges implementing an integrated national 
system quickly.
    Mechanisms for international coordination of infrastructure 
and analysis could build on the NACP and the new European 
infrastructure called the International Carbon Observation 
System. ICOS is a system for carbon monitoring and verification 
based on observations and modeling of ecosystem fluxes to 
assess terrestrial sources and sinks and greenhouse gases to 
quantify anthropogenic sources.
    FluxNet is a network of networks, and FluxNet and the FAO 
Global Terrestrial Observing System could operate within this 
framework. To ensure that data collected by different nations 
are comparable, institutional support is required for 
coordinating observation systems and developing high-quality 
data systems.
    In summary, the tools and communication mechanisms exist 
for monitoring, measuring, and understanding greenhouse gas 
sources and sinks. Each of the agencies has been working on 
their piece of the puzzle. Now what is required is a high level 
of commitment and coordination to build an integrated national 
system.
    Thank you.
    [The prepared statement of Dr. Law follows:]
                   Prepared Statement of Beverly Law

Introduction

    Good morning Chairman Gordon, Ranking Member Hall, and other 
Members of the Committee. I am Dr. Beverly Law, Professor of Global 
Change Forest Science at Oregon State University, and Science Chair of 
the AmeriFlux Network. Thank you for the opportunity to appear before 
you today to discuss the AmeriFlux Network, and the potential to 
quantify GHG fluxes from natural or managed ecosystems with respect to 
potential mitigation strategies and advancing carbon cycle science.

Purpose and Status of the AmeriFlux Network

    AmeriFlux was initiated in 1996. It currently consists of 90 
research sites that measure biology properties, meteorology, and 
carbon, water vapor and energy exchanges between terrestrial ecosystems 
and the atmosphere. The sites are in different vegetation types, 
climatic conditions, and stages of response to natural events and 
management. Most of the sites are in the lower 48 states, with a few 
sites in Alaska, Central and S. America (Fig. 1). Similar networks 
exist on other continents and are loosely coordinated through FLUXNET 
(Baldocchi, 2008), with over 500 sites from the tropics to high 
northern latitudes.
    The aim of AmeriFlux is to:

        <bullet>  quantify and explain the amounts and variation in 
        carbon storage and the exchanges of carbon dioxide, water vapor 
        and energy at multiple timescales, and

        <bullet>  provide systematic data and analysis that has value 
        for monitoring climate variables and change in terrestrial 
        ecosystem processes in response to climate, land use and 
        management

    The AmeriFlux records are now seven to fifteen years in length and 
continuation is essential for understanding long-term trends in 
ecosystem response to climate and management. Support for AmeriFlux is 
currently provided on a site-by-site basis, and is funded by multiple 
agencies, with DOE funding about half of the sites. Some long-term, 
high-quality records are endangered by lack of continued support. Most 
of the sites are run by academic researchers.
    The network plays a major role in the North American Carbon Program 
(part of the U.S. Climate Change Science Program), where flux data are 
used to test model assumptions, or to optimize models and apply them 
spatially. The models also require inputs of remote sensing data on 
land surface characteristics (Law et al., 2004). Carbon cycle and 
climate system modelers use the flux data to characterize terrestrial 
sources and sinks for carbon, effects of climate and land use change on 
ecosystem fluxes, and effects of ecosystems on climate.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Potential to Improve Understanding of the Carbon Cycle and Accuracy of 
                    GHG Inventories

    The AmeriFlux Network has great potential to improve understanding 
of the carbon cycle, and land-based contributions to greenhouse gases 
(GHG). Response of ecosystems to management can be detected by 
AmeriFlux measurements, which provide direct measurements of net carbon 
dioxide exchange at the stand-scale that represents the integrated 
effect of various ecosystem processes. The area coverage of a flux site 
is the appropriate scale for understanding the effects of climatic 
events and management activities on terrestrial sources and sinks, such 
as the outcome of mitigation strategies. For example, the effects of 
thinning 30 percent of tree biomass in a forest stand were evaluated 
using net carbon dioxide exchange measurements in the years before and 
after the thinning (Misson et al., 2006).
    Models optimized with flux data can be used to test scenarios of 
response to mitigation actions. Mitigation actions cannot be detected 
by top-down methods that incorporate atmospheric CO<INF>2</INF> 
concentration observations, but this role can be filled by AmeriFlux, 
which was designed to be a land-based observation network.
    Long-term flux data at individual sites show trends that allow one 
to identify the relative importance of factors influencing carbon 
uptake. For example, at Harvard Forest, annual net carbon uptake over 
15 years has averaged 2.5 tons carbon/hectare/year, and has increased 
at an average rate of 0.2 tons carbon/hectare/year. The 15 years of 
data track changes in net carbon uptake driven by long-term increases 
in tree biomass, successional change in forest composition, and 
climatic events, processes not well represented in current models 
(Urbanski et al., 2006). Along with the energy fluxes, the data have 
proven valuable in evaluating and improving carbon cycle and climate 
system models, as indicated in many publications and model comparisons.
    The potential to improve accuracy of GHG inventories relies on 
increasing the density of GHG measurements across the continent. A 
small subset of AmeriFlux sites measure well-calibrated carbon dioxide 
concentration profiles in an above the vegetation canopy, and more 
sites could be augmented. These data would improve the density of GHG 
concentration measurements made by NOAA over the continent so that it 
might become possible to resolve regional GHG sources and sinks.

Potential to define reliable baselines of GHG fluxes from natural or 
                    managed ecosystems

    The most effective tool to measure the effect of natural events and 
management at annual timescales is an array of flux sites. The most 
powerful tool to produce spatial estimate of GHG fluxes from ecosystems 
is a bottom-up process model that ingests these data. A bottom-up 
approach starts with measurements where the action is taking place. For 
example, a regional project uses observations from forest and 
agricultural inventories, AmeriFlux sites, and Landsat data in a 
process model to produce estimates of terrestrial carbon stocks and 
fluxes for every square kilometer (Law et al., 2004, 2006). The model 
grows forests after disturbances and data compare well with forest 
biomass from inventories. This type of approach can be applied across 
the U.S. to track changes in terrestrial sources and sinks at a 
resolution appropriate for the scale of spatial variability that 
exists. The output of bottom-up process models could be used in 
CarbonTracker to improve its estimates of the terrestrial contributions 
to observed greenhouse gas concentrations.
    The potential of the network to define reliable baselines of 
sources and sinks in the U.S. is high in the near future, but it will 
require enhancements and a more coordinated effort of the different 
science communities and agencies. The coordination could be improved 
through the North American Carbon Program (NACP), part of the Carbon 
Cycle Science Program.
    Internationally, the potential to define baselines of GHG fluxes 
from natural or managed ecosystems using tower flux measurements is low 
in the next few years. The distribution of sites is variable, with a 
sufficient density of sites in Europe and Japan, but no sites in some 
countries. China and India recently started their own networks. In the 
past 10 years, the global network of sites has mushroomed from about 
100 sites to over 500 flux sites in the regional international 
networks, so it is possible that the status will change quickly. 
However, continuity of existing observations remains threatened in some 
countries, like Canada. In addition, it requires technical expertise 
both in instrument maintenance and data analysis that isn't likely to 
be available everywhere.

Additional resources required to develop and sustain a robust carbon 
                    monitoring system

    This is something that is required; the details are yet to be 
determined. It would be necessary to enhance the AmeriFlux Network, 
intensify the CO<INF>2</INF> concentration network, enhance the crop 
and forest inventory programs, ensure continuity of critical remote 
sensing data, provide more resources for coordinated data management 
systems for data assimilation, and accelerate analysis of available 
data for more comprehensive modeling and assessment.
    Continuity of the AmeriFlux sites needs to be ensured. Improvements 
in the AmeriFlux Network would require adding new sites in under-
represented biomes, eco-climatic regions, and early stages of forest 
growth following disturbance events and management/mitigation actions. 
In 2005, an analysis indicated locations where new towers were needed 
(Fig. 2 and Hargrove et al., 2003); gaps have since been filled in the 
SE and SW U.S. Sites should be enhanced with measurements of methane 
fluxes, another carbon source from land surfaces. New measurements 
could include isotopes for distinguishing sources and well-calibrated 
CO<INF>2</INF> concentration measurements that could augment NOAA's GHG 
observations. The required resources for a robust monitoring system are 
the same as if the primary purpose of the network remains focused on 
carbon cycle research.
    More resources are needed for AmeriFlux data management to serve a 
broad user community. Increased computational resources are needed for 
data processing and modeling for regional, continental and global scale 
analysis (e.g., distributed computer clusters, and time on a super 
computer).
    Many of the products needed for integrating AmeriFlux observations 
with other data and models are provided by individual investigators or 
programs with other missions, some with significant lags (years) in 
data availability and others lacking continuity. Additional resources 
are required for more rapid delivery of upstream data products that are 
critical to modeling and assessment, such as the State of the Carbon 
Cycle Report (CCSSP, 2007). Examples are Landsat data products, 
spatially derived weather data, and inventory estimates of biomass and 
productivity.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Relationship between academic community involved in carbon cycle 
                    research and regional to continental mapping of 
                    fluxes of GHG, and the federal agencies supporting 
                    this work

    There are existing mechanisms for communication between the 
academic community and the federal agencies supporting the work. The 
academic community involved in NACP projects is using the range of 
observation networks and models to produce maps of fluxes of GHG. The 
observation and modeling communities are represented on the steering 
groups. The Science Steering Groups of the NACP and Carbon Cycle 
Science Program meet a couple of times a year with the program managers 
in the Interagency Working Group. This has proved to be an effective 
way for scientists to discuss current gaps in observations or 
knowledge, and future research needs. The challenge is in responding to 
these needs in a timely manner.

Mechanism for Coordinating Efforts with Other Nations to Better 
                    Understand Carbon and GHG

    A mechanism for coordinating observation networks among nations 
could build on the NACP and the Integrated Carbon Observation System 
(ICOS), a new European Research Infrastructure for quantifying and 
understanding the greenhouse balance of the European continent and of 
adjacent regions. ICOS aims to build a network of standardized, long-
term, high precision integrated monitoring of (1) atmospheric 
greenhouse gas concentrations to quantify the fossil fuel component; 
(2) ecosystem fluxes of carbon dioxide, water vapor and energy and 
ecosystem variables (http://icos-infrastructure.ipsl.jussieu.fr/). The 
ICOS infrastructure would integrate terrestrial and atmospheric 
observations at various sites into a single, coherent, highly precise 
database, which would allow a regional top-down assessment of fluxes 
from atmospheric data, and a bottom-up assessment from ecosystem 
measurements and fossil fuel inventories. This is similar to 
aspirations of the U.S. North American Carbon Program (NACP).
    One of the activities of the North American Carbon Program is 
ongoing coordination with Canada and Mexico on carbon observations and 
modeling. Here, the framework and science plan are under development, 
but again, there aren't enough resources for a high degree of 
coordination. Additional support necessary to ensure that data 
collected by different nations are comparable includes institutional 
support for coordination of observation systems, interchange of 
standards, and development of curated, active data management systems 
for data assimilation.
    Within the frameworks of NACP/ICOS, a mechanism for coordinating 
tower flux work with other nations is the scientific bodies FAO Global 
Terrestrial Observing System--Terrestrial Carbon (GTOS-TCO) and 
FLUXNET. These frameworks exist, but there isn't enough support for a 
high degree of coordination. GTOS is supported by the Food & 
Agricultural Organization, and the role of GTOS-TCO is to organize and 
coordinate reliable data and information on carbon, linking the 
scientific community with potential end users. One important recent 
product is the guidelines for terrestrial carbon measurements and 
global standardization of protocols for submitting data to a database 
for international comparisons (Law et al., 2008).
    The FLUXNET project is a ``network of regional flux networks,'' 
serving a synthesis coordination role rather than primary data 
collection. The intent is to stimulate regional and global analysis of 
observations from tower flux sites. It is operated from the U.S., and 
has functioned intermittently depending on grants (http://
www.fluxnet.ornl.gov/fluxnet/index.cfm). Through FLUXNET, we produced a 
global database using the data standardization protocols we developed 
for AmeriFlux (and published in the GTOS document, Law et al., 2008). 
However, the FLUXNET database is currently static and no one is 
responsible for continually updating it. To continue these developments 
and building international continuity in methods and databases, it 
would make sense for the community to have FLUXNET regularly funded. 
Along with guidelines for instrumentation and calibration we provide on 
the AmeriFlux web site, we have the templates for international 
coordination; they just need to be implemented.

Summary

    The AmeriFlux Network of 90 sites has great potential to improve 
understanding of the carbon cycle, and land-based contributions to GHG. 
AmeriFlux provides direct measurements of net carbon dioxide exchange 
at the stand-scale that represents the integrated effect of various 
ecosystem processes. The area coverage of a tower is the appropriate 
scale for understanding the effects of climatic events and management 
activities, such as the outcome of mitigation strategies.
    The network plays a major role in the North American Carbon 
Program, where modeling approaches use the flux data to test model 
processes, or to optimize the models and apply them spatially with 
inputs of weather data and remote sensing data on land surface 
characteristics (e.g., Landsat products, MODIS; Goward et al., 2008). 
Carbon cycle and climate system modelers use flux data to characterize 
terrestrial sources and sinks for carbon, responses of carbon and 
energy fluxes to climate and land use change, and resulting radiative 
forcing feedbacks to climate.
    The potential of the network to define reliable baselines of 
sources and sinks in the U.S. is high in the near future, but it will 
take enhancements and a more coordinated effort of the science 
communities and federal agencies. Critical to this effort is timely 
availability of upstream observations and data products that are used 
in terrestrial models to map fluxes. The coordination could be improved 
through the North American Carbon Program.
    Internationally, the potential to define baselines of GHG fluxes 
from natural or managed ecosystems using tower flux measurements is low 
in the next few years. The distribution of sites is variable, with a 
sufficient density of sites in many developed countries, but no sites 
in some countries. It also requires technical expertise both in 
instrument maintenance and data analysis that isn't likely to be 
available everywhere. Continuity of existing observations remains 
threatened in countries like Canada.
    Additional resources will be required to develop and sustain a 
robust carbon monitoring system. It would be necessary to enhance the 
AmeriFlux Network, intensify the GHG observation network, improve 
terrestrial inventories, ensure continuity of remote sensing data, 
develop coordinated data management, and accelerate analysis of 
available data for more comprehensive modeling and assessment.
    Additional resources are needed to ensure continuity of the 
AmeriFlux sites. Required resources would fill gaps in coverage by 
existing AmeriFlux sites, particularly in under-represented regions and 
biomes, and in different stages of forest growth such as following 
management/mitigation actions. The sites should be enhanced with 
additional measurements to include methane fluxes (another GHG), 
isotopes for distinguishing sources, and well-calibrated CO<INF>2</INF> 
concentration measurements. NOAA CO<INF>2</INF> concentration 
measurements and CarbonTracker would benefit from addition of well-
calibrated CO<INF>2</INF> concentration measurements on more of the 
AmeriFlux towers. More resources are needed for AmeriFlux data 
management, data processing and modeling for regional to global scale 
analysis (e.g., distributed computer clusters, and access to super 
computers). The required resources for a robust monitoring system are 
the same as if the primary purpose of the network remains focused on 
carbon cycle research.
    There are existing mechanisms for communication between the 
academic community and the federal agencies supporting the work. The 
observation and modeling communities are represented on the steering 
committees of the Carbon Cycle Science Program and NACP, and meet 
regularly with the Interagency Working Group of the federal agencies to 
identify gaps and needs. The challenge is meeting those needs in a 
timely manner.
    Mechanisms for international coordination of infrastructure and 
analysis could build on the NACP and the new European infrastructure 
called the International Carbon Observation System (ICOS). FLUXNET, a 
`network of regional flux networks,' and the FAO Global Terrestrial 
Observing System would operate within this framework. Additional 
support necessary to ensure that data collected by different nations 
are comparable includes institutional support for coordination of 
observation systems, interchange of standards, and development of high 
quality data management systems.
    In summary, the tools and communication mechanisms exist for 
monitoring, measuring and understanding GHG sources and sinks. Each of 
the agencies has been working on their piece of the puzzle. Now what is 
required is a high level of commitment and coordination to build an 
integrated national system. For successful implementation, the 
observation networks, analysis teams, and data management need to be 
enhanced in the near term to develop and sustain a robust carbon 
monitoring system.

Citations

Baldocchi, D.D. 2008. `Breathing' of the Terrestrial Biosphere: Lessons 
        Learned from a Global Network of Carbon Dioxide Flux 
        Measurement Systems. Australian Journal of Botany 56:1-26.

CCSP. 2007. The First State of the Carbon Cycle Report (SOCCR): The 
        North American Carbon Budget and Implications for the Global 
        Carbon Cycle. Anthony W. King, Lisa Dilling, Gregory P. 
        Zimmerman, David M. Fairman, Richard A. Houghton, Gregg 
        Marland, Adam Z. Rose, and Thomas J. Wilbanks, editors, 2007. A 
        report by the U.S. Climate Change Science Program and the 
        Subcommittee on Global Change Research, Washington, DC.

Goward, S.N., J.G. Masek, W. Cohen, G. Moisen, G.J. Collatz, S. Healey, 
        R.A. Houghton, C. Huang, R. Kennedy, B.E. Law, S. Powell, D. 
        Turner, M. Wulder. 2008. Forest Disturbance and North American 
        Carbon Flux. EOS Transactions 11:105-106.

Hargrove, W.W., F.M. Hoffman, B.E. Law. 2003. New Analysis Reveals 
        Representativeness of AmeriFlux Network. EOS Transactions 
        84:529.

Law, B.E., T. Arkebauer, J.L. Campbell, J. Chen, M. Schwartz, O. Sun, 
        C. van Ingen, S. Verma. 2008. Terrestrial Carbon Observations: 
        Protocols for Vegetation Sampling and Data Submission. Report 
        55, Global Terrestrial Observing System. FAO, Rome. 87 pp.

Law, B.E., D. Turner, J. Campbell, O.J. Sun, S. Van Tuyl, W.D. Ritts, 
        W.B. Cohen. 2004. Disturbance and climate effects on carbon 
        stocks and fluxes across western Oregon USA. Global Change 
        Biology 10:1429-1444.

Law, B.E., D. Turner, M. Lefsky, J. Campbell, M. Guzy, O. Sun, S. Van 
        Tuyl, W. Cohen. 2006. Carbon fluxes across regions: 
        Observational constraints at multiple scales. In J. Wu, B. 
        Jones, H. Li, O. Loucks, eds. Scaling and Uncertainty Analysis 
        in Ecology: Methods and Applications. Springer, USA. Pages 167-
        190.

Misson, L., J. Tang, M. Xu, M. McKay, A.H. Goldstein. 2005. Influences 
        of recovery from clear-cut, climate variability, and thinning 
        on the carbon balance of a young ponderosa pine plantation. 
        Agricultural and Forest Meteorology 130:207-222.

Urbanski, S., C. Barford, S. Wofsy, C. Kucharik, E. Pyle, J. Budney, K. 
        McKain, D. Fitzjarrald, M. Czikowsky, J.W. Munger 2007. Factors 
        Controlling CO<INF>2</INF> Exchange on timescales from hourly 
        to decadal at Harvard Forest. Journal of Geophysical Research 
        112: G02020, doi:10.1029/2006JG000293.

                       Biography for Beverly Law
    Dr. Beverly Law is Professor of Global Change Forest Science at 
Oregon State University. She currently serves as the Science Chair of 
the AmeriFlux Network, and as a member of the Science Steering Groups 
of the U.S. Carbon Cycle Science Program and the North American Carbon 
Program. She is also serving on the National Research Council Committee 
on Methods for Estimating Greenhouse Gases. Her research is on the 
effects of climate and disturbances on carbon, water, and energy 
exchange between terrestrial ecosystems and the atmosphere; and methods 
for integrating observations and modeling to quantify and understand 
regional carbon balances. Dr. Law has been an author or co-author on 
over 100 refereed journal articles, including lead author on a World 
Meteorological Organization Norbert Gerbier-MUMM International Award 
for meteorology publication of the year (2004).

    Chair Gordon. Thank you, Dr. Law.
    And Dr. Birdsey, you are recognized for five minutes.

    STATEMENT OF DR. RICHARD A. BIRDSEY, PROJECT LEADER AND 
SCIENTIST, USDA FOREST SERVICE; CHAIR, CARBON CYCLE SCIENTIFIC 
                         STEERING GROUP

    Dr. Birdsey. Thank you, Mr. Chair and Members of the 
Committee. Thanks for inviting me here. I appreciate the 
opportunity to talk for a little while about monitoring, 
measuring, and verifying greenhouse gas emissions. I will talk 
a little bit about USDA inventory and monitoring programs, 
about how they may be used to verify greenhouse gas mitigation 
activities, and then about some interagency activities we are 
involved in.
    First I want to spend a minute discussing the role of U.S. 
forests in the climate system. U.S. forests currently take up 
about 12 percent of the carbon dioxide emissions from the 
United States. This is a terrific service that these forests 
provide. We are not sure how that will evolve in the future, 
but it is something we want to take a good track of. We want to 
maintain these forests in a healthy way so that as climate 
changes they are adaptable and can continue to provide these 
ecosystem services.
    Department of Agriculture has conducted inventories of the 
land for about 75 years, and we have a network of experimental 
forests and ranges that have been continuously collecting data 
for in some cases more than 100 years. These information 
systems are the basis for the U.S. Greenhouse Gas Inventory, 
the Forestry Sector, and this--these inputs are reviewed 
periodically, and based on these reviews we do thinks some 
improvements are needed.
    USDA also provides data for land managers to use. We have 
developed very practical and cost-effective methods for 
estimating greenhouse gas sources and sinks at the level of 
farms or forestry projects. So these are very small-scale 
activities that we provide services to those land owners.
    We also have developed some user-friendly estimation tools 
so that private owners and land managers can have a little 
easier time developing estimates that are specific for their 
circumstances.
    Our ground-based observation systems are also essential for 
detecting the signs of climate change and eventually for 
monitoring our ability to respond to climate changes. For 
interagency and academic collaborations the U.S. Department of 
Agriculture and the Forest Service works closely with 
Environmental Protection Agency, NOAA, NASA, DOE, and other 
agencies and universities to develop the state-of-the-art 
greenhouse gas inventories.
    The Carbon Cycle Interagency Working Group coordinates 
carbon cycle research under the U.S. Climate Change Science 
Program. I have been associated with this group for something 
like eight years. I find it quite fascinating how they are able 
to bring ten or more different agencies together to the table 
periodically to talk about the research that is going on, to do 
the best job they can to coordinate it, and then go back to 
their individual agencies and departments and work through 
those systems. I think it has been very effective.
    The Carbon Cycle Steering Group that I chair provides input 
about carbon cycle science and particularly its relevance to 
the various stakeholder communities so we can assure that 
science is meeting the needs of society.
    We have found that key elements of a national observation 
network are lacking or at risk of loss, and you are hearing 
about some of those from the other witnesses today.
    As I mentioned at the beginning, U.S. forests provide a 
tremendous service of taking up a large percentage of our 
greenhouse gas emissions. The future of this is somewhat 
uncertain. There are many threats to the forests; climate 
change, land use change, fire, insects, and so forth, as well 
as the opportunity to manage those forests to remain healthy 
and continue to provide this service. Properly-managed forests 
across all ownerships; public, private, and in urban and rural 
areas can make a big difference in the future of mitigating and 
adapting to climate change.
    These forests in rural areas and communities can really 
help improve people's lives, and we appreciate the opportunity 
to discuss the role of monitoring and ensuring that these 
forests continue to provide those services.
    Thanks for the opportunity, and I will be glad to answer 
any questions that you have.
    [The prepared statement of Dr. Birdsey follows:]
                Prepared Statement of Richard A. Birdsey
    Mr. Chairman and Members of the Committee, thank you for inviting 
me today to discuss monitoring, measuring, and verifying greenhouse gas 
emissions. I am the Project Leader of the Research Work Unit ``Climate, 
Fire, and Carbon Cycle Sciences'' in the Northern Research Station of 
the U.S. Forest Service. In addition, I currently Chair the Carbon 
Cycle Science Steering Group. This Steering Group, comprised of about 
20 experts involved in carbon cycle research and application from 
federal, State, university, and non-government organizations, reviews 
the status of carbon cycle science sponsored by U.S. agencies and 
departments. I will focus my remarks on the purpose and current status 
of USDA inventory and monitoring programs, their use in verifying 
greenhouse gas mitigation activities, and relevant federal interagency 
activities regarding carbon cycle research and monitoring.

Status of USDA Inventory and Monitoring Programs

    Forestry, agriculture, and other land uses may either contribute to 
or remove greenhouse gases (GHG) from the atmosphere. Land use 
practices have affected GHG levels in the atmosphere through management 
of perennial systems and forests, land use changes, cultivation and 
fertilization of soils, production of ruminant livestock, management of 
livestock manure, and fuel consumption. Carbon is accumulating in U.S. 
forests, wood products, croplands, and urban lands, offsetting overall 
U.S. GHG emissions by about 12 percent.\1\
---------------------------------------------------------------------------
    \1\ http://epa.gov/climatechange/emissions/usinventoryreport.html
---------------------------------------------------------------------------
    USDA conducts critical research, observation, survey, and analysis 
needed to assess greenhouse gas emissions and carbon storage on U.S. 
lands. We work closely with our partners in the Environmental 
Protection Agency and the Department of Energy on national, regional, 
local, and entity scale greenhouse gas inventories and methods.
    USDA also maintains critical observation and data systems that will 
be needed to monitor and track changes in climate and the implications 
of climate change. USDA contributions include:

        <bullet>  Providing the greenhouse gas estimates from land use, 
        land use change, and forestry and agricultural statistics to 
        EPA for the Official U.S. Greenhouse Gas Inventory.

        <bullet>  Periodically producing a stand-alone inventory of 
        greenhouse gas sources and sinks from the forestry and 
        agriculture sectors to accompany the Official EPA inventory.

        <bullet>  Preparing project and farm-scale methods for 
        estimating greenhouse gas sources and sinks for the Department 
        of Energy's Voluntary Greenhouse Gas Reporting System.

        <bullet>  Creating user-friendly estimation tools for private 
        landowners and land managers. These tools are designed to 
        provide a ``greenhouse gas footprint'' of individual forest 
        lands and farms.

    These systems include: the U.S. Forest Inventory (FIA), the 
National Resources Inventory (NRI), the Census of Agriculture, climate 
and weather observations, Experimental Forests and Ranges, and various 
surveys of cropping and management practices.
    The Forest Inventory and Analysis Program (FIA) of the Forest 
Service has tracked the condition and changes in vegetation on public 
and private lands for more than 75 years, and is the longest running 
forest inventory program if its kind in the U.S. The nationwide network 
of experimental forests and ranges provides up to 100 years of data on 
vegetation, climate and hydrology. Scientific support comes from 
partnerships with universities, federal and State agencies, non-
governmental organizations, and the forest industry. Scientists and 
managers are using this information and working together to develop 
strategies for managing our changing forests and rangelands.
    FIA data has been the basis of the reported changes in carbon 
stocks of the forestry sector of the U.S. Greenhouse Gas Inventory, as 
reported annually to the United Nations Framework Convention on Climate 
Change by the Environmental Protection Agency.\2\ This is the national 
monitoring baseline for carbon in forests and wood products, following 
international reporting requirements and guidelines, and undergoing 
annual review by an international panel of experts. Its basis in the 
existing forest inventory program has advantages because of the 
extensive sample plot network which confers the ability to attribute 
observed changes geographically (e.g., by state), by broad ownership 
category (e.g., public, private) and by other characteristics of the 
land such as forest type or productivity class. Since the estimates are 
based on a statistical sampling approach involving remote sensing and 
direct field observations, the error of the reported estimates can be 
statistically described. The extensive FIA data, inventory, and 
analytical framework has the capacity to answer questions now that will 
arise as actions are implemented to increase carbon storage.
---------------------------------------------------------------------------
    \2\ Id.
---------------------------------------------------------------------------
    To improve the data from forest inventories as a basis for 
monitoring carbon, additional sampling is needed for carbon in soils, 
dead wood and down woody debris. Areas recently disturbed from events 
such as hurricanes and large wildfires need additional sampling to 
assess impacts. If reports are required for areas smaller than states, 
such as groups of counties or specific national forests, remote sensing 
augmented with intensified sampling density will be required. Movement 
of carbon in wood products from specific regions and ownerships are 
important but are not tracked through the chain of custody. Land-use 
and land-cover changes are not estimated accurately for small areas, 
which could be resolved with enhanced use of remote sensing and better 
coordination between agricultural and forest inventories. Some U.S. 
regions important to understanding forest carbon dynamics are currently 
under-sampled, such as Alaskan boreal forests and forested urban areas. 
Implementing these changes would improve the U.S. greenhouse gas 
inventory and provide additional capability to report estimates for 
specific land areas of interest.
    The National Resources Inventory (NRI) is a statistically-based, 
longitudinal survey administered by the USDA Natural Resources 
Conservation Service (NRCS) that has provided conditions and trends for 
multiple environmental resources on non-federal U.S. lands since 1956 
(known as the Conservation Needs Inventories until 1977). The National 
Resources Inventory samples more than 800,000 points nationally; each 
year 210,000 of these are studied remotely and 5,000 to 10,000 field-
visited. Much of the sampling relies heavily on information provided by 
Natural Resources Conservation Service Soil Survey databases. Soil 
carbon is estimated from biomass production, disturbance (e.g., 
tillage, grazing or timber harvest) and loss by erosion, decomposition 
or removal of plant material. Effects of soils, landscape position and 
climate are factored into the estimates. Scientists from Natural 
Resources Conservation Service and Agricultural Research Service (ARS) 
are using National Resources Inventory data to assess the effectiveness 
of conservation practices in the Conservation Effects Assessment 
Project (CEAP).
    In 2006, USDA prepared the only set of comprehensive landowner-
scale greenhouse gas inventory methods available in the U.S. These 
methods were established by USDA for use the Department of Energy's 
Voluntary Greenhouse Gas Reporting Registry.\3\ Uniform standards and 
definitions provide consistent assessments of greenhouse gases at the 
landowner scale. To accompany these methods, the USDA Forest Service 
and Natural Resources Conservation Service provide decision-support 
tools. The COLE\4\ and COMET-VR\5\ models are examples of on-line 
estimators that support greenhouse gas registries and markets. Another 
example is i-Tree,\6\ the Forest Service's suite of on-line tools 
developed to measure urban forestry benefits.
---------------------------------------------------------------------------
    \3\ Smith, James E.; Heath, Linda S.; Skog, Kenneth E.; Birdsey, 
Richard A. 2006. Methods for calculating forest ecosystem and harvested 
carbon with standard estimates for forest types of the United States. 
Gen. Tech. Rep. NE-343. Newtown Square, PA. USDA NE-343: 216 p.
    \4\ http://ncasi.uml.edu/COLE/
    \5\ http://www.cometvr.colostate.edu/
    \6\ http://www.itreetools.org/
---------------------------------------------------------------------------
    Section 2709 of the 2008 Farm Bill authorized the Secretary of 
Agriculture to establish technical guidelines for science-based 
measurement of environmental services benefits derived from 
conservation and land management activities. The Farm Bill specifically 
directs the Secretary to give priority to the establishment measurement 
standards--in consultation with research community and others--for 
carbon credits in order to facilitate landowner participation. The 
Secretary has established the Office of Ecosystem Services and Markets 
as a separate agency and is proceeding to staff the office to 
accomplish this work.
    The Forest Service is an active participant in the U.S. network of 
flux towers (known as AmeriFlux) along with other sponsoring agencies 
such as Department of Energy. We have found that locating these 
intensive measurement systems in areas where other kinds of data 
collection takes place, such as our network of long-term Experimental 
Forests, facilitates integration of data across space and time, which 
improves verification as well as providing critical parameters for 
models that are used to diagnose the causes of current changes in 
carbon flux and to project changes under future climate scenarios. 
Integration of data and models can improve annual estimates and help 
attribute observed annual changes in carbon stocks to natural causes 
such as climate variability.
    Other Forest Service monitoring and mapping programs are becoming 
highly relevant for understanding and monitoring changes and impacts on 
forest carbon stocks. For example, under the National Fire Plan, annual 
mapping of burned areas and intensity of wildfires provides critical 
data to estimate the contribution of fire emissions to the overall 
carbon budget of the Nation's forests. Mapping for the entire U.S. is 
currently incomplete, and there could be some improvement in linking 
maps of burned areas with vegetation classifications and better 
estimates of emissions based on fire intensity.
    In addition to the National Resources Inventory, the Soil Survey 
Division of the Natural Resources Conservation Service routinely 
samples soils and measures soil organic carbon. This information is 
available for about 30,000 sites through the U.S. and its 
territories.\7\ Nearly 650 sites are added annually. Land use data is 
available for many of these sites along with soil landscape attributes.
---------------------------------------------------------------------------
    \7\ National Soil Survey Center http://ssldata.nrcs.usda.gov/

---------------------------------------------------------------------------
Characteristics of a Robust Carbon Monitoring System for GHG Mitigation

Project Monitoring
    Monitoring needs for GHG mitigation projects are highly dependent 
on the specific reporting requirements, which are currently 
inconsistent among emerging GHG registries and markets. Critical 
determinants of monitoring needs are the definition of the reporting 
entity, and optional requirements to separate out changes in carbon 
stocks caused by natural events from those caused by human activities.
    Reporting entities may be defined as any legally defined entity; 
examples include individuals, businesses, non-profit organizations, or 
government entities such as cities or states. Some of the registries 
and markets allow reporting by one entity on behalf of others. These 
organizations are known as ``aggregators'' because their purpose is to 
work with groups of reporters and thus achieve some efficiency in 
monitoring and reporting costs. There are 10 million family forest 
landowners in the U.S.\8\ For a small landowner who wishes to 
participate in a carbon program, the monitoring and reporting cost per 
acre may be high, or they may lack the technical skills to perform the 
monitoring. But if the landowner is willing to be grouped with others, 
aggregators can serve their needs.
---------------------------------------------------------------------------
    \8\ NRS-INF-06-08. May 2008. Who owns America's Forests? Family 
Ownership Patterns and Family Forest Highlights from the National 
Woodland Owner Survey.
---------------------------------------------------------------------------
    At the project or landscape level, we have the technology to 
measure and monitor changes in carbon stocks using remote sensing and 
field sampling. Most of the current and proposed markets and registries 
rely on sampling and measurements, which may be coupled with predictive 
models, to track or project changes in carbon emissions or 
sequestration. These approaches are practical and cost effective, and 
can be independently verified by a third party.
    It may be difficult to separate human-induced causes from natural 
causes of observed changes at the project level. This is because 
inventory approaches measure the changes in ecosystem carbon that 
result from all causal factors combined. For example, if tree growth 
rates increase as a result of both physiological response to increasing 
atmospheric carbon dioxide and nitrogen fertilization, inventory 
measurements will not separate the effects of these two causes. 
Currently, the only ways to separate such causes are to conduct 
controlled experiments in the ecosystems of interest or to employ 
ecosystem process models which may or may not be available.

National-scale Monitoring: Capabilities and Gaps\9\
---------------------------------------------------------------------------
    \9\ From the U.S. Carbon Cycle Science Steering Group.
---------------------------------------------------------------------------
    Successful CO<INF>2</INF> management requires robust and sustained 
carbon cycle observations, yet key elements of a national observation 
network are lacking or risk displacement on the basis of competing 
priorities.
    Major threats to existing programs involve sustainability of the 
National Aeronautics and Space Administration (NASA) high accuracy 
well-calibrated satellite observations of land and oceans, and 
continuity of land/atmosphere CO<INF>2</INF> flux measurements. Major 
gaps include an improved spectral range and resolution for satellite 
measurements of oceans, sustained field observations at sea, 
insufficient density of atmospheric observations, incomplete geographic 
coverage of land inventories, lack of soil carbon monitoring, and lack 
of observations of the terrestrial-ocean interface. Steps could be 
taken to better integrate monitoring programs, and close current data 
gaps.
    Since 1972, the Landsat series of satellites has provided spatial 
and temporal representation of land cover/land use change, 
classification of vegetation, and detection of natural disturbances. 
Landsat enables quantification of land vegetation and soil carbon 
fluxes to and from the atmosphere by providing spatially continuous and 
extensive estimates of above-aground biomass and/or land cover type 
that aid in the extrapolation of in situ measurements over large 
regions. The critically important Landsat data are expected to continue 
without a data gap, or if one should develop it is expected to be very 
brief, until the Landsat Data Continuity Mission (LDCM). The Landsat 5 
and Landsat 7 satellites are very resilient. Refined projections of 
fuel usage computed by the United States Geological Survey (USGS), 
which operates the NASA-developed Landsat 5 and Landsat 7 satellites, 
suggest that Landsat 5 and Landsat 7 could have sufficient fuel to 
operate at least through 2012, exceeding previous expectations. The 
NASA and USGS LDCM has a launch readiness data of December 2012.
    The NASA Moderate Resolution Imaging Spectroradiometer (MODIS) 
instruments on NASA's Aqua and Terra satellites, which were launched in 
May 2002 and December 1999, respectively, produce crucial global 
observations of primary production and vegetation phenology. A 
continuous record of primary production and phenology started with the 
National Oceanic and Atmospheric Administration (NOAA) Advanced Very 
High Resolution Radiometer (AVHRR) instruments in 1981 and continues 
with higher accuracy measurements by MODIS. This information is used in 
combination with ground observations and models to provide regional 
estimates and maps of carbon stocks and fluxes.
    The global network of inter-calibrated measurements of atmospheric 
carbon dioxide (CO<INF>2</INF>) and methane (CH<INF>4</INF>) 
concentrations has been central to climate and carbon cycle studies for 
decades. These properties reflect the net effect of all global carbon 
sources and sinks to the atmosphere (anthropogenic, terrestrial and 
aquatic fluxes). The observational system also provides trace gas 
measurements (e.g., O<INF>2</INF>, <SUP>13</SUP>CO<INF>2</INF>, CO, and 
other species) indicative of carbon sources. Current in situ 
measurements are made in limited areas from aircraft, towers, and 
marine, mountaintop and coastal observatories. NASA Aqua and Aura 
satellites measure global distributions of CO, CO<INF>2</INF>, 
CH<INF>4</INF>, and a myriad of greenhouse gases.
    Land-based inventories periodically quantify carbon stocks and 
fluxes for biomass, soil, and fossil fuel emissions, but as already 
noted, there are some gaps in sampling of carbon pools and some 
geographic regions are under-sampled. Expanded forest inventories, if 
deemed necessary, could provide sampling of carbon in soils, dead wood 
and down woody detritus, especially areas where incidents of natural 
disturbance have accelerated and where large quantities of soil carbon 
are vulnerable. Agricultural inventories primarily focus on non-federal 
lands--federal rangelands are under-sampled. Data on land use 
management and management history, both of which significantly 
influence changes in carbon, are lacking. The fate of carbon as it is 
transported across the landscape and accumulates in other terrestrial 
or aquatic systems is largely unknown. With a coordinated and 
consistent suite of core observations, forest and agriculture 
inventories would be integrated and better positioned to inform 
emerging policies and actions.
    Soil carbon monitoring has large spatial and temporal gaps; this is 
significant because soil carbon is the largest terrestrial carbon stock 
and highly vulnerable to loss with warming. If determined to be 
necessary, a multi-agency supported network of soil carbon 
observations, with the capacity for performing measurements over 
decades and associated with other networks of terrestrial observations 
and inventories, would radically improve estimates of soil and 
ecosystem carbon dynamics at multiple scales.
    Direct observations of CO<INF>2</INF> fluxes over decades are 
necessary to capture terrestrial carbon and water cycle responses to 
climate variability and to improve carbon and climate system model 
simulations. The AmeriFlux Network, initiated in 1996, currently has 
more than 100 sites observing biological properties, meteorology, and 
carbon, water and energy exchanges between terrestrial ecosystems and 
the atmosphere. Continuation would provide understanding of long-term 
trends in response to climate, yet support for AmeriFlux is currently 
provided on a site-by-site basis, and some long-term, high-quality 
records are endangered.
    Rivers and groundwater at the land-ocean margins play a central 
role in linking terrestrial and marine cycles of carbon. The magnitude 
of weathering and erosion processes on land, sediment storage within 
the river system, and transport, transformation and burial processes in 
adjacent ocean margins demonstrate that these systems are an important 
part of the global carbon cycle. Existing research plans stress the 
importance of examining both the terrestrial and oceanic sinks for 
organic and inorganic carbon; however, the primary connection between 
these two environments is not adequately addressed. Despite a long 
history by the U.S. Geological Survey of gauging U.S. rivers and 
streams, there has been a gradual loss of long-term discharge 
monitoring stations and decreased number of annual carbon measurements. 
These long-term measurements provide understanding of anthropogenic 
changes to the hydrologic cycle.
    Observational network design will need to respond in an effective 
and highly coordinated fashion among agencies, closely integrated with 
policy, land management, and scientific communities. Long-term global 
carbon observations can inform climate change mitigation policy and 
management decisions, and permit steps to be taken to close critical 
current gaps and avoid future gaps in observation continuity.

Verifying Compliance with Potential Climate Agreements
    International climate treaties are likely to require monitoring and 
verification at the national scale; therefore, the discussion of gaps 
and threats contained in the previous section is most relevant. 
However, individual projects and activities that collectively affect 
national estimates and that may be governed by programs or markets also 
need monitoring and verification at much more detailed scales. As 
previously described, at the field plots or small watersheds scale of a 
project, there are published and practiced methods for sampling and 
measuring ecosystem carbon pools and how they change over time. At more 
regional scales such as a state or country, there are ongoing 
inventories and direct observations of CO<INF>2</INF> flux that form an 
internationally accepted basis for estimating ecosystem carbon and 
changes over time.
    The difference between detection capabilities of atmospheric 
measurements and project-level measurements is one of scale. The 
current level of greenhouse gas mitigation would not produce an effect 
on the atmosphere that is detectable by direct atmospheric 
measurements, especially considering that there are other causes of 
atmospheric CO<INF>2</INF> changes that cannot be easily factored out 
(e.g., climate variability). Eventually, under a larger global offset 
program, such changes should be detectable by atmospheric measurements 
of CO<INF>2</INF> concentrations, and the sum of direct observations of 
activities on the land would add up to the aggregate observations of 
effects on the atmosphere.

Federal Interagency Activities Regarding Carbon Cycle Research and 
                    Monitoring

    The Carbon Cycle Interagency Working Group (CCIWG), currently co-
chaired by USDA and NASA, coordinates carbon cycle research under the 
U.S. Climate Change Science Program (CCSP).\10\ This entails 
coordinating research programs within and across agencies, coordinating 
the solicitation and review of research proposals (when appropriate), 
implementing targeted research, providing an interface with the 
scientific community conducting carbon cycle research, updating needs 
assessments, working to secure resources for new activities, and 
reporting results and accomplishments. The CCIWG is comprised of 
members from 10 participating federal agencies and departments that 
support and execute U.S. carbon cycle science research.
---------------------------------------------------------------------------
    \10\ Additional information about U.S. carbon cycle science is 
available at: http://www.carboncyclescience.gov/programs.php
---------------------------------------------------------------------------
    In order to both improve scientific knowledge and understanding of 
the carbon cycle and support application of this scientific knowledge 
to societal needs, a number of strategic research questions are used to 
guide the efforts of the Carbon Cycle Science Program. These research 
questions are part of the U.S. Climate Change Science Program strategic 
plan and indicate the complete scope of the research coordinated by the 
Carbon Cycle Interagency Working Group.\11\
---------------------------------------------------------------------------
    \11\ http://www.climatescience.gov/Library/stratplan2003/final/
default.htm

        <bullet>  What are the magnitudes and distributions of North 
        American carbon sources and sinks on seasonal to centennial 
        time scales, and what are the processes controlling their 
---------------------------------------------------------------------------
        dynamics?

        <bullet>  What are the magnitudes and distributions of ocean 
        carbon sources and sinks on seasonal to centennial time scales, 
        and what are the processes controlling their dynamics?

        <bullet>  What are the effects on carbon sources and sinks of 
        past, present, and future land-use change and resource 
        management practices at local, regional, and global scales?

        <bullet>  How do global terrestrial, oceanic, and atmospheric 
        carbon sources and sinks change on seasonal to centennial time 
        scales, and how can this knowledge be integrated to quantify 
        and explain annual global carbon budgets?

        <bullet>  What will be the future atmospheric concentrations of 
        carbon dioxide, methane, and other carbon-containing greenhouse 
        gases, and how will terrestrial and marine carbon sources and 
        sinks change in the future?

        <bullet>  How will the Earth system, and its different 
        components, respond to various options for managing carbon in 
        the environment, and what scientific information is needed for 
        evaluating these options?

    The Carbon Cycle Science Steering Group reviews the status of 
carbon cycle science. As mentioned earlier, I currently Chair this 
Steering Group, comprised of about 20 experts involved in carbon cycle 
research and application from federal, State, university, and non-
government organizations. The function of this group is to provide 
individual as well as broad scientific and application input to the 
U.S. Climate Change Science Program about the direction of carbon cycle 
science and its relevance to the various stakeholder communities, and 
to identify gaps and potential new areas of emphasis. One of the main 
recent activities of this group has been to charter a team to update 
the U.S. Carbon Cycle Science Plan which is now about 10 years old.
    One of the principal coordinated interagency activities with a very 
strong observing component is the North American Carbon Program. The 
North American Carbon Program is designed to address the strategic 
research question:

        <bullet>  What are the magnitudes and distributions of North 
        American carbon sources and sinks on seasonal to centennial 
        time scales, and what are the processes controlling their 
        dynamics?

    Scientists participating in the North American Carbon Program work 
in a coordinated fashion to assess the status of understanding of the 
magnitudes and distributions of terrestrial, freshwater, oceanic, and 
atmospheric carbon sources and sinks for North America and adjacent 
oceans; enhance understanding of the processes controlling source and 
sink dynamics; and produce consistent analyses of North America's 
carbon budget that explain regional and continental contributions and 
year-to-year variability. This program is committed to reducing 
uncertainties related to the increase of carbon dioxide and methane in 
the atmosphere and the amount of carbon, including the fraction of 
fossil fuel carbon, being taken up by North America's ecosystems and 
adjacent oceans, including uncertainty regarding the fraction of fossil 
fuel carbon.
    Similarly, the Ocean Carbon and Climate Change (OCCC) program was 
designed as an ocean component of the U.S. Carbon Cycle Science 
Program. A strategic plan provides the scientific rationale for 
coordinated ocean surface and space observations, experimental study, 
numerical modeling, and data assimilation efforts for the coastal 
ocean, ocean basins and atmospheric components of the carbon cycle over 
North America and adjacent coastal ocean and ocean basins.\12\ The 
strategy consists of several coordinated and integrated elements on 
global ocean carbon observing networks, multi-disciplinary process 
studies, data fusion and integration, synthesis and numerical modeling, 
and new technological development. While the program encompasses a wide 
breadth of ocean biology, chemistry, and physical research, the program 
promotes linkages and interactions with related ongoing oceanographic, 
climatic, and carbon cycle programs to address the full range of 
scientific elements relevant to marine carbon dynamics and climate 
change.
---------------------------------------------------------------------------
    \12\ http://www.carboncyclescience.gov/documents/
occc<INF>-</INF>is<INF>-</INF>2004.pdf
---------------------------------------------------------------------------
    One of the major products of the Carbon Cycle Science Program is 
the CCSP Synthesis and Assessment Product 2.2, The First State of the 
Carbon Cycle Report (SOCCR): North American Carbon Budget and 
Implications for the Global Carbon Cycle.\13\ This report involved 
dozens of scientists from many disciplines interacting with 
stakeholders to assess knowledge and progress in understanding and 
managing the carbon cycles. The report highlighted the magnitude and 
sources of carbon emissions and sinks for North America, how they are 
changing, and what options are available to reduce emissions or enhance 
sinks. The future of this North American terrestrial sink is highly 
uncertain because we lack sufficient predictive capability to know how 
regrowing forests and other sinks will respond to changes in climate 
and CO<INF>2</INF> concentration in the atmosphere.
---------------------------------------------------------------------------
    \13\ http://www.climatescience.gov/Library/sap/sap2-2/final-report/
default.htm

---------------------------------------------------------------------------
Summary and Conclusions

        <bullet>  USDA plays a leadership role in assessing land based 
        greenhouse gas sources and sinks. U.S. forests currently offset 
        about 12 percent of all U.S. greenhouse gas emissions.

        <bullet>  Forest Inventory and Analysis data has been the basis 
        of the reported changes in carbon stocks of the forestry sector 
        of the U.S. Greenhouse Gas Inventory, as reported annually to 
        the United Nations Framework Convention on Climate Change.

        <bullet>  Improvements are needed in forest inventories for 
        monitoring carbon: additional sampling is needed for some 
        carbon pools and areas recently disturbed from events such as 
        hurricanes and large wildfires; uncertain estimates of land-use 
        and land-cover changes could be resolved; and some critical 
        U.S. regions important to carbon dynamics are currently under-
        sampled, such as Alaskan boreal forests and forested urban 
        areas.

        <bullet>  National Resources Inventory data estimates soil 
        carbon from biomass production, disturbance and loss. An 
        expansion of efforts to collect agricultural land management 
        data could provide information for modeling carbon dynamics.

        <bullet>  At the smaller scale of a project, there are 
        published and practiced methods for sampling and measuring 
        ecosystem carbon pools and how they change over time.

        <bullet>  USDA has defined the accounting rules and guidelines 
        for forestry and agriculture in a national greenhouse gas 
        registry. This work may inform development of a federal program 
        under which forestry and agriculture carbon credits could be 
        generated.

        <bullet>  Successful CO<INF>2</INF> management requires robust 
        and sustained carbon cycle observations, yet key elements of a 
        national observation network(s) are lacking or at risk of loss. 
        These gaps and threats limit ability to estimate current carbon 
        budgets or to make projections of baselines.

        <bullet>  Threats to existing monitoring programs involve 
        continuity of satellite observations of land and oceans, and 
        continuity of land/atmosphere CO<INF>2</INF> flux measurements.

        <bullet>  Major gaps in existing carbon cycle monitoring 
        include a need for improved spectral range and resolution for 
        satellite measurements, insufficient density of atmospheric 
        observations, incomplete geographic coverage of land 
        inventories, lack of land use and management histories, lack of 
        long-term soil carbon monitoring, and lack of observations of 
        the terrestrial-ocean interface.

        <bullet>  International climate treaties are likely to require 
        monitoring and verification at the national scale; however, 
        individual projects and activities that collectively affect 
        national estimates and that may be governed by programs or 
        markets also need monitoring and verification at much smaller 
        scales.

        <bullet>  Carbon cycle research under the U.S. Climate Change 
        Science Program is coordinated by the Carbon Cycle Interagency 
        Working Group.

        <bullet>  The Carbon Cycle Science Steering Group is a group of 
        about 20 experts involved in carbon cycle research and 
        application from federal, State, university, and non-government 
        organizations. The function of this group is to provide 
        individual as well as broad scientific and application input to 
        the U.S. Climate Change Science Program.

        <bullet>  One of the principal coordinated interagency 
        activities with a very strong observing component is the North 
        American Carbon Program. The North American Carbon Program is 
        designed to improve monitoring of the magnitudes and 
        distributions of North American carbon sources and sinks on 
        seasonal to centennial time scales, and improve understanding 
        of the processes controlling their dynamics.

        <bullet>  There are globally important carbon sinks in North 
        America in plant material and soil organic matter. The future 
        of this North American terrestrial sink is highly uncertain 
        because we lack sufficient predictive capability to know how 
        regrowing forests and other sinks will respond to changes in 
        climate and CO<INF>2</INF> concentration in the atmosphere.

    Thank you for the opportunity to discuss these issues with the 
Committee. I would be happy to answer any questions that you have.

                    Biography for Richard A. Birdsey
    Dr. Richard Birdsey is Project Leader of Research Work Unit 
``Climate, Fire, and Carbon Cycle Sciences'' in the Northern Research 
Station of the U.S. Forest Service. The mission of the Work Unit is to 
develop and provide the basic science, quantitative methods, and 
technology needed to make decisions about forest ecosystems and the 
atmosphere related to climate change, fire, and carbon. Dr. Birdsey is 
currently Chair of the Carbon Cycle Science Steering Group. This 
Steering Group, comprised of about 20 experts involved in carbon cycle 
research and application from federal, State, university, and non-
government organizations, reviews the status of carbon cycle science 
sponsored by U.S. Agencies and Departments. Dr. Birdsey is a specialist 
in quantitative methods for large-scale forest inventories and has 
pioneered the development of methods to estimate national carbon 
budgets for forest lands from forest inventory data. He has compiled 
and published estimates of historical and prospective U.S. forest 
carbon sources and sinks, and analyzed options for increasing the role 
of U.S. forests as carbon sinks for offsetting fossil fuel emissions. 
Dr. Birdsey has coordinated a national effort to update accounting 
rules and reporting guidelines for U.S. forests in the national 
greenhouse gas registry, and identified forest management strategies to 
increase carbon sequestration. He manages a research program involving 
several U.S. Forest Service Laboratories and Experimental Forests, and 
cooperating Universities and other institutions, with research emphases 
on basic plant processes, ecosystem nutrient cycling, and measurement 
and modeling techniques.

    Chair Gordon. Thank you, and Dr. Freilich, you are 
recognized for five minutes.

 STATEMENT OF DR. MICHAEL H. FREILICH, DIRECTOR, EARTH SCIENCE 
DIVISION, SCIENCE MISSION DIRECTORATE, NATIONAL AERONAUTICS AND 
                  SPACE ADMINISTRATION (NASA)

    Dr. Freilich. Chair Gordon, Members of the Committee, thank 
you for the opportunity to discuss NASA's greenhouse gas 
measurements and analysis activities conducted in conjunction 
with other federal agencies.
    NASA develops satellites to make global measurements of 
greenhouse gases and many other environmental quantities. NASA 
Research and Applied Sciences Program coordinated with other 
agencies to analyze space-born, aircraft, and ground-based 
measurements to advance our understanding of greenhouse gases 
and their impacts on climate.
    As a result of efforts by NASA and our sister agencies we 
know beyond a doubt that nearly half of human CO<INF>2</INF> 
emissions remain in the atmosphere with the other half removed 
from the atmosphere into the ocean and the land biosphere. When 
accumulated over large areas such as ferial forests, these 
natural exchange processes clearly have considerable impact, 
but we have much to learn about their details and about how 
they will evolve as the climate changes.
    We are measuring aspects of the carbon cycle from space 
today. Data from the MODIS instruments are used to estimate 
regional carbon uptake by terrestrial and aquatic vegetation. 
The AIRES instrument on the ACWA Mission and the ORA spacecraft 
test instrument measure upper-air profiles of CO<INF>2</INF>. 
However, elucidating air sea and air land exchange processes 
requires accurate CO<INF>2</INF> measurements near the surface. 
This is what the Orbiting Carbon Observatory, OCO, would have 
accomplished.
    In February, as you know, NASA's OCO Mission crashed due to 
a launch vehicle failure. OCO would have acquired global, 
accurate, near-surface measurements of atmospheric carbon 
dioxide. A comprehensive validation activity was planned and 
funded using ground-based instrumentation from NASA and 
auxiliary measurements from NOAA, NSF, and other agencies. OCO 
would have provided unique global information on spatially-
extensive regional scale, natural sources, and sinks of carbon.
    We have been investigating recovery approaches. A team of 
imminent U.S. and international researchers has assessed the 
state of carbon cycle science and considered whether a new 
space mission is warranted now in light of present and planned 
NASA and international missions. They conclude that an OCO re-
flight or an equivalent mission will, indeed, advance carbon 
cycle science and could provide a basis for thoughtful policy 
decisions and long-term monitoring.
    NASA engineering teams, in parallel, are examining mission 
options including a near identical carbon copy mission and 
combining a copy of the OCO instrument with a thermal infrared 
sensor on a single spacecraft to fly in constellation with the 
Landsat Data Continuity Mission. It is our objective to have 
solid technical and programmatic understandings of both the 
carbon copy and the combined OCO thermal infrared missions by 
the end of May.
    We have also been coordinating with our Japanese colleagues 
to expand previously-planned U.S. validation contributions to 
their GOSAT Ibuki Mission and to utilize data from that mission 
to test the existing OCO algorithms. The use of the GOSAT 
measurements, while they can't address all of the science 
issues that had been planned for OCO, will accelerate the 
production of quality products from any future NASA mission.
    U.S. interagency groups like the CCSP Program Office, the 
Climate Change Technology Program, U.S. Ocean Action Plan 
Committees, and USGEO, the group on earth observations, 
coordinate many agency activities. NASA relies on DOE, USDA, 
NOAA, and other agencies for critical in situ and airborne 
observations of greenhouse gases and carbon storage in soil and 
plants, and of course, they rely on NASA for high-quality 
global remote sensing products to extend the reach and 
resolution of the existing networks.
    Together we have developed vastly-improved understanding of 
the atmosphere and carbon cycle that can now inform climate 
policy and carbon management approaches.
    Uncertainties of climate predictions for the 21st century 
are driven as much by our inability to quantify the feedback 
between biogeochemical cycles and climate change as by the 
uncertainty in the physical models of the climate and water 
vapor feedback of economic projections of fossil fuel 
emissions.
    However, sustained, accurate, space-based observations are 
now improving the science of climate change and enabling better 
resource management and decision-making. In situ and airborne 
observations, research activities, and technology advancement 
are increasing our understanding of the carbon cycle. All of 
the agencies must continue our collaborations to achieve these 
ends.
    The potential benefits are immense, coupling our present 
knowledge of emission inventories with new understanding of 
fluxes will not only support policy development and evaluation 
but may also identify areas for mitigation efforts and lower 
the cost of compliance.
    Thank you very much.
    [The prepared statement of Dr. Freilich follows:]
               Prepared Statement of Michael H. Freilich
    Good morning Chairman Gordon, Ranking Member Hall and Members of 
the Committee. Thank you for the opportunity to appear today to discuss 
NASA activities in conjunction with other federal agencies in the 
measurement and monitoring of atmospheric greenhouse gases and the 
exchange processes between the atmosphere, the oceans, and the land.
    As the Nation's civil space agency and as a leader in Earth System 
Science, NASA develops and flies instruments and missions to measure 
greenhouse gases--and a host of other vitally important environmental 
quantities--globally, from the vantage point of space. Through our 
vigorous research program, NASA uses measurements from space, air, and 
land to advance our understanding of key natural processes that 
determine amounts, transports, and climate impacts of the greenhouse 
gases in the atmosphere, with particular attention paid to the ways in 
which these gases are exchanged between the air, the land, and the sea. 
The quantitative knowledge we gain through the measurements and 
research is codified in numerical models, which can then be combined 
with future measurements to provide predictions of future conditions 
and to anticipate the effects of different policies and mitigation 
approaches. Through our Applied Sciences program, NASA develops 
products that combine the measurements with the understanding to 
provide information required by stakeholders and in particular by other 
federal agencies. Once developed and demonstrated by NASA, space-borne 
measurement approaches can be used to monitor greenhouse gases and 
their impacts over the entire globe and for long periods of time. The 
satellite data, in conjunction with essential ground-based and airborne 
measurements acquired by many agencies and combined in an integrated, 
coordinated way, provide critical information related to verification 
and to the efficacy of policy decisions.
    Greenhouse gases, and especially carbon dioxide (CO<INF>2</INF>), 
are extremely important components of the Earth system. They play key 
roles in determining the Earth's energy balance--how much of the 
incoming energy from the Sun is trapped within the Earth system of 
atmosphere, land, and ocean, and how much of that energy is re-radiated 
back out to space. In contrast with other greenhouse gas species which 
are broken down by chemical reactions in the atmosphere, CO<INF>2</INF> 
is not destroyed; rather, the carbon is primarily cycled between the 
atmosphere, the surface layers of the ocean, and terrestrial vegetation 
over time scales of a few centuries. Therefore, decisions that we make 
today, and mitigation approaches that we take today, will still be 
determining conditions on Earth many generations into the future. As 
another consequence of long residence times and relatively rapid 
transport within the atmosphere, emissions originally localized at 
specific geographic locations influence environmental conditions around 
the entire globe. The distributions and concentrations of CO<INF>2</INF> 
and other greenhouse gases must thus be measured and predicted 
globally--a job that requires the global coverage and high spatial 
resolution of satellite measurements, combined with ground-based and 
airborne data and the use of comprehensive numerical Earth system 
models.
    As will be discussed later in my testimony, we know beyond a doubt 
that over periods of a few years, about half of the CO<INF>2</INF> 
emissions remain in the atmosphere and the remainder of the emitted 
CO<INF>2</INF> is removed from the atmosphere and goes into the ocean 
and the land for long time periods. While the localized magnitudes of 
these natural exchange processes are small, their overall impacts can 
be considerable when accumulated over huge areas such as boreal forests 
and the oceans. While we know the global net effects of these exchanges 
over time scales of a few years, we must make and analyze new 
measurements of near-surface atmospheric greenhouse gas mixing ratios 
and land use/land cover conditions in order to understand the details 
of the processes, and to be able to make accurate predictions as to how 
the processes will change as the Earth's climate evolves.
    Make no mistake about it, however: the measurements of greenhouse 
gases that are necessary to accurately define important, spatially 
extensive, natural atmosphere-land and atmosphere-ocean exchange 
processes are difficult to make and require the Nation's cutting edge 
technological as well as scientific skills. The benefits, however, are 
immense. Coupling our present extensive knowledge of emission 
inventories with new information and understanding we will gain on the 
magnitudes and uncertainties of natural and human-induced fluxes from 
land use changes and management practices will not only provide 
additional information to support policy development and evaluation, 
but also may identify additional areas for mitigation efforts and lower 
the cost of compliance.

NASA's Existing Capabilities for Measuring Carbon

    Climate encompasses more than Earth's physical climate and physical 
observations. Greenhouse gases include carbon dioxide (CO<INF>2</INF>), 
methane (CH<INF>4</INF>), chlorofluorocarbons (CFCs), nitrous oxide 
(N<INF>2</INF>O), ozone, and water vapor. These gases play key roles in 
climate change, which involves the biogeochemistry of Earth's 
atmosphere and biosphere (land and ocean). NASA's satellites, along 
with coordinated in situ and remote sensing networks and airborne 
science programs established and operated by many other agencies, help 
to quantify, characterize, and improve the accuracy and precision of 
greenhouse gas measurements over the land, as well as in the atmosphere 
and ocean. NASA ground-based networks provide critical long-term data 
for the validation of remote observations and contribute to national 
and international observational databases. NASA modeling activities 
along with measurements synthesize our understanding of the importance 
of greenhouse gases to climate change. While NASA does not have an 
operational aspect to its mission for monitoring practices, NASA data 
are utilized by partners in other agencies for operational activities.
    Given the importance of understanding how CO<INF>2</INF> cycles 
through the environment, the NASA Earth Science Division maintains a 
vigorous research program through its carbon cycle and atmospheric 
composition focus areas to study the distribution and the forces 
determining the atmospheric concentrations of carbon dioxide and other 
key carbon-containing atmospheric gases (especially methane), as well 
as carbon-containing aerosols. Data from NASA satellites are studied, 
and observations are also made from airborne platforms and surface-
based measurements in ways that can be used to validate and complement 
space-based observations. Satellite data are obtained for land cover 
and terrestrial and oceanic productivity, as these are critical in 
providing quantitative information about the distribution of the 
biosphere and the biospheric activity that exchanges carbon-containing 
gases between the land, ocean surface and the atmosphere. They can also 
provide critical information about the distribution and impact of 
fires, which play an important role in adding carbon-containing (and 
other) trace gases into the atmosphere. Models are then used to 
assimilate observations to produce accurate yet consistent global data 
sets, to infer information about sources and sinks, and to simulate 
future concentrations of atmospheric greenhouse gases that contribute 
to, and are affected by, climate change.
    Through a series of direct measurements and models, NASA helps to 
characterize and quantify greenhouse gases and related controlling 
processes in the terrestrial, near-surface aquatic, and atmospheric 
environments. Data from the Atmospheric Infrared Sounder (AIRS) on the 
Aqua spacecraft delivers ozone, water vapor, methane, and CO<INF>2</INF> 
concentrations. The Aura spacecraft's Tropospheric Emission 
Spectrometer (TES) provides information on ozone, CO<INF>2</INF>, 
methane, and water vapor, while its Microwave Limb Sounder (MLS) 
provides ozone, nitrous oxide, and water vapor mixing ratios and the 
Ozone Monitoring Instrument (OMI) measures Nitrogen Dioxide 
(NO<INF>2</INF>), ozone, Sulfur Dioxide (SO<INF>2</INF>), and aerosols. 
However, the policy and science issues associated with methods for 
enhancing carbon uptake in forest and agricultural land, and with 
spatially extensive air-land/air-sea exchange processes, require 
accurate measurements near the surface. Because of the techniques used 
to make the measurements, both the AIRS and the TES CO<INF>2</INF> data 
correspond to upper-level concentrations (above about 13,000 to 36,000 
feet), while the MLS measurements correspond to even higher levels in 
the stratosphere. Had the Orbiting Carbon Observatory (OCO) been 
successful, the combination of its accurate surface CO<INF>2</INF> 
measurements and the upper-level profiles obtained by AIRS would have 
provided a valuable component of a global data acquisition capability.
    The NASA airborne fleet can detect and help quantify all of the 
aforementioned greenhouse gases in the atmosphere. For the ocean, 
Moderate Resolution Imaging Spectrometer (MODIS) data from the Terra 
and Aqua spacecraft can be used to estimate CO<INF>2</INF> exchange 
between the ocean and atmosphere. MODIS data are also used to estimate 
annual carbon uptake by terrestrial and aquatic vegetation over broad 
regions.
    These observations are particularly powerful when the measurements 
from multiple assets are combined. One recent example of NASA's 
activity in this area is the Arctic Research of the Composition of the 
Troposphere from Aircraft and Satellites (ARCTAS) field campaign 
carried out in the spring and summer of 2008. In the ARCTAS campaign, 
data from three NASA aircraft based in Canada and Alaska, making 
flights as far away as Greenland, studied the gas phase and particulate 
composition of the troposphere, emphasizing their distribution in the 
atmosphere over North America and the Arctic. In particular, in the 
summer campaign, numerous observations of air affected by forest fires 
were made. By combining data from aircraft and satellites, scientists 
are now better able to understand the regional scale impacts of fires 
and long-range pollutant transport on air quality and the implications 
for climate.
    Within planned future missions, the Deformation, Ecosystem 
Structure and Dynamics of Ice (DESDynI) mission, and to a lesser extent 
the Ice, Cloud, and land Elevation Satellite-II (ICESat-II), will 
contribute to improved estimates of above-ground carbon storage in 
vegetation that can be used to monitor the activity of forest carbon 
sinks and quantify carbon losses from them to the atmosphere due to 
major disturbances (storms, harvest, fire, etc.). Among later Decadal 
Survey-recommended missions presently under study, the Active Sensing 
of CO<INF>2</INF> Emissions Over Nights, Days, and Seasons (ASCENDS) 
mission will measure CO<INF>2</INF>, the Geostationary Coastal and Air 
Pollution Events mission (GEO-CAPE) will measure ozone and CO<INF>2</INF> 
exchange between atmosphere and ocean, the Aerosol-Cloud-Ecosystems 
(ACE) will be used to estimate annual carbon uptake by aquatic 
vegetation, and the Global Atmospheric Composition Mission (GACM) will 
measure ozone, water vapor, and aerosols.
    The NASA Earth Science Research Program goals in carbon cycle 
science are to improve understanding of the global carbon cycle and to 
quantify changes in atmospheric CO<INF>2</INF> and CH<INF>4</INF> 
concentrations as well as terrestrial and aquatic carbon storage in 
response to fossil fuel combustion, land use and land cover change, and 
other human activities and natural events. NASA carbon cycle research 
encompasses multiple temporal and spatial scales and addresses 
atmospheric, terrestrial, and aquatic carbon reservoirs, their coupling 
within the global carbon cycle, and interactions with climate and other 
aspects of the Earth system. The primary disciplinary research programs 
that support carbon cycle science at NASA are conducted within its 
Carbon Cycle and Ecosystems, and Atmospheric Composition focus areas 
(including the Upper Atmosphere, Tropospheric Chemistry, Atmospheric 
Chemistry Modeling, analysis, and Prediction, Ocean Biology and 
Biogeochemistry, Radiation Sciences, Terrestrial Ecology, Land Cover/
Land Use Change, the Modeling Analysis and Prediction, 
Interdisciplinary Science, Carbon Cycle Science, Ozone Trends, Earth 
Observation Satellites Science, Aura Science programs, and to some 
extent, Physical Oceanography programs).
    A focus on observations from space pervades carbon cycle research 
by NASA and is a basis for partnerships with other U.S. Government 
agencies and institutions. NASA carbon cycle research contributes 
toward the goals of major U.S. Climate Change Science Program (CCSP) 
activities, including the U.S. North American Carbon Program (NACP) and 
the Ocean Carbon and Climate Change Program (OCCC).
    As an example, NASA working with other agencies and Departments 
under the NACP is working to improve estimates of carbon storage in 
forests and the impacts of disturbance (fire, insects and pathogens, 
severe storms, etc.) on this carbon storage. Other NASA NACP studies 
are developing regional carbon budgets, documenting year-to-year 
variations in sources and sinks, and attempting to attribute those 
changes to particular factors. Other NASA satellite studies are 
documenting changes in growing season length and the occurrence of 
critical seasonal events in ecosystems (e.g., budburst, flowering, leaf 
fall, algal blooms) that also affect carbon dynamics. All of these 
studies are advancing our scientific understanding and monitoring 
capacity--as well as advancing our abilities to evaluate the carbon 
cycle implications of land management practices.
    NASA research has also focused on developing the scientific 
foundation for sound decision-making with respect to climate policy and 
the management of carbon in the environment. NASA's current and future 
well-calibrated measurements from space facilitated by NIST standards, 
in combination with decades of scientific understanding achieved 
through such studies, and the Agency's experience in demonstrating new 
decision support capability put NASA in a strong position to contribute 
to the Nation's responses to climate change. NASA's global observations 
and global modeling capabilities also will help to reduce regional and 
global climate and carbon cycle science model uncertainties.
    The NASA Applied Sciences Program projects extend the products of 
Earth science research and the tools associated with that research, 
including observations, measurements, predictive models, and systems 
engineering, to meet societal needs beyond NASA Earth Science Research 
Program objectives. The Applied Science Program also addresses carbon 
management. For example, projects exploit NASA carbon cycle research 
results and related capabilities to enhance decision-making within 
agencies responsible for resource management and policy decisions that 
affect carbon emissions, sequestration, and fluxes among terrestrial, 
aquatic, and atmospheric environments.
    NASA can provide its research observations, well-calibrated and 
well-validated for assessment and quantification of greenhouse gases 
and of aggregate changes in carbon sources and sinks on the land and in 
the ocean. Space-based measurements of greenhouse gases in the 
atmosphere are available now, albeit limited in utility, and will only 
improve in the future (with potential recovery from OCO and future 
development of ASCENDS, and ACE). Current observations of land cover, 
vegetation dynamics and ocean color, as well as numerous climate 
variables, allow for the identification and characterization of 
terrestrial and aquatic carbon sources and sinks as well as for 
attribution of some of the processes controlling their dynamics. Future 
observations of vegetation canopy height profiles will demonstrate and 
prove new abilities to support the estimation of carbon sequestration 
in forests.

The Role of the Orbiting Carbon Observatory (OCO)

    On February 24, 2009, NASA's Orbiting Carbon Observatory (OCO) 
failed to reach orbit after liftoff from Vandenberg Air Force Base in 
California due to a launch vehicle mishap. This mission was designed to 
make near-global measurements of atmospheric carbon dioxide mixing 
ratios (approximately equivalent to the CO<INF>2</INF> concentration in 
a vertical column of the atmosphere) over the sunlit hemisphere of the 
Earth. The OCO measurements were designed to have high precision and 
dense spatial sampling. Indeed, OCO was designed to make the most 
challenging atmospheric trace gas measurements ever made from space.
    The OCO measurement approach was designed to be most accurate in 
the lower troposphere close to the air-sea and land-air interface, 
which is where the transfers of atmospheric CO<INF>2</INF> to the ocean 
and the terrestrial biosphere take place. OCO was thus optimized to 
allow study of the CO<INF>2</INF> transfer processes, and 
quantification of the spatially extensive, regional-scale (several 
hundreds of miles in extent) sources and sinks of carbon in the natural 
system, and to allow their monitoring on seasonal time scales. To 
accomplish these tasks, OCO was designed to measure total column 
CO<INF>2</INF> with a precision of almost one part per million (ppm), 
spatial resolution less than one mile for instantaneous measurements, 
and a sampling pattern (a combination of orbit and swath width) that 
allowed global coverage on approximately monthly time scales. The on-
orbit measurement strategy for OCO would have allowed accurate data to 
be obtained both over land and over the harder-to-measure, but larger, 
areas of the global oceans. The relatively small spatial footprints 
(high resolution) would have allowed measurements through clear-sky 
regions even in the presence of broken clouds. The OCO measurements 
would have been more accurate, had higher spatial resolution, and had 
greater coverage than those of any other existing space-borne trace gas 
measurement system. A comprehensive validation activity was planned and 
funded as part of the OCO mission. Using precisely calibrated 
measurements from upward-looking, ground-based instruments in the 
multi-agency Total Carbon Column Observing Network (TCCON) along with 
auxiliary information from NOAA, NSF, and other agency programs, 
residual errors in the OCO measurements were to have been identified 
and removed, resulting in a calibrated OCO data set referenced to the 
World Meteorological Organization standard. Indeed, the OCO mission 
activity has contributed three of the primary TCCON sites (Park Falls, 
Wisconsin; Lamont, Oklahoma; and Darwin, Australia) in this global 
network.
    As a research, science, and technology demonstration agency, NASA 
rarely plans from the start to build multiple copies of instruments or 
missions. Given the importance of making multiple simultaneous 
measurements of many different quantities in order to understand the 
interactions between processes that define the Earth as a complex but 
integral system, the NASA Earth Science Division has historically 
focused on breadth of missions and measurements, rather than building 
multiple copies of instruments and missions in order to proactively 
assure rapid replacements in the event of launch catastrophes or early 
mission failures. Indeed, our careful design, construction, and 
extensive testing at every step of the process have resulted in 
spectacular success rates and long lifetimes for many of our Earth 
missions.
    Prior to February 24, 2009, NASA had neither plans nor resources to 
build a replacement mission, either as a ``carbon copy'' of OCO itself 
or as a functional equivalent mission or instrument.
    Following the launch failure, the NASA science and engineering 
teams have been actively investigating recovery from many different 
approaches. From the start, NASA has ensured that the OCO Science Team, 
augmented with researchers from our Research and Analysis programs and 
international scientists, have been kept intact and funded to 
investigate the state of carbon cycle science, whether the present key 
issues should or must be addressed through space-based measurements, 
and whether a new space mission was warranted in light of the present 
on-orbit assets of NASA and our international partners.
    On April 9, 2009, the science team's thoughtful, well-documented 
white paper was completed. The science team concluded that an OCO 
reflight or a functionally equivalent mission is necessary to advance 
carbon cycle science and to provide the basis for thoughtful policy 
decisions and societal benefits. Based on this scientific foundation 
(and working in parallel with the science analyses, anticipating the 
result), NASA tasked the engineering teams to examine several options 
for rapid mission implementation. The Team identified the top three 
candidate approaches as: (1) rebuilding an OCO mission with as few 
changes as possible and launching the so-called ``Carbon Copy'' into 
its planned orbit as an element of the ``A-Train,'' the constellation 
of five U.S. and international satellites flying in close formation to 
make a ``virtual observatory'' with highly synergistic, near-
simultaneous measurements; (2) combining a near-copy of the OCO 
instrument with a Thermal Infrared (TIR) sensor on a single spacecraft, 
to be launched into close constellation with the Landsat Data 
Continuity Mission (LDCM), presently under construction for launch in 
December 2012; and (3) building a near-copy of the OCO instrument for 
launch to and flight on the International Space Station (ISS).
    Each of these options has challenges, ranging from electronic parts 
obsolescence which preclude any complete identical rebuild of the OCO 
instrument and spacecraft, to significantly degraded coverage from the 
ISS orbit and the need to provide a dedicated pointing mechanism for 
the OCO instrument, and accommodation issues associated with the flight 
of both a TIR and an OCO-like instrument on the same spacecraft. There 
are also advantages to each of these approaches, which help offset the 
challenges described above, including early launch availability and 
relative simplicity for the ``Carbon Copy,'' possible lower launch 
costs and servicing potential for the ISS flight, and chances for an 
LDCM launch to allow more overlap than otherwise possible with the now-
ancient Landsat 7 and Landsat 5 missions, while still providing 
synergistic multi-spectral and thermal infrared measurements within 
about six to twelve months after the LDCM launch.
    At present, our understanding of the Carbon Copy option is most 
mature, while the OCO/TIR combined mission is being studied vigorously 
to refine its parameters. The scientific degradations associated with 
the flight of OCO on the ISS discourage near-term focus on this option. 
It is our objective to have solid technical and programmatic 
understandings of both the Carbon Copy and combined OCO/TIR missions by 
the end of May.
    In parallel with NASA investigation of OCO reflight options, we 
have been collaborating substantively with our Japanese colleagues to 
expand and accelerate previously planned U.S. contributions to the 
validation of GOSAT/IBUKI CO<INF>2</INF> measurements and to utilize 
GOSAT/IBUKI data to help refine existing high-level OCO algorithms. 
While the accuracy and sampling characteristics of GOSAT/IBUKI are 
insufficient to allow key OCO science and policy questions to be 
addressed adequately, the use of the GOSAT/IBUKI measurements to help 
refine OCO algorithms now will accelerate the production of quality 
products from a future mission.
    It should be noted that one of the mid-term missions that the 
Decadal Survey recommended for NASA to develop was a laser-based, 
carbon dioxide-measuring mission called ``ASCENDS'' (Active Sensing of 
CO<INF>2</INF> Emissions over Nights, Days, and Seasons). Using active 
lasers rather than reflected sunlight, ASCENDS is expected to provide 
CO<INF>2</INF> measurements in polar regions during the winter and at 
night. Technology development advances required for the lasers on 
ASCENDS preclude its early flight within the next three years. 
Furthermore, the use of reflected sunlight for OCO measurements (versus 
the active lasers for ASCENDS) makes the smaller and simpler OCO-like 
instrument attractive for long-term monitoring of near-surface CO<INF>2</INF> 
levels and offset processes.
    We will keep the Committee informed as we develop the technical and 
programmatic understanding necessary for future decisions on OCO 
recovery options and their associated budget implications within the 
broader context of other Earth Science priorities.

Working With Our Interagency Partners

    U.S. interagency programs provide the fora for coordination of the 
respective agency activities. These bodies include the CCSP Program 
Office, the Climate Change Technology Program, the U.S. Ocean Action 
Plan committees, and U.S. Group on Earth Observations (U.S. GEO). The 
majority of the collaborations and coordination are achieved through 
informal interagency interactions among the program managers and 
scientists that are responsible for the aforementioned research 
efforts. There are important inter-dependencies that both require and 
challenge interagency coordination. NASA relies on the Department of 
Energy, the United States Department of Agriculture, and the National 
Oceanographic and Atmospheric Administration for critical in situ and 
airborne observations of greenhouse gases and carbon storage in soils 
and plants--and, of course, they rely on NASA for calibrated, validated 
remote sensing data products. Together, we have developed vastly 
improved understanding of the atmosphere and carbon cycle to go with 
those measurements that can now be applied to the development of 
climate policy and carbon management.
    Internationally, partnerships are made in many fora, examples 
include Global Earth Observation System of Systems (GEOSS), the 
Committee on Earth Observing Satellites (CEOS), the Global Carbon 
Project, the World Climate Research Program, and other IGBP and UNEP-
WMO programs. International bilateral meetings are also helpful for the 
international coordination.
    The academic research community and federal efforts are mainly 
coordinated by the program managers in the Earth Science Division, who 
take great strides at NASA among flight programs, research, and applied 
sciences to ensure the research community and management communities 
provide feedback to the overall efforts of the NASA Earth Sciences 
Division. The National Research Council of the National Academies of 
Sciences has provided valuable inputs from the community regarding 
future research directions for NASA (e.g., the recent Decadal Survey). 
NASA also listens closely to its advisory subcommittee and the Science 
Steering Groups associated with the U.S. Carbon Cycle Science Program, 
the North American Carbon Program, and the Ocean Carbon and 
Biogeochemistry Program.

Going Forward

    Uncertainty of climate for the 21st century is driven as much by 
our inability to quantify the feedback between biogeochemical cycles 
and climate change, as it is by uncertainty in the physical modeling of 
the cloud and water vapor feedback or economic projections of fossil 
fuel emission. These uncertainties in the feedback processes result in 
large differences in the predictions of climate models. At present, 
even for fixed, prescribed fossil fuel emission scenarios, the 
predicted atmospheric CO<INF>2</INF> levels in 2100 from the best 
coupled carbon-climate models differ by more than 300 ppm, which is 
equivalent to about 40 years of present anthropogenic CO<INF>2</INF> 
emission levels (e.g., Freidlingstein et al., J. Climate, 19 (2006), 
3337-3353).
    Space-based observations sustained over a long period of time at 
the current level of quality or better are critical to improving the 
science of climate change and enabling better resource management and 
decision-making. Well-calibrated in situ and airborne observations for 
validation and for study and diagnosis of process controls, 
complementary research activities, as well as technology advancement, 
are necessary to improve observational capabilities. NASA, NOAA, NSF, 
and USGS must continue and enhance their collaborations to achieve 
these ends.
    Thank you for the opportunity to discuss NASA activities in the 
measurement and monitoring of atmospheric greenhouse gases and the 
exchange processes between the atmosphere, the oceans, and the land. I 
would be pleased to respond to any questions that you or the other 
Members of the Committee may have.

                   Biography for Michael H. Freilich
    Michael H. Freilich is the Director of the Earth Science Division, 
in the Science Mission Directorate at NASA Headquarters. Prior to 
coming to NASA, he was a Professor and Associate Dean in the College of 
Oceanic and Atmospheric Sciences at Oregon State University. He 
received BS degrees in Physics (Honors) and Chemistry from Haverford 
College in 1975 and a Ph.D. in Oceanography from Scripps Institution of 
Oceanography (Univ. of CA., San Diego) in 1982. From 1983-1991 he was a 
Member of the Technical Staff at the Jet Propulsion Laboratory.
    Dr. Freilich's research focuses on the determination, validation, 
and geophysical analysis of ocean surface wind velocity measured by 
satellite-borne microwave radar and radiometer instruments. He has 
developed scatterometer and altimeter wind model functions, as well as 
innovative validation techniques for accurately quantifying the 
accuracy of space-borne environmental measurements.
    Dr. Freilich served as the NSCAT Project Scientist from 1983-1991 
and as the Mission Principal Investigator for NSCAT from 1992-1997. 
Until he relinquished his project posts to join NASA HQ, he was the 
Mission PI for QuikSCAT (launched in June, 1999) and SeaWinds/ADEOS-2 
(launched in December, 2002). He was the team leader of the NASA Ocean 
Vector Winds Science Team and is a member of the QuikSCAT, SeaWinds, 
and Terra/AMSR Validation Teams, as well as the NASDA (Japanese Space 
Agency) ADEOS-2 Science Team.
    Dr. Freilich has served on many NASA, National Research Council 
(NRC), and research community advisory and steering groups, including 
the WOCE Science Steering Committee, the NASA EOS Science Executive 
Committee, the NRC Ocean Studies Board, and several NASA data system 
review committees. He chaired the NRC Committee on Earth Studies, and 
served on the NRC Space Studies Board and the Committee on NASA/NOAA 
Transition from Research to Operations.
    His honors include the JPL Director's Research Achievement Award 
(1988), the NASA Public Service Medal (1999), and the American 
Meteorological Society's Verner E. Suomi Award (2004), as well as 
several NASA Group Achievement awards. Freilich was named a Fellow of 
the American Meteorological Society in 2004.
    Freilich's non-scientific passions include nature photography and 
soccer refereeing at the youth, high school, and adult levels.

    Chair Gordon. Thank you, Dr. Freilich, and Ms. Kruger, you 
are recognized for five minutes.

    STATEMENT OF MS. DINA KRUGER, DIRECTOR, CLIMATE CHANGE 
    DIVISION, OFFICE OF ATMOSPHERIC PROGRAMS, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. Kruger. Good morning, Chair Gordon and Members of the 
Committee. Thank you for inviting me to testify this morning 
about monitoring, measurement, and verification of greenhouse 
gas emissions. My name is Dina Kruger, and I am the Director of 
EPA's Climate Change Division, and my testimony this morning is 
going to focus on the data that EPA already collects, our 
National Greenhouse Gas Inventory, the proposed Greenhouse Gas 
Reporting Rule, and our assessment of international reporting 
programs.
    I would like to begin by offering background information 
about some EPA programs that are relevant to today's topic. We 
implement successful cap-and-trade programs such as the one for 
acid rain, which has served as a model for greenhouse gas 
trading. EPA also heads an annual interagency effort to develop 
and publish the official U.S. inventory of greenhouse gas 
emissions, and just last month we issued a proposed rule to 
establish an economy-wide, facility-level reporting system for 
greenhouse gas emissions.
    What is common to all of the work that we do is the 
emphasis on accurate, comprehensive, transparent, and timely 
monitoring. Simply put, you cannot manage what you do not 
measure. Moreover, one size does not fit all. The best methods 
and systems for obtaining high quality greenhouse gas data must 
be customized to suit the specific policies we are implementing 
and the emission sources we are addressing.
    For example, the monitoring system required to establish 
baselines and assess progress under a facility-based regulatory 
program must provide timely and accurate emissions data from 
each affected facility.
    Since 1995, under EPA's Acid Rain Trading Program, power 
plants have reported sulfur dioxide emissions measured by 
continuous monitors in their stacks. Importantly, over the same 
period each unit has also reported carbon dioxide data. With 
power plants representing over one-third of the Nation's 
CO<INF>2</INF> emissions, we already have a head start on the 
monitoring program for greenhouse gas emissions.
    Other large stationary sources could also potentially 
monitor greenhouse gas emissions, and these additional sources 
are the primary focus of EPA's proposed Greenhouse Gas 
Reporting Rule, which was signed by Administrator Jackson on 
March 10. In this rule EPA proposed to collect emissions data 
from entities that emit more than 25,000 metric tons of 
CO<INF>2</INF> equivalent per year. Many emission sources, 
including many agricultural sources, as well as cars, trucks, 
homes, and small businesses would not be subject to monitoring 
and reporting requirements under our proposed thresholds 
because of their small size or the complexity or cost of 
accurately monitoring their emissions.
    Instead, greenhouse gas emissions from these smaller 
sources are covered by upstream providers of fossil fuels and 
industrial gases. EPA estimates that the proposed reporting 
program would provide baseline data for facilities representing 
between 85 and 90 percent of the national greenhouse gas 
emissions.
    I would also like to highlight the U.S. National Greenhouse 
Gas Inventory, which is an annual accounting of all human-
caused sources and sinks and provides a means of measuring 
progress against our national goals. EPA has published this 
inventory since 1993, in cooperation with numerous federal 
agencies including the Departments of Energy, Agriculture, 
Defense, and State.
    Given its scope, the National Inventory requires a variety 
of methodological approaches and technologies. Fossil fuel 
combustion is the source of approximately 80 percent of our 
national greenhouse gas emissions, and estimates for this 
source are accurate to within a few percentage points. In the 
forest and agriculture sectors we believe that the data are 
good but could be improved through continued coordination 
between the land agencies such as USDA and agencies with remote 
sensing capabilities such as NASA and NOAA.
    Finally, I will address greenhouse gas monitoring in other 
countries. We expect the same level of effort and accuracy from 
other industrialized countries as we have achieved with our own 
National Inventory, and to a large extent, our expectations are 
met. However, there is room for improvement in developing 
countries, and we have identified three main obstacles to 
better data.
    First, reporting requirements for developing countries are 
inadequate because the reporting is currently too infrequent. 
Second, government agencies and technical experts in these 
countries do not receive the sustained support necessary for 
strong, for a strong inventory, and investments in fundamental 
data such as national statistics in many developing countries 
are lacking.
    Third, deforestation and agricultural practices are the 
primary emission sources in many developing countries, and 
these are also the most technically-difficult sources to 
monitor. Approaches like remote sensing techniques could be a 
cost-effective tool to improve land use data in these 
countries.
    In conclusion, the greenhouse gas monitoring challenge is 
complex but solvable. While our primary focus at EPA is on the 
management of emissions from specific emission sources and 
projects, we also need to be sure that the reported and 
verified bottom-up emissions data are representative of what we 
see in the atmosphere. We may find that our monitoring 
approaches need to be modified, obtain insights that lead to 
better policies, or identify additional ways to reduce 
greenhouse gas emissions. Agencies such as NOAA, NASA, DOE, and 
USDA are important players in this realm and a coordinated 
effort with and among these agencies can achieve the necessary 
comprehensive top-down understanding.
    Thank you for the opportunity to speak to the Committee 
today, and I look forward to answering your questions.
    [The prepared statement of Ms. Kruger follows:]
                   Prepared Statement of Dina Kruger

Introduction

    Chairman Gordon, Ranking Member Hall, and Members of the Committee, 
thank you for inviting me to testify about monitoring, measurement and 
verification of greenhouse gas emissions. I am Dina Kruger, Director of 
EPA's Climate Change Division. Today my testimony will focus on what 
data EPA already collects under existing regulatory programs; EPA's 
proposed Mandatory Greenhouse Gas Reporting Rule; as well as 
international reporting programs. Accurate data on greenhouse gas 
emissions are an essential component for climate change research and 
the foundation for implementing and assessing programs to reduce 
emissions. EPA looks forward to continued opportunities to work with 
the Committee in this area.

Existing Data

    I would like to begin by offering some background about programs 
EPA implements that are relevant to today's topic. We implement two 
successful cap and trade programs: the Acid Rain Trading Program and 
the NOX Budget Trading Program. These two programs have served as 
models for greenhouse gas cap and trade programs such as the Regional 
Greenhouse Gas Initiative (RGGI), the Western Climate Initiative (WCI), 
and the European Union Emissions Trading System (EUETS). In order to 
fulfill reporting obligations under the United Nations Framework 
Convention on Climate Change (UNFCCC), ratified by the United States in 
1992, EPA leads an annual interagency effort to develop and publish a 
national inventory of human-caused greenhouse gas emissions, the most 
recent of which was submitted last week on April 13. We also implement 
a number of partnership programs targeting non-CO<INF>2</INF> 
greenhouse gases such as methane, hydrofluorocarbons, perfluorocarbons, 
and sulfur hexafluoride. And, just last month, EPA issued a proposed 
rule to establish an economy-wide mandatory reporting system for 
greenhouse gas emissions. This Reporting Rule was discussed during your 
first hearing on this topic in February, and will be the focus of part 
of my testimony today.
    Mr. Chairman, what is common to all of the work we do across the 
entire suite of EPA air programs, is the emphasis on accurate, 
comprehensive, transparent and timely monitoring. Simply put, you 
cannot manage what you cannot measure. Moreover, we recognize that 
effective greenhouse gas monitoring is inextricably linked to the 
specific policies being considered, and the types of emission sources 
we are addressing. One size does not fit all. The best methods and 
systems for obtaining high quality greenhouse gas data must be 
customized to suit our specific policies and purposes.
    The monitoring equipment and systems required to establish 
baselines and assess progress under a facility-based regulatory 
program, for example, need to provide timely and accurate data of 
emissions from each affected facility. We collect this type of data 
under EPA's Acid Rain Cap and Trade Program, which covers electricity 
generating units. These units are required to install and operate 
continuous sulfur dioxide emission monitors in their stacks, or for 
smaller or low emitting units a continuous fuel monitor of comparable 
accuracy. Each facility measures hourly and reports to EPA on a 
quarterly basis. All of these measurements are uploaded to EPA's 
database automatically through secure Internet connections, where the 
data are then checked and checked again by sophisticated software 
routines. The end result is emissions data that provide empirical 
support for the trading program and assurance that each facility is 
operating on a fair and level playing field. Importantly, since the 
program began in 1995, each electricity generating unit also has 
reported carbon dioxide emissions data through the same procedures, as 
required under Section 821 of the 1990 Clean Air Act Amendments. With 
the electricity sector representing over one-third of the Nation's 
CO<INF>2</INF> emissions, we already have a head start on the 
monitoring program for greenhouse gas emissions.

Proposed Greenhouse Gas Reporting Rule

    Other large stationary sources could also potentially monitor 
greenhouse gas (GHG) emissions. These additional sources are the 
primary focus of EPA's proposed Greenhouse Gas Reporting Rule, signed 
by Administrator Lisa Jackson on March 10th and published in the 
Federal Register on April 10th. Pursuant to the direction of Congress, 
EPA's proposed GHG Reporting Rule focuses on emissions from sources 
above appropriate thresholds in all sectors of the economy. The 
proposed Reporting Rule has not been designed to track project-based 
offsets, such as carbon sequestration from agricultural or forest 
lands, or to create a comprehensive national inventory--both of which I 
will discuss later.
    In this rule, EPA proposes to collect greenhouse gas emissions data 
from about 13,000 entities that emit more than 25,000 metric tons of 
CO<INF>2</INF> equivalent per year, or produce or import fuel or 
industrial gases. In total, the proposed rule is estimated to cover 85 
to 90 percent of U.S. greenhouse gas emissions. The 25,000 ton 
threshold is roughly equivalent to the amount of CO<INF>2</INF> that 
would be produced by burning 131 rail cars of coal. The proposed rule 
attempts to mitigate any impacts on small businesses by including the 
25,000 metric tons of CO<INF>2</INF> equivalent per year threshold. As 
a result, this rule would affect larger industrial facilities, such as 
refineries, iron and steel mills, cement and petrochemical plants.
    Many emission sources would not be subject to monitoring and 
reporting requirements under the thresholds proposed in the proposed 
Reporting Rule because of their small size or the complexity or cost of 
accurately monitoring their emissions. This includes many agricultural 
sources as well as emissions from individual cars and trucks, homes, 
and small businesses. Instead, emissions from the use of fossil fuels 
in smaller sources is covered ``upstream,'' by which we mean that coal 
mines, petroleum refineries, natural gas processing facilities, and 
natural gas distribution companies would report on the carbon contained 
in fuel they supply to the economy. While there are tens of millions of 
cars and houses, there are approximately 3,500 suppliers of fossil fuel 
in the economy, representing approximately 30-35 percent of U.S. 
greenhouse gas emissions, and the estimation of emissions from these 
sources is both manageable and accurate.
    EPA estimates that with the 25,000 ton annual threshold and the 
inclusion of ``upstream'' providers of fossil fuels and industrial 
gases, the greenhouse gas reporting program could provide baseline 
emissions data for facilities representing between 85 percent and 90 
percent of national greenhouse gas emissions. We are working hard to 
complete the Reporting Rule this fall, and are proposing that the first 
reports will be due in March of 2011 and cover year 2010 emissions.
    At this point, let me say a few words about verification in the 
proposed reporting program, as this issue has been the subject of 
discussions in this committee and in other venues. EPA is proposing a 
centralized verification program modeled on our experience in the Acid 
Rain program, which I just summarized. EPA has successfully verified 
data across its Clean Air Act programs for decades. The northeast 
states through the Regional Greenhouse Gas Initiative chose to run 
their greenhouse gas cap and trade program using the CO<INF>2</INF> 
data that EPA collects and verifies through the Acid Rain Program 
rather than reinvent the wheel. We are confident that this system 
currently applied to the Acid Rain program can be extended to the 
verification of all emissions data reported under EPA's greenhouse gas 
reporting program (i.e., 85-90 percent of U.S. greenhouse gas 
emissions).
    Effective monitoring tools and protocols for offset projects must 
also be customized to the specific emission sources and project 
categories under consideration. In our experience, methane capture 
projects, such as landfill gas or coal mine methane, can be monitored 
effectively using off-the-shelf technology. EPA has experience with 
these technologies by virtue of having implemented partnership programs 
with these industries for more than fifteen years. Other offset 
projects, particularly in the agriculture and forestry sectors, pose 
unique monitoring challenges. While data may meet national inventory 
needs, project-level estimates can be more challenging in these sectors 
due in part to the variability of the emission reductions or 
sequestration levels. In the case of sequestered carbon specifically, 
there is also the risk of reversals back to the atmosphere, through 
natural disturbances like forest fires or changes in management 
practices, like tilling soil.

U.S. National Greenhouse Gas Inventory

    The second greenhouse gas monitoring program that I would like to 
highlight is the U.S. National Greenhouse Gas Inventory which is an 
annual accounting of human-caused emissions and sequestration across 
all sectors. This inventory provides the means of measuring progress 
against national goals, including President Obama's goal to reduce 
emissions by 14 percent from 2005 levels by the year 2020 and by 83 
percent by the year 2050, and will be the metric by which success is 
judged. EPA has coordinated our nation's annual greenhouse gas 
inventory since 1993, in cooperation with numerous other federal 
agencies. The Department of Energy provides essential data on the 
national fossil energy accounts. The Department of Agriculture (USDA) 
provides data and methodological support for land-based emissions and 
sequestration. The Department of Defense has proactively taken the lead 
on improving our understanding of emissions from their aircraft and 
ship operations. And the State Department, as the lead agency for 
United Nations (UN) treaties, submits the inventory each year to the UN 
Framework Convention on Climate Change.
    As I indicated, the national greenhouse gas inventory includes all 
sources and sinks, from the burning of fossil fuels for transportation, 
to methane generated from decomposing organic wastes, to sequestration 
of CO<INF>2</INF> in our forests and soils. Such a wide-ranging effort 
necessarily requires a variety of methodological approaches and 
technologies, and the quality of the data varies across source 
categories. Fossil fuel combustion is the source of approximately 80 
percent of our national greenhouse gas emissions--and our colleagues at 
the Energy Information Administration take great effort to ensure that 
the national energy snapshot is accurate and up to date. Our own 
studies and independent reviews confirm that this largest component of 
our national inventory is accurate to within a few percentage points, 
and because EPA and the Department of Energy (DOE) have ``piggy-
backed'' on existing government systems, the American taxpayer has not 
needed to fund redundant projects.
    Other sources are considerably more challenging. For example, 
nitrous oxide, a very potent greenhouse gas, is emitted primarily from 
highly variable biological process in soils, lakes and streams. These 
biological processes can be accelerated by the application of 
fertilizer, or through deposition of industrial pollutants, but our 
scientific understanding and our ability to predict emissions are 
incomplete.
    As I indicated earlier, sequestration of CO<INF>2</INF> in soils 
and forests is a special case. We cannot realistically measure the 
carbon in every acre of land, so we must use a sampling approach. The 
Forest Service has an extensive national system of measurement plots 
covering much but not all of the country's forests. The U.S. Department 
of Agriculture's (USDA's) National Resources Conservation Service also 
collects data on our agricultural soils. From EPA's perspective, the 
data are good but our national inventory would benefit from the 
development of additional monitoring and measurement approaches and 
continued integration of the data currently collected by land agencies 
such as USDA and agencies with remote sensing capabilities such as the 
National Aeronautics and Space Administration (NASA) and the National 
Oceanic and Atmospheric Administration (NOAA).

International Reporting Programs

    The third topic I would like to address is greenhouse gas 
monitoring in other countries. We expect the same level of effort and 
accuracy from other industrialized countries as we have achieved with 
our national inventory, and to a large extent our expectations are met. 
Europe, Japan, Canada, and Australia have strong greenhouse gas 
monitoring systems due to investments by each government and a rigorous 
system of international annual expert peer review. In addition to 
monitoring and reporting greenhouse gas emissions at the national level 
under the United Nations Framework Convention on Climate Change, many 
of these countries have developed or are developing, facility-level 
reporting systems, similar in scope to EPA's recent proposal for our 
domestic mandatory GHG reporting system. Among these countries there is 
a strong foundation of mutual trust in each other's data.
    There is more room for improvement in the major developing 
countries. EPA has worked with many of these countries to build 
greenhouse gas monitoring capacity, and we have found that there are 
three main obstacles standing in the way of better data. First, the 
reporting requirements are inadequate for developing country parties to 
the UN Framework Convention on Climate Change. Developing countries are 
required to submit only a summary level inventory approximately every 
five to six years. Modest and infrequent international reporting 
commitments give the wrong signal to government agencies and technical 
experts in these countries--they do not receive the political and 
financial support necessary for a strong inventory. Second, there are 
low-tech or ``no-tech'' opportunities that are being missed. In many 
developing countries there is a need to strengthen government and 
research institutions so that agencies communicate and greenhouse gas 
monitoring expertise is built up and retained over time. The collection 
and retention of basic national statistics for the energy, 
transportation, and waste sectors by these organizations and 
institutions would provide a solid first step in developing national 
estimates of greenhouse gas emissions, without the use of prohibitively 
expensive monitoring technologies or practices. Third, deforestation 
and the addition of new agricultural lands are the primary sources of 
GHG emissions in many developing countries and these are also the most 
technically challenging sources to monitor. Remote sensing techniques 
could be a cost-effective tool to improve agricultural and land-use 
data in these countries. Given the lack of resources and capacity in 
many developing countries and a range of assurances necessary with 
regard to competitiveness, the U.S. may benefit from a robust global 
atmospheric greenhouse monitoring program. Such a program could verify 
that efforts to reduce emissions leads to real reductions in the 
atmospheric concentration of greenhouse gases, and that offsets agreed 
to by the international community are having the intended effects. Such 
a system should complement ongoing programs in developed countries and 
a concerted effort by developing countries to improve reporting.

Conclusion

    EPA also recognizes the scientific community's important role in 
verifying the effectiveness of our domestic and international policies. 
EPA's focus is primarily on the management of emissions from specific 
emission sources and projects, but we also need to be sure that 
reported and verified bottom-up emissions data are representative of 
atmospheric measurements and to know whether these policies are having 
the desired result on the climate. This is a challenging task for an 
issue as complex as climate change, but it is essential. Agencies 
including NOAA, NASA, DOE, and USDA are important players in this realm 
and a coordinated effort among those agencies can achieve the necessary 
comprehensive ``top-down'' understanding. In some cases, we may find 
that our monitoring approaches need to be modified, as we identify new 
information about greenhouse gas sources, sinks or processes. Moreover, 
as we gain better understanding of how the atmosphere is responding to 
our policies through these top-down measurements, we can use that 
information to modify our policy goals or identify additional 
verifiable measures that can reduce greenhouse gas emissions. To the 
extent that this hearing serves to advance this important discussion, 
it will be very useful to EPA and our partner federal agencies.
    In conclusion, I would like to emphasize that the greenhouse gas 
monitoring challenge is complex but solvable. We have high quality GHG 
emissions data for the large facilities that could be included in a 
future regulatory program such as cap-and-trade. Our national inventory 
is solid but could be improved in certain areas, particularly outside 
the energy sector. Inventories in major developing countries need to be 
improved through a combination of institutional and technological 
steps. And it is clear that collecting top-down measurement data can 
also play an important role in informing whether the bottom-up data 
being collected are comprehensive, helping policy-makers further 
evaluate the effectiveness of any policies implemented.
    Mr. Chairman, thank you for the opportunity to speak to the 
Committee today. I hope the information I have provided is useful, and 
I look forward to the answering the Members' questions.

                       Biography for Dina Kruger
    Dina Kruger is Director of the Climate Change Division at the U.S. 
Environmental Protection Agency. Ms. Kruger is responsible for a wide 
range of programs and analyses dealing with climate change policy, 
economics, mitigation technologies, science and impacts, and 
communication. She is currently managing the development of an EPA 
rule-making on the mandatory reporting of greenhouse gases, in response 
to the FY 2008 Consolidated Appropriations Amendment. She also manages 
preparation of the U.S. National Inventory of Greenhouse Gases and 
Sinks, which is submitted annually to the UN Framework Convention on 
Climate Change, and served as an elected member of the 
Intergovernmental Panel on Climate Change's Task Force Bureau on 
Greenhouse Gas Inventories from 1998-2008. Ms. Kruger directs a wide 
range of economic, technical and scientific analysis on a variety of 
climate policy issues.
    Ms. Kruger joined EPA in 1989, and prior to that worked at ICF 
Consulting, the Investor Responsibility Research Center, and the Office 
of Technology Assessment. She holds a Bachelor of Arts degree from the 
University of Washington, and received a Master's degree from the 
Energy and Resources Group at the University of California, Berkeley.

    Chair Gordon. Thank you, Ms. Kruger, and Dr. Gallagher.

    STATEMENT OF DR. PATRICK D. GALLAGHER, DEPUTY DIRECTOR, 
NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY, U.S. DEPARTMENT 
                          OF COMMERCE

    Dr. Gallagher. Good morning, Chairman Gordon and Members of 
the Committee. I want to thank you for the opportunity to 
appear before you today and discuss the National Institute of 
Standards and Technology's role and interactions with other 
federal agencies in measuring, monitoring, and verifying 
greenhouse gas emissions.
    Today what I would like to do is highlight how NIST works 
with these other agencies to support climate monitoring 
programs and to measure and verify greenhouse gas emissions. 
Climate change measurements require high accuracy, excellent 
comparability, and exceptional stability to meet the stringent 
requirements for detecting changes in the earth's climate over 
very long timescales. Rigorous traceability of measurements to 
the international system of units called the SI are essential 
for meeting these requirements and provide a firm scientific 
basis for policy decisions and to help ensure that our 
measurements are accepted internationally.
    The NIST Laboratories support other federal agencies that 
have a primary mission for climate research and monitoring, 
many of them represented here today with me on the panel. The 
NIST Laboratories provide the measurement science, measurement 
traceability, the production and dissemination of fundamental 
data, standards development, and dissemination to support these 
agencies in their satellite air and surface space measurement 
programs.
    By statute, NIST is the national measurement institute of 
the United States, and in this capacity is responsible for the 
national standards of measurement and for their compatibility 
within the SI framework with the standards of other nations. To 
achieve international compatibility of measurement, NIST works 
with its counterpart agencies in other countries, and NIST 
advancement, maintenance, and dissemination of base SI units 
underpins private sector investments and measurement technology 
and standards, and it provides the means for assessing the 
quality of measurements.
    We also provide benchmark references for so-called second 
and third tier suppliers of measurement services, including 
private sector test and calibration laboratories, manufacturers 
of test equipment and control systems, and the businesses that 
rely on these services and tools.
    Today I would like to illustrate how NIST carries out this 
role by using two examples. First, NIST has a major role in 
supporting satellite remote sensing programs by developing the 
appropriate standards, calibration, and characterization 
methods and by creating the tools to analyze measurement 
uncertainties. This is important not only to the government 
satellite programs but also to the commercial satellite 
industry and various other civilian and government programs.
    The NIST Laboratories possess unique measurement science 
capabilities such as specialized laser facilities, radiometers, 
and optical radiation sources that are developed at NIST to tie 
the measurements performed by the satellites to fundamental 
standards traceable to the SI units. Current NIST research is 
lowering the uncertainties on fundamental standards to meet the 
increasingly stringent measurement requirements for climate 
research. The requirements for these measurements are directly 
defined through our collaborations with other agencies and 
their satellite programs.
    A second major area of activity at NIST is in the accurate 
measurement of gas emissions, including greenhouse gases. For 
over 15 years NIST has worked closely with the EPA to provide 
the measurement technologies and measurement traceability to 
the SI for gas emissions controlled under the Clean Air Act. 
This includes the cap-and-trade program for industrial sulfur 
emissions. This program provides measurement traceability to 
the SI for cylinder gas standards used to calibrate emission 
stack monitors and works directly with specialty gas suppliers 
to provide calibrated gases through the NIST Traceable 
Reference Materials Program. This program has been credited 
with resulting in a 30 percent reduction in sulfur dioxide 
emissions relative to 1980 levels.
    This experience serves as a useful model for developing 
greenhouse gas mitigation programs. The ability to accurately 
measure and verify greenhouse gas emissions is an important 
foundation for policy-makers and regulators charged with the 
development and implementation of policies. Understanding the 
measurement technologies required and how they are deployed 
into the market are key considerations in the establishment of 
realistic and effective limits.
    In my written testimony I have included further details on 
current capability and on some of the emerging measurement 
challenges for greenhouse gases and verification programs. 
Accurate climate change measurements provide confidence in 
measured and predicted climate change trends and aid the 
development and assessment of mitigation strategies. The NIST 
Laboratory Program is committed to providing the measurement 
science, traceability data, and standards to support other 
federal agencies in their climate programs and to ensure that 
their measurements tie to international standards as needed. We 
also work with the private sector so that they can provide the 
needed accurate and traceable measurement services to support 
any mitigation program.
    I want to thank you for inviting me to testify today, and I 
look forward to answering any questions you may have.
    [The prepared statement of Dr. Gallagher follows:]
               Prepared Statement of Patrick D. Gallagher
    Good morning Chairman Gordon, Ranking Member Hall and Members of 
the Committee. Thank you for the opportunity to appear before you today 
to discuss the National Institute of Standards and Technology's 
(NIST's) role and interactions with other federal agencies in the 
measurement, monitoring, and verification of greenhouse gas emissions. 
The NIST Laboratories, with core competencies in measurement science, 
traceability, fundamental data, and standards development and 
dissemination, have a long history of supporting the measurements 
needed for climate change research and greenhouse gas emission 
monitoring carried out by other federal agencies, including the 
Environmental Protection Agency (EPA), the National Aeronautics and 
Space Administration (NASA), and the National Oceanic and Atmospheric 
Administration (NOAA), all of which are represented here today.

Overview of NIST's Role

    Today, I will discuss how NIST works to identify the necessary 
measurement requirements needed to accurately assess not only baseline 
inventories of greenhouse gases important to understanding climate 
change but also for supporting the implementation of greenhouse gas 
mitigation policies. Climate change measurements require high accuracy, 
excellent comparability, and exceptional stability to meet the 
stringent requirements for detecting changes in the Earth's climate 
over long time scales. Rigorous traceability of measurements to the 
International System of Units (SI) is essential for meeting these 
requirements and for providing a firm scientific basis for policy 
decisions. NIST's role in working with the climate change research 
community to help meet traceability requirements is well recognized and 
has been highlighted, for example, in the strategic plan for the U.S. 
Climate Change Science Program:

         ``. . . Instrument calibration, characterization, and 
        stability become paramount considerations. Instruments must be 
        tied to national and international standards such as those 
        provided by the National Institute of Standards and Technology 
        (NIST) . . .''

    The NIST laboratory programs support those in other federal 
agencies involved in climate change monitoring activities, which 
include NASA, NOAA, and EPA represented here today as well as DOE, 
USGS, USDA, and NSF. The NIST laboratories provide the measurement 
science, measurement traceability, production and dissemination of 
fundamental data, and standards development and dissemination (both 
artifact and documentary) to support other government agencies and 
their satellite, air, and surface\1\-based measurement programs by 
ensuring the accuracy, comparability, and stability of their data.
---------------------------------------------------------------------------
    \1\ Surface denotes both land and ocean.
---------------------------------------------------------------------------
    By federal statute NIST is the National Measurement Institute (NMI) 
of the United States responsible for national standards of measurement 
and for their compatibility, within the SI framework, with the 
standards of other nations. To achieve international compatibility in 
measurement, NIST works with its counterpart NMIs in other countries. 
These government-established entities exist in nearly every 
industrialized nation. NIST's advancement, maintenance, and 
dissemination of base SI units (length, mass, time, electric current, 
temperature, amount of substance, and luminous intensity) and a growing 
number of derived units underpin private-sector investments in 
measurement technology and standards. The measurement foundation laid 
by NIST provides the necessary means for assessing the quality of 
measurements made daily during the design, production, inspection, and 
sale of goods and services. They provide benchmark references for so-
called second and third-tier suppliers of measurement services, 
including private-sector test and calibration laboratories, 
manufacturers of measurement tools and control systems, and the 
businesses that rely on these services and tools.
    The international community, through the 23rd General Conference on 
Weights and Measures, has acknowledged the importance of SI traceable 
measurements to monitor climate change (2007)\2\ through:
---------------------------------------------------------------------------
    \2\ http://www1.bipm.org/en/CGPM/db/23/11/

        <bullet>  the expansion in the number of international and 
        national initiatives to address the challenges and implications 
---------------------------------------------------------------------------
        of climate change for the world,

        <bullet>  working arrangements between the International 
        Committee for Weights and Measures (CIPM) and the United 
        Nation's World Meterological Organization (WMO),

        <bullet>  the increasing importance of optical radiation 
        measurements and physico-chemical measurements of air, ground-
        based as well as airborne, and physico-chemical measurements of 
        ocean water, which support research into the understanding of 
        the causes and impacts of climate change, and

        <bullet>  the importance of basing long-term measurements which 
        relate to climate change on the stable references of the SI.

    Through international agreements, measurement results traceable to 
different NMIs can be accepted across international borders, thereby 
improving transaction efficiency and eliminating potential regulatory 
burdens and technical barriers to international trade.

NIST's Measurement Science and Standards Role in Assessing Climate 
                    Change

    Predicting the Earth's future climate and monitoring the effects of 
climate change depend upon highly accurate, comparable, and stable 
measurements that are often made by a variety of organizations, 
instruments, and nations over decades or longer time scales and need to 
be integrated. Thus, traceability of a range of measurements to 
international standards with known uncertainties is critical for 
assessing accuracy and quality. Accurate SI-traceable climate change 
measurements provide confidence in measured and predicted climate 
change trends and aid the development and assessment of mitigation 
strategies.
    There are unique challenges in climate monitoring associated with 
measurements from space, air, and surface<SUP>1</SUP>-sensors. Climate 
change monitoring has more stringent measurement requirements than 
those for weather forecasting. Strategies are required to improve the 
accuracy and stability of weather-forecast measurements to enhance 
their utility for climate monitoring and prediction. A 2006 workshop on 
Achieving Satellite Instrument Calibration for Climate Change 
(ASIC3),\3\ sponsored by NIST, NOAA, NASA and others, highlighted the 
challenges of using weather satellites for climate monitoring. Many of 
the challenges have also been highlighted in the 2004 NRC report, 
``Climate Data Records from Environmental Satellites.'' This report 
stresses sensor accuracy, characterization, uncertainty analysis, 
interagency collaboration, and continued reanalysis of climate data 
records. Furthermore, satellite programs within NASA and NOAA generally 
have requirements that the pre-launch calibration be tied to 
international standards based on the SI system of units. The WMO 
affirmed this goal by stating in one of the twenty Global Climate 
Observing System (GCOS) Climate Monitoring Principles\4\ that 
``Rigorous pre-launch instrument characterization and calibration, 
including radiance confirmation against an international radiance scale 
provided by a national metrology institute, should be ensured.'' 
Airborne- and surface-based measurements likewise need such 
traceability to help validate and calibrate satellite measurements and 
provide comparability with satellite measurements when integrated into 
climate data records.
---------------------------------------------------------------------------
    \3\ Achieving Satellite Instrument Calibration for Climate Change 
(ASIC<SUP>3</SUP>), edited by G. Ohring, available at http://
www.star.nesdis.noaa.gov/star/documents/ASIC3-071218-webversfinal.pdf
    \4\ The complete set of Global Climate Monitoring Principles are 
found at http://www.wmo.int/pages/prog/gcos/
index.php?name=monitoringprinciples
---------------------------------------------------------------------------
    NIST's role is in addressing the unique challenges associated with 
satellite remote sensing by developing the appropriate standards, 
calibration and characterization methods, and creating the tools to 
analyze measurement uncertainties. NIST's role is important not only to 
government satellite programs but also to the commercial satellite 
industry and various civilian and government programs that depend on 
remote sensing measurements and data. The NIST laboratories possess 
unique measurement science capabilities needed to address the demanding 
accuracy of remote sensing for climate change monitoring. Specialized 
laser facilities, radiometers, and optical radiation sources developed 
at NIST tie measurements performed by satellite sensors to fundamental 
standards traceable to SI units. To ensure the quality of NIST 
standards and of climate change measurements tied to these standards, 
NIST participates in measurement comparisons with the climate change 
research community and with national standards laboratories around the 
world. Current NIST research is lowering the uncertainties on 
fundamental standards to meet the increasingly stringent measurement 
requirements for climate research. The requirements for such 
measurements are defined through our collaborations with NASA, NOAA, 
USGS in their satellite-based climate change research and monitoring 
programs.

NIST's Role in Supporting Mitigation Efforts

    Rigorous and traceable measurements will also be needed to support 
and implement any climate change mitigation strategy. Recently, various 
approaches for mitigating greenhouse gas emissions have been proposed. 
Many proposals are modeled on the successful 15-year-old cap-and-trade 
system for industrial sulfur emissions within the U.S.,\5\ which 
enabled the reduction of sulfur dioxide emissions by approximately 30 
percent relative to 1980 levels. The sulfur dioxide program focused on 
the relatively small number of electricity generating plants in the 
central U.S. It is based upon:
---------------------------------------------------------------------------
    \5\ Clean Air Act of 1990, Public Law 101-549, http://
thomas.loc.gov/cgi-bin/bdquery/z?d101:SN01630:%7CTOM:/bss/
d101query.html%7C

        <bullet>  emission source monitoring, with support from NIST 
        measurement standards,\6\<SUP>,</SUP>\7\
---------------------------------------------------------------------------
    \6\ S.A. Martin, et al., ``Economic Impact of Standard Reference 
Materials for Sulfur in Fossil Fuel,'' http://www.nist.gov/director/
prog-ofc/report00-1.pdf
    \7\ J.T. Schakenbach, Use of Calibration Gases in the U.S. Acid 
Rain Program, Accreditation and Quality Assurance 6(7), 297-301 (2001).

        <bullet>  the use of SO<INF>2</INF> mitigation technologies, 
---------------------------------------------------------------------------
        and

        <bullet>  energy efficiency improvements by users.

    NIST's primary role in the sulfur dioxide emissions program was to 
provide measurement traceability to the SI for cylinder gas standards 
used to calibrate emission stack monitors. This was accomplished by 
supplying calibrated gases through our establishment of the NIST-
Traceable Reference Materials (NTRM) program in conjunction with the 
private sector.
    Confidence in greenhouse gas mitigation policies also depend on 
accurate measurements of greenhouse gases. Accurate measurements of all 
greenhouse gas emissions are critical for establishing emission 
baselines, monitoring compliance, and verifying performance of other 
policies and offset or project-based approaches. Measurement strategies 
are strongly influenced by the nature of the greenhouse gas emission, 
e.g., CO<INF>2</INF> emissions are generated by many economic sectors 
ranging from power generation and manufacturing to transportation 
vehicles and residential heating to land use and land use change, but 
methane, with a global warming potential 25 times that of 
CO<INF>2</INF>, is emitted primarily from landfills, the transport and 
use of natural gas, livestock production, and coal mining.\8\ The 
geographical characteristics of greenhouse gas emissions also vary from 
localized point sources, such as electricity generation and 
manufacturing plants, to those that span a broad spatial scale, such as 
landfills and agriculture. Advances in measurement science can provide 
new and additional scientifically credible metrics to support 
implementation of effective policies to reduce greenhouse gas 
emissions.
---------------------------------------------------------------------------
    \8\ U.S. EPA, Methane Sources and Emissions, www.epa.gov/methane/
sources.html
---------------------------------------------------------------------------
    Measurement capabilities necessary to support a robust and 
effective greenhouse gas mitigation program will also rely on various 
technological approaches. Since CO<INF>2</INF> and other greenhouse gas 
emissions are generated from a wide number of economic sectors, the 
range of greenhouse gas measurement and estimation capabilities range 
from established technologies, such as commercially available 
continuous emission monitoring instruments that are often used for 
large point source emission quantification (and are a mainstay of the 
successful sulfur emissions cap-and-trade system), to approaches to 
estimate emissions as a function of levels of activity or production. 
Indeed some quantification systems, such as the continuous monitoring 
of extended geographical areas, are currently not available.
    Although the measurement and estimation requirements to implement 
greenhouse gas reduction policies are still being defined, NIST, as the 
Nation's NMI, offers unique capabilities to support such policies 
through its measurement science mission and expertise. Such support 
includes measurement science research, sensor calibration, artifact and 
chemical standards, documentary standards, fundamental data, and 
laboratory accreditation programs that allow transparent and efficient 
emissions measurements by ensuring the accuracy and comparability of 
quantitative measurements of greenhouse gas emissions and reductions 
(e.g., offsets).
    A host of recent workshops has highlighted the increasing interest 
in implementing a greenhouse gas mitigation program and active 
discussions are ongoing to determine the attributes of a possible U.S. 
program. NIST participates in measurement and monitoring discussions in 
many strategic working groups, committees and workshops along with 
other federal agencies, the academic climate change research community 
and the private sector. Such groups have produced reports and 
recommendations, including the U.S. Climate Change Science Program 
report on the State of the Carbon Cycle, the international Committee on 
Earth Observation Satellites, the workshop on Achieving Satellite 
Instrument Calibration for Climate Change (ASIC3), and most recently, 
the Air and Waste Management Association's First International 
Greenhouse Gas Measurement Symposium. NIST's active participation in 
such working groups helps to facilitate the measurements and standards 
development component of this effort. NIST also teams with the private 
sector and others to undertake a continuous assessment to identify new 
measurement needs.
    Through NIST's identification of measurement needs, multiple issues 
stand out:

        <bullet>  Assess Baseline Emissions--There is a clear and 
        critical need for more accurate methods to assess baseline 
        amounts of CO<INF>2</INF> and other greenhouse gases emitted by 
        multiple industries and technology sectors in a consistent and 
        verifiable manner both nationally and internationally. The UN 
        has issued guidelines for how countries should estimate 
        CO<INF>2</INF> emissions, but even with best practice 
        guidelines, the question of uncertainty in emissions from key 
        sectors remains a major issue. Additional research to support 
        better emission measurement, monitoring, and modeling 
        techniques is necessary to reduce these uncertainties.

        <bullet>  Need for Improved Monitoring Technologies--Accurate 
        and standardized monitoring technologies are needed to support 
        greenhouse gas emission inventory efforts. The greenhouse gas 
        inventory community needs to reconcile measurements of 
        greenhouse gases made from top-down approaches, typically used 
        by the climate science community for long-term climate records, 
        and the bottom-up approaches that are essential to the 
        implementation of policies to reduce greenhouse gas emissions. 
        A variety of measurement approaches and techniques will be 
        required to address the many specific sources of greenhouse gas 
        emissions, spanning point or local sources to emissions from 
        broad spatial scales. Methods based on ground- and satellite-
        based remote sensing are anticipated to require new scientific 
        and technological developments.

        <bullet>  Need for Accurate Data for Determining Limits for 
        Greenhouse Gas Emissions--Accurate inventories of emissions and 
        the methods for verifying them are an important foundation for 
        policy-makers and regulators charged with the development and 
        implementation of policies, as well as for the facilities and 
        sources that must comply. Such data, and an understanding of 
        the measurement technologies required, are also critical to the 
        establishment of realistic and effective limits.

        <bullet>  International Recognition--Ensuring transparency and 
        trustworthiness in international carbon markets requires a 
        centralized and agreed-upon set of standards and methods for 
        accrediting various monitoring organizations and laboratories. 
        Implementation of such a system will benefit from the existing 
        infrastructure of the international SI system of units and the 
        international metrology community.

    Furthermore, successful implementation of U.S. greenhouse gas 
reduction policies is a multi-faceted issue and will involve several 
federal agencies. NIST has a long history of successful collaborations 
with EPA on emission measurements and standards, e.g., the highly 
successful sulfur emissions trading system, collaboration on 
development and maintenance of the NIST/EPA Gas-Phase Infrared Database 
and the NIST/EPA/NIH Mass Spectral Library, and the standards that 
underpin automobile emissions testing. NIST also has strong 
partnerships with NOAA and NASA in the area of sensor calibration for 
environmental measurements and has, for example, provided spectroscopic 
data for NASA's Orbiting Carbon Observatory (OCO) and the Active 
Sensing of CO<INF>2</INF> Emissions over Nights, Days, and Seasons 
(ASCENDS) mission concept.

Summary

    Accurate SI-traceable climate change measurements provide 
confidence in measured and predicted climate change trends and aid the 
development and assessment of mitigation strategies. The NIST 
laboratory programs provide the measurement science, measurement 
traceability, production and dissemination of fundamental data, and 
standards development and dissemination (both artifact and documentary) 
to support other federal agencies and their satellite, air, and 
surface-based measurement programs by ensuring the accuracy, 
comparability, and stability of their data. NIST is also uniquely 
poised to provide private-sector manufacturers and users of greenhouse 
gas emissions monitoring equipment with the tools to make accurate 
measurements and assess measurement accuracy.
    Thank you for the opportunity to testify today on NIST's work on 
measuring, monitoring, and verifying greenhouse gas emissions. I would 
be happy to answer any questions the Committee may have.

                   Biography for Patrick D. Gallagher
    Dr. Patrick Gallagher is the Deputy Director of the U.S. Department 
of Commerce's National Institute of Standards and Technology (NIST). He 
is also carrying out the responsibilities of the Director. (The NIST 
Director position is vacant.) Gallagher provides high-level oversight 
and direction for NIST. The agency promotes U.S. innovation and 
industrial competitiveness by advancing measurement science, standards, 
and technology. NIST's FY 2008 resources total $931.5 million and the 
agency employs about 2,900 scientists, engineers, technicians, support 
staff and administrative personnel at two main locations in 
Gaithersburg, MD, and Boulder, CO.
    Prior to becoming Deputy Director, Gallagher served as Director of 
the NIST Center for Neutron Research (NCNR), a national user facility 
for neutron scattering on the NIST Gaithersburg campus, since 2004. The 
NCNR provides a broad range of neutron diffraction and spectroscopy 
capability with thermal and cold neutron beams and is presently the 
Nation's most used facility of this type. Gallagher received his Ph.D. 
in Physics at the University of Pittsburgh in 1991. His research 
interests include neutron and X-ray instrumentation and studies of soft 
condensed matter systems such as liquids, polymers and gels. In 2000, 
Gallagher was a NIST agency representative at the National Science and 
Technology Council (NSTC). He has been active in the area of U.S. 
policy for scientific user facilities and was Chair of the Interagency 
Working Group on neutron and light source facilities under the Office 
of Science and Technology Policy.

    Chair Gordon. Thank you, Dr. Gallagher. Dr. Heber, when my 
family gets together on Sundays, oftentimes my daughter and her 
cousins have to sit at the children's table because it is not 
big enough for everybody else. We still love them, and we are 
glad you are here and sorry you had to be pushed off a little 
bit, but your testimony still is as important as everyone 
else's. So you are recognized for five minutes.

 STATEMENT OF DR. ALBERT J. HEBER, PROFESSOR, AGRICULTURAL AND 
      BIOLOGICAL ENGINEERING DEPARTMENT, PURDUE UNIVERSITY

    Dr. Heber. Chair Gordon, Ranking Member Hall, and other 
Members of this committee, thank you for the opportunity to 
speak to you about the measurement and mitigation of greenhouse 
gases from livestock operation.
    All farms generate various air pollutants to some degree. 
The big question is how much, and that is not an easy question 
to answer because on-farm measurements are difficult and 
costly.
    Methane comes from enteric fermentation and anaerobic 
decomposition of manure. Enteric fermentation is primarily 
derived from beef and dairy cattle in this country. Nitrous 
oxide is generated directly and indirectly from the nitrogen in 
livestock manure. Carbon dioxide is produced by anaerobic 
digestion of manure and animal respiration.
    Animal agriculture emits only two and a half percent of the 
total of United States greenhouse gas emissions according to a 
recent EPA report. According to a recent article by Dr. Capper 
in the Journal of Animal Science, greenhouse gas reductions 
occur with increased production efficiency.
    For example, the carbon footprint was reduced by one-third 
since 1944, as milk yield per cow quadrupled. Other reductions 
occur through methane utilization by anaerobic digesters, good 
compost management, applying manure to land agronomically, and 
diet modification.
    We have much to learn about greenhouse gas emissions from 
livestock operations, and we do this through laboratory and 
field studies. The field studies can give us baseline source 
emission rates, and they allow us to test mitigation 
strategies. The use of scientific emission models to estimate 
emissions is the least expensive, but they need to be validated 
with the expensive field data. While regulatory models have 
inherent limitations, science--academic scientific studies 
have, can have a great influence on them.
    The National Air Emission Monitoring Study was funded by 
the livestock commodity groups. The objectives are to quantify 
air emissions from livestock production, provide reliable data 
for developing and validating barn and lagoon emission models, 
and to promote a national consensus on methods of measuring, 
calculating, and reporting air emissions in general.
    The approach of the NAEMS is to monitor 38 barns at 15 
different sites, and they are monitoring the regulated 
pollutants and also at ten open sources. Overall 20 farms are 
involved in this study. Prior studies that we conducted at pork 
and egg layer facilities are very similar, but they are not as 
comprehensive as what we are doing in the NAEMS. Each barn site 
monitoring site uses state-of-the-art equipment and an 
instrumentation trailer at the farm.
    The open source measurements utilize open path laser 
technology to measure ammonia and other gases. The open paths 
surround the source. The 20 farms in the National Air Emission 
Monitoring Study are located throughout the United States and 
were selected to be representative of other livestock species 
or representative of other farms in their respective livestock 
species.
    A 2,000-page protocol document was written in 2006, and was 
approved by the EPA prior to setting up the project, and all 
sites were set up in 2007, and so the two-year monitoring 
effort will be completed by the end of this year.
    The NAEMS infrastructure and the expertise developed by it 
are a tremendous resource for conducting a similar 
comprehensive study of emissions of greenhouse gases as 
recommended in a recent report by the General Accounting 
Office. Such a study as a follow on to the NAEMS should 
continue to: One, refine and improve measurement methods, two, 
provide data to develop and validate computer models, three, 
consider expanding measurements to other farm sources like the 
land application of manure, which wasn't addressed by the 
NAEMS, and four, to test mitigation strategies that can reduce 
greenhouse gas emissions.
    Thank you.
    [The prepared statement of Dr. Heber follows:]
                 Prepared Statement of Albert J. Heber

Introduction

    Chairman Gordon, Ranking Member Hall, and other Members of the 
Committee, I am Dr. Albert Heber, Professor of Agricultural and 
Biological Engineering at Purdue University, and Director of the 
National Air Emissions Monitoring Study. Thank you for the invitation 
and opportunity to speak to you about measurements and mitigation of 
GHG on livestock operations.
    My statement will cover the following topics:

        1.  Agricultural sources of greenhouse gases.

        2.  Description of National Air Emission Monitoring Study.

        3.  Estimated costs of on-farm GHG monitoring.

        4.  Potential for using NAEMS infrastructure for follow-on GHG 
        studies.

        5.  Measuring GHG emissions.

        6.  Uncertainty of on-farm GHG monitoring.

Agricultural Sources of Greenhouse Gases

        1.  Methane (CH<INF>4</INF>) from ruminant livestock (sheep and 
        cattle) and from anaerobic digestion of organic wastes.

        2.  Carbon dioxide (CO<INF>2</INF>) from anaerobic digestion of 
        organic wastes and from animal exhalation.

        3.  Nitrous oxide (N<INF>2</INF>O) from conversion of nitrogen 
        compounds in nitrification (NH<INF>4</INF> to NO<INF>3</INF>) 
        and denitrification (NO<INF>3</INF> to N<INF>2</INF>) processes 
        (McGinn, 2006).

        4.  GHG emission from agricultural land.

    Research on quantifying GHG from agricultural sources started in 
the 1970s (e.g., Bremner and Blackmer, 1978). The International Atomic 
Energy Agency published a manual on measurement of methane and nitrous 
oxide emissions from agriculture in 1992 (IAEA, 1992). The First 
International Greenhouse Gas Measurement Symposium was held in San 
Francisco, CA from March 23-25, 2009. Research on mitigation of 
agricultural GHG emissions from soil started in the 1990s (e.g., Mosier 
et al., 1996; Mosier et al., 1998). Recent investigations on GHG 
emission reductions were conducted in animal barns and manure treatment 
facilities (e.g., Tada et al., 2005; Weiske et al., 2006; VanderZaag et 
al., 2008; Cabaraux et al., 2009). The warming potential of greenhouse 
gases (N<INF>2</INF>O + CH<INF>4</INF>) were about 22g, 34g and 168g 
CO<INF>2</INF> equivalents per day and per pig on fully slatted floor, 
straw or sawdust deep litter respectively (Cabaraux et al., 2009).
    The latest inventory of GHG emissions and sinks in U.S. was 
published by USEPA (2009).

National Air Emissions Monitoring Study

BACKGROUND
    Animal feeding operations (AFOs) commonly emit certain amounts of 
particulate matter (PM), ammonia (NH<INF>3</INF>), hydrogen sulfide 
(H<INF>2</INF>S), volatile organic compounds (VOCs), greenhouse gases 
(GHG), and odorous compounds. Historically, concern about non-GHG 
pollutants arose first from potential worker and animal health issues, 
and with nuisance complaints. The U.S. Government assumed a greater 
role in regulating air emissions from agriculture during the last 
decade. The U.S. Environmental Protection Agency (EPA) began applying 
federal air quality regulations to AFOs around the year 2000 (Schutz, 
et al., 2005). Particulate matter and non-methane VOCs are criteria air 
pollutants under the U.S. Clean Air Act (CAA) of 1990 (U.S. EPA, 1990). 
The Comprehensive Environmental Response, Compensation, and Liability 
Act (CERCLA) and the Emergency Planning and Community Right-to-Know Act 
(EPCRA) required reporting of NH<INF>3</INF> and H<INF>2</INF>S 
emissions exceeding 100 lb/day. However the U.S. EPA recognized a lack 
of reliable data for emissions of these pollutants from AFOs (Schutz et 
al., 2005).
    As the EPA began enforcing air laws at AFOs, the agricultural 
community voiced their concern that the current air contaminant 
emission estimates for AFOs were either based on data from outdated 
studies or did not represent modern livestock farms (Schutz et al., 
2005). The National Research Council (National Research Council, 2003) 
shared this concern, and recommended that EPA improve its methods of 
estimating AFO air emissions. In January, 2005, the Air Consent 
Agreement (ACA) was announced in the Federal Register (U.S. EPA, 2005). 
The ACA is an agreement between livestock (dairy, pork, egg, and 
broiler chicken) commodity groups and U.S. EPA. The ACA required an 
industry-funded nationwide AFO emission study that would provide a 
scientific basis for the determination of compliance with the air laws. 
Industry participation in the ACA included 2,568 livestock production 
operations representing a total of 6,267 farms.
    The objectives of the NAEMS were to: 1) quantify rates of air 
emission from pork, dairy, egg, and broiler production facilities, 2) 
provide reliable data for developing and validating models for 
estimating emissions from livestock operations, and 3) promote 
standardized methodology for measuring livestock and poultry farm 
emissions.

Unique Characteristics of the NAEMS
    The barn portion of the NAEMS has several unique characteristics 
compared to previous baseline studies.

        1.  It is measuring a comprehensive set of pollutants 
        (PM<INF>2</INF>.<INF>5</INF>, PM<INF>10</INF>, TSP, 
        NH<INF>3</INF>, H<INF>2</INF>S, and CO<INF>2</INF> at all 15 
        barn sites, CH<INF>4</INF> at five sites, and non-methane VOC 
        at two sites).

        2.  The monitoring period is 24 months. The longest previous 
        baseline study was 15 months long (Jacobson et al., 2004).

        3.  Largest number of farm buildings (38) measured among four 
        livestock species using the same protocols. Jacobson et al. 
        (2004) monitored 12 buildings among three livestock species in 
        their study of PM<INF>10</INF>, TSP, NH<INF>3</INF>, 
        H<INF>2</INF>S, and odor.

        4.  Sites were selected to maximize representativeness under 
        the constraints of the other site selection criteria.

        5.  Quality assurance and quality control was improved with a 
        Category 1 Quality Assurance Project Plan (QAPP).

        6.  The EPA-approved QAPP (barn portion) included 57 standard 
        operating procedures (SOPs) and 14 site monitoring plans 
        (SMPs).

        7.  Novel methods include the use of ultrasonic technology to 
        measure the ventilation airflow of naturally ventilated barns 
        (Ndegwa et al., 2008).

        8.  The NAEMS is measuring gas and PM emissions from barns 
        (Heber et al., 2008) and gas emissions from lagoons, basins and 
        dairy corrals (Grant et al., 2008) and both measurements are 
        being conducted at four of the twenty farms.

BARN MONITORING SITES (taken from Heber et al., 2008)
    The barn monitoring sites (Table 1) were selected based on the 
following criteria:

        1.  Producer participation in the ACA.

        2.  Representativeness of the farm for its livestock type.

        3.  Proximity to academic expertise in air quality research.

        4.  Conduciveness and suitability of the site for collecting 
        reliable data.

        5.  Producer collaboration (very important to successful long-
        term, on-farm studies).

        6.  Potential for measurement of outdoor manure storage systems 
        at the same site.

    The sow farms in North Carolina (NC4) and Oklahoma (OK4) have pull-
plug pits with outdoor (lagoon) manure storages (Table 1). The Iowa sow 
farm (IA4) uses deep pits in the barns to store manure. The North 
Carolina and Indiana finisher operations are flush and deep pit barns, 
respectively. Emissions at sow farms are measured at two gestation 
barns and one farrowing room. Three separate barns (NC) or four rooms 
of a ``quad'' barn (IN) are being monitored at swine finishing sites.
    Egg laying buildings are either high-rise houses, in which manure 
accumulates in the lower level, or manure belt houses with belts under 
the cages that transfer manure to an external storage. Two high-rise 
houses and two manure belt houses with the associated manure shed are 
being monitored in Indiana (IN2). The layer sites in California (CA2) 
and North Carolina (NC2) are each monitoring two high-rise houses. Two 
barns monitored at a broiler ranch in California (CA1) consist of 
broiler chickens raised on a concrete floor covered with litter.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Two western dairy sites have naturally-ventilated free-stall dairy 
barns with outdoor exercise lots. The free-stall barns in California 
(CA5) have open walls. The free-stall barns in Washington (WA5) have 
open end walls and adjustable curtains on most of the sidewalls (Heber 
et al., 2008). Two MV free-stall barns per site are being monitored in 
Wisconsin (WI5) and Indiana (IN5). The New York (NY5) site is 
monitoring one MV free-stall barn. MV milking centers are also 
monitored at IN5 and NY5. Sites NY5 and IN5 have tunnel-ventilated 
barns and Site WI5 uses cross-flow ventilation (Heber et al., 2008).

Methodology and Instrumentation
    An on-farm instrument shelter (OFIS) houses instruments and 
equipment for measuring pollutant concentrations at representative air 
inlets and outlets, barn airflows, operational processes, and 
environmental variables.
    A multi-point gas-sampling system (GSS) inside the OFIS draws air 
sequentially from various barn locations and ambient air, and 
sequentially delivers selected streams to a manifold from which gas 
monitors draw continuous sub-samples. The number of sampling points per 
site ranges from four to forty-five. The average sampling tube length 
is 77m. The sampling periods for exhaust air are typically 10 minutes 
long.
    Gas sensors include a photo-acoustic multi-gas analyzer (Innova 
Model 1412, California Analytical Instruments, Orange, CA) for NH<INF>3</INF> 
and CO<INF>2</INF>, a pulsed-fluorescence analyzer (Model 450I, Thermo 
Environmental Instruments, Franklin, MA) for H<INF>2</INF>S, and a gas 
chromatograph--flame ionization detector (Model 55C, Thermo 
Environmental Instruments, Franklin, MA) for CH<INF>4</INF> and non-
CH<INF>4</INF> hydrocarbons. The Model 55C is used only at sites IN3 
and CA5.
    The ambient PM concentrations are measured with a beta attenuation 
PM monitor (Model FH62 C-14, Thermo Scientific, Waltham, NY). Exhaust 
PM concentrations are measured continuously with a tapered element 
oscillating micro-balance (Model 1400a, Thermo Scientific, Waltham, NY) 
at a minimum winter ventilation fan in each MV barn and in the ridge 
exhaust of each NV barn. The sampling location inside MV barns is near 
the fan inlet. PM<INF>10</INF> is measured seven of eight weeks and TSP 
is measured every 8th week. PM<INF>2</INF>.<INF>5</INF> is monitored 
during two-week periods during winter and summer.
    Fan airflow rates are spot checked using the portable fan tester 
(Gates et al., 2004), or a traverse method using a portable anemometer. 
Airflow data from spot checks are correlated with continuous data from 
rpm sensors and/or impeller anemometers. At least one fan per fan model 
is continuously monitored using a bi-directional impeller anemometer. 
The impeller anemometer accounts for the significant effects of wind 
and building static pressure. Individual fans are monitored using rpm 
sensors, current switches, or vibration sensors. At most sites, the 
operation of fan stages is monitored via fan motor control relays. 
Airflow through NV barns is measured using three-dimensional sonic 
anemometers.
    All measured variables are listed in Table 2. Meteorological 
measurements (solar radiation, wind direction and velocity, 
temperature, humidity) are needed to study the influence of weather on 
emissions. Measurements such as feed composition, manure 
characteristics, pit flushing, and animal activity help to determine 
methods of abating emissions. The effect of weather on air emissions is 
coupled with the effect of manure accumulation, animal age and growth 
cycles, moisture content in manure storages, and animal live weight and 
feed consumption.
    Standard operating procedures were written for all measurements and 
instrumentation to assure that the same methods would be used at all 
sites, and to maximize data comparability. The total number of 
monitored variables varies from 85 at sow site NC4 to 466 at layer site 
IN2. The data acquisition system reads data at 1.0 Hz, and records 15-s 
and 60-s data averages.
    Milk, feed, bedding, manure, water and VOC are collected for ex-
situ analysis. VOC samples are also collected in passivated canisters 
and multi-sorbent tubes, and analyzed by gas chromatography and mass 
spectrometry. Manure is analyzed for pH, total solids and ash content, 
and concentrations of total nitrogen (N) and ammoniacal N. Total manure 
N will be used in conjunction with total feed, bedding, milk, eggs, 
and/or meat nitrogen contents to generate a nitrogen mass-balance for 
each barn as a whole. Ash contents will be used at some sites to 
estimate manure volume (Keener and Zhao, 2008) which cannot be measured 
directly at some sites. The validity of the ash-balance method will be 
validated at sites where manure volume can be measured.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The final processing of NAEMS data is facilitated with CAPECAB, a 
custom-written data analysis program. Data is invalidated for various 
reasons including: calibration of a sensor or analyzer, low flow 
through the GSS, sensor malfunction, electronic noise, DAC hardware or 
software problem, condensation in sampling lines, or gas analyzer 
equilibration. CAPECAB allows users to adjust gas concentration data 
based on calibration, extract equilibrium data, calculate ventilation 
rates, and calculate emission rates. Hourly and daily averages of 
emission rates and other parameters will be provided to the EPA.

OPEN SOURCE MONITORING SITES (taken from Grant et al., 2008)
    Emissions of NH<INF>3</INF>, H<INF>2</INF>S, and CH<INF>4</INF> are 
being measured throughout the year at dairy and swine farms, along with 
other parameters that affect emissions such as time of year, atmosphere 
stability, and farm operation (Grant et al., 2008).

Experimental Methods
    Instruments used with open sources include ultrasonic (sonic) 
anemometers to characterize the wind, sensors to measure the atmosphere 
(temperature, relative humidity, solar radiation, barometric pressure, 
wetness), sensors to characterize the source (temperature, pH, and 
oxidation-reduction potential for lagoons), and state-of-the-art 
instruments for measuring concentrations of target gases along open 
paths near the source. Manure samples from corrals and basins are 
analyzed for pH, and concentrations of solids, and NH<INF>2</INF>  N.
    Measurements at ten sites in seven states began in the summer of 
2007, and will continue through the summer 2009. Two sites are each 
measured continuously for one year. Eight sites are sequentially 
measured for 10 to 20 days during each season for two years.

Scanning NH<INF>3</INF> TDLAS
    At a typical open source, TDLAS units are set up at opposite 
corners and 16m towers at the other two corners. Six retro-reflectors 
are mounted on each tower, with three facing each TDLAS system at 
heights of about 1m, 7m, and 15m. Two additional retro-reflectors are 
placed at 1m heights on tripods at one-third and two-thirds of the 
distance down each side of the source. Thus, each side of the source 
has three near-surface paths and two elevated paths. A computer-
controlled scanner sequentially aims a TDLAS at each retro-reflector 
among two adjacent sides of the source. The advantage of scanning open-
path TDLAS for continuous long-term measurements of NH<INF>3</INF> is 
that wind direction becomes a minor factor in determining the emitted 
gases because the plume location is not needed to properly measure it 
(Grant et al., 2008). Quality control (QC) procedures of the TDLAS 
measurements include checks for path obstruction, internal calibration 
checks, spectral feature checks and single-point calibration 
verifications, and multi-point calibrations. The minimum detection 
limits of the TDLAS units are about 2ppm-m or less.

S-OPS/GSS
    The synthetic open-path system (S-OPS) consists of a 50m section of 
Teflon tubing, outfitted with 10 equally-spaced, flow-balanced inlets, 
through which a blended air sample of a plume is drawn and sampled by 
gas analyzers in the trailer. Two S-OPS are placed on opposite sides of 
the source. Proper sample flow is verified by continuously monitoring 
sample pressure, flow rate and direction. Extensive QC checks are 
conducted to maintain system integrity.
    A multi-gas analyzer using the photo-acoustic spectroscopy is used 
to measure NH<INF>3</INF> and CH<INF>4</INF> for which the stated 
detection limits for CH<INF>4</INF> and NH<INF>3</INF> are 100ppb and 
200ppb, respectively. A pulsed fluorescence SO<INF>2</INF>/
H<INF>2</INF>S analyzer is used to measure H<INF>2</INF>S. The 
manufacturer stated MDL is 1ppb. Interferents include methyl mercaptan 
and water vapor. The difference between the upwind and downwind gas 
concentration in the S-OPS air samples is used to determine gas flux 
from the area source.

Weather Measurements
    In a typical setup, three-dimensional sonic anemometers are mounted 
at heights of 2m, 4m, and 16m and measurements in the three orthogonal 
directions are made at 16 Hz. Field inter-comparisons are made at least 
every 21 days by mounting the three anemometers next to each other and 
measuring wind for one hour. Typically, differences between sensors are 
less than 0.1m/s.

Emissions of NH<INF>3
    </INF>Emissions of NH<INF>3</INF> are determined at one-half hour 
intervals from wind profiles based on the three anemometers, and 
concentration profiles obtained by multiple TDLAS-measured path-
integrated concentrations (PIC) using the vertical radial plume mapping 
(RPM) method. This method is limited by the need to have valid data for 
all five PIC and all three wind sensors. Weather conditions such as 
fog, heavy rain, high winds, and low winds (<0.2m/s) limit the 
availability of both PIC and wind data, thus limiting the periods 
during which emissions can be calculated.

Emissions of H<INF>2</INF>S and CH<INF>4
    </INF>The gaseous emissions of H<INF>2</INF>S and CH<INF>4</INF> 
are determined from one-half hour averages of concentration 
measurements of the air sequentially sampled from upwind and downwind 
S-OPS systems and either: 1) the bLS emission model using wind 
turbulence measurements of the 2m sonic anemometer, or 2) the ratio of 
the S-OPS measurement of H<INF>2</INF>S and CH<INF>4</INF> 
concentrations to TDLAS PIC measurement of NH<INF>3</INF> of the 
nearest path to the S-OPS inlets multiplied by the RPM-measured 
NH<INF>3</INF> emission. Fog, heavy rain, high winds, and low winds 
limit the availability of both PIC and wind measurements, thus limiting 
the periods during which emissions based on the RPM emissions can be 
calculated. Emissions based on the bLS model are limited by low winds, 
very unstable or stable conditions, and upwind fetch.

COSTS OF ON-FARM GHG MEASUREMENTS

    Costs for on-farm measurements of GHGs vary with the complexity of 
the farm. Factors include the number, size and ventilation type of the 
barns, and the presence, number, and type of other external or outside 
sources.
    The following conservative cost estimates for monitoring enclosed 
building sources assume a focus on GHG emissions only, and are based on 
the costs to conduct the NAEMS at various types of barn sites (two to 
four buildings per site), including a ``simple'' barn site (e.g., a 
small broiler operation) and a ``complex'' one (a large dairy or egg-
layer facility). Naturally-ventilated facilities (most frequently 
dairies) present special challenges and additional costs, mostly due to 
the need to measure barn airflow with a large array of ultrasonic 
anemometers.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    These estimates include a climate-controlled mobile laboratory, gas 
analyzer(s) for CO<INF>2</INF>, CH<INF>4</INF> and N<INF>2</INF>O, 
calibration equipment and supplies, site-customized systems for gas 
sampling and data acquisition, and sensors and equipment for monitoring 
building airflow. Setup time estimates above include both the time to 
design and customize these systems, and to deploy them in the field. 
Maintenance time estimates include equipment maintenance and 
calibration, and processing and interpretation of the data.
    Monitoring of outside sources can be conducted in different ways. 
If CH<INF>4</INF> is the only gas of interest, the initial cost of 
open-path spectroscopy with methane-specific lasers is approximately 
$60,000 and monthly cost is approximately $14,000. This approach might 
be sufficient for sources such as anaerobic manure lagoons, which may 
(Monteny et al., 2001) or may not (Jones et al., 2000; Berg et al., 
2006) have minimal emissions of N<INF>2</INF>O. Expanding monitoring to 
CO<INF>2</INF> and N<INF>2</INF>O in addition to CH<INF>4</INF> would 
most likely be done by open-path Fourier Transform Infrared (FTIR) 
spectroscopy, or by deploying synthetic open-path systems (Grant et 
al., 2008). The approximate cost of a fully-automated FTIR system to 
measure gas concentrations on all sides of a source such as a lagoon, 
feed storage pile, etc., could be as high as $300,000. A synthetic 
open-path system, with its associated gas analyzer(s), can be set up 
for approximately $75,000.

UTILIZING NAEMS INFRASTRUCTURE FOR GHG STUDIES

    It required about one year (2006) to develop the 2000-page NAEMS 
Quality Assurance Project Plan and gain EPA's approval, and another 
year (2007) to set up the monitoring equipment at 20 farms across the 
U.S. The two years of monitoring (2008-09) will be completed in about 
eight months, at which time the monitoring sites will dismantled or 
used in follow-on studies.
    The NAEMS was not designed to measure baseline greenhouse gas 
emissions. In the process of determining non-methane hydrocarbons, 
methane was measured at five of fifteen barn sites and in less than 
one-third of the open source measurements. Carbon dioxide was measured 
at the barn sites but not at the open source sites. Nitrous oxide was 
measured at only a sow operation and at a dairy site with local add-on 
studies.
    To take advantage of the existing NAEMS infrastructure and 
expertise, the dairy industry funded a project to add all three major 
GHG to all the dairy sites for the last few months of the NAEMS and to 
extend three of the barn sites until January 31, 2010 to obtain some 
baseline GHG emissions data over a limited period of time.
    Federal support of follow-on GHG studies using the NAEMS 
infrastructure and expertise could provide:

        1.  Long-term monitoring of baseline GHG emissions at existing 
        or other sites.

        2.  Tests of GHG mitigation strategies at existing or other 
        sites.

        3.  Expansion of monitoring to all sources at the farms, e.g., 
        land application, feed storage, feedlots, lagoons, etc.

        4.  Refinement of on-farm GHG measurements.

    The GAO (2008) recommended that, at a minimum, a comprehensive 
study of greenhouse gas emissions from AFOs would require a study, or 
combination of studies, of similar scope and size to the NAEMS.

MEASURING GHG EMISSIONS

    Emissions cannot be directly measured. Emissions can only be 
estimated/calculated based on concentration measurements and airflow 
measurements. Accurate concentration and airflow measurements in barns 
are challenging in barns because of the number of emitting locations 
(i.e., fans) and/or the lack of well-defined emitting locations (i.e., 
a naturally-ventilated barn).
    The comprehensive emission measurements for the NAEMS sites require 
between 80 to 300 measured variables at each site (includes 
concentration, temperature, weather information, fan operation, and 
site operation variables), with each variable monitored on a one-minute 
basis. The number of data points in the NAEMS is expected to exceed 2.4 
billion (Ni et al., 2008). All data collected requires evaluation and 
further processing by trained individuals to generate the required 
emission data.

UNCERTAINTY OF ON-FARM GHG MONITORING

    Multi-gas analyzers based on photo-acoustic infrared (PIR) 
detection are commercially available, and are designed for simultaneous 
detection/measurement of all the greenhouse gases relevant to 
agriculture (CO<INF>2</INF>, CH<INF>4</INF>, N<INF>2</INF>O). 
Preliminary CO<INF>2</INF> concentration control chart data from three 
out of fourteen sites of the NAEMS indicate that the total relative 
uncertainties for the CO<INF>2</INF> concentration were between four 
and nine percent. The order of magnitude of these values are 
representative of the expected uncertainty in the concentration of the 
other GHG being monitored (CH<INF>4</INF>, N<INF>2</INF>O). This 
determination is based on calibration with a single gas standard in dry 
air.
    However, besides the typical uncertainty of measurements of single 
gases, there is the added uncertainty caused by interferences of other 
gases including water vapor. The analyzer manufacturer has corrections 
in place for those interferences but improvements are needed in the 
compensations to reduce the uncertainty incurred when measuring at 
livestock facilities as compared with other applications of the multi-
gas analyzer. For example, cross-compensation calibrations are 
generally performed with single concentrations of gases (or a single 
humidity level), but if the relationship between the interfering gas 
concentration and light absorbence is not linear over the relevant 
concentration/humidity range, errors will be introduced. As compared 
with other applications for the multi-gas analyzer, carbon dioxide and 
water vapor (major interferents) concentrations are high. The effects 
of these interfering gases need to be carefully accounted for in GHG 
measurements.

SUMMARY

    The NAEMS consists of two components: measurement of gas and 
particulate emission from barns (Heber et al., 2008) and the 
measurement of gas emissions from open-air sources (Grant et al., 2008) 
including dairy corrals and manure storage lagoons and basins. In the 
open-source component, gaseous emissions of NH<INF>3</INF>, 
H<INF>2</INF>S, and CH<INF>4</INF> are being measured throughout the 
year at four dairy and six swine operations, along with a range of 
other parameters that affect emissions such as time of year, stability 
of the atmosphere, and facility operation.
    In the barn component, the NAEMS is collecting continuous air 
emission data from 38 barns at five dairies, five pork production 
sites, three egg layer operations, one layer manure shed, and one 
broiler facility for a period of two years. Concentrations of 
NH<INF>3</INF>, H<INF>2</INF>S, VOC, and PM (PM<INF>10</INF>, 
PM<INF>2</INF>.<INF>5</INF>, and TSP), building ventilation rate, and 
supporting parameters are monitored. Motion sensors monitor animal, 
worker and vehicle activity. Barn ventilation rate is assessed by 
monitoring fans and barn static pressure in MV barns, and air 
velocities through ventilation openings in naturally-ventilated 
buildings. Custom software (CAPECAB) efficiently handles large amounts 
of data being generated by NAEMS, and is used to validate, and process 
the data.
    The costs of conducting long-term continuous emission monitoring 
studies at commercial farms are significant. There is a significant 
cost savings if the existing setups at farms are used to conduct needed 
additional studies. While a limited number of GHG measurements were 
obtained at some of the farms, a comprehensive GHG study conducted at 
existing NAEMS sites or with the NAEMS equipment and expertise could 
potentially answer a lot of important questions in a timely manner.

REFERENCES

Berg, W.R., R. Brunsch, and I. Pazsiczki. 2006. Greenhouse gas 
        emissions from covered slurry compared with uncovered during 
        storage. Agriculture, Ecosystems and Environment 112:129-134.

Bremner, J.M. and A.M. Blackmer. 1978. Nitrous-Oxide--Emission from 
        Soils During Nitrification of Fertilizer Nitrogen. Science 
        199(4326):295-296.

Cabaraux, J.F., F.X. Philippe, M. Laitat, B. Canart, M. Vandenheede, 
        and B. Nicks. 2009. Gaseous emissions from weaned pigs raised 
        on different floor systems. Agriculture Ecosystems and 
        Environment 130(3-4):86-92.

Gates, R.S., K.D. Casey, H. Xin, E.F. Wheeler, J.D. Simmons. 2004. Fan 
        Assessment Numeration System (FANS) design and calibration 
        specifications. Transaction of the ASAE 47(5): 1709-1715.

GAO. 2008. Concentrated animal feeding operations: EPA needs more 
        information and a clearly defined strategy to protect air and 
        water quality from pollutants of concern. Report GAO-08-944. 
        Report to Congressional Requesters, United States Government 
        Accountability Office.

Grant, R.H.; M.T. Boehm; A.J. Lawrence; A.J. Heber; J.M. Wolf; S.D. 
        Cortus; B.W. Bogan; J.C. Ramirez-Dorronsoro and C.A. Diehl. 
        2008. Methodologies of the National Air Emissions Measurement 
        Study Open Source Component. Proceedings, Symposium on Air 
        Quality Measurement Methods and Technology, Air Waste 
        Management Assn., Durham, NC (CD).

Heber, A.J., J.-Q. Ni, T.-T. Lim, A.M. Schmidt, J.A. Koziel, P.C. Tao, 
        D.B. Beasley, S.J. Hoff, R.E. Nicolai, L.D. Jacobson, and Y. 
        Zhang. 2006. Quality assured measurements of animal building 
        emissions: Gas concentrations. AWMA Journal 56:1472-1483.

IAEA. 1992. Manual on Measurement of Methane and Nitrous Oxide 
        Emissions from Agriculture. IAEA, Vienna, Austria. IAEA-TECDOC-
        674. November. 91 p.

Jacobson, L.D., B.P. Hetchler, K.A., Janni, J. Linn, A.J. Heber, and 
        E.L. Cortus. 2008. Animal and environmental performance of a 
        mechanical cross ventilation system retrofitted to a naturally 
        ventilated free-stall dairy barn in the Midwestern U.S. Paper 
        presented at the Eighth International Livestock Environment 
        Symposium, Iguassu Falls, Brazil, Sept. 1-5.

Jacobson, L.D., B.P. Hetchler, V.J. Johnson, R.E. Nicolai, D.R. 
        Schmidt, P.R. Goodrich, A.J. Heber, J.-Q. Ni, T.-T. Lim, P.-C. 
        Tao, S.J. Hoff, D.S. Bundy, M.A. Huebner, B.C. Zelle, Y. Zhang, 
        J. McClure, M. Roberts, J.A. Koziel, B.H. Baek, A. Balota, J.P. 
        Spinhirne, J.M. Sweeten, D.B. Beasley, G.R. Baughman, and R. 
        Munilla. 2004. Preliminary NH<INF>3</INF>, H<INF>2</INF>S, and 
        PM<INF>10</INF> data from pig and poultry buildings from six-
        state project. ASAE Paper #044156. American Society of 
        Agricultural and Biological Engineers, St. Joseph, MI.

Jones, M.L., S.K. Liehr, J.J. Classen, and W. Robarge. 2000. Mechanisms 
        of dinitrogen gas formation in anaerobic lagoons. Advances in 
        Environmental Research 4:133-139.

Keener, H.M. and L. Zhao. 2008. A modified mass balance method for 
        predicting NH3 emissions from manure N for livestock and 
        storage facilities. Biosystems Engineering 99:81-87.

McGinn, S.M. 2006. Measuring greenhouse gas emissions from point 
        sources in agriculture. Canadian Journal of Soil Science 
        86(3):355-371.

Monteny, G.J., C.M. Groenestein, and M.A. Hilhorst. 2001. Interactions 
        and coupling between emissions of methane and nitrous oxide 
        from animal husbandry. Nutrient Cycling in Agroecosystems 
        60:123-132.

Mosier, A.R., J.M. Duxbury, J.R. Freney, O. Heinemeyer, and K. Minami. 
        1996. Nitrous oxide emissions from agricultural fields: 
        Assessment, measurement and mitigation. Plant and Soil 
        181(1):95-108.

Mosier, A.R., J.M. Duxbury, J.R. Freney, O. Heinemeyer, K. Minami, and 
        D.E. Johnson. 1998. Mitigating agricultural emissions of 
        methane. Climatic Change 40(1):39-80.

National Research Council. 2003. Air Emissions from Animal Feeding 
        Operations: Current Knowledge, Future Needs. National Academies 
        Press, Washington, DC.

Ndegwa, P.M. Ndegwa, P.M., H.S. Joo, A.J. Heber, J.C. Ramirez-
        Dorronsoro, E.L. Cortus, J.-Q. Ni, W.W. Bogan. 2008. A method 
        for determination of pollutant emissions from naturally 
        ventilated free-stall dairy barns. Paper presented at the 
        Eighth International Livestock Environment Symposium, Iguassu 
        Falls, Brazil, Sept. 1-4.

Ni, J.Q., A.J. Heber, M.J. Darr, T.T. Lim, C.A. Diehl and W.W. Bogan. 
        2008. Air quality monitoring and data acquisition for livestock 
        and poultry environment studies. Paper presented at the Eighth 
        International Livestock Environment Symposium, Iguassu Falls, 
        Brazil, Sept. 1-5.

Schutz, M.M., T.J. Applegate, B.T. Richert, A.L. Sutton, D.D. Jones. 
        2005. Air Emissions Consent Agreement and National Air 
        Emissions Monitoring Study--How Do They Affect Me? ID-325W, 
        Purdue University, West Lafayette, IN.

Tada, C., Y. Yang, T. Hanaoka, A. Sonoda, K. Ooi, and S. Sawayama. 
        2005. Effect of natural zeolite on methane production for 
        anaerobic digestion of ammonium rich organic sludge. 
        Bioresource Technology 96(4):459-464.

USEPA. 2009. Inventory of U.S. Greenhouse Gas Emissions and Sinks: 
        1990-2007. U.S. Environmental Protection Agency, Washington, 
        DC. EPA 430-R-09-004. April 15. 441 p.

U.S. EPA. 1990. Clean Air Act. U.S. Code Title 42, Chapter 85. 
        [www.epa.gov/air/caa/].

U.S. EPA. 2005. Air Consent Agreement. www.epa.gov/compliance/
        resources/agreements/caa/cafo-agr-050121.pdf, January 31.

VanderZaag, A.C., R.J. Gordon, V.M. Glass, and R.C. Jamieson. 2008. 
        Floating covers to reduce gas emissions from liquid manure 
        storages: A review. Applied Engineering in Agriculture 
        24(5):657-671.

Weiske, A., A. Vabitsch, J.E. Olesen, K. Schelde, J. Michel, R. 
        Friedrich, and M. Kaltschmitt. 2006. Mitigation of greenhouse 
        gas emissions in European conventional and organic dairy 
        farming. Agriculture Ecosystems & Environment 112(2-3):221-232.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                     Biography for Albert J. Heber
    Dr. Albert Heber is a Professor of Agricultural and Biological 
Engineering at Purdue University with degrees from South Dakota State 
University and the University of Nebraska. Including his nine years at 
Kansas State University, he has a total of 24 years experience in 
livestock facility research, education, and consulting with emphasis on 
air quality. He directs Purdue's Agricultural Air Quality Laboratory 
and his primary research today is the assessment and mitigation of 
particulate matter, odor and gas emissions from livestock barns, and 
waste storage and treatment facilities. Since 2000, he has published 28 
journal articles, given 56 invited papers and lectures, and provided 
scientific expertise and information on livestock emission factors, 
emission measurements, and emission controls at livestock facilities to 
State and federal agencies and the livestock industry. Prior to the 
National Air Emissions Monitoring Study, over 500 barn-months of air 
emission data were collected under his leadership. Other research has 
involved science-based separation distance guidelines for U.S. pork and 
dairy production, testing of odor measurement protocols, pathogen 
emission and dispersion from swine houses, and odor emission from 
industrial composting operations. Since 1984, he has published 53 
journal articles, 126 conference papers, three patents, and four book 
chapters. In 2005, Dr. Heber received the Tony and Mary Hulman Health 
Achievement Award in Environmental Health from the Indiana Public 
Health Foundation and his Agricultural Air Quality Group at Purdue 
received the Dean's Team Award.

                               Discussion

    Chair Gordon. Thank you, Dr. Heber.
    We will now start the questioning, and we will begin with 
the Chair recognizing himself for five minutes.
    Let me--well, first of all, as Mr. Hall pointed out, we 
wear two hats, and we are also on the Energy and Commerce 
Committee and will be a part of developing some type of a 
carbon reduction program here for the United States. To be 
successful, obviously, we have to monitor it, and secondly, I 
think there needs to be an international component.

                       Climate Modeling Programs

    So let me ask a couple of questions in that regard, quick 
ones, and then I want to get to a more threshold-type question. 
Dr. Law, you had talked about this FluxNet Program in Europe 
and about how they use it in terms of modeling. Do they verify 
that modeling with any type of atmospheric sensors?
    Dr. Law. The ICOS, Integrated Carbon Observation System, I 
think is what you are talking about, and they have very similar 
components as we have in the North American Carbon Program. So 
they are both top-down greenhouse gas observations in modeling 
and bottom-up inventories and flux sites.
    Chair Gordon. And what is the vehicle for coordination 
between those agencies and the U.S.?
    Dr. Law. It is primarily through, right now through the FAO 
Global Terrestrial Observing System and through the FluxNet 
Network of networks, flux sites particularly are covered by 
that. FluxNet, the primary goal of that is to standardize data 
and to be able to synthesize data.
    Chair Gordon. Are you satisfied that it is doing an 
adequate job?
    Dr. Law. I think we need a lot more infrastructure on that. 
That has been an intermittent-type project. It has been on and 
off again.
    Chair Gordon. Is that European infrastructure?
    Dr. Law. That is the U.S.
    Chair Gordon. Oh.
    Dr. Law. That is U.S. Yeah.
    Chair Gordon. Let me--I am just going to flip through some 
things.
    Dr. Law. Sure.

             Remote Sensing Data and Standards Coordination

    Chair Gordon. Ms. Kruger, you had mentioned the developing 
countries and the obvious difficulties there. Is remote 
sensing--can we--will that be adequate for us to be able to 
monitor these other countries?
    Ms. Kruger. Remote sensing would certainly be very helpful 
for monitoring what is happening with the issue of 
deforestation, which is a very important one now in the 
international context. That would need to be coupled with 
ground truthing and with a capacity in the country to actually 
track what is happening on the ground as well.
    Chair Gordon. We would have to have their cooperation to do 
that.
    Ms. Kruger. So we do need to have their cooperation and 
more broadly, remote sensing does not apply to all the 
different emission sources that we would be looking at.
    Chair Gordon. And on this same theme, Dr. Gallagher, you 
talked about it with NIST, having to coordinate international 
standards. Is there a central coordinating body for that?
    Dr. Gallagher. Well, I think that it is happening on 
several fronts, and so there is a lot of coordination happening 
with consensus bodies, for example, through the U.N. and the 
world meteorological organizations and so forth that are 
coordinating global climate measurements, but what is happening 
in addition is that the international measurement system, the--
what is called the BIPM, the International Bureau of Weights of 
Measures, is also beginning to be brought into these questions, 
and that is the system that ties with national measurement 
institutes in all of the member countries. And so that is 
particularly important as measurements need to be pushed into 
the market.
    Chair Gordon. Well, I guess here is where I am getting to. 
Clearly there is an international component, international in 
the sense of undeveloped or non-cooperating countries. 
Certainly there is an international component in terms of 
cooperating countries. Here at this table you have demonstrated 
the enormous amount of assets that we have in this, in the 
country.
    And so I guess my question is two-fold, is do we have 
adequate assets here? Do we need a separate system? And just--I 
won't say more importantly, I am a little concerned about the 
coordinating aspect of all of this, bringing the information 
together and then being able to have it effectively analyzed.
    Do, you know, do we have an adequate coordinating system 
now in the U.S. and internationally, and if not, what do we 
need to do for that coordinating system, and what additional 
assets do we need? And I will start with whoever wants to 
start.
    Okay. Yes, sir. Dr. MacDonald.
    Dr. MacDonald. Congressman, we have a program where we 
inter-compare our carbon measurements, and we work together 
with the other countries, and you have heard sort of the----
    Chair Gordon. You say a program. So what is the 
coordinating body? Or what is the vehicle for that?
    Dr. MacDonald. The vehicle is that the standards are all 
checked against the NOAA standard that we have developed.
    Chair Gordon. But who says meeting come to order, everybody 
get started? What is the coordinating body?
    Dr. MacDonald. I will have to get back to you on the name 
of it.
    Chair Gordon. Okay. So would you say that we have an 
adequate coordinating national or international agency?
    Dr. MacDonald. Yes. We are calibrating against each other 
and----
    Chair Gordon. Okay. So what is that agency?
    Dr. MacDonald. Well, what we do is we bring the other 
samples and test them against our NOAA standard, so they have 
all agreed to do this, so that is how we have been doing it in 
the past.
    Chair Gordon. But is someone saying, NIST, you are not 
cooperating. We need to get this over here or----
    Dr. MacDonald. No. It is a voluntary----
    Chair Gordon. And is that going to be, you know, if we are 
going to bed billions of dollars on a system and raise people's 
rates and----
    Dr. MacDonald. I think we will----
    Chair Gordon.--be concerned about our children's future, is 
that adequate?
    Dr. MacDonald. No. I think we will have to improve it, but 
it has been a cooperative effort so far.
    Chair Gordon. Okay. Well, that is what I am--my question 
is--so is your answer then, no, it is not adequate?
    Dr. MacDonald. My question [sic] is that we have the right 
kinds of cooperation going on and that we will have to 
basically increase it significantly.
    Chair Gordon. Okay, and so does anybody disagree with that 
statement, that we need to do--okay. So what--I am telling you, 
we are getting ready to write some legislation here pretty 
soon, and I would like a little, you know, some help in 
determining do we have enough assets, how we coordinate it, 
what needs to be the body to bring it together, and who needs 
to coordinate that.
    Ms. Kruger, you mean EPA has played a role I think in 
trying to synthesize a lot of this information. What is your 
view?
    Ms. Kruger. Well, I would say the perspective that I bring 
to this is as someone who is really thinking about it from the 
standpoint of what are sources, specific sources emitting and 
how are we managing that and implementing those policies. And I 
would--I think that the--my impression is that the coordination 
that is going on at the scientific level is very robust among 
all of the agencies. It may need expansion in the policy 
dimension because I don't know if the coordination between the 
scientific research and the policy is as well developed or 
mature as the coordination on the science side.
    Chair Gordon. Okay. I am getting a little scared here 
because we are getting ready to make a multi-billion-dollar 
bet, and again, in our children's future and in our industry 
and in our pocketbook, and so we got to sort of have a, you 
know, a little more than faith here.
    Yes, sir.
    Dr. Birdsey. Yeah. I would like to mention again the 
Interagency Working Group that has done quite well at 
coordinating the science side of things and----
    Chair Gordon. Is this the North American Carbon----
    Dr. Birdsey. Well, the North American Carbon Program was an 
activity that was fostered by the Interagency Working Group, 
and that program has brought together literally hundreds of 
scientists from all kinds of disciplines working on methods to 
bring our assets together. We do have a lot of inventories and 
remote sensing and sampling and so forth.
    Chair Gordon. So who chairs that?
    Dr. Birdsey. Well, the Chair is rotated among agencies. It 
is currently co-chaired by USDA and NOAA, I believe. Is that 
right?
    Voice. NASA.
    Dr. Birdsey. USDA and NASA. Sorry.
    Chair Gordon. Okay. Well, we are going to have to a little 
more delving. I don't want to get into my time.

                          Monitoring Resources

    The last quick question is do we have adequate resources 
now, assets in terms of monitoring, or do we need to authorize 
more? If you think we are okay, then you don't need to say 
anything. If we need more, please tell me what it needs to be.
    Yes, sir.
    Dr. Freilich. Well, as you heard in the accumulation of 
testimony here, within the confines of North America and the 
Continental United States in particular, we have, I believe, an 
excellent mix of in situ, airborne, and remote sensing. To 
extend that understanding globally clearly requires additional 
resources for non-cooperating countries or difficult to get to 
places. And the unique vantage point of space with broad 
coverage but high resolution and frequent revisit needs to play 
a key role there. However, as was pointed out, those 
measurements are at the limits of our technological ability. We 
are succeeding at them, but they do require ground truthing 
verification and validation, but that is the basis for a global 
monitoring system.
    Chair Gordon. So that is something that we need to keep in 
mind when we go to Copenhagen.
    Dr. Freilich. Definitely.
    Chair Gordon. Okay. Unless--did you want to say something? 
I don't want to take other people's--okay. Then this is, again, 
I would hope that, I know that it is difficult for many of you 
because you are within an agency and you got to get clearance, 
and you can't get a free agent, but if your brother-in-law has, 
with your maybe consultation, some suggestions as to how we can 
set up some type of system, what we need, I would, we would 
like to have that, and we would like to have that, you know, 
pretty soon.
    So Mr. Hall, you are recognized for five minutes.

                    Regulating Carbon Credit Sources

    Mr. Hall. I would have yielded you more time if you needed 
it.
    Dr. Heber, a lot of people are looking to forestry and 
agriculture as potential sources of carbon credits, planting 
trees, switching to no-till farming practices, and some other 
projects, what they call low-hanging fruit for some of these 
folks.
    If you are unable to take direct measurements, how are 
these reductions verified? And what would this mean in terms of 
generating offset credits in a mandatory regulatory regime?
    Dr. Heber. I have not studied the methodology for 
determining those offsets, but I understand that models are 
used, inventorying of practices, agricultural practices and so 
on. Some assumptions are made, but direct measurements can help 
to refine those methodologies and make them more accurate. That 
is about how I would answer that question.
    Mr. Hall. Anybody else care to answer it?
    Dr. Birdsey. Yeah. I would like to mention that in practice 
there are a number of greenhouse gas registries and markets 
emerging and many of them have implemented ways to directly 
measure what is going on on the land. They are usually combined 
with remote sensing and models to provide a more complete 
picture and a better annual tracking of what is going on. So 
there is some technology available.
    There is some concern about the cost of the measurement 
relative to the value of the credits, and so that is an issue 
of folks trying to come up with efficient ways to bring these 
information systems together.
    Mr. Hall. We have had--excuse me. Go ahead.
    Dr. MacDonald. Congressman Hall, I would like to mention 
that we have, we actually instrument tall towers like 
television towers. We actually measure the amount of CO<INF>2</INF> 
being sucked out of the air by things like soybean crops and so 
on, so you can actually tell how much is being taken up by some 
of the plant life.
    Mr. Hall. Well, you know, we have gone through some 
litigation and then some areas, particularly in Texas and 
Oklahoma and maybe other areas of the country where cities in 
the proximity of ranches or oil fields or something that the 
cities felt like had invaded their lakes or their supply of 
water, you all are familiar with those--some of that 
litigation, I take it.
    In the interest of litigation I guess I am asking this 
question because their suits are still pending, and a lot of 
the cities are trying to use against ranches and they track the 
Superfund legislation we passed several years ago, because the 
Superfund legislation has more serious consequences of 
violation and increases their opportunity to get better and a 
more lasting and a more punishing judgment or verdict against 
the ranches or the oil fields or whatever they say pollutes the 
cities.
    Like Waco, Texas, for example, has litigation against the 
farm bureau group that the farm bureau-supported group of 
farmers and ranchers whose ranches are probably polluting some 
of the waterways.
    How would the use of this technology that you all have 
offset or how would this affect the emissions or the profile of 
the animal feeding operation industry, and how would the cost 
of this technology compare with the cost of the monitoring 
technologies?
    I will go back to you if I might on that, Dr. Heber.
    Dr. Heber. Would you repeat the question about which 
technology----
    Mr. Hall. I am not sure I can, but I will try.
    Dr. Heber. Sorry.
    Mr. Hall. There has been interest on both sides of the 
Capitol the concept of poop to power or the use of--I wish you 
hadn't written that, the use of anaerobic digestion to generate 
pipeline quality methane. How would the use of the technology 
affect the emissions profile of the animal feeding operation 
industry, and how would the cost of this technology compare 
with the cost of the monitoring technologies?
    Dr. Heber. The anaerobic digestion process affects other 
pollutants in addition to utilizing the methane and reducing 
greenhouse gases. It reduces odor and so improves the 
neighborhood, a nuisance issue. It reduces hydrogen sulfide, 
which is also a regulated pollutant, and so it is very--it also 
helps the manure handling for the farm, the solid waste 
management issue. So there is a lot of benefits there and 
generates electricity, so there is some revenue available 
because of the heat and the electricity that can be generated 
from anaerobic digestion.
    There is an economy of scale. These anaerobic digesters are 
typically put on large farms, and now, the monitoring of the 
emissions from an anaerobic digester can be kind of, you know, 
rather expensive. I can't really address how, you know, whether 
that expense is really too much or not or whether, you know, 
measurements--measurements need to be taken at anaerobic 
digesters to determine, you know, what the emission reductions 
are and then those measurements can then be used in models that 
would then predict the reductions at other sites or for other 
farms.
    So I think models, if they are validated by measurements, 
that may be sufficient rather than requiring monitoring at each 
one.
    Mr. Hall. I thank you, and I think my time is up.
    Chair Gordon. Thank you, Mr. Hall, and Mr. Wu is 
recognized.
    Mr. Wu. Thank you very much, Mr. Chair.

                       Baselines and Inventories

    I want to ask a couple of narrow technical questions, but 
first I would just like to express my concern that we have gone 
from one era where we have been in almost complete denial that 
there is a problem to a period when we are charging ahead with 
doing something about it and at least consensus amongst many 
groups that there is a problem out there. And it makes me think 
of other challenging situations such as colonial countries that 
have had their political systems repressed for a very long 
time, and all of a sudden they are independent, and they are 
supposed to be self-governing, democratic systems.
    It is not that I question the scope of the environmental 
challenge in front of us. It is just that looking back on that 
colonial experience it is a checkered history about success in 
going from suppressing certain forms of things and then running 
them well afterwards. I am very concerned that we are able to 
technically manage the systems that we are proposing, and I 
would like to get some assurance from you all.
    Now, none of you all addressed baseline issues, and if you 
could discuss the importance of baselines. My understanding is 
that the Europeans, in not getting baselines quite right, 
created some issues for themselves and what each of your groups 
can contribute to getting accurate baselines so that we can 
adequately manage what we need to.
    Dr. Birdsey.
    Dr. Birdsey. Yeah. Thank you. I will take a--I will start 
on it anyways. We do have a national forest inventory and a 
national resources inventory that have been monitoring 
historical trends for quite a number of years, and this 
certainly gives a baseline for where we have been.
    I think a lot of the greenhouse gas management systems that 
are being proposed, however, try to look to the future as to 
what things--what would happen without taking actions. So here 
you have to merge the inventory information with very good 
prognostic models, models that can pull together different 
sources of information and make accurate projections. Then you 
can see how well we have done compared to what was expected.
    Mr. Wu. Are you confident about those forest baselines, and 
is anybody else confident about any of the other baselines that 
we would need for the Continental United States?
    Dr. Birdsey. Well, I think the historical baseline record 
is quite good. I would have less confidence in the projections 
actually because there you are dealing with events that are 
hard to anticipate.
    Mr. Wu. Do any of the other panelists--Ms. Kruger.
    Ms. Kruger. I think one of the primary reasons why we were 
asked by Congress to undertake the development of the 
Greenhouse Gas Reporting Rule, which we recently proposed, was 
so that we could establish, have the data that we needed for 
policy development and the establishment of baselines across 
the economy. And in the proposal that we have got out for 
comment right now, we have laid out methods for how we would 
collect facility-specific information on greenhouse gas 
emissions across the economy, and that is the kind of 
information that we would draw on to inform future actions.
    So you are right. When the Europeans tried to start--were 
creating their emissions trading system, they had a good 
national inventory, but they didn't have that data 
disaggregated down to the facility level, and that caused some 
problems for them.
    With the data that we are collecting, and it is our goal to 
have that data, 2010 data reported to us early in 2011, we are 
looking forward to having the kinds of information that we will 
need to develop the bottom-up policies.
    Mr. Wu. Well, my clock is ticking down now, so perhaps I 
could rephrase the question. What work do we need going forward 
to more accurately hone baselines so that they are useful for a 
regulatory process?
    Dr. Heber.
    Dr. Heber. On the animal agriculture side we think that the 
field studies are needed for having more accurate reporting, 
and as I indicated in my testimony, we have the technology, and 
we have been measuring baseline of other air pollutants and 
actually greenhouse gas emissions are being added to that 
network now by the dairy industry.
    Mr. Wu. Dr. Law, a FluxNet perspective, or Dr. Gallagher, a 
NIST perspective on this?
    Dr. Law. I think that we need more sites in the FluxNet 
Network that are in managed systems. So I went through a 
rundown of that, and we don't have enough sites in early stages 
of forest development, for example, or after you have thinned 
forests and watch them recover. We don't have enough 
measurements there.
    Again, the sites are used to calibrate models, and once we 
get that and the remote sensing data like Landsat goes back to 
1972, we can go back and retrospectively look at the trends 
backwards and then go forward with estimates.
    In terms of the inventory data, AmeriFlux also measures 
more of the carbon budget components and ecosystems. So beyond 
what the Forest Service does, it would be great if the forest 
inventory grew--did add some of those measurements like soil 
carbon.
    Dr. Gallagher. Quickly, I guess, you know, I think you said 
it very well that the, you know, in terms of policy generation 
the more accurate and the more specific information you have 
the better off you are, and I think some of this will be a 
problem of looking at, making sure that, you know, baseline 
measurements are more and more detailed and more and more 
accurate.
    One of the issues we see in this is an overriding trend 
that we are paying attention to is that, you know, sort of 
global average baselines in terms of, you know, large length 
scales, in other words, averaging over large geographic areas. 
That--the status of that is actually quite good.
    I think one of the issues is where you start pushing to 
baseline levels, local emission levels at more localized 
measurements and how do those get incorporated, and that 
becomes important if you are looking at points of regulation or 
other things where you need specific information about 
greenhouse gas emissions over a sink or over an emission 
source.
    Mr. Wu. Thank you very much, Mr. Chair.
    Chair Gordon. Thank you, Mr. Wu, and Mr. Rohrabacher is 
recommended for five--or recognized for five minutes.

                          Skeptical Arguments

    Mr. Rohrabacher. Recommended for five minutes. That would 
be hard to do.
    First of all, let me ask how much money is being spent in 
monitoring these greenhouse gases maybe over the last 10 years? 
What have we spent? Are we talking about billions of dollars?
    Dr. Heber.
    Dr. Heber. On the animal agriculture side and pertaining to 
this study that we have done I would say, well, a half a 
million dollars has been put forward by the dairy industry to 
add greenhouse gases to five of the sites.
    Mr. Rohrabacher. Uh-huh.
    Dr. Heber. And with the limited amount of greenhouse gas 
measurements that were done by the National Air Emission 
Monitoring Study itself, I would estimate at least another half 
a million dollars. So approximately $1 million.
    Mr. Rohrabacher. But, I mean, in terms of overall in our 
national commitment to studying these greenhouse gases in the 
atmosphere. I mean, this is really a major commitment of 
resources, is it not? The answer I guess is yes.
    Let me then for the record just put into the record this 
quote from maybe ten various resources that I have talked to 
and for example, one quote here is from Dr. Yuri Izrael from 
the--who is the Director of Global Climate and Ecology 
Institute and a member of the Russian Academy of Sciences and 
was the Vice President of the UNIPCC in which he suggests, and 
these other quotes are suggesting that CO<INF>2</INF> and these 
greenhouse gases really do not create global warming and do not 
change the, basically change the climate, which is what we are 
talking about.
    I would imagine that you folks disagree with these 
assessments of your fellow scientific colleagues. Yes. The 
answer is yes. All right.
    Then maybe what we could--let me just suggest that I am 
putting these in the record, Mr. Chairman, for the record of 
the hearing. If I could submit this now for the record of the 
hearing where we have 10 prominent scientists who are in 
disagreement with the theory that greenhouse gases are----
    Chair Gordon. With no objection.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chair Gordon. And I want to get one thing clarified is 
that, Mr. Rohrabacher, you are quoting a Russian scientist.
    Mr. Rohrabacher. I certainly am.
    Chair Gordon. And you are betting on this Russian 
scientist?
    Mr. Rohrabacher. I certainly am. Along with the other nine 
who are American.
    Chair Gordon. I wanted to get a clarification, because that 
hasn't been consistent with some of your past actions.
    Mr. Rohrabacher. In the past I have called into question 
the Russians, that is correct, although----
    Chair Gordon. Thank you, Mr. Rohrabacher.
    Mr. Rohrabacher.--let me just note that I do recognize that 
they have a great deal of knowledge about the Arctic and about 
Greenland and all the rest.
    So with that said, would you concede, would this panel 
concede that there are prominent members of the scientific 
community that have offered alternative viewpoints to this idea 
that greenhouse gases are causing a change in the climate that 
deserve to be--and their arguments deserve to be addressed? Or 
is it case closed, debate is over, let us spend the money? Come 
on. Here is your chance. The skeptics are just totally 
irrational, or yeah, maybe they have got some points that need 
to be addressed.
    We will start with Dr. Heber down here.
    Dr. Heber. I am not an expert in this area of, you know, in 
this research area but----
    Mr. Rohrabacher. Uh-huh.
    Dr. Heber.--I think the skeptics ought to be heard and that 
their points ought to be addressed.
    Mr. Rohrabacher. Yeah. I would like to see a debate on the 
issue actually before this committee, Mr. Chairman. I would 
like to see several people just get up and have, with our 
participation, a--just a back and forth, rather than simply, 
which we have done, is base hearings on the premise that this 
is already an accepted truism and thus what do we need to do 
now to implement policy. I would suggest that this country is 
about to spend hundreds of billions of dollars on policies that 
are based on premises that have not been proven scientifically, 
and please feel free to disagree with me and if not, I would 
yield back the balance of my time.
    Chair Gordon. Thank you, Mr. Rohrabacher. We had a skeptic 
today that had an opportunity. You know, we have had those 
discussions here, and again, I think it is valid that we 
continue to look for skeptics to keep us honest, but the fact 
of the matter is over 170 nations, including the United States, 
certified by President Bush, confirmed that we do have global 
warming with 100 percent certainty and within 90 or 95 percent 
certainty that it is a direct result of human activity.
    Clearly, we need to continue to ask the questions, but I 
think that we have enough consensus that we need to move 
forward. But you serve a constructive part by making us 
continue to rethink.
    And, let us see, Ms. Dahlkemper, I believe you are next.
    Ms. Dahlkemper. Mine is not working. I will use yours. 
Thank you. Thank you, Mr. Chair.

                   The Effects of Forest Degradation

    According to an article in the October '08 issue of EOS, 
deforestation and forest degradation account for about seven to 
thirty percent of total anthropogenic carbon emissions. How 
well do we really understand the emissions from deforestation 
and degradation, and how much research is being done on the 
ways that we estimate these emissions from deforestation?
    I open this up to the panel. Whoever would like to answer 
this.
    Dr. Birdsey.
    Dr. Birdsey. I will take a start at it. You are interested 
globally in these estimates. Right?
    Ms. Dahlkemper. Yes.
    Dr. Birdsey. Yeah. I think over the years the--with the 
continuation of the remote sensing programs we have learned a 
lot about the rate of deforestation in countries of the globe 
where we didn't know much about that before. But there is quite 
a bit more difficulty in monitoring and estimating the impact 
of forest degradation because this is a lot more subtle 
process. We are not--land is not being cleared and put into 
some other use but rather some part of the growing stock or the 
biomass is being removed, and when you are taking a smaller 
portion of that out, it is not quite as detectable from space.
    So we know part of the answer, but the degradation part I 
think really needs quite a bit more work.
    Ms. Dahlkemper. Does any agency have the lead in this type 
of work?
    Dr. Birdsey. I think, I don't think it is a U.S. agency. 
Really, the Food and Agriculture Organization of the United 
Nations has really worked on this over the decades more than 
anyone, and so they have tried to organize reporting by the 
individual countries and tried to build up the capacity of 
individual countries to make their own estimates. They have 
done some independent work looking at remote sensing globally, 
but I don't believe that has evolved into a robust system yet.
    Ms. Dahlkemper. Anyone else like to address it?
    Dr. Freilich.
    Dr. Freilich. Yes. To put some numbers on your assertion, 
if I can remember correctly from the last papers that I read, 
based on satellite measurements as well as modeling and in situ 
analyses over several decades, I think the estimate is that we 
as a species have put about 300 billion tons of carbon into the 
atmosphere from burning fossil fuels and that there have been 
about another 160 billion tons of carbon excess put into the 
atmosphere through land use and land use changes in the 
industrial era.
    So those are relatively precise numbers that come from 
pretty sophisticated analyses of a whole wide range of global 
data, including the remote sensing data.

                Gaps in the National Observation Network

    Ms. Dahlkemper. Thank you. My other question really--Dr. 
Birdsey, you indicated that key elements of a National 
Observation Network are lacking, and I would ask you to maybe 
expand on this and of the major gaps in our National 
Observation Network, what two or three are particularly 
important to fill.
    Dr. Birdsey. Yeah. Thank you. Well, on the land side our 
inventories are fairly comprehensive but as Dr. Law mentioned, 
we are not capturing changes in forest soils as well as we 
should, and there are some parts of the country like Alaska 
where our inventory systems are not as intense as they should 
be. That is the sampling intensity is not as good as it should 
be. So those are a couple of areas on the land side.
    Our--we are concerned about the continuity of some of our 
observation systems. AmeriFlux, for example, is funded on an 
individual site basis, and sometimes they come and go is one 
example. Our atmospheric monitoring system, I am looking at 
direct measurements of the concentration of carbon dioxide in 
the atmosphere, shows great promise, but it is a very sparse 
system, so they are unable to resolve fluxes at a very small 
scale.
    Those are the few that come to mind.
    Ms. Dahlkemper. So if you were going to prioritize the gaps 
that need to be filled, number one, number two would be?
    Dr. Birdsey. Well, coming from the Forest Service I would 
like to see the land inventories beefed up a little bit, but I 
would also associate that with FluxNet. I think that would give 
us a really robust picture of what is going on on the land.
    My second area would probably be in measuring atmospheric 
CO<INF>2</INF> concentrations.
    Ms. Dalhkemper. Okay. Thank you. I yield back.
    Chair Gordon. And Dr. Broun is recognized for five minutes.
    Mr. Broun. Thank you, Mr. Chairman.

                      More on Skeptical Arguments

    Panel, I am a scientist. I am an applied scientist. I am a 
physician, and I believe in science. I believe in scientific 
integrity, and I believe when Mr. Rohrabacher asked you all a 
question the answer of silence was deafening except for from 
one individual, and that is Dr. Heber.
    And I must say that I am extremely disappointed. I think 
you all have absolutely zero scientific integrity, because you 
all have drank the Kool-Aid and have decided absolutely this 
belief process of human-induced global warming is absolutely a 
fact. And I disagree with the Chair, respectfully so, that--and 
our former President, he was misled, he was wrong, you are 
wrong, there is a tremendous panel, a thousand or more 
scientists around the world that disagree with human-induced 
global warming.
    My question to each of you all, are you all absolutely 
bound and determined to shut down the economy, create massive 
job losses, create a huge increase in the cost of food, 
medicine, all goods and services in this country to pursue an 
agenda, a political agenda that has absolutely no scientific 
consensus that there is human-induced global warming? And I 
would like each of you to answer just yes or no. Are you bound 
and determined to pursue this human-induced global warming idea 
that has no scientific consensus. Yes or no?
    We will start with Dr. Heber.
    Dr. Heber. I would say no, and I applaud EPA for 
negotiating with the livestock industries to get the science 
before regulation on the Clean Air Act pollutants and also the 
CERCLA (Comprehensive Environmental Response, Compensation, and 
Liability Act) and (Emergency Planning & Community Right-to-
Know Act) of pollutants. Get--make sure the science is there 
first before proceeding with regulations. Regulations can get 
ahead of the science, and I think it is important to get the 
science and even if we have to wait.
    Mr. Broun. Dr. Gallagher, just vote yes or no.
    Dr. Gallagher. I, you know, our position in this is we are 
ready to carry out the policies that are needed and to support 
them with good measurements. We are really not a climate change 
agency, and as a scientist I have to say that there is a strong 
preponderance of evidence that there are climatic affects 
associated with the gases, and that seems to be what we see in 
the policy.
    Mr. Broun. Well, there are a lot of other theories about 
that. In fact, that have just as much data as human-induced 
global warming. In fact, we have had global cooling over the 
last almost decade now, and we--a volcano creates as much 
CO<INF>2</INF> emissions as every human being in the world. Yes 
or no?
    Ms. Kruger. Yes. I believe that we do need to act to deal 
with the threat of climate change, but I don't believe that we, 
that doing that needs to jeopardize our economic growth.
    Mr. Broun. It is going to. Yes or no?
    Dr. Freilich. I agree that we do need to act. The data are 
clear, the preponderance of evidence is in favor of human-
induced global warming. I agree with Ms. Kruger that getting 
ahead of this issue will, in fact, be good for this country as 
opposed to shutting down the economy.
    Mr. Broun. Well, I am out of my time, but I want to 
reiterate. You all have shown me you have no scientific 
integrity, because you do not consider the skeptics and the 
other folks. You have just--you have drank the Kool-Aid, and I 
just ask you, in fact, the Secretary of Energy was here, and I 
asked him the same question about shutting down the economy. 
This Administration seems bent on shutting down our economy to 
pursue something that has no scientific consensus and no 
scientific, really no scientific basis. It is a theory, it is a 
belief system, it is a religion with you guys, and you are 
totally wrong.
    And with that, Mr. Chairman, I will yield back.
    Mr. Baird. [Presiding] I thank the gentleman. I would just 
encourage the panelists to be respectful of our panel and to 
avoid concluding that because someone disagrees with you that 
they have no integrity and you do. This is a committee that 
respects diversity of opinion, and in this case it is not just 
opinion, it is also scientific evidence. And questions of 
integrity we try to refrain from impugning the integrity of our 
colleagues here. I would just urge the panel members to show 
the similar respect for our witnesses.
    With that I will recognize Ms. Dahlkemper. Sorry. Mr. 
Lipinski.

                       Greenhouse Gas Measurement

    Mr. Lipinski. Thank you, Mr. Chair. I want to get back to 
the issue at hand in terms of measurement. There are a lot of 
debates going on right now about what to do about global 
climate change, and the two general categories of ways of 
addressing it right now that are being discussed here in 
Congress are going with a cap and--some type of cap-and-trade 
system or some type of tax or user fee, whatever you would like 
to call it.
    Is there--does either one of these require a greater degree 
of certainty on--in terms of measurement than the other one 
does? That is, what we know, what we can measure right now, 
what we have available. Does either of those two systems in 
general require more or less? Can we get away with less 
measurement accuracy with one rather than another? I just 
wanted to throw that general question out there.
    Ms. Kruger.
    Ms. Kruger. I think you are asking a very good question, 
and I think that the--that actually whether one were to do a 
cap-and-trade program or a tax, you would still need to measure 
the emissions accurately from the facilities or the entities 
that you are placing that tax on. So from the standpoint of the 
facility level of those bottom-up measurements, you are going 
to need, you would need a very similar type of measurement 
approach, whether that is continuous emission monitors or other 
means of measuring the emissions.
    In a cap-and-trade system you may have other types of 
policies that come along with it like offset policies that 
might not be part of a tax, and so there might be some things 
that wouldn't be done under a tax. But the fundamental 
measurement to determine what the amount of the tax is going to 
be is very similar to what you would need to do to determine 
compliance with a cap.
    Mr. Lipinski. Anyone else have--would agree with that then?
    Dr. MacDonald.
    Dr. MacDonald. Yes. I agree. Fundamentally from the top-
down viewpoint both of these would require a very similar 
monitoring system.
    Mr. Lipinski. Dr. Birdsey.
    Dr. Birdsey. Yeah. I would like to mention just that the 
details of the program are not independent of the monitoring 
system, or maybe I should say vice versa. I completely agree 
that considering the cost of monitoring needs to be part of the 
consideration of the program and, some of those details may or 
may not increase the cost.
    For example, if you are looking at estimating a change in 
emissions or sequestration in forests and you want to separate 
out the effect of a human action from some natural variability 
in climate or a wildfire and so forth, it may cost more to do 
that separation than simply to look at the total change.
    So there are ways the rules--the way the rules are written 
may affect the cost of the monitoring. So it is important to 
keep that in mind.
    Mr. Lipinski. I want to ask, following up, Ms. Kruger, the 
Reporting Rule as you say in your testimony does not establish 
protocols for offset projects. What would have to be--what kind 
of research projects would be needed to address that, the 
monitoring challenges of the offsets?
    Ms. Kruger. Well, I think if we were developing an approach 
like this for offsets, we would approach it the way that we did 
when we did, when we looked at, when we started working on the 
reporting rule. That is there are a number of monitoring 
protocols that have been developed in voluntary markets dealing 
with a wide range of possible offset sources. We have done that 
at EPA under our Climate Leaders Program, but there are many 
others, and you would basically want to look at what has been 
done out there, take the lessons from that, and use that to 
establish the types of monitoring protocols that would be 
needed.
    This would need to be supplemented, I think particularly in 
the agriculture and forestry area, with some additional policy 
considerations around whether the actions are additional and 
what happens if there is leakage or reversals. But broadly we 
could, we would draw on the--on a lot of good information that 
has been developed already.
    Mr. Lipinski. Thank you, and I want to thank all of you for 
your testimony. It is a difficult position because we are here 
today--you are here today to talk about measurement in the 
bigger question of what we are going to do about global climate 
change. It is sort of a separate issue, those policies, but it 
all comes down to the ability to measure as accurately as 
possible emissions, offsets, and so it is critical that we get 
that right in order to be able to have a policy that can work.
    So I yield back. Thank you, Mr. Chair.
    Mr. Baird. Thank you. I recognize Mr. Bilbray for five 
minutes.
    Mr. Bilbray. Thank you, Mr. Chairman.

              Measuring in Second and Third World Nations

    My question is, traditionally we have used air indexing as 
an indication of traditional emissions, basically a paper chase 
in the United States, in North America, and Europe. What is the 
credibility of our emissions measurement at this time in the 
Third World? Anybody want to talk about how you go down into 
Nicaragua right now and determine what is the emissions coming 
off of Nicaragua right now?
    Go ahead.
    Dr. MacDonald. Congressman, one thing we can do is with 
both our satellite assets and our aircraft assets, you can 
actually get estimates of the total amount of greenhouse gases 
coming off of a country by measurements that you take offshore 
and around it and that are observatory. So you get some 
estimate of what the source is.
    Mr. Bilbray. Because in the Third World right now this is 
the season where they are burning off half the forest right 
now. Anybody flies over Latin America right now will see the 
fires going off.
    My biggest concern is that traditionally we have always 
based it on the paper chase, because it is like if it isn't 
filed, it isn't there. China, you know, when we are facing 
areas like China and India, in fact, I--last report I saw 
China's increase last year was more than the total emissions of 
India.
    How do we monitor that kind where you end up having not 
only the massive industrial but also the urban practices that 
may have a massive increase in emissions, everything from the 
way they raise their poultry to the fact of the way they handle 
their lifestyle totally to their ag uses? How do we monitor it 
in places like China and India?
    Dr. MacDonald. Congressman, there is a similar answer. You 
know, we had this problem in the '50s where we tried to monitor 
if there were nuclear bombs, and we would actually measure the 
flow of various carbon isotopes. When we make measurements, 
both with our satellite assets and out over the ocean, we can 
actually determine how much the gases are in these quantities 
and at our observatories, and I think you are right that it is 
not a very precise measurement, but it does give us an estimate 
of what they are doing.
    Mr. Bilbray. Yeah. Anybody comment about that challenge? 
Because let me tell you something. I worked with cap-and-trade 
in California, and I know the Committee gets sick and tired of 
hearing about my air resources background, but I was a big 
supporter of cap-and-trade when it was, when it could be 
actually monitored. What scares me to death, and I see a huge 
potential for corruption, when we start going overseas with the 
cap-and-trade to where the monitoring and accountability, that 
there will be a teak forest that was grown anyways, it was 
going to be cut down, all at once becomes part of a sink 
program, and the ability to account for this scares me to 
death. I just think there are people out there looking to make 
a fortune off of this, and I will say this to the Chairman. 
Mark my words. We go into an international cap-and-trade, the 
scandal of what the diversion of funds and the way this is 
being hit is going to be a big one.
    So I will raise that. And let me just say to my colleagues 
that are frustrated at some of our colleagues attacking you 
guys about the whole concept of the climate change issue, my 
real concern is based on ice core samples. I am just looking at 
historical levels from ice core samples. I work with my scripps 
guys on that, but the problem is the credibility of the whole 
climate change issue was really hurt when the same people that 
are screaming that the world is coming to an end and that we 
must do extraordinary things to save the planet will not even 
stand up and say that the Federal Government's subsidy of corn 
ethanol is not only not solving the problem, in fact, the 
latest report from Duke University is it would be better to 
burn regular gasoline than to do what we are doing with corn 
ethanol. You know, that is the kind of thing that comes down.
    When the State Air Resources Board--Duke said it is better 
never to plant the crop. The California Air Resources 
scientists, the best in the world, said that it is better to 
burn regular gasoline than ethanol, but this town continues to 
subsidize it, under what justification? That we care about the 
planet? Our whole credibility is being destroyed. So when you 
see someone like Dana Rohrabacher throwing a fit, his argument 
is if you really cared about the planet, you would be taking on 
the corn industry, you would be willing to stand up for next 
generation nuclear, but you are not willing to take the heat to 
do what needs to address the problem that you are claiming 
around.
    And so actions do not reflect the concerns, and that is the 
credibility problem we have here.
    I apologize, Mr. Chairman, but every chance to be able to 
rattle a cage, you know, I will do it. Thank you.
    Mr. Baird. We do know that, and I would only point out that 
articles in Science Magazine and Nature and others have 
addressed precisely the gentleman's point. So it is not at all 
that the science community has been silent on this. They 
actually have spoken about it.
    Mr. Broun. I am talking about this----
    Mr. Baird. Oh, well, then don't take it out on these folks. 
Take it out on our folks.
    I will recognize myself for five minutes.

                Forestry and Ocean Acidification Issues

    I thank the panel. Two major issues for me are forests and 
oceans. Dr. Birdsey, when you were asked earlier by Ms. 
Dalhkemper about the lack of monitoring, I would added to that 
the CO<INF>2</INF> in the oceans. While the skeptics can talk 
about climate change, to be skeptical about ocean acidification 
is to skeptical about chemistry. This is an abstract computer 
modeling. This is CO<INF>2</INF>, goes in water, makes carbonic 
acid, carbonic acid makes the minerals less available, less 
available minerals means coral die. You can do that. It has 
been done. It has been replicated. It has been tested in a 
number of ways, and I hope you can talk a little bit about 
monitoring the oceans. I have the belief that that satellite 
that went into the oceans instead of the atmosphere was trying 
to tell us something.
    The second issue is forestry. So I am going to put that out 
there and ask the panel in a second to talk about the second 
issue, forestry. The renewable fuel standard and the new 
legislation being debated elsewhere in this building at this 
moment proscribes, prohibits the use of fuels from federal 
forests as part of biomass that would be subsidized. I think 
that is a terrible mistake. The dead trees and dying trees, we 
have a million acres of forests that need treatment in the 
pacific northwest. If you don't take those trees out, they are 
going to become carbon because they are going to burn or going 
to be eaten by insects, and yet we have in the name of the 
environment prescribed using this wood for a fuel source. I 
don't get it. If somebody can tell me scientifically why that 
is the case, I would sure welcome that.
    So let me put those two things on the table and open it up.
    Dr. Birdsey. Yeah. First I will respond a little bit about 
the question about monitoring oceans. I am not an expert on the 
oceans. I work with trees, so I am a little bit outside my area 
here, but as Chair of the Carbon Cycle Science Steering Group I 
do hear about oceans, and I can report a little bit about what 
that community has said.
    Everything we have said about continuity of satellites and 
the need to continue to improve the spectral resolution of 
those sensors applies to the oceans as well as the land, and so 
I hear a lot about the need to do a better job of sensing ocean 
color, for example, which indicates a lot about the biological 
activity there.
    I think the other part on the ocean side is there is not a 
very coordinated or sustained I should say system of direct 
observations. It is just a little harder to get out there. You 
know, there is no roads and so forth, and so to actually 
confirm the satellite observations with direct measurements is 
much more difficult in the oceans. And so I believe that is an 
important component that needs to be added.
    Mr. Baird. Given that they take up 25 percent of the carbon 
and the----
    Dr. Birdsey. Yeah.
    Mr. Baird.--a great portion of our oxygen is produced by 
the oceans, we got problems here with that lack of data.
    Dr. Birdsey. Yeah. I agree.
    Mr. Baird. Dr. MacDonald.
    Dr. MacDonald. I would like to agree with your comment. The 
CO<INF>2</INF> going in the ocean is a simple process. It does 
create acid, and we do go out on the ocean in NOAA with our 
ships and have made literally thousands of measurements, and it 
is very clear. The ocean is becoming more acidic, and it really 
is almost a completely independent problem associated with the 
release of CO<INF>2</INF>.
    Mr. Baird. Thank you. Would someone like to address the 
forest issue, because this is a critical--Dr. Freilich, if you 
wanted to talk about the ocean some more, that is fine, too, 
but I would sure like the forest issue addressed as well.
    Dr. Freilich. I will just say one word as an oceanographer 
by training, I don't know much about forests, and I do a little 
bit about the ocean, you mentioned some of the direct 
measurements and the validation. And in fact, there was a joint 
NASA, NOAA field campaign to the Southern Ocean, which is a 
huge expanse, which is very difficult to get to, has very high 
winds, and large gas transfer rates, and it was a very 
successful experiment about a year, about--just about a year 
ago, which actually pinned down some of the key transfer rates. 
And this coupled with satellite measurements such as we hope to 
get will actually open up those huge areas to calculation.
    Mr. Baird. Okay. Someone address the forest issue, please.
    Dr. Birdsey. I will get started on that. Obviously there 
are a lot of natural disturbances taking place in the forest; 
wildfire, insects, and so forth. If you go into the Rocky 
Mountains, vast areas of dead trees are visible.
    Mr. Baird. Go in the Cascades it is the same.
    Dr. Birdsey. Yeah. And so we--it would essential, I think, 
I didn't mention this in my previous response about some of the 
things that are needed, but some more direct measurement of 
impacts of these disturbances as they occur or right after they 
occur would be very useful to providing a much more accurate 
annual estimate of emissions from forests from these 
disturbances.
    But perhaps more important would be to understand a little 
bit more what is going to happen to these lands in the future. 
How fast are those dead, standing dead trees, for example, how 
fast are they going to decompose, what happens when they hit 
the ground, what is going to regenerate on those lands, how 
fast will it re-grow?
    Mr. Baird. Let me ask you a simple question, because I am 
out of time. Would it be better to let them burn in a forest 
fire or to use them as--succinct them in a form of a house or 
to use them at least, if you are going to burn them, to create 
energy as an alternative to coal?
    Dr. Birdsey. It is clearly better to make some use of that 
dead material rather than let it simply decompose and add 
CO<INF>2</INF> to the atmosphere.
    Mr. Baird. Thank you.
    Mr. Tonko.
    Mr. Tonko. Yes. Just briefly.
    Mr. Baird. Actually, you are recognized for five minutes.
    Mr. Tonko. Okay. I--thank you. I wasn't here for the start 
of the interaction with the panel and the Committee, so forgive 
me if it has been asked, but I think for clarification sake it 
is important. First, let me thank you for your professionalism 
and for your willingness to contribute to what is a very 
important dialogue.

                      Coordinating Data Collection

    There are a number of groups independently from the 
scientific community and federal agencies that get into data 
collection, and the ground-based and space-based information 
feed, the data that are collected are important, I think, to 
developing policy.
    Is there this structural concept that consolidates and 
coordinates all of the work done, the data collection, in a way 
that can drive the most meaningful policy response? I think 
that is critical to a sound outcome.
    Dr. Birdsey. We talked earlier that there is an interagency 
working group that tries to coordinate the activities of ten or 
so different federal agencies, all of which collect data in 
some fashion or manage the data and so forth.
    But in the end a lot of that goes back to the individual 
agencies and departments to manage those programs. In fact, 
many of those programs like the forest inventory that I am most 
familiar with is there anyways. It is not--it wasn't set up for 
a climate change type of program. It was set up for a lot of 
other purposes to assess the status of the forests in our 
country, to keep track of the changes, and so forth.
    But that data has become essential as a baseline for 
understanding what has happened for--beginning to take a look 
into the future as to where these forests are going, and you 
need that information to design the policies.
    Mr. Tonko. And is it, is there a connection to the 
scientific community, or is it just work done within an agency 
or a group of agencies that is feeding that system?
    Dr. Birdsey. I think it is really very well integrated 
among the scientific community. Many of the users, if not the 
majority of the users, are from universities or private 
institutions.
    Mr. Tonko. Uh-huh.
    Dr. Birdsey. Companies, and so forth. So these data systems 
are very widely used.
    Mr. Tonko. Are there improvements any of you could cite in 
terms of data collection and consolidation?
    Yes, sir. Dr. MacDonald.
    Dr. MacDonald. I think that our existing systems, a lot 
were designed for scientific reasons to, you know, understand 
what was happening. I think a mitigation regulatory regime will 
require probably a denser resolution. It will require more 
surface ops and actual measurements.
    So we are using them for a more extensive purpose, and it 
will probably require additional capabilities.
    Mr. Tonko. Uh-huh. Dr. Law, were you going to comment on 
it?
    Dr. Law. Yeah. I was going to say the same thing, is there 
will need to be more of a density of measurements and more 
comprehensive data system. Right now we have several databases, 
and we need a good connection between data streams and final 
product.
    Mr. Tonko. Is there like an example, a dynamic that you 
could cite for us that would reinforce that thinking?
    Dr. Law. I guess I would say with the North American Carbon 
Program a lot of the activity that is going on there right now 
is bringing all of this information together to feed into the 
models.
    Mr. Tonko. Yes. Ms. Kruger.
    Ms. Kruger. I think from the perspective of implementing a 
policy, we do have the measuring and monitoring technologies 
that we need to be confident in what we see happening, say, at 
a power plant or at an industrial facility. The new dimension 
to this discussion is to connect this now up to the scientific 
verification that is being done through the atmospheric 
measurements. I guess the scientists talk about ground 
truthing, and I sort of think about it as sky truthing. So is 
our, you know, is our policy, our policies in an aggregate way 
having the intended result, and if we see things that surprise 
us or we don't see the results that we were expecting, then we 
need to dig in and figure out why. Is it something that needs 
to happen in terms of the monitoring technologies we are using? 
Is there some interaction that we are missing that needs to be 
dealt with?
    And so I agree with the comments of the others on the panel 
that more monitoring stations, more spatial dis-aggregation, 
more frequent monitoring so that we can get a better picture 
from the atmospheric side to be able to reconcile with what we 
are seeing at the very bottom-up, but the facility side will be 
helpful to this process that we need to engage in going 
forward.
    Mr. Baird. We have been asked for a second round of 
questions, and I will now thank the gentleman from New York.
    We will recognize the gentleman from Texas, Mr. Hall.
    Mr. Hall. Yeah. I will be very brief because I am supposed 
to be somewhere right now. All of us have about four committees 
that we are trying to attend.
    Mr. Chairman----
    Mr. Baird. You are somewhere right now.

                        Economic Considerations

    Mr. Hall. I am somewhere right now. I want to just, I want 
to ask you a question and ask you for a yes or no answer, 
because that is very difficult, and I know that you are here 
and were asked to beef your memories up on that that you are 
knowledgeable about, and that is monitoring and measuring and 
verifying greenhouse gases, and that is what we asked you to 
come here and testify to, and that is what you have testified 
to, and I appreciate that.
    But what I--and I am going to make a presumption here that 
all of you have either been in a store, a Sears, a Wal-Mart, a 
Kmart, Walgreens, any of you that haven't been in some of those 
stores? Almost all of you have, haven't you? And I don't know 
much about forests or oceans, and Mr. Chairman, I know a story 
about an old man about my age that had applied for a job 
cutting timber with a company, and they asked him for a 
background, and he said, well, he worked for the Sahara Forest 
Company. And they said, well, Sahara is a desert. He said, 
yeah. It is now. That's not----
    Mr. Baird. We don't get our fire policy right----
    Mr. Hall. So I know nothing about forest or oceans, but I 
do know about----
    Mr. Baird. Texas has neither I noticed.
    Mr. Hall.--cash registers, and I want to ask you about a 
cash register, because that is very important. Each of you are 
probably pretty huge taxpayers, and as such you know that the 
government has a tax, has a cash register, and you send in the 
15th of April every year, and we are all affected by that.
    I just wanted to ask you if you will do this. As you go 
down through your testimony, as you go down making a decision 
on the future direction that we ought to go in the global 
warming thrust, is that you remember that there is a cash 
register and that somebody has got to pay, and remember that 
there are costs involved in it, and remember that there are 
taxes involved in it. That is the way the government extracts 
its money to pursue something like this. That you will 
certainly know that if we don't have help from China, Russia, 
Mexico, India, and I could go on and on, that we can't clean 
the world.
    And I just ask you to take all that into consideration and 
remember that there is a giant thing there as you can't get out 
of any of those stores without going by that cash register. And 
that is what this Nation has got to do, not to endanger the 
economy or have generational theft from youngsters not even 
born yet by putting taxes upon them. That you consider that.
    And that is all I ask. You are good Americans, and you care 
about this country, and you cared enough to come give your time 
today. I just want to ask you to remember that.
    Mr. Chairman, I yield back my time.
    Mr. Baird. I thank the gentleman.
    I will recognize myself for five minutes.
    Could you talk briefly about the percentage--very briefly. 
What is the percentage of CO<INF>2</INF> put out, global 
CO<INF>2</INF> put out by the United States of America at 
present?
    Ms. Kruger. I don't have the exact percentage for you, but 
it is on the order of 20 percent.
    Mr. Baird. And we are about what percentage of the world's 
population? Three.
    Ms. Kruger. Three.
    Mr. Baird. I think. Three to five. I mean, you can quibble 
a little but--so we are a small percentage of the population, 
we produce a large percentage of the greenhouse gases. So 
follow up on Mr. Hall's observations. If there is accuracy that 
ocean acidification, overheating of the climate are occurring, 
what are the economic costs to the next generation of that if 
we don't keep that in check?
    Any thoughts about that? We got to get some economists. My 
wife is an economist. She will whack me over the head and say, 
get an economist there. They will talk about that.
    Ms. Kruger.
    Ms. Kruger. I am not an economist. I am not a scientist 
either, so I am not going to----
    Mr. Baird. You are perfect. I am not getting much from the 
scientists here so----
    Ms. Kruger. Yeah. Yeah. What I would say is there is an 
enormous amount of work under way in the economic community 
coordinating with the scientific community to try to understand 
the costs of various climate change impacts, including the 
impacts of ocean acidification on coral reefs and in terms of 
both the ecosystems and the--and tourism and the like and--but 
looking across the broad range.
    And I think it is a very complicated and challenging topic 
because some of these costs can be readily monetized and other 
things are much more difficult to put a value on. But there is 
a major effort underway in the economic community to tackle 
that.
    Mr. Baird. Given the topic of the hearing about monitoring 
anthropogenic CO<INF>2</INF> or not just anthropogenic really, 
but in your scientific judgment do we have sufficient evidence 
of a linkage between anthropogenic CO<INF>2</INF> and increase 
in CO<INF>2</INF> in the atmosphere? Let us take that first. 
Let us set the temperature change aside and the acidification 
change aside. Is there a link between anthropogenic CO<INF>2</INF> 
and global atmosphere? Just quick yes or no around, down the 
line.
    Dr. MacDonald. Yes.
    Dr. Law. Yes.
    Dr. Birdsey. Yes.
    Dr. Freilich. Yes.
    Ms. Kruger. Yes.
    Dr. Heber. I am--this is not my area, but I am skeptical as 
I indicated earlier.
    Mr. Baird. Meaning you don't think that the historical 
measurements of CO<INF>2</INF>, atmospheric CO<INF>2</INF> 
concentration suggests that there is any relationship to all 
this fossil fuel we have been burning and the concentration of 
CO<INF>2</INF> in the atmosphere change? Let us set aside the 
temperature change. Just CO<INF>2</INF>.
    Dr. Heber. Right. I am skeptical that there is sufficient 
evidence to absolutely conclude that CO<INF>2</INF> production 
from human activities has created that significant amount of 
increase in CO<INF>2</INF>. There are other effects such as 
volcanoes, et cetera, and natural cycles.
    Mr. Baird. Okay. Do you believe that there has been an 
increase in CO<INF>2</INF> based on historical monitoring?
    Dr. Heber. I am not an expert in studying ice cores and 
that sort of thing, but I understand that there has been an 
increase in CO<INF>2</INF> in recent years, since it has been 
measured.
    Mr. Baird. Yes. Do you believe that the burning of fossil 
fuels creates CO<INF>2</INF>?
    Dr. Heber. Yes.
    Mr. Baird. Do you believe we burn a lot of fossil fuels?
    Dr. Heber. Yes.
    Mr. Baird. Do you believe that produces a lot of 
CO<INF>2</INF>?
    Dr. Heber. Yes.
    Mr. Baird. And do you--where do you think it goes?
    Dr. Heber. It goes into the atmosphere.
    Mr. Baird. Okay. And the ocean. Apparently 25 percent 
roughly.
    Dr. Heber. And some of it is used by plants, too.
    Mr. Baird. Yes. No question about that. If we look at the 
monitoring process, we actually had a hearing a few weeks back 
that suggested there was enough ambiguity that might make a 
cap-and-trade system somewhat difficult to monitor, even 
domestically. Certainly the non-point source. If you look at, 
you know, we have got some mechanisms to monitor coal plants, 
for example, but it is much more difficult to track at the pump 
or the tailpipe, those.
    Is there any reason--well, I am going to--I will defer. The 
question would run us into far more than--the question I was 
going to ask is there is a lot of folks in this town wedded to 
cap-and-trade. I think there is a legitimate argument that the 
complexities of a cap-and-trade system along the lines of what 
Mr. Bilbray presented might cause us to suggest that a carbon 
tax is more elegant, more efficient, more defensible in many 
ways economically, but I will leave that.
    Mr. Rohrabacher is recognized for five minutes.
    Mr. Rohrabacher. Thank you, Mr. Chairman.

               The Human Contribution of Greenhouse Gases

    What percentage of the atmosphere, of the air, what 
percentage of that is CO<INF>2</INF>? Come on. We got the 
experts here. What percentage of the air is CO<INF>2</INF>?
    Dr. Gallagher. Approximately 21 percent.
    Mr. Rohrabacher. Twenty-one percent of the air is 
CO<INF>2</INF>?
    Dr. Gallagher. No, no. That is----
    Dr. Heber. CO<INF>2</INF> is approximately, around 400 PPM, 
which is around----
    Dr. Gallagher. Point 03 percent.
    Dr. Heber. Point 03?
    Mr. Rohrabacher. So it is not 21 percent. It is .0--what 
was that? Three? Point 03 percent of the--what we are studying 
is CO<INF>2</INF>.
    Dr. Heber. Dr. Gallagher, you were talking about oxygen, 
weren't you? Okay.
    Mr. Rohrabacher. All right. Now----
    Dr. Gallagher. O<INF>2</INF>.
    Mr. Rohrabacher. Yeah. CO<INF>2</INF>. Of that CO<INF>2</INF> 
how much of that--now, we have--we keep hearing this other 20 
percent figure that the United States is responsible for 20 
percent of the CO<INF>2</INF>. Well, that really isn't the 
case, is it? Of the CO<INF>2</INF> that is 20 percent of the 
man-made CO<INF>2</INF>. Correct? And how much of that .03 
percent of that, how much of that is man made?
    Dr. MacDonald. The--about a third of it, Congressman.
    Mr. Rohrabacher. Okay.
    Dr. MacDonald. So we started----
    Mr. Rohrabacher. Do we agree? Is that agreed with the 
panel? That is a lot higher than anything--I have been through 
many hearings like this. The biggest thing I have ever heard is 
five to 10 percent. Now you are saying it has gone up to 30 
percent. Is that right?
    Dr. MacDonald. Congressman, we started at 280 when we 
started putting industrial gases in, and we are now at 385, so 
it is approximately a third.
    Mr. Rohrabacher. So the panel agrees with that? A third of 
all the CO<INF>2</INF> that is being put into the atmosphere 
comes from human sources. Is that agreed? Agree with that? 
Okay. I don't hear any--what about you? Do you agree with that? 
Okay.
    That is contrary, let me just note that that is contrary to 
what has been testified before this committee on several 
occasions by other scientists. But--so it is one-third of the 
.03, so you say .01 is what human beings are contributing to 
this. Is that what you are saying? Is that right?
    Dr. MacDonald. Yes, sir.
    Mr. Rohrabacher. Okay, and .01 and of that 20 percent of 
that is America's contribution of that. That would be--I am 
not--it is miniscule, ultra miniscule, and the changes the you 
would expect that we can actually change the amount of CO<INF>2</INF> 
through severe regulation or whatever cap-and-trade or 
whatever, what percentage of that human contribution to 
CO<INF>2</INF> could we expect to see without destroying the 
economy, et cetera, which we have heard about? What is the 
percentage would you expect that we would be able to eliminate? 
Are we talking about just setting the cap on where it is now? 
Are we talking about actually decreasing it? How much could we 
decrease it without hurting our economy? Maybe 10 percent or 20 
percent of what we are currently contributing? Would that be 
fair?
    In other words, are we expecting a 10 to 20 percent 
decrease of what we are currently contributing? Would that be 
something that would not be so catastrophic to our economy that 
it would damage the standard of living of our people? And then 
what percentage of that, what percentage of that is the 
percentage that we are talking about in the air? What kind of 
contribution would that make?
    I think what we are talking about, Mr. Chairman, is a 
massive effect on the lives of our people and a miniscule, if 
not even recordable, impact on the amount of CO<INF>2</INF> 
going into the air. It is very easy to say, oh, the United 
States put 20 percent of the CO<INF>2</INF> into the air, as if 
that is a huge impact on the air, but what we are now seeing 
that just represents a very tiny, insignificant part of what is 
going on on this planet in terms of air.
    Were there other times before humankind even existed when 
the CO<INF>2</INF> was a lot higher than that? How much higher 
was it in the past even before human beings existed?
    Dr. MacDonald. Congressman, in the last several hundred 
thousand years we are well above what we were in----
    Mr. Rohrabacher. Yeah.
    Dr. MacDonald.--very ancient times----
    Mr. Rohrabacher. Uh-huh.
    Dr. MacDonald.--say 100 million years ago. There were 
higher amount than there are now.
    Mr. Rohrabacher. Okay. Right. And in terms of the history 
of the planet, you know, we are talking about the last 5,000 
years as being, you know, a very miniscule part of the history 
of the planet. In the history of the planet there have been 
times when say 100 million years ago what level of CO<INF>2</INF> 
was in the air at that time?
    Dr. MacDonald. Congressman, in ancient history like 100 
million years ago there was significantly higher than there is 
now.
    Mr. Rohrabacher. Right. I have heard, you know, perhaps 
four or five times the amount, maybe even ten times the amount. 
During that time period did plants--oh, I am sorry.
    Mr. Baird. That is all right.
    Mr. Rohrabacher. Could I ask one last-minute--did plants 
and animal life thrive during that time period, or was there 
some huge problem that plagued humankind so the plants were 
less abundant and the animals were less healthy?
    By the way, I am sorry I have used my time. Obviously the 
answer is----
    Mr. Baird. It is a dangerous thing----
    Mr. Rohrabacher.--there were abundance of dinosaurs and 
other animals and an abundance of plant life, and that is why 
this issue is a threat.
    Mr. Baird. It is a dangerous thing when someone has already 
exceeded their time limit by a minute and a half and they begin 
to ask you about the Mesozoic Era.
    Mr. Rohrabacher. Thank you, Mr. Chairman.
    Mr. Baird. Mr. Bilbray for five minutes and beyond.
    Mr. Bilbray. For the record it was extra-terrestrial 
intervention that eliminated that dinosaur, not the CO<INF>2</INF> 
level. Okay. So, we can agree on that.
    My question, Dr. MacDonald, is your baseline. You assume 
that everything above our baseline when we start testing is man 
induced. Right?
    Dr. MacDonald. The predominance of the CO<INF>2</INF> added 
is man induced.
    Mr. Bilbray. Okay. So that assumption sort of really moves 
towards the one extreme of an assumption rather than mostly 
because it is hard to quantify how much of the natural 
fluctuation is going on because we haven't had measurements. 
Right? We don't have a history of measurements prior to the 
baseline.
    Dr. MacDonald. We really have quite a good history in the 
ice cores, Congressman.
    Mr. Bilbray. Okay. The--and it is the ice cores that we are 
looking at. I am just looking at two issues that really kind of 
frustrate me with our policy is that we keep talking about the 
28 percent of mobile sources and developing technology to 
address those as the Chairman pointed out, at the same time 
that we have the technology to eliminate 38 percent of just the 
stationary sources at the same time, you know, I guess what is 
it, black fuel they were talking about, Mr. Chairman? Trying to 
eliminate the credit for it?
    Mr. Baird. They have already kept it out of the bill. The 
current bill would say that forest biomass from federal 
forests----
    Mr. Bilbray. Yeah.
    Mr. Baird.--does not count towards renewable fuel.
    Mr. Bilbray. And the term black fuel or whatever they call 
it.
    Mr. Baird. Well, it is a--it could be that. It depends on 
how you process it.
    Mr. Bilbray. That is one of the things.
    Mr. Baird. Yes.
    Mr. Bilbray. But it is that kind of winners and losers we 
get into rather than looking at outcome.

                                Closing

    One of the things that I really encourage with your science 
and let me just tell you this from practical knowledge, a huge 
mistake we made in California was assuming that our modeling, 
that our original assumptions were right. We were operating off 
of tailpipe emissions when we were working on automobile 
industry, and I think you will agree we are light years ahead 
of a lot of other people. I think there is over a third of the 
states are following our new emission standards.
    But one of the things that really helped us get back on 
track that we were totally off, the so-called experts were dead 
wrong about was we grossly underestimated evaporation of 
emissions with automobiles, and the only reason why we were 
able to detect that failure is that we had remote sensing that 
detected that our emission reductions did not reflect our 
modeling standards. That is something that the experts were 
wrong, and the ability to go back and be able to do a reality 
check is why your industry or your science is so important. 
Because so often we love to make these assumptions and then--
and not go back to make sure that, as good scientists would, 
that our assumptions can be proven not just in the laboratory 
but in real-world applications.
    And there was a great example where the evaporative 
emission issue was so grossly underestimated, it was like 85 
percent, that the air quality was not improving in the LA area 
basin, even though we had done extraordinary improvements with 
the tailpipe emissions.
    And I would just like to point that out, Mr. Chairman, 
because I think a lot of people--I do not want to see us 
spending millions, if not billions of dollars about arguing the 
climate change issue. I want us to get--use that money to 
research what is and isn't working, where it is working, and 
continue to talk about the issue of what can be done to reduce 
it.
    And I will say it again and again and again. I really 
resent the fact that this town is into winners, picking winners 
and losers on this issue rather than going with the good 
science. And the Chairman has been very cooperative with me, 
being brave enough for us to talk about the outcome is what 
matters, not who contributes to it and who is supposedly a good 
guy and who is a bad guy. And that is the frustration I have 
working again and again on this issue is everybody is looking--
the bill that is being proposed on this Floor as pointed out by 
the Chairman is picking winners and losers based on some 
assumption that to me does not reflect the science that you 
are--you have presented to us on a lot of things and other 
scientists have presented to us.
    And what I hate is it is being done under the guise of 
science, under the guise of saving the planet, and frankly--I 
will use the term I am sick of a town full of environmental 
Jimmy Swaggerts who wrap themselves in green blankets and claim 
that God demands that we give their money to them because they 
will save the earth, when, in fact, the science doesn't reflect 
that. And I think a lot of us got to be brave enough--and the 
challenge to you as scientists being willing to stand up and 
say what is not politically correct at the moment or acceptable 
among certain groups, being able to say here is the science, 
and that science leads me to an assumption that the system or 
those who are trying to say they are addressing the problem are 
not working with that.
    And I appreciate the chance to jump into this again, Mr. 
Chairman, but I just think we got to stand up and say the 
emperor has no clothes on this issue. This is a crisis we need 
to address. We need to address it with real answers, not 
manufactured ones that reflect some agenda that has been 
sitting around for 30 years.
    Thank you, Mr. Chairman.
    Mr. Baird. Thank you, Mr. Bilbray.
    I think at this point we will thank our witnesses and thank 
those others in attendance, thank the colleagues on the panel, 
and I appreciate very much your insightful and informative 
testimony. The hearing will stand adjourned. Thank you very 
much.
    [Whereupon, at 12:13 p.m., the Committee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Alexander E. ``Sandy'' MacDonald, Deputy Assistant 
        Administrator for Laboratories and Cooperative Institutes, 
        Office of Oceanic and Atmospheric Research, National Oceanic 
        and Atmospheric Administration, U.S. Department of Commerce 

Questions submitted by Representative Ralph M. Hall

Q1.  Dr. MacDonald, in your testimony, you state that the only way to 
prove that any greenhouse gas reduction policies are actually working 
is through reporting and measurement of human-caused emissions.

Q1a.  Do you consider emissions as a result of land-use change as 
human-caused? How are the indirect emissions associated with land-use 
change measured?

A1a. Land-use change as referred to in my testimony and in discussions 
of climate change is human-caused. Emissions from land-use change 
usually result from conversion of forests or other natural systems into 
agricultural land, or conversion of agricultural land into cities and 
suburbs. Other phenomena, such as desertification (i.e., the extreme 
deterioration of land in arid and dry sub-humid areas due to loss of 
vegetation and soil moisture), include a significant human-caused 
component. Human-caused land-use change can also reduce emissions. For 
example, carbon sequestration through reforestation is one strategy for 
reducing the accumulation of carbon dioxide in the atmosphere.
    There are a number of ways emissions associated with land-use are 
measured and understood. The most recent Intergovernmental Panel on 
Climate Change Assessment Report (IPCC-AR4) evaluated a multitude of 
published, peer-reviewed, scientific reports and determined that about 
20% of the increase in carbon dioxide (CO<INF>2</INF>) emissions in the 
1990s could be traced to land-use change; the remainder could be 
attributed to fossil-fuel emissions and cement production. Making such 
a determination requires information from individual ecosystems (e.g., 
forest and soil carbon inventories), chemical/isotopic information on 
emissions, and comprehensive measurements of atmospheric components. It 
is the combination of these approaches that allows such assessments to 
be made with a high degree of confidence. Without such a comprehensive 
approach, it is difficult to assess with certainty the influence of the 
locations, types, and distributions of emissions on the global 
atmosphere.
    Measurements are typically classified by the scientific community 
as ``top-down'' or ``bottom-up.'' Common ``bottom-up'' measurements 
include source-specific emissions measurements, inventory-based 
reporting and accounting processes, which measure the amount and 
estimate relative contributions of different emissions on local-to 
regional-scales. ``Top down'' measurements calculate emissions from 
measured global burdens, atmospheric gradients, and atmospheric 
lifetimes. Bottom-up approaches generally provide more accurate 
measurements of individual and aggregate emissions sources. Top-down 
approaches typically provide a more robust estimate of total, global 
emissions or uptake because they look at the overall picture, whereas 
bottom-up approaches typically provide more robust estimates of the 
contribution of specific sources and sinks within countries and other 
political jurisdictions. To fully understand the impact of emissions 
and the effectiveness of greenhouse gas mitigation strategies, a 
combination of top-down and bottom-up measurements should be utilized. 
For example, recent advances in measurement technology and modeling 
techniques have allowed regional estimates of emissions from top-down 
analyses to verify regional or national bottom-up inventories.

Q1b.  What about from agricultural by-products such as livestock 
manure?

A1b. Besides CO<INF>2</INF>, the other two major long-lived greenhouse 
gases emitted as a results of land use change and agricultural 
activity--are methane (CH<INF>4</INF>) and nitrous oxide. The IPCC-AR4 
notes that while ``the global increases in carbon dioxide concentration 
are due primarily to fossil fuel use and land-use change . . . those of 
methane and nitrous oxide are primarily due to agriculture.'' Livestock 
manure management, fertilizer application, tilling and growing 
practices are all human activities that lead to the emission of 
greenhouse gases.
    Emissions produced by agricultural activities and by-products are 
measured through both bottom-up and top-down approaches. The IPCC 
conclusions are derived from an abundance of published studies, 
particularly those including isotopes, which allow scientists to 
identify and quantify the sources of these emissions. These studies 
involve from measurements associated with the atmosphere, ecosystem 
types, and specific human activities.

Q1c.  Forest fires can be generated through either natural or human-
induced means. How would these be counted?

A1c. For the purpose of national GHG reporting, emissions from forest 
wildfire, no matter whether of natural or man-caused origins, are 
currently included if they occur/are on ``managed lands'' and are not 
included otherwise. (Managed forest lands include all forests in the 
lower contiguous 48 States). Annual wildfire emissions are area-based, 
derived from estimates of area burned and estimates of average 
emissions per area from fire. These two numbers are multiplied together 
to arrive at an emissions due to fires estimate. Wildfire emissions 
from interior Alaska and rangelands have not historically been included 
in the estimates because it has only been in the last few years the 
entire land-base has been considered as good practice. Prescribed fire 
emissions are included also in the national inventories based on the 
same approach and data sources.

Q2.  You state that NOAA maintains a ``dense observation system in 
North America.'' Please describe what you mean by dense.

Q2a.  What types of monitoring and observational sensors are currently 
deployed in North America?

A2a. The NOAA observation system in North America is ``dense'' in that 
there are many more sites per unit area over North America than there 
are in the rest of NOAA's network. NOAA's sites constitute over half of 
the World Meteorological Organization (WMO)'s network for long-term 
global monitoring of greenhouse gases.
    As part of its global monitoring network across North America, NOAA 
deploys tall tower systems, routinely deploys monitoring aircraft, and 
maintains surface sampling sites. Each tall tower system continuously 
monitors CO<INF>2</INF> and carbon monoxide (CO) at several heights 
from the ground up to 1,500 feet. Additionally, flasks are collected 
twice daily at these sites to obtain measures of other greenhouse gases 
and tracers and are subsequently analyzed for as many as 50 atmospheric 
gases and isotopic tracers. Aircraft fly every two weeks at each of our 
aircraft sites, filling flasks at 12 heights from take off up to 
25,000-30,000 ft. These flasks are similarly analyzed for the full 
suite of greenhouse gases and tracers. NOAA also maintains one baseline 
observatory in North America in Barrow, Alaska.
    In addition to these atmospheric observing sites maintained by 
NOAA, the Ameriflux program, primarily funded by the Department of 
Energy, operates a number of sites for measuring CO<INF>2</INF> fluxes 
from ecosystems. These measurements, though very useful, are not 
currently configured in such a way as to achieve the high quality, 
large footprint, and measurement continuity of the NOAA atmospheric 
observing network. NOAA is working with its Ameriflux partners to 
modify their sites to contribute measurements that also could be of use 
for top down inversions. NOAA also conducts flux measurements at some 
of these sites.

Q2b.  How many sensors are there? How many per square mile?

A2b. Currently there are about 30 independent NOAA sampling sites in 
North America, which would represent about 300,000 square miles per 
sampling site, on average, if the sites were evenly spaced. Due to the 
scientific sampling design described in Question 2c that is used to 
site these sensors based on numerous factors including geography, the 
spacing of sensors on a per square mile basis is not evenly distributed 
across North America. A ``per square mile'' average, therefore, is not 
a useful descriptor of system coverage.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q2c.  What protocols were used to determine their placement?

A4c. The overall sampling design for North America, including the 
approximate number and location of air sampling sites, was developed 
with the U.S. scientific community and reported in the U.S. Carbon 
Cycle Science Plan (1999), the Report on the North American Carbon 
Program (2002), and the Science Implementation Strategy for the North 
American Carbon Program (2005). These reports were prepared by an 
interagency and multi-university group under the authority of the U.S. 
Global Change Research Program. As sites are added and models improved, 
however, site locations are adjusted to ensure maximum representation 
of each monitoring site in a comprehensive analysis. This is done with 
several considerations, but observing system simulation experiments are 
part of that process.

Q2d.  Is the observation system complete enough to be considered an 
operational asset? What type of upgrades would be needed to make the 
system operational? How long would that take to implement? How much 
would it cost? Does your observation system interact, complement or 
easily integrate with observation systems built by other Federal 
Agencies? What is needed to make that happen?

A2d. While still considered a research and development, rather than a 
operational asset due to its low density, NOAA's observation system has 
provided a half century of highly accurate, globally distributed 
measurements that are routine, well calibrated, compared through a 
strong quality assurance program, and interconnected with and driving 
the course of the international observational network for greenhouse 
gases through the WMO. Up-to-date data from the network are available 
on the internet and dozens of publications using these data have been 
produced each year for decades. NOAA's CO<INF>2</INF> and CH<INF>4</INF> 
measurements are considered the ``gold standard'' for global 
measurements; its network is unparalleled. However, the network must be 
expanded and strengthened if it is to serve in an operational capacity.
    For NOAA's observation system to be transitioned from research and 
development to an operational system that can discern the effectiveness 
of individual greenhouse gas mitigation strategies or the relative 
success of such efforts in specific regions, the network would need to 
be roughly 10 times denser than that of today. More broadly, at an 
interagency level, an operational system would also require higher 
resolution global emission transport models, better measurements of 
boundary layer meteorology, and higher resolution integrated land 
models. Finally, satellite measurements of greenhouse gases today are 
in their infancy and need to address issues of accuracy, precision, 
atmospheric interference, and regional bias. These improvements could 
enhance spatial coverage of CO<INF>2</INF>, CH<INF>4</INF>, and 
possibly other greenhouse gases. Validating satellite measurements 
properly will require a globally coherent observation and analysis 
system of surface- and aircraft-based measurements. Satellite 
measurements, once sufficiently precise and stable, could be 
particularly valuable for covering areas where ground-based or aircraft 
measurements are limited, but they will need to work together with a 
surface-based network, as is done for other satellite observations.
    Existing information and measurement capabilities are adequate to 
support the initiation of national climate policies. The comprehensive 
interagency effort described above to improve our understanding of and 
ability to measure stocks and flows of carbon and nitrogen at global, 
regional and local scales will be important for building confidence 
among decision-makers and the public that we can assess whether our 
emission reduction and sequestration programs are effective towards 
mitigating climate change. We envision these tools ultimately being 
integrated into a comprehensive operational system of measurements.
    This must be an interagency effort, as capabilities are spread 
among US agencies.

Q2e.  Does your observation system duplicate observation or monitoring 
activities in other Federal agencies?

A2e. No, NOAA's observation system does not duplicate observation or 
monitoring activities in other Federal agencies. Observation and 
monitoring activities in other Federal agencies are generally 
complimentary to NOAA's observation system. In addition, we continue to 
work and collaborate with other Federal agencies engaged in greenhouse 
gas observation or monitoring to enhance our nation's greenhouse gas 
monitoring and observation network. For example, part of the NOAA 
greenhouse gas observation system's quality control requires comparison 
of results from independent measurement systems to ensure we are all on 
the right track. The National Science Foundation's program funds 
research involving longer-term greenhouse gas measurements of CO<INF>2</INF> 
at several sites, which is critical to that quality assurance effort 
for CO<INF>2</INF>.
    Similarly, the Department of Energy (DOE)'s Ameriflux system 
measures fluxes of CO<INF>2</INF> to improve ``bottom-up'' estimates; 
it does not duplicate NOAA's measurements, but rather is complementary. 
Ameriflux measurements, although extremely useful, are not currently 
configured in comparable quality, large footprint, and measurement 
continuity as the NOAA atmospheric observing network. NOAA is working 
with its Ameriflux partners to modify their sites to contribute 
measurements that also could be of use for top down inversions, thus 
improving the overall network.

Q3.  The level of investment necessary to achieve significant emission 
reductions will be enormous. If the only verification of reduction 
policies is the fact that they are being complied with and not that 
they are actually helping to mitigate climate change, how can we be 
assured that the investments we make are the right ones?

A3. The IPCC-AR4 determined that costs for addressing climate change 
through the reduction of greenhouse gas emissions between now and 2050 
range from an increase of 1% to a decrease of 5.5% of the global GDP, 
depending upon region, approaches taken, and the target value for 
atmospheric greenhouse gas concentrations. Models deriving these costs, 
however, do not consider the value of climate and economic benefits of 
mitigation measures, which could be significant.
    The scientific evidence is very strong that the pronounced warming 
of the last part of the 20th century, continuing into the 21St, has 
been and is being driven primarily by the build-up in the atmosphere of 
CO<INF>2</INF> and other heat-trapping gases and particles caused by 
human activities.
    There is however a distinction that needs to be made between 
ensuring that reduction policies are working (i.e., reductions are in 
fact taking place), and that the impacts of these policies are having 
their intended impact on the global climate system. On the first 
question, the federal government has a number of existing systems in 
place to accomplish much of the first task, including the national 
inventory and facility-level reporting, although there are improvements 
that will be needed, particularly with respect to land-use and 
agriculture. These improvements can be achieved through a thoughtful 
combination of bottom-up and top-down techniques that will necessarily 
vary depending on the nature of the sources and types of policies in 
place.
    On the second question, how we detect changes in the climate as a 
result of emissions reductions will be addressed by numerous, diverse 
studies as has been done for the past several decades. Climate change 
is made evident not only by an overall temperature increase, but by 
melting of glaciers around the world, larger and more sustained extreme 
weather events, disrupted ecosystems, reduced water supplies, 
agricultural impacts, sea level rise, etc., as summarized and evaluated 
in the IPCC and national assessments. These assessments, driven by 
thousands of peer-reviewed publications, are typically performed every 
four years, although capturing sustained changes in climate trends due 
to human influences would likely require a longer term record of 
observations. Tackling human-caused climate change is a process that 
will require decades, at a minimum, so quadrennial evaluations of 
emission reduction strategies and climate change will be immensely 
valuable to society during the coming century.

Q4.  Dr. MacDonald, in your testimony you state that objective, 
credible and specific information about the effectiveness of mitigation 
efforts is necessary to guide national policies. However, you also 
state that we cannot expect to see the effects of reduced emissions 
immediately on the rate of climate change. How do you reconcile these 
two concepts?

A4. The effect of greenhouse gas emissions on climate change has a 
built-in time delay--analogous to the time lag between when you turn up 
the dial on your electric blanket versus the time when the blanket 
actually reaches the selected temperature. In the Earth System, the 
amount of greenhouse gas in the atmosphere is the setting on the dial, 
whereas climate change represents the ultimate temperature of the 
blanket. Efforts to reduce greenhouse gas emissions are an attempt to 
stop turning up the dial. Effective greenhouse gas monitoring and 
information are critical to determining whether those efforts are 
succeeding, in other words,--is the dial continuing to be turned up and 
if so, what is causing it and how fast is it turning? This verification 
system does not verify the final temperature of the blanket (i.e., the 
ultimate climate change effects), but rather helps us determine what is 
working to stop the dial from turning up. Other information systems can 
provide the information on climate change effects, although this one 
would help in parts of those efforts as well.
    Between now and roughly 2020, we have the opportunity to enhance 
our current observation and analysis capability and our understanding 
of tradeoffs and offsets to a level that will be needed over the 
subsequent decades. We also will establish baselines and gain 
information along the way that will help inform the relative success of 
early efforts. The myriad efforts to reduce greenhouse gas emissions 
and the skill with which we will be able to verify those successes will 
evolve and improve together with time.

Q5.  Dr. MacDonald, you state that NOAA's science-based effort for 
monitoring greenhouse gases and aerosols in the atmosphere requires 
sustained, comparable measurements at an accuracy level of 0.05% or 
better. If this is the level of accuracy that NOAA has achieved for 
monitoring greenhouse gas emissions for scientific reasons, could the 
same level of accuracy be attained in monitoring greenhouse gas 
emissions in the bottom-up, individual source level that would form the 
basis for any mandatory emission reduction policy?

A5. The accuracies referred to in the question are for measurements of 
atmospheric concentrations, not source-specific emissions. Fortunately, 
bottom-up measurements of individual sources of CO<INF>2</INF>. for 
example, do not require the high degree of accuracy required by 
atmospheric top down measurements of concentrations. The amount of 
CO<INF>2</INF> in a given volume of emissions from a power plant is 
proportionately huge compared to the amount of CO<INF>2</INF> that 
resides in the same volume of the atmosphere, on average. Because 
CO<INF>2</INF> readily disperses in the atmosphere after it is emitted, 
a much higher degree of accuracy is required to measure its atmospheric 
concentration, relative to the accuracy required to measure its 
emission at the source. A limitation of bottom-up measurements, 
however, is the accuracy of global estimates that are derived by 
extrapolating with bottom-up measurements.

    For example, some greenhouse gas inventory estimates (e.g., 
transportation) do not require actual measurements, but rather are 
based on aggregate motor vehicle fuel consumption statistics. Others, 
such as estimates of forest carbon uptake, require considerable 
assumption about trunk and root storage. Further, emissions from soils 
are broadly dispersed and not readily suited to simple bottom-up 
measurements, and are typically addressed in greenhouse gas inventories 
using soil process models. Finally, as noted in the answer to question 
lb, methane and nitrous oxide emissions derive mainly from wetlands and 
agriculture. Bottom-up measurements of these emissions, while immensely 
valuable for understanding processes, have significant limitations with 
respect to capturing regional-scale or even global scale information.
    Despite their limitations, these bottom-up measurements are 
extremely valuable and provide information at source-specific and local 
to regional scales that are not attainable with top-down measurements. 
It is only through a combination of top-down and bottom-up 
measurements; however, that we will be able to attain the accurate 
measures from source to regional to global scales that decision-makers 
and the public will ultimately want.

Q6.  If there is currently no greenhouse gas monitoring network large 
enough for CarbonTracker to provide fine scale resolution with low 
uncertainty, what would it take to get such a network in place? How 
long would it take and much would it cost?

A6. Please also see response to questions 2d and 3.

    As I noted in my written testimony, NOAA's CarbonTracker tool is 
widely acknowledged as the most open and effective approach to date for 
estimating CO<INF>2</INF> emissions and uptake, particularly at large 
spatial scales. When fully developed, CarbonTracker will make it 
possible to track regional emissions of CO<INF>2</INF> over long 
periods of time and to determine which areas are absorbing CO<INF>2</INF> 
from the atmosphere. Under its current configuration, CarbonTracker is 
effective in capturing large-scale, North American phenomena. A ``top 
down'' system like CarbonTracker helps independently validate the 
combined fluxes calculated from ``bottom up'' efforts such as estimated 
and measured fossil fuel emissions and biological sources. If estimates 
of sources and sinks do not agree with measured atmospheric 
concentrations, the ``top down'' approach provides the information 
needed to continually improve our understanding of the carbon cycle.
    This must be an interagency effort, as the capabilities are spread 
among US agencies.

Q7.  With the reduced functionality of the GOES-R satellite series, the 
never-ending problems with NPOESS that have jeopardized the ability of 
the program to succeed and the loss of NASA's Orbiting Carbon 
Observatory, how do these setbacks affect NOAA's ability to rely on 
space-based observations? How does this affect your assessment about 
NOAA's ability to assist in the development of an accurate baseline and 
maintaining of data continuity?

A7. Despite the challenges that NOAA, NASA and the Department of 
Defense are facing with the National Polar-Orbiting Operational 
Environmental Satellite System (NPOESS) program, the data that will 
result from the NPOESS instruments will significantly advance the 
ability to monitor global weather and climate. Similarly, NOAA and NASA 
are developing the Geostationary Operational Environmental Satellites-R 
series (GOES-R) program which will advance weather forecasting 
capabilities beyond what current geostationary weather satellites 
provide. NASA is currently assessing the next steps regarding the 
Orbiting Carbon Observatory and NOAA awaits its decision.
    NOAA currently monitors the climate from a variety of ground-based, 
space-based, and airborne platforms. Existing platforms contribute 
significantly to an accurate greenhouse gas baselines. In fact, data 
continuity over time is guaranteed by the ground-based network, rather 
than the spacebased network. The GOES-R and NPOESS operational 
satellites and NASA's research satellites will provide advancements 
over the current monitoring platforms by providing enhanced data in 
areas that are remote and sparsely sampled. These new data sources will 
complement and improve NOAA's existing global observing capabilities. 
As such, NOAA will continue to use existing platforms to monitor 
climate changes and as data from the NPOESS, GOES-R, and NASA research 
satellite become available, NOAA will incorporate these data into its 
existing monitoring systems.

Questions submitted by Representative Pete Olson

Q1.  If the rate of climate change is such that we will not see the 
effects of emission reductions except through monitoring and 
verification of anthropogenic emissions, how will science determine 
that the actions taken are actually effective? What type of time lag 
are we talking about here?

A1. The effect of greenhouse gas emissions on climate change has a 
built-in time delay--analogous to the time lag between when you turn up 
the dial on your electric blanket versus the time when the blanket 
actually reaches the selected temperature. In the Earth System, the 
amount of greenhouse gas in the atmosphere is the setting on the dial, 
whereas climate change represents the ultimate temperature of the 
blanket. Efforts to reduce greenhouse gas emissions are an attempt to 
stop turning up the dial. Effective greenhouse gas monitoring and 
information are critical to determining whether those efforts are 
succeeding, in other words,--is the dial continuing to be turned up and 
if so, what is causing it and how fast is it turning? This verification 
system does not verify the final temperature of the blanket (i.e., the 
ultimate climate change effects), but rather helps us determine what is 
working to stop the dial from turning up.
    How fast climate itself is changing and how we detect it will be 
addressed by numerous, diverse studies as has been done for the past 
several decades. Climate change is expressed not only by an overall 
temperature increase, but by melting of glaciers around the world, 
larger and more sustained extremes in weather and climate, disrupted 
ecosystems, reduced water supplies, agricultural impacts, sea level 
rise, etc., as summarized and evaluated in the IPCC and national 
assessments. These assessments, driven by thousands of peer-reviewed 
publications, are typically performed every four years, although 
capturing sustained changes in climate trends due to human influences 
would likely require a longer term record of observations. It is 
important to keep in mind, however, that tackling human-caused climate 
change is a process that will require decades, at a minimum, so 
quadrennial evaluations of emission reduction strategies and climate 
change will be immensely valuable to society during the coming century.
    The top-down and bottom up approach discussed in my testimony is 
that which will be needed to validate, on regional scales, the 
effectiveness of emission reduction and sequestration strategies of 
society's choosing. NOAA is in a unique position to contribute to this 
need, in addition to analyzing and monitoring the complex reactions of 
the climate system to increased greenhouse gases over time. Both 
efforts will further inform society's decisions regarding greenhouse 
gas emissions and climate change. By monitoring tracers of emissions as 
well as greenhouse gases, scientists will be able to determine not only 
how greenhouse gas emissions are changing, but what those changes can 
be attributed to with respect to changes in the climate.

Q2.  What type of research is being conducted that ensures the 
investment on the scale of billions and trillions of dollars is 
actually in the areas that will have the most impact on mitigating 
climate change?

A2. There is little doubt that direct and indirect human emissions of 
greenhouse gases are responsible for climate change. Three fundamental 
IPCC-AR4 statements together support this: (1) ``warming of the climate 
system is unequivocal'', (2) ``most of the observed increase in 
globally averaged temperatures since the mid-20th century is very 
likely due to the observed increase in anthropogenic greenhouse gas 
concentrations,'' and (3) ``carbon dioxide is the most important 
anthropogenic greenhouse gas''. Thus, the ``area that will have the 
most impact on mitigating climate change'' is that of reducing 
greenhouse gas emissions, with an emphasis on carbon dioxide. 
Considerable research is being conducted, and has been for decades, to 
understand the causes and consequences of climate change, leading in 
part to the three statements above. In the U.S., much of this research 
has been conducted under the authority of the U.S. Global Change 
Research Act of 1990 and the U.S. Clean Air Act of 1990. This research 
has involved understanding the interactions among atmospheric 
greenhouse gases, the ocean, and the terrestrial biosphere and the 
relative contribution of human emissions to the current and evolving 
atmospheric amounts of these gases. Research to date shows that 
CO<INF>2</INF> emissions, owing to fossil fuel burning and land use 
change, have accelerated over the past 200 years, doubling the rate of 
emission three times per century. If society begins making efforts to 
change this trend and reduce CO<INF>2</INF> and other greenhouse gas 
emissions, it will be well served by an enhanced monitoring system to 
ensure its efforts lead to success.

Q3.  In years past we have frequently heard some measure of frustration 
from members of the research community about the challenge of 
transitioning NASA-developed technologies to an operational user. 
Researchers often find immense value in a new NASA-developed sensor, 
but then become discouraged when NASA chooses not to develop a serial 
mission to ensure a long-term data record. With specific regard to 
climate monitoring, measurement and verification, how would you 
describe the cooperation between NASA and NOAA on the issue of research 
to operations?

A3. NOAA and NASA have had a long history of cooperation and 
collaboration pursuing the United States' goal of providing sustained 
space-based monitoring of the global environment. NOAA scientists 
frequently evaluate the measurements from relevant NASA research 
satellites to determine if these research missions could provide 
improvements to NOAA's operational products and services. Research 
measurements are introduced into NOAA's operational product generation 
process as the first stage of a research-to-operations transition. When 
research measurements prove to add value to NOAA's operational 
services, efforts are initiated to sustain the measurements after 
termination of the research mission. When appropriate, NOAA's National 
Environmental Satellite, Data, and Information Service develops plans 
to bring these measurements into an operational mode either on a NOAA 
platform, through partnerships with other space agencies, or through a 
data buy from the aerospace industry. The process of transitioning NASA 
research satellites to NOAA operations programs involves joint 
planning, mitigation, collaboration, and the development of scientific 
studies and approaches for coordinating Earth science and operational 
Earth monitoring programs.
    NOAA works with the research community to ensure that its science 
needs are considered in the joint NASA-NOAA planning efforts. NOAA and 
NASA have developed and are implementing plans to transition the 
following climate measurements, which represent sensors demanifested 
from the NPOESS platform, from research to operational space missions:

-       Altimetry measurements

-       Total Solar Irradiance measurements

-       Earth radiation budget measurements

-       Ozone measurements

    NOAA and NASA are doing collaborative planning that could support a 
transition of other measurements to operations platforms in the future.
    NOAA and NASA agree that the current research to operations 
transition planning is exploratory. Institutionalizing a robust and 
routine transition process requires additional work. Both agencies have 
benefited from clear recommendations provided by the National Academies 
of Science and the research community to improve this process. An 
example of a successful NOAA-NASA-Environmental Protection Agency (EPA) 
collaboration is the monitoring of depletion of stratospheric ozone 
over Antarctica. Title VI of the Clean Air Act of 1990 required U.S. 
agencies to marshal their resources and bring their capabilities to 
bear on the problem of stratospheric ozone depletion. This section was 
placed in the Act in support of the Montreal Protocol on Substances 
that Deplete Ozone, an international agreement to which the United 
States is a party. Scientific analysis has shown that human emissions 
of chlorofluorocarbons and a few other gases were primarily responsible 
for changing the chemistry of the stratosphere in such a way as to 
rapidly and deleteriously deplete Earth's protective ozone layer. 
Congress authorized EPA to regulate emissions and, in Section 603 of 
the Clean Air Act, NOAA and NASA to monitor and report on ozone and 
ozone depleting substances in the atmosphere. A combination of EPA's 
regulation and bottom-up inventories with NOAA and NASA's satellite 
monitoring and assessments was necessary for success. Today, the long-
lived, ozone-depleting compounds are decreasing in the atmosphere, the 
ozone hole has virtually stabilized, and we anticipate complete 
recovery in several decades.
    Part of the complex space-based and in-situ monitoring effort to 
address atmospheric ozone depletion involved using NOAA's operational 
satellites and NASA research satellites, in conjunction with NOAA's 
world-wide network of ground-based spectrometers and its World 
Calibration Center for ozone to ensure consistency and enable 
improvement of satellite ozone measurements over the years. We 
anticipate a similar arrangement with greenhouse gases and look forward 
to working with NASA in this effort. NOAA will continue to provide 
space-based ozone monitoring capabilities on its next generation polar-
orbiting satellites.
                   Answers to Post-Hearing Questions
Responses by Dr. Beverly Law, Professor, Department of Forest 
        Ecosystems and Society; Science Chair, AmeriFlux Network, 
        Oregon State University

Questions submitted by Representative Ralph M. Hall

Q1.  Many people look to forestry and agriculture as potential sources 
of carbon credits. Planting trees, switching to no-till farming 
practices and other projects are seen as a low-hanging fruit for 
greenhouse gas reductions. If you are unable to take direct 
measurements, how are these reductions verified? What would this mean 
in terms of generating offset credits in a mandatory regulatory regime?

A1. Because direct measurements do not cover 100% of the land surface, 
inventories and eddy covariance data need to be supplemented with 
moderate and high resolution remote sensing data and models to map 
carbon stocks and fluxes. The change in carbon flux say five years 
after planting a forest would be based on the same methods used for the 
baseline, thus the uncertainty would be related to change in area (from 
remote sensing data) that has been treated for the project. That 
uncertainty is estimated to be 10-25%. It would require annual to bi-
annual monitoring with remote sensing data that are used to determine 
area afforested or deforested as input to modeling that produces the 
carbon stocks and flux estimates. In terms of generating offset 
credits, monitoring and audits of carbon sequestration will be 
necessary to determine status of carbon uptake, insurance will be 
necessary to protect past carbon sequestration from destruction by fire 
or windstorms, and penalty payments will be necessary if the forest is 
eventually cut. Such efforts will be costly to administer, diminishing 
the value of the rather modest carbon credits expected from forestry 
(Schlesinger 2006).

Q2.  In your testimony, you indicate your organization monitors and 
evaluates the effects of changes in land use on carbon dioxide levels. 
To what extent is such monitoring being done in developing countries 
and how confident are you in the accuracy of such measurements?

A2. The distribution of flux sites is determined by national scientific 
research programs, with a relatively large number in many developed 
countries, but few or none in developing countries. China and India 
recently started their own networks. Over the past 10 years, the number 
of sites in the global network has increased to over 400 sites 
worldwide with 103 in the AmeriFlux network. The regional networks 
operate independently, but protocols exist or are being developed to 
coordinate or standardize measurements across networks for various 
purposes. Evaluation of the current global dataset indicates that 
annual errors in eddy covariance tower data typically range from 30 to 
100 grams carbon per square meter ground per year (Baldocchi 2008). The 
AmeriFlux network has a quality assurance group to help reduce 
measurement and analysis error, but many developing countries do not 
have this, so I would think the accuracy of measurements at recently 
installed sites in developing countries would not be as good as in the 
U.S. if they do not have a QA program. Currently, uncertainties in 
national inventories for the net CO<INF>2</INF> emissions from 
agriculture, forestry, and other land use often range from 50% to more 
than 100% using inventory data for the estimates and this could be 
reduced by incorporating eddy covariance data and remote sensing data 
in ecosystem modeling, as noted earlier.

Q3.  Dr. Gallagher indicated that we have not yet developed 
quantification systems for continuous monitoring of emissions of 
extended geographical areas. How large an area is generally evaluated 
by your measurements? To what extent do you think your methods could be 
applied to provide measurements on a larger scale?

A3. The spatial scale of observations from one eddy covariance tower is 
about one kilometer. However, the information produced at each tower 
reaches far beyond its proximate geographical region due to its wider 
scale representativeness (Hargrove et al. 2003). The towers provide 
valuable information on trends in ecosystem responses to management and 
climate, and a subset could be maintained to support verification 
research at relatively low cost ($100,000 per station per year). The 
greatest value of eddy covariance flux data for global carbon cycle 
modeling is evaluating process representation in the models or 
assimilation of the data into the models (which is an active area of 
research). The integrated methods of combining eddy covariance data, 
inventories and modeling could be applied over the U.S. This requires 
sustained observations over the long-term for the remote sensing data 
such as Landsat (extending beyond the Landsat Data Continuity Mission), 
the eddy covariance data, and improvements in the forest inventories 
for better carbon accounting.

Citations

    Baldocchi, D.D. 2008. `Breathing' of the Terrestrial Biosphere: 
Lessons Learned from a Global Network of Carbon Dioxide Flux 
Measurement Systems. Australian Journal of Botany 56:1-26.
    Hargrove, W.W., F.M. Hoffman, B.E. Law. 2003. New Analysis Reveals 
Representativeness of AmeriFlux Network. EOS Transactions 84:529.
    Schlesinger, W.H. 2006. Carbon Trading. Science 314:1217.
                   Answers to Post-Hearing Questions
Responses by Dr. Richard A. Birdsey, Project Leader and Scientist, USDA 
        Forest Service; Chair, Carbon Cycle Scientific Steering Group

Questions submitted by Chair Bart Gordon

Q1.  Many people look to forestry and agriculture as potential sources 
of carbon credits. Planting trees, switching to no-till farming 
practices and other projects are seen as low-hanging fruit for 
greenhouse gas reductions. If you are unable to take direct 
measurements, how are these reductions verified? What would this mean 
in terms of generating off-set credits in a mandatory regulatory 
regime?

A1. To estimate greenhouse gas reductions from forestry or agriculture 
without taking direct measurements, it is feasible and practical to use 
estimated reductions from validated models or default conversion 
factors, which are applied to the area of land that is treated. Such 
models and conversion factors are widely available for most of the 
common practices applied to farms and forests in the U.S., and are 
continuously updated as additional measurements and research studies 
are implemented. Default conversation factors are available for 
afforestation, reforestation, and deforestation. Carbon yield models 
would be needed to estimate effects of changes in specific management 
practices such as thinning or rotation lengths. As with any estimation 
approach, using models or default factors may require verification. 
Verification may focus on whether the practice has been appropriately 
implemented and the technical greenhouse gas calculation methods 
applied correctly, although actual measurement of reductions or 
sequestration may be required. Examples of these approaches are 
available. The Department of Energy greenhouse gas registry (known as 
``1605b) allows reporters to use 3 estimation approaches: direct 
measurement, modeling, and default factors. Variations on these 3 
approaches are used by California's Climate Action Reserve and the 
Chicago Climate Exchange. Generally, uncertainty is likely to be lower 
for estimates generated from direct measurements compared against 
models or default conversion factors. However, when many projects are 
aggregated together, the uncertainty associated with models or default 
factors is often less than that of a single project. The value of 
offset credits will be quantified using methods consistent with the 
rules as stated in the guidelines that are adopted during the rule-
making process, and they will receive credit if the rules and 
guidelines are followed.
    Complementary to these verification approaches, measurements of 
atmospheric greenhouse gas concentrations can also shed valuable 
insight into the effectiveness of greenhouse gas management strategies. 
Regional-scale atmospheric greenhouse gas observations can further aid 
in the evaluation of how a reduction or offset approach or conglomerate 
of approaches is working. Such information can be provided through a 
comprehensive, integrated, interagency greenhouse gas observation and 
analysis system that can reliably test estimates and models against 
long-term atmospheric observations, be they the result of offsets or 
emission reductions.

A2. Since the passage of the Renewable Fuel Standard, the numbers of 
acres of land that participate in the Conservation Resource Program at 
USDA have decreased. How has this changed the amount of carbon that is 
able to be stored in America's farmlands?

A2. There are several factors that influence the amount of carbon 
stored in farmland vegetation and soil. These include the land use, 
tillage practice, crop rotation, and conservation management system 
employed. Your question refers to the farmland land use, and in 
particular the land enrolled in the Conservation Reserve program (CRP).
    Enrollment in the CRP has declined from 36.8 million acres at the 
close of fiscal year 2007 to 31.1 million acres in October, 2009 (Table 
1), a 5.7 million acre decline. This decline is a net of the contract 
expiration for 6.5 million acres plus new enrollment of 0.8 million 
acres. There are several factors that contribute to this decline. First 
although 26 million acres were set to expire between FY 2007 and FY 
2009, these acres were all given an opportunity to re-enroll or extend 
their contracts, so any expirations during this time were due to 
contract holders choosing to opt out of CRP. Second, in late 2006 crop 
prices began to increase, peaking in the summer of 2008, so there was 
less demand for CRP enrollment. Third, the Food, Conservation, and 
Energy Act of 2008 reduced the maximum enrollment in the CRP to 32 
million acres as of October 1, 2009.
    However, an offer to extend contracts on 1.5 million expiring acres 
in FY 2009 resulted in the extension of contracts on 1.1 million acres. 
These are included in the October 2009 figure of 31.1 million acres.
    When considering the potential for CRP to sequester carbon, it is 
important to remember that CRP contracts are not permanent--they last 
10-15 years, and after the contract expires, farmers may always choose 
to put their land back in production. So CRP per se does not ensure 
permanent carbon sequestration. However, the carbon sequestered by CRP 
has decreased as the acres enrolled decreased. Between September 2007 
and September 2009 annual carbon sequestration on CRP land decreased 
3.5 million metric tons, from 50.4 mmt to 46.9 mmt. Another 2.8 million 
acres expired on September 30, 2009, reducing estimated carbon 
sequestration by an estimated 2.6 mmt to 44.3 mmt.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q3.  Dr. Birdsey, you state ``steps should be taken to better integrate 
monitoring programs and close current data gaps'' while discussing 
several of NASA's ongoing and future satellite systems. Could you 
elaborate on what steps should be taken? Are they specific to NASA, or 
are you speaking more broadly?

A3. A recently published paper in Eos (Birdsey et al. 2009) summarizes 
the required steps to integrate monitoring programs and close current 
data gaps: ``Three major observation systems need improvements and must 
be well-coordinated to support climate policy and management for the 
remainder of this century: (1) an Earth observing satellite system that 
provides continuous measurements of key carbon-related characteristics 
of the Earth's atmosphere, ocean, and lands; (2) an integrated 
terrestrial observation system of inventories coupled with a 
coordinated, permanent network of intensive land and atmosphere 
monitoring sites; and (3) a long-term, continuous, in situ ocean 
observation system with appropriate sensors and density of monitoring 
sites.'' These steps are not specific to NASA, but rather, require 
interagency coordination to implement efficiently. The USGS Climate 
Effects Network, the NOAA climate services, and integration initiatives 
within the Forest Service are examples of agency efforts underway to 
build collaborations and fill these data gaps. Additional detail about 
each of these steps may be found in the following paper:
    Birdsey, Richard, Nick Bates, Mike Behrenfeld, Kenneth Davis, Scott 
Doney, Richard Feely, Dennis Hansell, Linda Heath, Eric Kasischke, 
Haroon Kheshgi, Beverly Law, Cindy Lee, A. David McGuire, Peter 
Raymond, Compton J. Tucker. 2009. Carbon Cycle Observations: Gaps 
Threaten Climate Mitigation Policies Eos, Vol. 90, No. 34 p. 292.

Q4.  In your testimony, you mention the need to improve data from 
forest inventories, carbon in soil, dead wood, and down woody debris. 
You also mention that large wildfires and tornadoes present a need for 
additional sampling to assess impacts. To what extent has the Forest 
Service been able to observe specific changes in greenhouse gas levels 
after these events? In your estimation, what are the most important 
steps we can take to try to prevent wildfires in order to preserve 
these ecosystems and their ability to reduce emissions?

A4. After large disturbance events, the Forest Service Forest Inventory 
and Analysis (FLA) program often conducts a special damage assessment 
that involves remeasuring permanent monitoring sample plots in the 
disturbed area. These are traditional forest inventory remeasurements, 
augmented to provide specific information about damage that can be used 
to estimate the amount of CO<INF>2</INF> and other greenhouse gases 
emitted to the atmosphere during and after the event. Examples include 
special inventories conducted after hurricanes Hugo and Katrina, and 
after the large blow down event in the Boundary Waters wilderness area. 
After large fires on National Forest lands, damage intensity and 
restoration needs are assessed. Greenhouse gas emissions from 
individual fires are not usually estimated, although some individual 
fires have been studied intensively with regard to greenhouse gas 
impacts, and a national estimate of greenhouse gas emissions from all 
forest fires combined is reported annually in EPA's U.S. greenhouse gas 
inventory report. Note that even very large individual disturbance 
events will not have a measurable effect on globally averaged 
greenhouse gas concentrations, though the emissions from each event may 
be estimated. This is because the effect of a single event on the 
average concentration of global greenhouse gases is below the detection 
threshold of about 1 part per million (for CO<INF>2</INF>).
    Many ecosystems are naturally dependent on fire, so their viability 
may be best served by facilitating fires of a frequency and intensity 
that are consistent with these dependencies. Because fire has been 
suppressed for a long time in many areas, fuels (and carbon stock) have 
built up to very high levels. It may be impossible to return these 
ecosystems to a more natural state without releasing some stored carbon 
to the atmosphere. This effect can be minimized to some extent when 
removed carbon stocks can be substituted for energy from fossil fuels 
without requiring large inputs of fossil fuel for transportation of the 
wood to the site where it is used.
    Regarding steps that can be taken to prevent wildfires, there are 3 
major factors that govern the probability of a wildfire: weather, fuel, 
and ignition. Since we cannot control the weather, prevention is 
focused on managing fuels and human-caused ignitions. Of these, 
strategic management of fuels areas is probably the best approach.
                   Answers to Post-Hearing Questions
Responses by Dr. Michael H. Freilich, Director, Earth Science Division, 
        Science Mission Directorate, National Aeronautics and Space 
        Administration (NASA) 

Questions submitted by Representative Ralph M. Hall

Q1.  What is notional time and cost required to re-fly OCO, and how 
would it compare with other similar sensors, such as the ASCENDS or the 
LDCM missions?

A1. Following the loss of OCO in February 2009, the mission's science 
team concluded that an OCO reflight or a functionally equivalent 
mission was necessary to advance carbon cycle science and to provide 
the basis for thoughtful policy decisions and societal benefits, In 
response, NASA evaluated a range of options to develop and launch a 
replacement instrument or acquire data from international missions. Of 
the options under consideration, the most mature and best-understood 
option is to rebuild an OCO mission with as few changes as possible and 
launch the so-called ``Carbon Copy'' into its planned orbit as an 
element of the ``A-Train.'' Such a mission would have a development 
time of 28 months and cost approximately $331M. NASA also evaluated 
either co-manifesting an OCO standalone mission on a shared launch 
vehicle with LDCM or flying an OCO-Thermal Infrared Sensor (TMRS) 
mission, but concluded that such options would have higher costs, 
increased technical risk, and would likely delay the launch of LDCM; 
these mission scenarios are no longer under consideration.
    ASCENDS has a different mission concept and uses a different 
technology (i.e. lasers) to measure concentrations of CO<INF>2</INF> 
than OCO. When the ASCENDS mission was proposed in the 2007 Earth 
Science Decadal Survey, the NRC estimated that the mission would cost 
on the order of $400M and should launch in the 2013-2016 timeframe. 
Further study by NASA has estimated the rough life cycle cost estimate 
of ASCENDS to be $470M. The technology development advances required 
for the lasers on the ASCENDS mission preclude its early flight within 
the next several years, until at least 2015, although budget 
constraints could further delay the mission. It is important to note 
that NASA does not formally commit to a mission's cost and schedule 
until Key Decision Point (KDP)-C.

Q2.  The Earth Sciences Decadal Survey recommended the ASCENDS mission 
to fly in the 2013-2016 timeframe. What are NASA's plans with respect 
to ASCENDS? Is the agency committed to flying the mission?

A2. NASA is committed to the Decadal Survey priorities and mission 
sequence. Thus, as a Tier 2 recommended mission, NASA is committed to 
developing ASCENDS for flight after the Tier 1 missions.
    To lay the foundation for the ASCENDS mission, NASA sponsored an 
open science workshop in June 2008 in order to solicit feedback on the 
science goals, technology needs, and mission design options associated 
with the mission. In April 2009, NASA sponsored an observing system 
simulation experiment coordination meeting. Through NASA Earth 
Science's technology programs, NASA is investing in technology 
development efforts for the CO<INF>2</INF> column LIDAR, the corrugated 
mirror telescope, and the optical receiver. In summer 2009, NASA 
conducted airborne flights over the Total Carbon Column Observing 
Network (TCCON) in-situ CO<INF>2</INF> profile measurement site in 
Oklahoma to examine different measurement techniques. Future flights 
are planned in summer 2010 to test other measurement technologies. NASA 
is funding all Tier II mission early pre-formulation studies at $2M/
year for each mission in FY 2010. A workshop will be held in FY 2010 to 
prepare draft Level I requirements for ASCENDS, examine pathways for 
further technology development, and initiate further studies.

Q3.  In years past we have frequently heard some measure of frustration 
from members of the research community about the challenge of 
transitioning NASA-developed technologies to an operational user. 
Researchers often find immense value in a new NASA-developed sensor, 
but then become discouraged when NASA chooses not to develop a serial 
mission to ensure a long-term data record. With specific regard to 
climate monitoring, measurement and verification, how would you 
describe the cooperation between NASA and NOAA on the issue of research 
to operations?

A3. NASA and NOAA actively cooperate through the NASA-NOAA Joint 
Working Ground (JWG) on Research and Operations to transition advances 
from NASA's research satellites to NOAA. The JWG meets quarterly to 
prioritize NASA measurement capabilities for transition to NOAA, 
evaluate process, improve the transition process, and examine other 
coordination activities. In the area of climate monitoring, 
measurement, and verification, NASA and NOAA are working together to 
transition sea surface topography measurements, ocean surface vector 
wind measurements, ocean color radiometry measurements, and ozone.
    Measurements of global sea level variations are an essential 
component of any climate change monitoring system. NASA, in 
collaboration with the French Space Agency (CNES) pioneered the 
measurement of sea surface topography with the Topography Experiment 
(TOPEX)/Poseidon mission, launched in 1992, and the Jason mission, 
launched in 2001, The follow-on Ocean Surface Topography Mission 
(OSTM)/Jason-2 provided the opportunity for NOAA and the European 
Organization for the Exploitation of Meteorological Satellites 
(EUMETSAT) to actively partner with NASA and CNES to provide 
operational data products to the world's meteorological and 
oceanographic forecast agencies. In FY 2009, NOAA concluded that a 
follow-on Jason-3 was the optimal platform to measure global sea level 
variations. NASA and NOAA agreed that NOAA will assume the lead for the 
United States' portion of the mission.
    Ocean surface vector winds play a key role in regulating the 
Earth's water and energy cycles, which establishes and maintains both 
global and regionsl climate. NASA pioneered measurements of ocean 
surface vector winds with the Quick Scatterometer (QuikSCAT), which was 
launched in 1999 and recently ceased functioning. Since NOAA routinely 
used QuikSCAT data as an intrinsic part of its weather forecasting, the 
two agencies closely collaborated as the satellite's antenna began to 
show signs of age and failed to rotate properly. In the near-term, 
NOAA, in collaboration with NASA, has engaged in discussions with the 
Japanese Aerospace Exploration Agency (JAXA) to fly a NOAA 
scatterometer on the Global Climate Observing Mission--Water (GCOM-W2) 
mission. The NRC's Decadal Survey recommended that NOAA take the lead 
on the Extended Ocean Vector Winds Mission (XOVWM) and NASA has been 
providing its technical expertise to NOAA in support of this mission.
    Ocean color measurements provide information on climate change 
effects on ocean plankton and the carbon cycle. The Moderate Resolution 
Imaging Spectroradiometer (MODIS) Instrument on NASA's Terra and Aqua 
satellites are currently used to provide this data. The National Polar-
orbiting Operational Environmental Satellite System (NPOESS) 
Preparatory Project (NPP) will fly the Integrated Program Office 
provided VIIRS instrument, which may continue these measurements. 
Beginning in FY 2009, NOAA began to look at alternative means of 
acquiring future ocean color measurements. In addition, NASA, NOAA, and 
other Federal agencies are supporting the NRC in its assessment of 
options to sustain global color measurements that enable continuity 
with previous observations and support climate research and operational 
requirements.
    NASA and NOAA have also collaborated extensively to add 
capabilities to NASA's NPP mission in order to maintain data continuity 
and advance scientific understanding. For example, when the ozone limb 
profiling capability was removed from NPOESS during the Nunn-McCurdy 
recertification process, NASA and NOAA collaborated to provide core 
funding to allow the Ozone Mapping and Profiler Suite (OMPS)-Limb 
instrument to be added back. Similarly, NASA and NOAA manifested the 
Clouds and the Earth's Radiant Energy System (CERES) radiation 
measurements instrument first demonstrated by NASA on the Tropical 
Rainfall Measuring Mission (TRMM), Terra, and Aqua onto the NPP 
mission.

Questions submitted by Representative Pete Olson

Q1.  Dr. Freilich, just last month, a co-chair of the Earth Sciences 
Decadal Survey, appearing before another House Committee 
(Appropriations Subcommittee on Commerce, Justice, Science and Related 
Agencies) testified that OCO should not be rebuilt. His rationale was 
that new technologies developed since OCO's design would allow for more 
precise and broader day/night measurements. Your statement seems to 
contradict this advice. How would you respond? Is OCO's sensor 
obsolete? What is the trade with using a LIDAR sensor instead of OCO's 
passive sensor?

A1. Following the loss of OCO in February 2009, the mission's science 
team concluded that an OCO reflight or a functionally equivalent 
mission was necessary to advance carbon cycle science and to provide 
the basis for thoughtful policy decisions and societal benefits--The 
technology development advances required for the lasers on the ASCENDS 
mission preclude its flight within the next several years, whereas an 
OCO replacement mission could be ready in 28 months. Further, in 
preparing the Decadal Survey, the National Research Council correctly 
assessed that significant technology development was required for 
ASCENDS and thus it would not be ready to fly early in the program.
    When compared to OCO, ASCENDS has a different mission concept and 
uses a different technology to measure concentrations of 
CO<INF>2</INF>. OCO uses a passive approach to measure the intensity of 
reflected sunlight off of the Earth's surface, which correlates to the 
concentration of CO<INF>2</INF> near the Earth's surface. OCO was 
designed to fly in the A-Train formation, which would have enabled 
coordinated carbon cycle measurements with instruments aboard the Aqua 
and Aura spacecraft. The ASCENDS active measurement approach uses 
lasers as the light source instead of the Sun. Such a technique enables 
both daytime and nighttime measurements and measurements at high 
latitudes in the winter. Rather than being obsolete, the smaller and 
simpler OCO-like instrument is attractive for long-term monitoring of 
near-surface CO<INF>2</INF> levels and offset processes owing to the 
fundamental lifetime limitations of laser instruments.

Q2.  How would the OCO compare to similar satellites flown by Canada 
and Japan? What were the cost differences between those countries' 
programs and the US. program? From a researcher's perspective, would 
obtaining data from Canada or Japan be an acceptable alternative to 
trying to re-fly OCO?

A2. While both Canada and Japan have recently launched greenhouse gas-
monitoring missions, neither the Canadian Advanced Nanospace experiment 
(CanX)-2 mission nor the Greenhouse gases Observing SATellite (GOSAT, 
also named Ibuki) have the sensitivity or accuracy of OCO. CanX-2 also 
fails to provide the same level of coverage that would have been 
achievable with OCO. For cost comparison purposes, OCO's mission cost 
was $240M plus an. additional $30M had been budgeted for mission 
operations.
    The CanX-2 nanosatellite, launched in April 2008 at a cost of 
approximately $300K, only records greenhouse data over Toronto where 
the data downlink occurs. The spectral resolution of the CanX-2 
spectrometer is about 100 times less than that of OCO's spectrometer 
and is far too coarse to yield the sensitivity required for high-
precision CO<INF>2</INF> measurements. Unlike OCO, CanX-2 does not 
measure oxygen to quantify the air mass, which is required to 
accurately calculate CO<INF>2</INF> concentrations from the 
spectrometer data and eliminates significant errors caused by 
uncertainties in the surface air pressure and by scattering by thin 
clouds and aerosols. To date, no CanX-2 greenhouse gas data have been 
distributed to the scientific community and no publications have 
resulted from data recorded by the satellite.
    GOSAT was launched by Japan in January 2009 at a cost of 
approximately $206M. Both OCO and GOSAT were designed to measure the 
absorption of sunlight reflected from the Earth's surface. However, 
while OCO was designed to detect both sources and sinks of 
CO<INF>2</INF>, GOSAT is designed to only detect localized strong 
emissions of greenhouse gases rather than to quantify natural, 
spatially extensive CO<INF>2</INF> sinks. Since CO<INF>2</INF> emission 
sources tend to be more intense and spatially localized than CO<INF>2</INF> 
sinks, GOSAT was designed with less stringent signal-to-noise 
requirements than OCO. While both GOSAT and OCO were designed to orbit 
the Earth 15 times each day, OCO was designed to collect up to 1 
million high spatial resolution (3km<SUP>2</SUP>) measurements each day 
while GOSAT is capable of yielding approximately 18,700 measurements 
each day with a 85km<SUP>2</SUP> footprint. OCO would therefore have 
provided many more measurements and each measurement would have 
represented a much smaller ground size compared with GOSAT.

Q3.  What new capabilities does NASA's fleet of UAVs offer to the 
monitoring and measurement community? Will UAVs help advance the 
science in any meaningful way, and if so, how?

A3. NASA uses a number of unmanned aircraft systems (UASs), including 
the Global Hawk, the Ikhana, and the Sensor Integrated Environmental 
Remote Research Aircraft (SIERRA), for Earth Science research given 
their ability to stay aloft over a small geographic region for a long 
period of time, to fly in dangerous (for humans) atmospheric 
conditions, and to fly close to the Earth's surface or in the 
stratosphere. UASs are used to participate in calibration and 
validation tests of instruments flying on satellites, test concepts for 
satellite instruments, and participate in field campaigns designed to 
discover small-scale phenomena that satellites cannot.
    Of the current field campaigns scheduled for NASA's UASs, the 
winter 2010 Global Hawk Pacific mission (GloPac) will study trace 
gases, including greenhouse gases, aerosols, and dynamics of the Upper 
Troposphere and Lower Stratosphere in association with NASA's Aura 
satellite. GloPac will be the first NASA mission using the Global Hawk, 
which is capable of carrying 1,500 pounds of instruments to an altitude 
of 65,000 feet. The Global Hawk can operate for 31 hours and has a 
range of 11,000 nautical miles. Future missions using the Global Hawk 
include the Genesis and Rapid Intensification Processes (GRIP) airborne 
campaign in Summer 2010 to study the formation of tropical storms and 
their evolution into hurricanes.
    The Ikhana, which has an instrument payload capability of 2000 
pounds and can operate up to 40,000 feet, has an endurance of 24 hours 
and a range of 3,500 nautical miles. NASA instruments on board the 
Ikhana have been used to detect wildfire outbreaks in the western 
United States over the past several years and this information has been 
transmitted in near-real time to fire incident commanders in the field.
    The SIERRA, which has an instrument payload capability of 100 
pounds and can operate at up the 12,000 feet, has an endurance of 10 
hours and a range of 500 nautical miles. In June and July 2009, the 
SIERRA participated in the Characterization of Arctic Sea Ice 
Experiment (CASTE) by measuring sea ice roughness, sea ice thickness, 
and sea ice edge. Such information helps understand the loss or 
maintenance of perennial sea ice cover.

Q4.  How well does the Earth Sciences Decadal Survey align with efforts 
to better model, monitor, and measure greenhouse gas emissions? Are 
there missions or sensors being contemplated for greenhouse gas 
monitoring that does not appear within the set of missions recommended 
by the decadal survey?

A4. In developing its Earth Science and Applications from Space. 
National Imperatives for the Next Decade and Beyond, the NRC assumed 
the sl3ccessful flight of 000, as well as the Landsat Data Continuity 
Mission (LDCM) and the National Polar-orbiting Operational 
Environmental Satellite System (NPOESS) Preparatory Project (NPP), 
which will observe carbon sources and sinks on the land and in the 
ocean. The Decadal Survey missions recommended by the NRC are designed 
to not only further measurements of atmospheric concentrations of 
greenhouse gases, but to also study land and ocean processes related to 
CO<INF>2</INF> release, transport, and absorption, and how they will 
change in a changing climate.
    Within the NRC's recommended near-term missions, the Deformation, 
Ecosystem Structure and Dynamics of Ice (DESDynI) mission, and to a 
lesser extent the Ice, Cloud, and land Elevation Satellite-II (ICESat-
II), will contribute to improved estimates of above-ground.
                   Answers to Post-Hearing Questions
Responses by Ms. Dina Kruger, Director, Climate Change Division, Office 
        of Atmospheric Programs, Environmental Protection Agency

Questions submitted by Representative Ralph M. Hall

Q1.  NOAA has stated that it is not responsible for (or capable of) 
verification at the individual source level or a ``bottom-up'' 
reporting scheme and only has a monitoring system in place for 
aggregate data. The ``bottom-up'' reporting and individual source 
monitoring would be EPA's job.

Q1a.  Does EPA have a national monitoring system for all 6 greenhouse 
gases at the source level?

A1a. EPA has a national monitoring system for all 6 greenhouse gases at 
the source level. Under the Acid Rain Trading Program, EPA has been 
collecting hourly CO<INF>2</INF> emissions data from electricity 
generating facilities for many years. Electricity power plants emitted 
34 percent of all U.S. greenhouse gas emissions in 2007. On September 
22, 2009 EPA finalized a mandatory source-level reporting rule for 
greenhouse gas emissions. The Mandatory Reporting Rule (MRR) increases 
coverage of source-level monitoring to approximately 85% of national-
level U.S. emissions through the inclusion of additional industrial 
sectors (e.g., refineries, cement plants, landfills etc.) and 
``upstream'' suppliers of transportation fuels. Monitoring by 
approximately 10,000 facilities will commence in 2010, and monitored 
data will begin to be reported in 2011. The approximately 15% of 
emissions not covered at the source level come primarily from widely 
dispersed area sources such as agricultural soils and livestock, which 
do not lend themselves well to source-level reporting.

Q1b.  Specifically, what types of instruments are currently deployed? 
How many are there?

A1b. The measurement instruments currently deployed varies according to 
the emissions process and the type of facility. Continuous measurement 
instruments (such as continuous emissions monitoring systems (CEMS)) 
are appropriate tools in some but not all situations. For CO<INF>2</INF> 
emissions that result from the combustion of fossil fuel (80% of all 
GHG emissions), total emissions are directly linked to the amount of 
carbon content in the fossil fuel (i.e., carbon in = carbon out). For 
sources that burn natural gas, distillate fuel oil, and other 
homogenous fuels, EPA's reporting system requires measured fuel flow 
and periodic fuel sampling for large sources to establish the total 
amount of carbon and CO<INF>2</INF> emissions. For sources that bum 
coal, solid waste and other more variable fuels, EPA's reporting system 
requires direct emissions measurement for the largest sources. 
Facilities reporting other types of emissions to EPA (i.e., not fossil-
fuel related) use a combination of direct measurement and verified 
plant-specific emission factors.

Qc.  What upgrades to this system are required in order to implement a 
national emission reduction policy? How long will it take to implement 
the necessary upgrades or deploy the necessary instruments?

Ac. Monitoring requirements should serve the specific needs of specific 
emission reduction policies. EPA's Inventory of U.S. Greenhouse Gas 
Emissions and Sinks is already well suited to assess overall national' 
trends in greenhouse gas emissions and the contributions of aggregated 
sources and sectors. EPA's facility-level Mandatory Reporting Rule will 
provide more detailed information about specific sources, industries 
and regions that are needed to inform and implement a national emission 
reduction policy. Congress directed EPA to create a reporting program 
that could serve a broad variety of potential policies. Should Congress 
decide to create a cap and trade program, EPA may need to make 
incremental improvements to the facility-level reporting program, such 
as moving from annual to quarterly reporting, and upgrading monitoring 
equipment for some sources.

Qd.  Are monitoring sensors currently in existence for all sectors of 
the economy? What research is currently being conducted to develop 
these types of instruments? How long will it take to get this 
technology from the research phase to the deployment and implementation 
phase?

Ad. Accurate monitoring sensors for fossil fuel consumption are in 
wide-spread use because of the importance of tracking fuel for economic 
reasons. CEMS for CO<INF>2</INF> emissions are in place for over \1/3\ 
of national emissions and over 95% of coal related CO<INF>2</INF> 
emissions. Off-the-shelf measurement technologies are available for 
many types of non-fossil fuel related greenhouse gas emissions, 
particularly when the emissions go through a central stack or vent. 
Advanced monitoring and measurement techniques for vented and fugitive 
leaks show great promise and are starting to be used in a variety of 
situations, such as oil and gas production fields. EPA sees a need for 
more work on applying monitoring sensors to emissions and sequestration 
in forests and agricultural soils, and for tracking deforestation in 
tropical countries.

Q2.  Other than the electric utility industry, what other industries 
and sectors of the economy are currently being monitored for greenhouse 
gas emissions with deployed monitoring instruments? What percentage of 
U.S. emissions is currently being monitored real-time? If this 
percentage is less than 100%, then how can you verify that this 
percentage is accurate if you are unable to verify the total amount of 
greenhouse gases the U.S. emits as a whole?

A2. It is not necessary to have real-time monitoring of emissions from 
all sources in order to obtain an accurate assessment of total U.S. GHG 
emissions. EPA and the Department of Energy use the national energy 
accounts to calculate total U.S. carbon dioxide emissions from fossil-
fuel consumption (80% of national emissions). Both agencies have a high 
level of confidence in our national level energy accounts because DOE 
gets close agreement between the bottom-up reporting of energy use and 
the top-down tracking of aggregate energy production and imports. EPA's 
Inventory of US. Greenhouse Gas Emissions and Sinks estimates that our 
national level estimate of CO<INF>2</INF> emissions from fossil fuel 
combustion are accurate to within +/^5%. Given this highly accurate 
national level assessment, installing real-time monitoring sensors 
across the entire economy (including motor vehicles) to monitor fossil 
fuel related emissions would involve a high cost and not necessarily 
lead to improved national-level information. As noted above, real-time 
monitoring is in place for approximately 34% of all GHG emissions, and 
approximately 45% of non-transportation related GHG emissions.
    Approximately 20% of total national GHG, emissions come from other 
types of sources, many of which are more difficult to monitor than 
fossil fuel combustion, e.g., fugitive methane leaks from oil and gas 
systems, methane from landfills, nitrous oxide form soils, and methane 
from rice paddies and livestock. In accordance with Intergovernmental 
Panel on Climate Change (IPCC) Guidelines, EPA uses a combination of 
peer reviewed modeling and emission factor approaches to estimate GHG 
emissions for these sources.
    More direct measurement of these sources, including the use of 
remote observation technologies, could help improve the accuracy of 
this part of the national emissions inventory.

Q3.  Several weeks ago, EPA submitted a national inventory of human-
caused greenhouse gas emissions as part of our on-going commitment to 
fulfill our obligations under the United Nations Framework Convention 
on Climate Change. In your testimony, you admit that EPA only monitors 
greenhouse gas emissions emanating from electric utilities, which is 
estimated to be about one-third of total U.S. greenhouse gas emissions.

Q3a.  If EPA does not currently monitor all of the human-caused 
emissions, what is the inventory based on? How accurate is it? How can 
you verify its accuracy?

A3a. Overall, the national-level Inventory of U.S. Greenhouse Gas 
Emissions and Sinks has a calculated range of uncertainty of +5% to ^1% 
(when compared to total gross emissions), which is based on 
internationally accepted and comparable procedures for uncertainty 
assessments of national inventories. The underlying data used to 
prepare the national inventory come from long-established statistical 
gathering services of many federal agencies, particularly the 
Department of Energy and USDA. For the 80% of emissions resulting from 
fossil fuel combustion, DOE's energy consumption statistics match up 
closely with top-down accounts of energy production imports, and gives 
the U.S. government a high degree of confidence in the inventory. As 
noted above, direct emissions monitoring on each source of emissions is 
neither practical nor would it necessarily lead to improvements in 
accuracy.

Qb.  What is EPA's definition of human-caused emissions? Do they 
include indirect emissions resulting from land-use change? Or from 
livestock emissions? Do forest fires that are set by people count as 
human-caused emissions, while forest fires started by natural causes 
are not?

Ab. The U.S. government, as a member of the Intergovernmental Panel on 
Climate Change (IPCC) has adopted the IPCC's definition of 
anthropogenic greenhouse gas emissions and removals: ``Anthropogenic 
emissions and removals means that greenhouse gas emissions and removals 
included in national inventories are a result of human activities. The 
distinction between natural and anthropogenic emissions and removals 
follows straightforwardly from the data used to quanta human activity. 
In the Agriculture, Forestry and Other Land Use (AFOLU) Sector, 
emissions and removals on managed land are taken as a proxy for 
anthropogenic emissions and removals, and interannual variations in 
natural background emissions and removals, though these can be 
significant, are assumed to average out over time.'' \1\ This 
definition has also been adopted by each of the 193 other member 
countries of the IPCC. Regarding the specific issue of forest fires, 
all fires occurring on managed land are assumed to be anthropogenic. 
Consistent with the IPCC Guidelines, the Inventory of U.S. Greenhouse 
Gas Emissions and Sinks includes direct emissions and carbon stock 
changes from land-use change. Emissions from domesticated livestock are 
considered anthropogenic.
---------------------------------------------------------------------------
    \1\ See, ``The 2006 IPCC Guidelines for National Greenhouse Gas 
Inventories (2006 Guidelines)'', Volume 1, Chapter 1, page 4. http://
www.ipcc.nggip.iges.or.jp/public/2006g1/pdf/1_Volume1/V1_1 
Ch1_Introduction.pdf.

Q4.  I'm curious about the difference between the National Greenhouse 
Gas Inventory and EPA's proposed Greenhouse Gas Reporting rule. When 
describing the data collection and methodologies associated with that 
collection for the Inventory, you freely admit that the quality of the 
data used varies across source categories. At the same time, you state 
that EPA is confident that its ESTIMATES of emissions for smaller 
sources are both manageable and accurate. Aren't some of the data 
collection methods used in the Inventory going to be used for the 
reporting rule? If so, how can you state that the estimates provided 
for compliance with the reporting rule are accurate and potentially 
---------------------------------------------------------------------------
verifiable?

A4. EPA's Mandatory Reporting Rule uses a combination of direct 
measurement and facility-specific calculation approaches. The 
calculation approaches required site-specific emission factors based on 
periodic process and emissions measurement, and thus reflect the 
conditions onsite at specific facilities. The top-down emission factors 
used for some sources in the annual Inventory of U.S. Greenhouse Gas 
Emissions and Sinks are broadly representative of conditions across the 
country but may not be directly applicable to individual facilities. 
The source categories with the highest uncertainty in the Inventory of 
US. Greenhouse Gas Emissions and Sinks represent a small share of 
national emissions and most of them are not included in EPA's Mandatory 
Reporting Rule: e.g., agricultural soils, rice paddies, livestock, 
surface coal mines, etc.
    All data submitted to EPA through the Mandatory Reporting Rule will 
be verified. EPA envisions a two step verification process with a view 
to ensuring the collection and dissemination of high quality data. 
First, EPA will conduct an initial centralized review of the data which 
will be largely automated. EPA intends to build into the data system an 
electronic data QA program to help assure the completeness and accuracy 
of data. In addition, to verify reported data and ensure consistency, 
EPA may review facility-level monitoring plans and procedures, and will 
perform detailed, automated checks on data utilizing recent and 
historical data submittals, comparison against like facilities and/or 
other electronic audit tools where appropriate. Second, EPA intends to 
follow-up with facilities should potential errors, discrepancies, or 
questions arise through the review of reported data and conduct on-site 
audits of selected facilities.
                   Answers to Post-Hearing Questions
Responses by Dr. Patrick D. Gallagher, Deputy Director, National 
        Institute of Standards and Technology, U.S. Department of 
        Commerce

Questions submitted by Representative Ralph M. Hall

Q1.  How much does NIST currently spend on the measurement science 
activities you outlined in your testimony, and how do you determine 
funding priorities in this area? How much additional funding would be 
needed and how long would it take to perform the research necessary to 
ensure confidence in a Cap-and-Trade monitoring and enforcement regime?

A1. In FY 2009, NIST spent $18.2 million on all climate change related 
activities, which includes the $7.5 million in increases provided by FY 
2009 appropriations for Climate Change Science and Climate Change 
Technology programs. NIST's role in this area is to:

         (1) work closely with other federal agencies (the National 
        Aeronautics and Space Administration, the National Oceanic and 
        Atmospheric Administration, the Environmental Protection 
        Agency, the Department of Energy, the United States Geological 
        Survey, the United States Department of Agriculture, and the 
        Department of Interior) to ensure the accuracy, comparability, 
        and quality of their measurements, and

         (2) assist industry, and state and local agencies that will 
        need new measurement capabilities to meet the requirements of 
        any enacted greenhouse-gas accounting and mitigation program.

    Currently, the NIST Climate Change Program is focused in two areas:

         (1) Provide the fundamental measurement science and standards 
        to accurately quantify sources and sinks of greenhouse gases at 
        various spatial scales; and

         (2) Develop the critical metrology necessary to ensure that 
        ground, air, ocean, and space-based climate measurements are 
        accurate and comparable through traceability to the 
        International System of Units (SI).

    Predicting future funding needs for this area is complicated by the 
fact that the details for the proposed Cap-and-Trade monitoring program 
for carbon emissions are still being debated. I believe the existing 
information and measurement capabilities are adequate to support the 
initiation of national climate policies. Until an agreement is reached 
on the accuracy requirements for greenhouse gas monitoring and 
reporting; however, it is difficult to fully ascertain the measurement 
tools and standards that will be required by government agencies as 
well as industry. However, regardless of the climate-related 
legislation that is enacted, accurate measurements of greenhouse gas 
sources and sinks and their effects on the climate, will be necessary.
    NIST is organizing an external needs assessment workshop, to be 
held in FY 2010, to help identify the major measurement priorities in 
greenhouse gas emission measurements, which will assist NIST in 
identifying the future priorities and resources necessary to support 
any proposed greenhouse gas accounting and mitigation program.

Q2.  You note in your testimony that traceability of measurements is 
``critical for assessing accuracy and quality'' of climate change data. 
What is the status of traceability for the sensors and measurements 
that are currently deployed in space? Do they all take SI-traceable 
measurements? If not, how are scientists accounting for the lack of 
confidence in their data when reporting results?

A2. Satellite sensors generally report SI (International System of 
Units)-traceable measurements. NIST has collaborated with the National 
Aeronautics and Space Administration, the National Oceanic and 
Atmospheric Administration, and the United States Geological Survey, to 
help ensure the SI traceability of satellite sensor measurements for 
operational and research environmental satellites. The robustness of 
the traceability, as established through the quality of the prelaunch 
and onboard calibration and extent of validation against ground, air, 
and other satellite sensors, determines measurement accuracy and 
confidence in this claimed measurement accuracy. Satellite sensors that 
target the lowest measurement uncertainties require the most extensive 
effort at prelaunch and onboard calibration and post-launch validation. 
In making conclusions about a climatic trend from a set of satellite 
measurements, i.e., from a satellite data record, scientists consider 
the robustness of the SI traceability, which varies with satellite 
sensor and type of measurement made.
    Scientists recognize the advantages for strengthening the SI-
traceability of some satellite climate measurements. The recognition 
has led NASA to consider the Climate Absolute Radiance and Refractivity 
Observation (CLARREO) satellite mission in its Decadal Mission 
planning. CLARREO's mission includes the establishment of benchmark SI-
traceable climate measurements with extremely low uncertainties.

Q3.  In your testimony you indicate that some emission quantification 
systems, such as continuous monitoring of geographical areas are 
currently not available. Do you have any estimate on when such 
monitoring capabilities could be possible?

A3. Continuous monitoring of geographical areas poses significant 
emissions quantification challenges that are driven by the range of 
source and sink types and spatial scales found in most geographical 
areas. Both industry and federal, state and local government agencies 
will be involved. Some, but not all, of the emissions quantification 
tools are available to the industrial community that must use them for 
emission inventory determination. The initial attempts to achieve area 
and regional emission quantification may not meet the requirements that 
may be set in potential future regulatory programs. However, putting 
the mechanisms in place for area or regional emissions quantifications 
should be started early in such an ambitious program to better 
identify:

        <bullet>  Improvements to the accuracy of the wide range of 
        measurement technologies used in emissions quantification;

        <bullet>  Refinements to the methodologies used to develop the 
        total emission profile for both individual areas and for the 
        range of areas found in the U.S.; and

        <bullet>  Practical metrics by which to evaluate area and 
        regional emission profiles and to judge the performance of the 
        monitoring program for the U.S.

    A successful continuous monitoring program will require the 
coordination of efforts by all parties involved, including those who 
own the sources or sinks in an area, federal, state and local 
governmental agencies, the global monitoring community (e.g., World 
Meteorological Organization, the NOAA global network with tall towers 
and aircraft profiles, NASA remote sensing), and those concerned with 
ensuring that emissions measurements perform with sufficient accuracy. 
The committee should consider the need to complete the development of 
an area emission quantification system profile in the first 3 to 5 
years of any program which required it.

    Questions from Representative Pete Olson

Q1.  If the Cap-and-Trade legislation were to pass and go into effect, 
would we be capable of ensuring accurate and fair monitoring of 
greenhouse gas emissions from individuals and businesses? If not, 
wouldn't monitoring and enforcement be possible?

A1. If a cap-and-trade program for greenhouse gas emissions is enacted, 
NIST's capabilities focused on measurement accuracy, in cooperation 
with the work of other federal agencies, would enable accurate 
emissions determinations that promote reliable monitoring and 
verification of emissions at covered facilities. Furthermore, NIST 
efforts to ensure accurate quantification of emissions from multiple 
sources (such as coal combustion for electricity generation, process-
related emissions from industrial facilities, and refining operations 
for vehicle fuels) would contribute to market confidence in the 
quantities of traded emission allowances.
    NIST already has some experience in this role through its 
involvement in the Acid Rain Program, which was enacted as part of the 
1990 Clean Air Act and includes a cap-and-trade program to reduce 
sulfur dioxide emissions from electrical power generation plants. To 
support the ability of the electrical power generation sector to comply 
with new environmental regulations, NIST, working with the specialty 
gas industry, established, in collaboration with the EPA, the NIST-
Traceable Reference Materials (NTRM) program to supply industry with 
accurate gas-mixture reference standards necessary to calibrate 
pollution monitoring equipment. The NTRM program has been instrumental 
to the success of the Acid Rain program.

Q2.  How confident are you in the quality of the measurement standards 
established in developing countries such as China and India?

A2. The National Institute of Standards and Technology (NIST), as well 
as the National Measurement Institutes (NMIs) of both the Peoples 
Republic of China (NIM-National Institute of Measurements) and India 
(NPLI-National Physical Laboratory of India) are members of the 
International Committee of Weights and Measures (CIPM), which helps to 
ensure the world-wide uniformity of measurements and standards through 
their traceability to the International System of Units (SI). 
Participation of these NMIs in CIPM-sponsored comparisons of national 
measurement standards, as well as NMIsponsored round robins, helps to 
promote the quality and consistency of measurement standards throughout 
the world.

Q3.  Could National Measurement Institutes in other countries be 
subjected to political pressures to falsify measurement data or 
standards to produce better outcomes?

A3. The integrity of climate measurements is critical to the success of 
any new environmental policies and regulations that are enacted. The 
primary method of ensuring the integrity and comparability of climate 
measurements from around the world is to require traceability to the 
International System of Units (SI). Traceability requires the 
establishment of an unbroken chain of comparisons to stated references 
that are agreed to through the International Committee of Weights and 
Measures (CIPM). The National Institute of Standards and Technology 
(NIST), as well as National Measurement Institutes (NMIs) from 53 
countries, are members of the CIPM and work together to improve the 
accuracy and comparability of measurements and standards through 
SItraceability. Falsification of measurement data and standards would 
most likely be detected by a number of NMIs through key CIPM-sponsored 
measurement comparisons. The results and levels of comparability 
established through these rigorous comparison procedures are publically 
available on the CIPM website.
                   Answers to Post-Hearing Questions
Responses by Dr. Albert J. Heber, Professor, Agricultural and 
        Biological Engineering Department, Purdue University 

Questions submitted by Representative Ralph M. Hall

Q1.  You state that emissions from animal feeding operations cannot be 
directly measured but can only be estimated or calculated through other 
measurements. Such estimations are a source of uncertainty in the 
monitoring results. How would these uncertainties affect the ability of 
these farms to comply with a mandatory reduction policy?

A1. I stated that while direct on-farm measurements are difficult and 
costly, they are needed to validate scientific emission models, and 
they allow us to test mitigation strategies. For example, direct 
measurements were made in the National Air Emission Monitoring Study 
and the data is being used to develop and validate process-based 
emission models.
    Direct measurements, like all measurements, have an associated 
uncertainty as clearly explained by Dr. Gallagher in his testimony. 
Higher uncertainties can limit the ability of the farms to comply with 
mandatory reduction policies, but the uncertainties of direct 
measurements of emissions at confined animal feeding operations are 
reasonable.

Q2.  Many people look to forestry and agriculture as potential sources 
of carbon credits. Planting trees, switching to no-till farming 
practices and other projects are seen as a low-hanging fruit for 
greenhouse gas reductions. If you are unable to take direct 
measurements, how are these reductions verified? What would this mean 
in terms of generating off-set credits in a mandatory. regulatory 
regime?

A2. As indicated above, direct measurements can be conducted at 
livestock farms, but they are relatively expensive.

Q3.  Dr. Gallagher's testimony emphasizes the importance of 
measurements science research to ensuring the accuracy and 
comparability of quantitative measurements of climate change data. With 
respect to measurement confidence, what is the quality of the data that 
we currently collect? Are our sensors and data collection systems 
backed by the necessary measurement science noted by Dr. Gallagher? If 
not, how do scientists quantify and account for the lack of confidence 
in their data when reporting results?

A3. The measurements conducted by the National Air Emissions Monitoring 
Study were governed by an EPA-approved Quality Assurance Project Plan 
which included NIST traceability. Scientists can determine the 
uncertainty of their measurements and this is being done for the 
national study.

                                   

</pre></body></html>
